<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-742]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-742
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2009 

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                            SECOND SESSION

                                   on

                           H.R. 2771/S. 1686

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
      YEAR ENDING SEPTEMBER 30, 2008, AND FOR OTHER PURPOSES deg.

                               __________

             Architect of the Capitol (except House items)
                    Government Accountability Office
                       Government Printing Office
                          Library of Congress
                          Office of Compliance
                      United States Capitol Police
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

41-263 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                 MARY L. LANDRIEU, Louisiana, Chairman
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
  (ex officio)                         (ex officio)
                           Professional Staff
                             Nancy Olkewicz
                    Carolyn E. Apostolou (Minority)
                        Sarah Wilson (Minority)

                         Administrative Support

                              Teri Curtin


























                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Wednesday, April 30, 2008

Architect of the Capitol.........................................     1
United States Capitol Police.....................................    15
Library of Congress..............................................    25

              Material Submitted Subsequent to the Hearing

U.S. Senate:
    Office of the Secretary......................................    79
    Sergeant at Arms and Doorkeeper..............................   140
Government Accountability Office.................................   162
Government Printing Office.......................................   171
Office of Compliance.............................................   182
  


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 30, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Alexander, and Allard.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN T. AYERS, ACTING ARCHITECT OF THE 
            CAPITOL


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good afternoon. Our subcommittee will 
come to order.
    We meet today to take testimony on the fiscal year 2009 
budget requests for the Architect of the Capitol (AOC), the 
U.S. Capitol Police, and the Library of Congress.
    I want to welcome my good friend, Senator Lamar Alexander, 
now our new ranking member of the subcommittee, along with 
Senator Allard, the former chairman and ranking member of our 
subcommittee, and to thank Senator Allard again for his 
outstanding work in those capacities in the previous years. I 
look forward to working very closely with Senator Alexander as 
we have on several other subcommittees.
    The legislative branch budget request is a total of $4.7 
billion. This is an increase of nearly $700 million, or a 17.4 
percent increase over the current year.
    Last year the subcommittee received an overall increase of 
only 3 percent. So as you can imagine, a 17 percent budget 
request will make it very difficult. Part of the goal of this 
hearing is to establish some potential priorities and to allow 
you to explain the request before us. We will need to look very 
closely at this.
    I want to welcome our witnesses today, our Acting Architect 
of the Capitol, Stephen Ayers; Chief of the Capitol Police, 
Phillip Morse; and Librarian of Congress, James Billington.
    Stephen, I would like to begin by commending you for a job 
well done taking over as Acting Architect of the Capitol nearly 
15 months ago.
    We in the Senate are grateful for your leadership and 
steadfast commitment to the many issues that face us in the 
Capitol complex, especially our Capitol Visitor Center (CVC) as 
it comes on line. I look forward to hearing an update from you 
on this extraordinary facility. Since our last meeting, dozens 
of Senators and House Members have had a chance to tour the 
facility. Their general reactions have been very enthusiastic.


          <greek-l>aoc deg.aoc fiscal year 2009 budget request


    The fiscal year 2009 budget request for your office totals 
$643 million, an increase of $228 million, or 55 percent. You 
explained this to me earlier this week and I am looking forward 
to your explaining it here. This is an enormous increase, 
perhaps justified, and that is part of what this hearing will 
be about because I know there are a number of maintenance 
projects, health and safety violations that need to be 
corrected, but we will have to work very closely see what is 
possible.
    I understand that most of what is pushing this is a $1.4 
billion backlog of deferred maintenance and capital improvement 
projects, including many critical life safety projects in our 
complex. There are a large number of items in your request that 
contribute significantly to this increase, such as $127 million 
for ongoing repair work in the utility tunnels, which are quite 
extensive, that connect and lay under many of the buildings in 
the Capitol complex. This is a project of critical importance 
to our complex and, of course, to the safety of our workers. 
With a commitment to the Office of Compliance to complete this 
project totaling nearly $300 million in the next 5 years, I 
realize that this puts some constrictions on your budget.
    Finally, before I move ahead, I would like to extend my 
personal gratitude to your entire staff for their hard work in 
maintaining our Capitol complex on a daily basis. You have a 
very dedicated workforce and I appreciate it.


 <greek-l>aoc deg.united states capital police fiscal year 2009 budget 
                                request


    Chief Morse, welcome. I want to commend you for a job well 
done over the last 18 months. The pressures on your police 
force have been exceptional during this time of uncertainty, 
and the men and women who put their lives on the line each day 
are to be commended.
    I also want to thank you for sharing the story with me, in 
my office, about your officers showing up on a day they did not 
have to to protect our complex, and I hope to share the details 
of that story so people can really appreciate all that you do. 
I also want to welcome your Assistant Chief, Dan Nichols, and 
your recently hired Chief Administrative Officer, Gloria 
Jarmon.
    Your budget request totals $334 million. This is an 18 
percent increase over current year. I realize the challenges 
your Department will face with the opening of the Capitol 
Visitor Center, the Library's New Visitor Experience, and the 
merging of the Library of Congress police department with 
yours. We will have some questions about that a little later.


  <greek-l>aoc deg.library of congress fiscal year 2009 budget request


    And last, let me welcome our Librarian, Dr. James 
Billington. It is always good to see you. I want to 
congratulate you on the opening of the New Visitor Experience. 
I had family from Louisiana visiting just last week and they 
thoroughly enjoyed seeing the refurbishment of the Thomas 
Jefferson Library. I understand this was done primarily with 
private contributions, but with the great oversight of the 
Library. It truly is a gift to the Nation that the project 
turned out so beautifully, and I cannot wait to see it myself.
    The Library's budget request totals $646 million, 5 percent 
above current year. I commend you and your staff for submitting 
a budget that is in line with what is normally done. It makes 
our jobs a little bit easier.
    I want to acknowledge your continuing commitment to the 
digital talking book project, which is also a priority of mine. 
Many people here in the room today are advocates for the 
extension and expansion of that project, and I want to 
recognize them.


           <greek-l>aoc deg.library partnership appreciation


    I would also like to express my appreciation to you and the 
Library for your partnership with several of our universities 
around the country through Teaching with Primary Sources, and 
in particular, Southeastern University in Louisiana. It has 
been a great opportunity for them, as well as the resource 
established with the Middle Tennessee University and several 
others around the country.
    Finally, I would like to acknowledge your position as 
chairman of the Board of Trustees of the Open World Leadership 
Center, an independent international exchange program in the 
legislative branch. The subcommittee accepts for the record 
that written testimony of the Center's executive director who 
is here with us, Ambassador John O'Keefe, on the Center's 2009 
budget request of $13.9 million.
    Open World does a wonderful job in representing Congress 
and hosting young political and civic leaders from the 
countries of the former Soviet Union in communities in all 50 
States and building lasting partnerships between United States 
citizens and Open World delegates. I fully support this mission 
and its inclusion in our legislative branch.
    I would now like to turn to my ranking member and friend, 
Senator Alexander, for his opening remarks, and then we will 
proceed with your testimony and a series of questions from our 
panel. Thank you very much.


                  statement of senator lamar alexander


    Senator Alexander. Thank you, Madam Chairman. I look 
forward to working with you. This is my first meeting as 
ranking member of the subcommittee, although Chairman Landrieu 
and I have worked together on a lot of other things over the 
last several years. I look forward to continuing this.
    I also want to say to Senator Allard that I respect very 
much the amount of time and interest he has given to this 
subcommittee, especially to the Capitol Visitor Center. As time 
has gone on, he has dedicated an unusual amount of time to it, 
and I think it has had a very good result for the people of 
this country. It is not the kind of time that makes a lot of 
headlines at home, but it is the kind that does a lot of good 
for all of us. So I thank him very much for that.
    I think the chairman has done a nice job of going through 
the issues.
    Dr. Billington, Chief Morse, Mr. Ayers, welcome. I can 
remember when I was on your side of the table a few years ago, 
I was the Education Secretary and I came to my first hearing, 
and I noticed that I was seated in an uncomfortable chair that 
was very low, and all the Senators were way up here making it 
look like you were looking up at us. I remember being briefed 
for what was supposed to be called a hearing, and I went to it 
and barely got to say a thing. I came home and told my staff I 
think it should be called a talking because the Senators did 
all the talking, and I did not get to say a thing.
    So I am going to say I agree with the survey of issues that 
Chairman Landrieu has talked about. I am looking forward, as 
she is and Senator Allard, to the opening of the Capitol 
Visitor Center.


         <greek-l>aoc deg.utility tunnels--structural problems


    I would like to hear more about the structural problems in 
the utility tunnels in the Capitol complex and the large 
backlog of deferred maintenance and capital improvement 
projects. I have asked the Government Accountability Office 
(GAO) to study the way projects are being prioritized in the 
budget. Just because the Office of Compliance says something 
needs to be done does not necessarily mean, in my opinion, that 
it should go to the top of the list, and I would like to hear 
how you prioritize these things, given the urgency of a great 
many issues.
    The Capitol Police have a lot of new responsibilities and 
will have more, and I am looking forward to hearing how you are 
handling those. I am concerned about the overtime in the 
budget. I hope sometime during this discussion you can help me 
understand a little bit more why we have the large amount of 
overtime.


           <greek-l>loc deg.library of congress new exhibits


    Dr. Billington, the new exhibits in the Library of Congress 
are very exciting, and your imagination and that of your staff 
and your accommodation to all who visit there is really to be 
commended. I know how important your work with computers is, 
bringing what is inside that magnificent place to teachers and 
students all over the country. As we discussed, Middle 
Tennessee State University, which graduates about 80 percent of 
Tennessee teachers, is now going to have a chance to do that. 
We look forward to that.
    I thank you for coming. I look forward to this hearing. I 
will have some questions, and I look forward to working with 
you.
    Thank you very much, Madam Chairman.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    Chairman Landrieu, this is my first hearing as ranking member of 
the Legislative Branch Subcommittee and I look forward to working with 
you to meet the most important needs of the Legislative Branch. Clearly 
the budget request of $4.7 billion for fiscal year 2009--a 17 percent 
increase--will be very difficult to accommodate, so I'd like to get a 
clear picture of the highest priorities in each of the agencies.
    I would like to welcome Acting Architect of the Capitol Stephen 
Ayers. Mr. Ayers, I understand you have been ``acting'' as the head of 
the agency for over a year and have done a fine job.
    There is quite a lot on your plate: finishing the Capitol Visitor 
Center and finalizing operations plans so when the facility opens later 
this year, visitors can expect a first-rate experience. While 
construction is 99 percent complete, I understand that fire alarm 
testing has been very challenging and will take several more months.
    I note that in the last year you hired a new director for the 
Visitor Center, Terrie Rouse, who has been working hard on operations 
plans and has hired a number of key staff.
    Another major project underway is fixing the structural problems 
and asbestos in the utility tunnels that underlie the Capitol complex. 
I understand it will take many years and hundreds of millions of 
dollars to complete.
    Also, you have been working on plans to address the large backlog 
of deferred maintenance and capital improvement projects campuswide. At 
the same time these high-priority projects are taking place, your staff 
must ensure that day-to-day operations of your agency are carried out 
effectively.
    That said, your budget request of $642 million--a 55 percent 
increase--will be a tough sell in view of budget constraints. This is 
why I've asked GAO to study the way projects are prioritized in your 
budget--to be sure the dollars we appropriate are going to those 
projects which can yield the biggest improvements in safety and 
reductions to deferred maintenance.
    After hearing from the AOC, I look forward to hearing from Capitol 
Police Chief Phil Morse. Chief Morse, along with his Assistant Chief 
Dan Nichols, has been doing an excellent job managing the U.S. Capitol 
Police in the last year, while attempting to address many critical 
operational and management challenges.
    The budget request for the Capitol Police is almost $334 million, 
$52 million or 18 percent above this year's budget. There are a number 
of new responsibilities the Capitol Police will be required to take on 
next year, including screening thousands of visitors each day to the 
Capitol Visitor Center, and absorbing the Library of Congress police 
force.
    We want to be sure you are managing your resources appropriately, 
according to a thorough analysis of the threats we face. You've taken a 
step in the right direction in the recent hiring of Gloria Jarmon as 
Chief Administrative Officer, and I expect she will help bring about 
improvements in financial management over the next year.
    I'm concerned about the amount in your budget for overtime 
spending, and want to be sure we look at this requirement very closely.
    Last, we will hear from Dr. James Billington, Librarian of 
Congress, accompanied by the Library's Chief Operating Officer JoAnn 
Jenkins. The Library's budget request of $646 million is 5 percent over 
the current year.
    Dr. Billington, you and your staff deserve accolades for the 
exciting new exhibits the Library has opened in the last couple of 
months, funded through the generous contributions of private donors. 
These exhibits are a great opportunity for visitors to learn about 
American history and the creation of our democratic form of Government.
    I also want to thank you for the initiative you will be starting at 
Middle Tennessee State University to train teachers on using the 
Library of Congress' web site in their teaching curricula. This 
program, called Teaching with Primary Sources, has been tremendously 
successful in a number of States and we're delighted that it is coming 
to Tennessee.
    Finally, I appreciate that in this tight budget you were able to 
include $12.5 million for the Digital Talking Books for the blind 
program. It is imperative that you make the switch from cassette tapes 
to a digital format so that the blind community can continue to benefit 
from the Library's resources.
    Thank you, Madam Chair.

    Senator Landrieu. Senator Allard, do you have any opening 
comments?
    Senator Allard. Madam Chairman, I do not have any comments. 
I am anxious to hear from the witnesses that we have here. I 
just want to thank both you and Senator Alexander for your 
gracious remarks. Thank you very much.
    Senator Landrieu. Thank you.
    Mr. Ayers, if you would begin. Thank you.

                   SUMMARY STATEMENT OF STEPHEN AYERS

    Mr. Ayers. Thank you, Madam Chairman, Senator Alexander, 
and Senator Allard, for the opportunity to testify today 
regarding the Architect of the Capitol's fiscal year 2009 
budget request. It was nearly 15 months ago, as you noted, that 
I began serving as Acting Architect and a little more than 1 
year ago that I first testified before this subcommittee on our 
budget, operations, and accomplishments.
    This budget represents change for the AOC. It represents a 
change in leadership and a change in direction. It represents 
change from a reactive organization to one that looks forward, 
plans, and takes action to anticipate problems.
    It has also been a year of growth for us. Specifically, we 
have seen our scope of responsibility grow from 15 million 
square feet of buildings to 16.5 million square feet and from 
370 acres of land to over 450 acres. With that additional 
responsibility comes added cost for maintenance, staff, 
utilities, and physical security.
    At the same time, the historic buildings and other physical 
infrastructure in our care continue to age.
    In addition, as fire and life safety standards have become 
more stringent since the buildings were constructed, we face 
significant requirements from the Office of Compliance to 
improve fire safety conditions throughout the complex. We are 
committed to ensuring that deficiencies are corrected and 
significant resources are devoted to protecting the people who 
work in and visit the Capitol complex each day.

             <greek-l>AOC deg.DEFERRED MAINTENANCE BACKLOG

    As the chairman noted, we have a backlog of more than $600 
million in deferred maintenance and $800 million in capital 
renewal projects. As the AOC continues to be unable to fund 
these projects, this bow wave of unfunded requirements 
continues to grow. We have developed this budget through a 
deliberate planning process and it reflects only the highest 
priority initiatives and funding for our core activities. We 
made some difficult choices, and we have not requested funding 
for a long list of projects, additional staffing, and several 
operational initiatives and resources.
    While we obviously recognize this is a significant request 
at a time when fiscal restraint is necessary, we believe that 
without this important investment, these facilities will 
continue to deteriorate. It is fiscally responsible to request 
the budget needed now instead of waiting until facilities are 
in a crisis or beyond repair, thereby costing millions more to 
restore, renovate, or renew. If not addressed, facility 
requirements will only grow more serious and expensive over 
time. Therefore, we are requesting $643 million in our fiscal 
year 2009 budget.

               <greek-l>AOC deg.OPERATING BUDGET REQUEST

    Our annual operating budget request of $385 million 
provides for funding for operating and maintaining the 
infrastructure that supports the Congress, as well as the AOC's 
internal infrastructure needs.
    The second component of our 2009 budget request is $258 
million for capital projects. Chief among our responsibilities 
is maintaining, preserving, and upgrading the national 
treasures entrusted to our care. Determining which work is done 
first and where our limited resources are used involves a 
deliberate approach and multi-year planning. Our primary focus 
is on ensuring that fire and life safety deficiencies are 
corrected as quickly as possible.
    Madam Chairman, I noted earlier that the past year has been 
one of significant achievement for the AOC, in addition to 
seeing the substantial completion of the Capitol Visitor 
Center. Some of our other accomplishments include adding the 
Library of Congress' new Audio Visual Conservation Center to 
our inventory; signing into effect our first collective 
bargaining agreement with AFSCME Local 626; completing office 
moves for the 110th Congress, including 21 Senate offices and 
840 Senate staffer moves; and closing 68 of 98 open items from 
the Office of Compliance.
    In addition, we closed 48 of 65 GAO's general management 
recommendations aimed at improving our organization, and we 
received our fifth clean audit opinion on our financial 
statements.
    Internally, we continue to foster a results-oriented 
workplace and encourage communication throughout our team. I am 
pleased to report that a direct result of our efforts is a 
decrease in our injury and illness rate; it has reduced for the 
eighth year in a row.
    Madam Chairman, we greatly appreciate this subcommittee's 
support and the investment the Congress has made in our 
facilities and infrastructure over the past several years. 
However, as these buildings age, they will require significant 
repairs, renovations, and upgrades to continue to be safe and 
healthy working environments. This will require a significant 
investment.

             <greek-l>AOC deg.ARCHITECT OF THE CAPITOL TEAM

    AOC has accomplished much and experienced numerous 
successes. These achievements can be directly attributed to the 
dedicated professional individuals making up our team. Because 
of their efforts and commitment to excellence, we continue to 
provide exceptional service to the Congress and visiting 
public.

                           PREPARED STATEMENT

    Once again, thank you for the opportunity to testify today, 
and I am happy to answer any questions you may have.
    Senator Landrieu. Thank you. We are going to hold our 
questions until the end of the panel.
    [The statement follows:]
                 Prepared Statement of Stephen T. Ayers
    Madam Chairman, Senator Alexander, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Office of 
the Architect of the Capitol's (AOC's) fiscal year 2009 budget request. 
It was nearly 15 months ago that I began serving as Acting Architect of 
the Capitol, and a little more than a year ago that I first testified 
before this subcommittee about the AOC, our budget, our operations, and 
our accomplishments.
    We have seen much change and growth in our Agency, and we have 
experienced many accomplishments and achievements. Specifically, we 
have seen our scope of responsibility grow from 15 million square feet 
of buildings to 16.5 million square feet of facilities, and from 370 
acres of land to more than 450 acres. With that additional 
responsibility comes added cost for maintenance, staff, utilities, and 
physical security.
    At the same time, the historic buildings and other physical 
infrastructure in our care continue to age. They require extensive 
maintenance in order to preserve them, as well as ensure that they 
continue to serve as functioning, professional working environments for 
years to come. Our buildings range in age from 27 years old for the 
Library's Madison Building, to more than 200 years old for parts of the 
Capitol Building. This year we are celebrating the 100th anniversary of 
the Cannon House Office Building, and next year will be the 100th 
anniversary of the Russell Senate Office Building.
    As fire and life-safety requirements and standards have become more 
stringent since the buildings were constructed, we face significant 
requirements to abate Office of Compliance citations, and improve fire 
safety conditions throughout the complex. We are committed to ensuring 
that deficiencies are corrected and significant resources are devoted 
to protecting the people who work and visit here. Life-safety projects, 
such as the utility tunnel repair program, are very high priorities.
    Based on Facility Condition Assessments (FCAs) that have been 
conducted throughout the Capitol complex since 2004, we have been 
prioritizing projects based on a set of objective criteria. The FCAs 
indicate a backlog of more than $600 million in Deferred Maintenance 
and $800 million in Capital Renewal projects, with $900 million of the 
total $1.4 billion being urgent or high priority. As the AOC continues 
to be unable to fund Deferred Maintenance, Capital Renewal, and new 
projects and initiatives, the ``bow wave'' of unfunded requirements 
continues to grow, as demonstrated in the following table.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We have developed this budget through a deliberate planning 
process, and it reflects only the highest priority initiatives and 
funding for our core activities. We made some difficult choices in our 
efforts to be good stewards of the Capitol complex. We have not 
requested funding for a long list of projects, additional staffing, and 
several operational initiatives and resources.
    While we recognize this is a significant request at a time when 
fiscal restraint is necessary, we believe that without this important 
investment Capitol complex facilities will continue to deteriorate. It 
is fiscally responsible to request the funding needed now instead of 
waiting until facilities are in crisis and beyond repair, thereby 
costing millions more to restore, renovate, and renew.
    If not addressed, facility requirements will only grow more serious 
and expensive over time. Thus, we are requesting $642.7 million for 
fiscal year 2009. This is more than $228 million greater than what was 
appropriated to our Agency in fiscal year 2008, or a 55 percent 
increase.
    A large portion of that increase, however, is for our Utility 
Tunnel Improvement Program. In order to meet the 5-year schedule as per 
the agreement with the Office of Compliance signed last spring, we have 
requested $126.6 million for the Utility Tunnel Improvement Program in 
fiscal year 2009. Without the Tunnel Improvement Program request, our 
budget request would be 24.5 percent over what was appropriated in 
fiscal year 2008.
    Madam Chairman, we look forward to working with this subcommittee, 
the House Subcommittee on Legislative Branch, and our Oversight 
Committees to address the backlog of maintenance and repair projects, 
as well as find ways to improve and modernize Capitol complex 
facilities, so that a crisis situation is averted.
                    annual operating budget request
    Our fiscal year 2009 annual operating budget request for $384.4 
million provides funding for continuing the routine activities of 
operating and maintaining the infrastructure that supports the 
Congress, other Legislative Branch Agencies, and the public, as well as 
AOC internal infrastructure needs in information management systems and 
operations. The increase of $48.1 million is driven primarily by the 
upfront investment requirement to meet legislated energy usage 
decreases; as well as fund the initial full-year operations of the 
Capitol Visitor Center (CVC).
    To date, the appropriation for the CVC has provided funding for the 
construction of the CVC and minimal operational start-up costs and 
facility maintenance. Beginning in fiscal year 2009, this appropriation 
will need to fund full-time, annual CVC operations and administration, 
as well as potential construction claims. In addition to salaries, 
equipment, and supplies, our fiscal year 2009 request will provide 
funding for the printing of informational brochures, educational public 
programs, exhibits, training, and other programs associated with the 
opening of the new facility.
    We are also looking to increase our investment in information 
technology (IT) in fiscal year 2009 to ensure a sustainable life-cycle 
replacement and upgrade program. Over the past 4 years, the AOC has not 
been able to replace or upgrade aging network, storage, server, and 
desktop systems at a rate required to sustain a secure and reliable IT 
infrastructure.
    Many of these systems were last upgraded or replaced in 2002 
following the terror attacks of September 11, 2001, and are now nearing 
or past their expected life span. They have not been replaced due to 
budget shortfalls and restrictions under the continuing resolutions of 
the last few years. Those same shortfalls have also impacted our 
ability to perform the overdue certification and accreditation of our 
IT systems and to implement industry and Government-standard IT 
security capabilities, such as secure remote access and encryption. In 
fiscal year 2009, we will also complete the modernization of our 
computing infrastructure to take advantage of new ``green'' 
virtualization technologies and move to a Microsoft Exchange e-mail 
system, which is the de facto standard throughout the Government.
    In addition, new energy reduction and management initiatives, the 
utility tunnel upgrade projects, and the digitization of our curatorial 
photo archives are significantly increasing costs related to the 
management and storage of our electronic data. We are also working to 
migrate to a Web-based time and attendance system that will integrate 
with our facilities management system to enable more effective cost 
accounting for projects and integrate with the time clocks required 
under our union agreement.
    Finally, we are also continuing to develop and expand the 
capabilities of our automated human resources and financial management 
systems to keep pace with evolving technological and process changes 
and improve efficiency and usability of those systems.
                     capital project budget request
    The second component of our fiscal year 2009 budget request is 
$258.2 million for capital projects. As I discussed earlier, chief 
among our responsibilities is maintaining, preserving, and upgrading 
the national treasures entrusted to our care by Congress. This includes 
the facilities, grounds, art work, and other assets. Determining which 
work is done first and where our limited resources are best used 
involves a deliberate approach and multi-year project planning.
    A vital tool that we rely on during this process is our Facility 
Condition Assessments (FCAs). The AOC has been conducting FCAs 
throughout the Capitol complex since 2004, to help us catalog and 
prioritize projects based on a set of objective criteria that allow us 
to evaluate the merits of each project. FCAs also provide us with a 
method for measuring the current condition of all facilities in a 
uniform way to assess how much work is necessary to maintain or upgrade 
their conditions to acceptable levels to support organizational 
missions, prevent further deterioration, and help to determine when 
this work should occur.
    Once an FCA is completed on each facility, the information is 
rolled into a 5-year Capital Improvement Plan (CIP). The CIP is used to 
evaluate projects based on a set of pre-established criteria. These 
criteria include whether the work addresses fire and life-safety 
issues; code compliance; preservation of historic or legacy elements; 
economics and life cycle cost considerations, physical security and 
other considerations, such as environmental and energy efficiency. The 
projects are further evaluated based on the conditions of the 
facilities and their components, and the urgency in correcting the 
deficiencies.
    We are also developing the Capitol Complex Master Plan (CCMP) which 
requires executing necessary deferred maintenance and renewal work to 
keep existing facilities functioning while planning for major renewal 
projects. The CCMP and individual Jurisdiction Plans seek to address 
these growing problems through a flexible investment strategy 
incorporating reinvestment and new construction. Each Jurisdiction Plan 
is being evaluated to ensure sequencing of short- and long-term 
priority work is properly expedited and aligned to ensure successful 
execution and avoid duplication of efforts. Ultimately, the CCMP will 
establish a framework that will help the Congress to prioritize the 
maintenance, renovation, and construction of facilities over the next 
5, 10, and 20 years while allowing for prudent budgeting of the costs 
for necessary upkeep and construction.
    Using the CIP process, we are able to comparatively vet the 
projects to ensure that the most urgent get addressed most quickly. 
Setting these priorities and setting limits resulted in some projects 
not rising to the top of the list based on the objective criteria used 
as part of the CIP process. It is not that these projects are not 
important. They are all needed and are mission critical, but the 
fiscally responsible thing to do is address the most urgent needs 
first. This multi-step methodology was used to produce the project 
priority list included in our fiscal year 2009 budget request submitted 
for the subcommittee's consideration.
    As in previous budgets, our primary focus is on ensuring that fire 
and life-safety deficiencies are corrected and that significant 
resources are devoted to protecting the people who work and visit the 
Capitol complex. An example of a major life-safety project is the 
Utility Tunnel Improvement Program.
    In May 2007, the AOC and OOC signed a comprehensive settlement of a 
complaint and three citations involving safety in the utility tunnels. 
The AOC will permanently abate safety and health hazards within 5 years 
unless extended by mutual agreement of the parties or necessitated by 
funding shortfalls. Receipt of the $126.6 million requested in fiscal 
year 2009 assures that the AOC remains on schedule to meeting its 
obligations under the settlement agreement with the OOC.
    Other key capital projects included in the AOC's fiscal year 2009 
budget request are: U.S. Capitol Grand Stairs Smoke Control System; 
Smoke Control System--Adams Building; Refurbishment of FOB-8; and 
Various Energy Conservation Studies.
    In addition to these new capital projects, we have nearly completed 
construction of the Capitol Visitor Center project and are preparing to 
open the facility later this year.
        capitol visitor center budget request and project update
    Our fiscal year 2009 budget request for the CVC includes $31 
million to finish the construction phase of the project. Specifically, 
this money will be used to fund delay costs associated with increased 
scope, fire alarm changes, and the final acceptance testing. Last year, 
I testified before this subcommittee that CVC construction was 91 
percent complete. Today, we are 99 percent complete with construction 
and are well underway with the final acceptance testing of the complex 
fire and life-safety systems in the facility.
    In the past year, we made much progress on the project. We worked 
with the Government Accountability Office (GAO) and reached agreement 
on an estimated cost-to-complete figure of $621 million and an opening 
date of November 2008. We also established and met the November 15, 
2007, substantial completion date, effectively stemming project delays 
and associated delay costs, which assured that the complex fire and 
life-safety pre-testing began on schedule on November 16.
    With regard to our progress in completing construction, we are 
working to complete punchlist items such as millwork, wall stone, floor 
stone, ceiling panels, plaster work, carpeting, doors, and other 
finishes. Professional crews have been thoroughly cleaning all of the 
CVC's major public spaces.
    A further indication that we are successfully transitioning from a 
construction project to a visitor services operation is that the 11-
foot model of the Capitol Dome was installed in March, and it is an 
impressive sight to see at the center of Exhibition Hall. Historic 
drawings and sophisticated technology were used to create this unique 
3-D model, and AOC staff ensured that every detail of the model is 
accurate. It is an important part of the CVC experience because it will 
allow children to have a very ``hands-on'' experience at their Nation's 
Capitol.
    Video screens in the Senate and House Virtual Theaters have been 
installed and are being tested. Workers are now installing the 10-foot 
wooden doors on the east side of the Rotunda. The Capitol 
Superintendent's Office has initiated relocation coordination meetings 
with future occupants, and has begun to identify its equipment and 
inventory needs to fully support maintenance operations.
    Outside, the East Front is taking on a much greener appearance with 
the warmer weather and the ongoing landscape restoration work being 
done. All of the construction trailers have been removed and crews have 
been preparing the grounds for sod placement and plantings.
    The sidewalk along First Street, NE., across from the Supreme Court 
Building, has been restored. The CVC truck entrance which had been 
located there since 2002 has been completely dismantled and the area 
has been restored.
    We are pleased with the overall progress, and we believe that we're 
on schedule to receive the temporary Certificate of Occupancy by July 
31, 2008, as planned, and that the CVC will be available to open in 
November 2008.
    Madam Chairman, as you know, the CVC has been designed to greatly 
enhance the visitor experience by providing greater educational 
opportunities and much-needed amenities to the millions of people who 
visit their Capitol Building each year. It is designed to match the 
Capitol in quality and endurance, and generations of Americans will 
greatly benefit from all it has to offer.
    In that regard, I am pleased to note that the CVC was recently 
recognized by the Washington Building Congress. Specifically, the 
project was singled out for 11 Craftsmanship Awards for the high-
quality, professional workmanship demonstrated throughout the facility 
by individuals who are ``creative, precise, and possess the special 
skills associated with quality craftsmanship.''
    The features that were recognized with Craftsmanship Awards include 
the six skylights which allow natural light into the CVC; the custom 
light fixtures located throughout the CVC and Expansion Spaces that 
complement the existing fixtures in the Capitol Building; the 
installation of major hard scape features such as stairs and seat 
walls, as well as the re-installation of historic elements such as 
fountains and lanterns on the East Front; and the installation of 
monumental interior wall stone and marble, and ornamental staircases, 
doors, and other hardware. Technical skills of the teams responsible 
for electrical and fire alarm systems installation, and plaster work 
were also honored.
    In addition to the 11 Craftsmanship Awards, several of the winners 
were extended additional honors with the receipt of the ``Star Award'' 
for projects deserving of special recognition for demonstrating the 
highest level of quality. The CVC project was recognized for visual 
excellence and technical excellence, and the project also received the 
Hall of Fame award for the masonry work done throughout the facility. 
For the Washington Building Congress to recognize the CVC for its 
superb craftsmanship and quality is a true honor. The fine team that 
has worked on this project can take great pride in their role in 
helping to complete the largest single expansion of the Capitol 
Building.
    On the operations front, we hired a Chief Executive Officer for 
Visitor Services in September 2007 to join the AOC/CVC team, Ms. Terrie 
Rouse. She, in turn, has begun hiring staff to prepare for the CVC's 
opening to the public. In addition, she has been developing a 
communications plan which focuses on executing an effective and 
valuable public education campaign about the CVC and all it has to 
offer. We have also been working on a transportation plan, as well as 
on the exhibits and other informational materials in anticipation of 
the opening later this year.
                     a year of aoc accomplishments
    Madam Chairman, as I discussed earlier, the past year has been one 
of significant achievement for the AOC in addition to seeing 
substantial completion of the CVC. I would like to sum up my testimony 
by listing a few of our many accomplishments.
  --Added the Library of Congress' new 415,000 square-foot National 
        Audio Visual Conservation Center located on the Packard Campus 
        in Culpeper, Virginia, to our facilities inventory.
  --Signed into effect a Collective Bargaining Agreement with the 
        American Federation of State, County, and Municipal Employees 
        (AFSCME) Local 626, representing approximately 500 laborers, 
        custodians, gardeners, and other workers in the House and 
        Senate Office Buildings, U.S. Capitol, and the U.S. Botanic 
        Garden.
  --Completed office moves for the 110th Congress, including 21 Senate 
        Offices and 840 Senate staffer moves with a 96 percent 
        satisfaction rating, and 181 House Offices and 20 House 
        Committees with a customer satisfaction level of 96 percent.
  --Completed the purchase of the Senate Mail Facility.
  --Completed the start-up, personnel training, and initial operation 
        of the Capitol Power Plant's West Refrigeration Plant 
        Expansion.
  --Closed 68 of 98 items from the 39 Office of Compliance citations, 
        as of April 2008, and we have submitted a request to close six 
        additional items.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    In addition, after working with the Government Accountability 
Office to regroup and consolidate some recommendations, we closed 48 
out of 65, or 74 percent, of the GAO's general management 
recommendations that we are tracking. Many of the remaining actions are 
larger, long-term efforts, and we continue to focus on moving them 
forward.
    In October 2006, we implemented our new fiscal year 2007-fiscal 
year 2011 Strategic and Performance Plan which emphasizes our mission 
areas and enabling services and focuses on results. In order to comply 
with the spirit and intent of the Government Performance and Results 
Act (GPRA), the AOC submits to Congress a Strategic Plan for program 
activities in accordance with the guidelines under Section 306 
(Strategic plans) of the GPRA. The AOC consults with its employees and 
the Congress, and solicits and considers the views and suggestions of 
those entities potentially affected by or interested in such a plan.
    AOC employees also prepared an annual performance plan in 
accordance with the GPRA. The annual performance plan establishes 
objective, quantifiable, and measurable performance goals for each 
activity. In addition, we submit an annual report on performance for 
the previous fiscal year in the performance section of the AOC 
Performance and Accountability Report, in accordance with the GPRA. 
Using these important tools, we have continued to improve our cost 
accounting procedures and internal controls. The results have been 
significant. We have just received our fifth consecutive clean audit 
opinion on our financial statements.
    Over the past year we have also been working to create a healthy 
and productive work environment where environmental awareness and 
conservation are the normal ways of doing business in the Capitol 
complex. There are a number of initiatives that the AOC has been 
engaged in for several years, and we continue to see results in our 
efforts to improve energy efficiency.
    Some of our energy-saving initiatives include:
  --Installing an E-85 fueling station.
  --Replacing conventional incandescent light bulbs with compact 
        fluorescent lamps (CFLs) across the Capitol complex.
  --Incorporating standards from the Leadership in Energy and 
        Environmental Design (LEED) Green Building Rating System into 
        our design standards to start new construction from a ``green'' 
        baseline. The Capitol Visitor Center is a prime example of this 
        practice.
  --Replacing old, inefficient windows with airtight, insulated ones in 
        buildings across the Capitol complex, including the Supreme 
        Court and the Ford House Office Building.
  --Purchasing and leasing only Energy Star appliances and equipment.
  --Using Energy Savings Performance Contracting to increase building 
        energy efficiencies and upgrade infrastructure.
  --Installing modern heating/cooling systems and adjusting and 
        controlling HVAC schedules.
  --Upgrading elevators and escalators with energy-efficient solid 
        state equipment, including high-efficiency motors.
  --Installing restroom fixture motion sensors and additional low-flow 
        devices for water conservation.
  --Implementing a pilot program to upgrade controls on heating, 
        ventilating and air conditioning (HVAC) terminal units in 
        Senate offices and committee rooms to reduce energy usage while 
        increasing comfort levels.
  --Implemented a pilot program to install dimmable lighting ballast 
        systems with daylight and occupancy sensors in overhead 
        lighting to maintain consistent lighting levels in Senate 
        offices. A similar pilot is ongoing in the Capitol Building.
  --Installing occupancy sensor light switches for offices, conference 
        rooms, and committee rooms upon request.
    Internally, we continue to foster a results-oriented workplace and 
encourage communication and teamwork throughout the Agency. This 
involves holding regular staff or shop meetings, conducting biannual 
town hall meetings with all AOC employees, and providing a variety of 
training opportunities.
    I am pleased to report that a direct result of our efforts is a 
decrease in our Injury and Illness Rate for the eighth year in a row. 
We dropped to 4.41 cases per 100 employees in fiscal year 2007, down 
from 4.88 in fiscal year 2006, and significantly lower from a high of 
17.9 in fiscal year 2000.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In addition, we are institutionalizing best practices throughout 
the organization. We have joined the Construction Users Roundtable 
(CURT), Construction Industry Institute (CII), Construction Managers 
Association of America (CMAA), and Building Owners and Management 
Association (BOMA), and several other professional associations, to 
learn about industry best practices and find ways to incorporate and 
engage those practices into our Agency. We have developed extensive 
core competencies in our procurement, financial management, and project 
management organizations and have seen our efforts pay off over the 
past year.
    Most importantly, we have improved our delivery of services to our 
clients as demonstrated by our annual Building Services Customer 
Satisfaction Surveys. In fiscal year 2007, we received high marks from 
our clients--more than 95 percent satisfaction--on areas such as 
maintenance and cleaning standards, services provided by AOC shops, and 
responsiveness.
                               conclusion
    Madam Chairman, we greatly appreciate this subcommittee's support 
and the investment Congress has made in our facilities and 
infrastructure over the past several years. However, as these buildings 
age, they will require significant repairs, renovations, and upgrades 
to continue to be safe and healthy working environments for Senators 
and their staffs. This will require a significant investment.
    My goal is to begin reducing the backlog of Deferred Maintenance 
and Capital Renewal work that has been identified over the past several 
years through Facility Condition Assessments, and address the ``bow 
wave'' of unfunded requirements that has continued to grow for our 
Agency.
    We are committed to working with Congress to address the backlog of 
maintenance and repair projects, as well as improve and modernize 
Capitol complex facilities, so that a crisis situation is averted. The 
longer we wait to address these issues, the greater the cost will be to 
fix the problems over time.
    The AOC is committed to being good stewards of the Capitol complex, 
and in that regard, over the past year; we have accomplished much and 
experienced numerous successes. These achievements can be directly 
attributed to the dedicated, professional individuals that make up the 
AOC team; including a strong senior leadership team. In my role as 
Acting Architect, I am honored and privileged to work along side them. 
Because of their efforts and commitment to excellence, we continue to 
provide exceptional service to Congress and the visiting public.
    Once again, thank you for this opportunity to testify today. I'd be 
happy to answer any questions you might have.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, SR., CHIEF OF POLICE
ACCOMPANIED BY:
        DAN NICHOLS, ASSISTANT CHIEF OF POLICE
        GLORIA JARMON, CHIEF ADMINISTRATIVE OFFICER

    Senator Landrieu. Chief Morse, if you could limit your 
remarks to 5 minutes, please.
    Mr. Morse. Good afternoon, Madam Chairman and Senator 
Alexander, Senator Allard. I would like to thank you for the 
opportunity to discuss with you today the United States Capitol 
Police's fiscal year 2009 budget request, as well as provide an 
update on our progress to improve management and controls over 
our programs.
    I am pleased to be joined here today with my Assistant 
Chief of Police, Dan Nichols, and my new Chief Administrative 
Officer (CAO), Gloria Jarmon. The addition of Ms. Jarmon's 
background and expertise provides the department with a well-
rounded leadership team necessary to complete our efforts to 
become a premier organization, both operationally and 
administratively.

                 <greek-l>CPB deg.SUBCOMMITTEE SUPPORT

    I would also like to thank the subcommittee for its 
continued support of the men and women of the United States 
Capitol Police. Your support, as well as the support from other 
oversight committees, is crucial to our successful execution of 
our mission.

                   <greek-l>CPB deg.PROCESS OF CHANGE

    During my time as Chief of Police, we have begun an 
important process of change, one which will require inspection, 
investigation, intelligence, enforcement, threat assessment, 
and personal protection capabilities to be able to meet the 
security requirements. I recognize that our requested increase 
is significant, but I believe it is an appropriate reflection 
of sound judgment on the part of those responsible for 
executing the mission of the United States Capitol Police.
    We realize that our request must be put into a broader 
context within the final allocation decisions that must be 
made. Whatever those decisions are, we remain committed to 
continuing the highest possible level of security and services 
provided to the Congress and the visitors to the Capitol 
complex.

                <greek-l>CPB deg.RECENT ACCOMPLISHMENTS

    I would like to report that we have been very busy this 
last year. Among the highlights--we conducted a broad scope of 
law enforcement and security operations which resulted in the 
arrests of over 1,100 people for various violations of the law. 
We handled multiple major special events, to include the State 
of the Union, Capitol concert series, large scale 
demonstrations, and congressional events. We adopted a concept 
similar to community policing which provides direct outreach by 
our officers and officials to committees and Members' offices 
within the congressional community. We implemented new security 
screening guidelines throughout the Capitol complex. We 
planned, coordinated, and evaluated a number of exercises 
within the Capitol related to air evacuations, lockdowns, and 
active shooter response. We finalized our continuity of 
operations plan and implemented a process for review and 
enhancement of that plan to meet evolving threats and 
requirements. We conducted multiple training exercises across 
the Capitol complex to improve readiness for our sworn 
personnel in the field.
    In the administrative arena, we brought on board a new 
Chief Administrative Officer, and I am looking to her to 
implement significant improvements in our administrative and 
internal control processes.
    In addition to filling our CAO position, we have made some 
additional progress in this area as well, and I would also like 
to welcome with us today our new Director of Financial 
Management, Mr. Steve Houghton, who is sitting in the audience.

   <greek-l>CPB deg.GOVERNMENT ACCOUNTABILITY OFFICE RECOMMENDATIONS

    In last year's report, the subcommittee expressed concerns 
related to the department's efforts to address GAO 
recommendations. Today, I am happy to report that since October 
2007, we have closed 33 percent of the GAO recommendations and 
are actively working to address the rest of them. We have 
developed a full set of financial statements for 2007 and are 
actively working on statements for 2008. We have completed a 
full inventory of our capital assets and assigned values to 
these assets. We redesigned our budget planning and execution 
process to include formalizing the department's Investment 
Review Board, and at the direction of the committees of 
jurisdiction, we completed an operational and administrative 
requirements analysis related to the merger of the Library of 
Congress police, and this resulted in the passage of 
legislation. We have revised the uniform and equipment policy 
of the Capitol Police that will result in uniformity of 
appearance and overall cost savings. And while we recognize 
that we have made progress over the year, we also realize we 
have a long way to go to meet the challenges that lie ahead.

           <greek-l>CPB deg.EMPLOYEE COMMITMENT AND HOMEWORK

    In closing, I would like to say that I am looking forward 
to continuing my efforts as the Chief of Police to make the 
Capitol Police a best practices organization. The progress that 
we have made in the last year demonstrates the commitment and 
hard work of our employees. We will continue to see gradual 
results and a constant evolution into the premier organization 
I believe we should be. And I am committed to continuing to 
keep you and other stakeholders informed and will insist on 
continued transparency and openness both internally and with 
our external customers and stakeholders.

                           PREPARED STATEMENT

    I would like to submit my full written testimony for the 
record, and my colleagues and I are prepared to answer any 
questions that you may have. Thank you.
    Senator Landrieu. Thank you very much, Chief.
    [The statement follows:]
              Prepared Statement of Phillip D. Morse, Sr.
    Madam Chair and members of the committee, thank you for the 
opportunity to appear before you today to discuss the United States 
Capitol Police fiscal year 2009 budget request, as well as provide an 
update on our progress to improve management and controls over our 
programs. I am pleased to be joined here by my Assistant Chief of 
Police, Daniel Nichols, and my Chief Administrative Officer, Gloria 
Jarmon. As you know, Ms. Jarmon recently joined the Capitol Police from 
the Government Accountability Office. Her background and expertise 
provides the Department with the well-rounded leadership team necessary 
to complete our efforts to become a premiere organization, both 
operationally and administratively.
    I would also like to thank the committee for its continued support 
for the men and women of the United States Capitol Police. Your 
support, as well as the support from our other oversight committees, is 
crucial to the successful execution of our mission.
    It has been a little over a year since I was selected to be the 
Chief of the United States Capitol Police. During this time the 
Department has undergone many cultural, operational, and management 
changes. These changes are part of a larger process to modernize the 
Department for mission capability and efficiency, while enhancing our 
ability to protect the Congress. I welcome this opportunity to provide 
you with an overview of the Department's fiscal year 2009 budget 
request, as well as an update on our successes to improve our 
management practices and internal controls thus far.
    As in any organization, teamwork, and leadership are essential 
qualities of a well-managed security and law enforcement operation. It 
is through this teamwork and leadership that the USCP has been able to 
achieve many successes over the last year. I would like to recognize 
the hard work of all of the sworn and civilian personnel of the United 
States Capitol Police who exhibit their leadership and dedication to 
teamwork in meeting our mission every day. Each day of the year without 
exception, these dedicated individuals, with the support of the Capitol 
Police Board and the Congress, ensure the safety of the Members, staff, 
and millions of visitors from across the globe who come to see 
democracy at work.
    The Department accomplishes its mission through a variety of 
functions to provide round-the-clock protection to the Congress and the 
legislative process. In an effort to leverage and maximize technology 
as well as maintain efficiency and effectiveness in security 
operations, the Department has made significant investment in our human 
capital and infrastructure. We also provide high-quality training to 
our recruits, officers, and staff. To manage our infrastructure 
requirements, we have augmented our physical security as well as 
countersurveillance capabilities, automated antiquated security and 
administrative support systems, enhanced our detection and response 
capabilities for explosive and hazardous materials, maintained a state-
of-the-art command center and sustained continued, uninterrupted 
operations of our incident command and emergency notification and 
response systems.
    The complexity of these operations and infrastructure requires the 
USCP to take a realistic approach towards identifying risks, and 
resource requirements to meet them, while eliminating lower priority 
operations and investment proposals for new departmental initiatives to 
insure the prudent use of critical resources.
    In our fiscal year 2009 budget submission, the Department is 
requesting your consideration of its request for personnel costs of 
$269.2 million and general expense costs of $64.4 million. This budget 
request of $333.6 million represents an increase of $51.8 million, 
which is nearly 18 percent over the amounts for fiscal year 2008 at the 
enacted level of funding. As stewards of public resources and a 
Department benchmarking itself against rising standards of success, we 
are keenly aware of our increasingly lean resource environment. In 
developing the fiscal year 2009 budget submission, our main priority 
was to address the most critical threats, risks, and vulnerabilities to 
congressional security and several initiatives directed by the 
Congress, as well as addressing the administrative areas that pose a 
risk of fraud, waste and abuse. The Department's fiscal year 2009 
budget request focuses 81 percent of requested resources on Assessment, 
Prevention and Response, while 19 percent is focused on support 
activities for the overall mission.
    It is important to note the reasons for the increase in the 
Department's fiscal year 2009 budget request, as many of the items 
included in this increase are not within the control of the Department. 
Within these items is an increase of 6.1 percent of the nearly 18 
percent increase related to the opening of the Capitol Visitor Center, 
the implementation of the Library of Congress Police Merger, security 
for the Architect of the Capitol's Tunnel Project and security for the 
Library of Congress New Visitor Experience. Also included in the 
overall increase is an increase of 1.1 percent related to security for 
the upcoming Presidential Inauguration, as well as a nearly 1 percent 
increase in the USCP Office of the Inspector General. In addition, 3.4 
percent of the budget increase is related to the annualization of 
fiscal year 2008 costs and the Department's annual cost of living 
allowance.
    The remaining 6.4 percent of the nearly 18 percent increase are 
items, which reflect the Department's priorities and initiatives. Of 
these items, is a $1.6 million request for reconsideration of several 
new civilian positions, which were requested in the fiscal year 2008 
budget request, but for which funding was not available within the 
fiscal year appropriation to support new FTE. The remaining items are 
salaries, to include overtime, and general expenses related to the 
initiatives developed under our new Force Development Process, as well 
as a select few of my priorities for the Department.
    The Department is requesting an increase in sworn and civilian 
personnel in fiscal year 2009, to include:
  --121 sworn FTE, which include sworn personnel in the following 
        areas:
    --87 related to the Library of Congress Police Merger;
    --10 related to the Capitol Visitor Center, to include utilization 
            of the tunnels for staff-led tours, as well as funding for 
            the 21 sworn FTE authorized in fiscal year 2008;
    --11 related to the Library of Congress New Visitor Experience; and
    --13 related to the Protective Services Bureau's Intelligence 
            Capabilities Business Case.
  --38 civilian FTE, which are intended to support the following areas:
    --4 related to the Office of Financial Management to support budget 
            and accounting activities;
    --4 related to the Library of Congress civilian support personnel 
            for police operations;
    --3 related to the Protective Services Bureau's Intelligence 
            Capabilities Business Case;
    --8 related to the Office of Information Systems to support the new 
            Radio project, and the closure of GAO and Inspector General 
            recommendations and findings;
    --9 related to the Security Services Bureau to support security and 
            technical program execution and related technology 
            upgrades;
    --5 related to the Training Services Bureau to support training 
            coordination department-wide;
    --2 related to the Office of Human Resources to support a diversity 
            program and the closure of GAO and Inspector General 
            recommendations and findings related to workforce planning;
    --1 related to the Office of Facilities and Logistics to support 
            workplace safety programs;
    --1 related to the Office of General Counsel to support evolving 
            legal coordination and mission support; and
    --1 related to the Office of the Chief Administrative Officer to 
            support administrative oversight and management.
  --Additionally, our Inspector General is requesting an increase of 6 
        civilian FTE including a dedicated legal counsel and additional 
        auditors and investigators.
    The increases referenced will raise the Department's authorized and 
funded sworn personnel level from 1,702 to 1,823 FTE and civilian 
personnel from 414 to 458 FTE. This is an overall increase in personnel 
from 2,116 to 2,281 FTE for the Department.
    The Department is also requesting an increase of $15.6 million in 
general expenses over its fiscal year 2008 appropriated funding levels. 
This increase includes:
  --$4.1 million for the Office of Information Systems to support 
        lifecycle replacement costs for existing systems and to support 
        increases in ongoing contracts.
  --$5.4 million for the Security Services Bureau to support lifecycle 
        replacement costs for existing systems and to support increases 
        in ongoing contracts.
  --$1.2 million for the Office of Facilities and Logistics to support 
        the LOC Police merger and other new sworn positions, to support 
        the Presidential Inauguration, and to support increases in 
        ongoing contracts.
  --$1.9 million for the Training Services Bureau to support the 
        training requirements for the LOC Police merger and other new 
        sworn personnel, as well as the operation of the Practical 
        Application Center.
  --$200,000 for the Protective Services Bureau to support the 
        Intelligence Capabilities Business Case from our Force 
        Development Process.
  --$900,000 for the Office of Plans, Operations and Homeland Security 
        to support a study of our Command Center requirements, 
        increases to the Security Camera Operators contract, and 
        various costs associated with the Presidential Inauguration.
  --$1.1 million for the Office of Human Resources to support increased 
        costs related to sworn applicant testing and background 
        investigations; and
  --$800,000 for the Uniformed Services Bureau, the Operational 
        Services Bureau and other organizational elements in support of 
        training activities, the Presidential Inauguration, and 
        increased fuel costs.
    I recognize that our requested increase is significant, but I 
believe that it is an appropriate reflection of sound judgment on the 
part of those responsible for executing the mission of the Department. 
We expect to refine our budget process further in upcoming years and 
hope that this will help us realize efficiencies, which we can 
incorporate into future budget estimates. However, we felt it was 
important to present to the Congress the resources that in our best 
judgment are needed to optimally execute our mission in fiscal year 
2009.
    We realize that our request must be put into a broader context 
within which final allocation decisions must be made. Whatever, those 
decisions are, we remain committed to continuing the highest possible 
level of security and service provided to the Congress and the visitors 
to the Capitol complex.
    The Department considers maintaining our onboard workforce and the 
completion of the Library of Congress Police Merger to be within the 
top 5 percent of our priorities. Among the remaining top 10 percent of 
our priorities are the CVC security, security operations for the 
Presidential Inauguration, and the lifecycle replacement of our 
critical systems, as well as the increased cost of current security 
contracts, sworn post scheduling, critical training programs, and 
funding for sworn applicant testing and backgrounds to meet attrition 
and new mission requirements.
    Of primary concern to achieving our operational and administrative 
goals are the potential impacts resulting from a lengthy continuing 
resolution in fiscal year 2009. With the upcoming opening of the 
Capitol Visitor Center, the Presidential Inauguration, the State of the 
Union, the Library of Congress (LOC) Police merger, the LOC New Visitor 
Experience and the security requirements for the AoC Tunnel Project, as 
well as maintaining normal post requirements, the Department's salaries 
and general expense resource requirements under a continuing resolution 
(CR) will exceed our expected CR allocation. Therefore, the Department 
is preparing a Continuing Resolution Impact Statement to provide the 
committees with information on the potential impacts, as we know them 
today. In addition, we will continue to work closely with your staff to 
clearly define our resource needs in the event of a CR.
    In an effort to improve overall effectiveness, we have focused on a 
number of areas, beginning with overtime management. In fiscal year 
2007, the Department concentrated heavily on the efficient utilization 
of our overtime allocation within our salary appropriation, as well as 
ways to effectively control the Department's utilization of this 
resource. Based on current mission requirements, the current number of 
on-board sworn personnel is not sufficient to meet all of the 
identified mission needs. Therefore, USCP sworn personnel must be 
utilized to work overtime to meet these resource requirements. Last 
year, through a process of load leveling sworn personnel across the 
Department, constant analysis, and the reduction of low risk posts, we 
were able to reduce our projected overtime requirements of $24.7 
million by close to $3 million. Yet, we still had to utilize over $22 
million in order to meet our basic mission requirement. With the 
upcoming openings of new areas of the Library of Congress, the Capitol 
Visitor Center, the implementation of the Library of Congress Police 
merger and the anticipated presence of special events and protests in 
and around the Capitol, we know that we must continue the use of 
overtime to meet the Department's mission. However, we believe that by 
continuing to utilize our established overtime allocation and tracking 
process, we will be able to ensure that we are utilizing overtime in an 
efficient and effective manner, balanced against the Department's need 
to request additional sworn personnel to fill identified mission 
activities related to normal post requirements.
    As such, the Department is requesting consideration for overtime 
funding in fiscal year 2009 at $30.5 million, which is an increase of 
$4.1 million over the enacted fiscal year 2008 funding level of $26.4 
million for overtime within our salary appropriation. Included in this 
request is $21.7 million in overtime to address normal post 
requirements; $900,000 to support the security requirements for the AOC 
Tunnel Project; $1.1 million related to supporting additional posts 
requirements for the Library of Congress New Visitor Experience until 
sworn personnel are authorized, recruited, hired, trained, and 
deployed; $4.9 million to support security operations for the Capitol 
Visitor Center, to include backfill for additional sworn personnel 
until the positions are recruited, hired, trained, and deployed; and 
$1.9 million to cover the 2009 Presidential Inauguration post 
requirements.
    Another area of focus is in the area of human capital resource 
requirements. In the last few months, the Department received the final 
report from its contractor, Enlightened Leadership Solutions, which 
provides a detailed analysis of operational processes and the required 
manpower necessary to carry out each component of these processes. This 
Manpower Study, along with the Department's Strategic Plan, the Force 
Development Process, the annual Environmental Assessment Process, and 
our soon to be published Strategic Human Capital Plan, will be utilized 
by the Department in future years to develop and enhance a single, 
long-term vision and related resource requirements. Our wish is for 
this vision to be a guide for us in everything we do from this point 
forward, as well as provide an indicator to you of our plan, process 
and progress. The goal of this entire effort is to create a set of 
clear targets to define our plan, budget and performance measurements 
for the next 10 years.
    Previously, the USCP Concept of Operations (ConOps) dealt mostly 
with security at the entrances of congressional buildings and the 
Capitol grounds. The current situation in the world posed by terrorism 
and other threats has required us to develop a ConOps that stretches 
our capabilities beyond stopping a threat before it can get through the 
door. We utilize intelligence provided by our partners throughout the 
Federal Government to remain constantly vigilant of threats, so we can 
stop them long before they come within striking distance of the Capitol 
Complex and Members of Congress. Through the Manpower Study analysis, 
we have determined an immediate need to further develop this capability 
in fiscal year 2008 through some staffing realignments and in fiscal 
year 2009-2010 through a request for an increase in authorized sworn 
and civilian personnel to support this counter-intelligence effort.
    With an aging infrastructure, the limitation of current facilities 
and the quickly changing technology surrounding law enforcement, the 
Department is faced with a communications challenge. This challenge 
will require us to invest in a new radio system. We are grateful for 
the resources and support we have been given by Congress in this area 
to date. We recently received a cost analysis from our contractor based 
on a comprehensive requirements survey for our new radio system. We 
plan to provide this analysis to the committees following our internal 
validation of the data.
    Regardless of the approach we take in the future, our facilities 
are not designed and built to handle a modern operation, and may not be 
capable of handling the necessary infrastructure for this purpose. To 
that end, we are working with the Architect of the Capitol to develop a 
comprehensive facilities requirement, which will accompany our radio 
system resource requirements request to the Congress.
    In order to ensure that the Department had credible and supportable 
costing data before requesting additional support from the Congress, we 
did not include a request for funding for the new radio system in our 
fiscal year 2009 budget submission, as this supportable data was not 
available at the time of the submission deadline. Now that this data is 
available, the Department would like to initiate discussions with the 
Congress regarding the most appropriate venue to pursue this critical 
funding.
    During fiscal year 2007, the Department affected over 1,100 
arrests, which range from robbery to driving while intoxicated to 
disorderly conduct to traffic offenses. In the first 5 months of fiscal 
year 2008, the Department affected over 340 arrests ranging from 
larceny to driving while intoxicated to traffic offenses. In addition, 
the Department conducted over 65,000 K-9 sweeps during the same 5-month 
period.
    In an effort to better engage our stakeholders in the mission of 
the Department, we have adopted a concept similar to ``Community 
Policing'', which provides direct outreach by USCP officers and 
officials to committees and Member offices within the congressional 
community. Over the last year, the Department has focused on this 
effort with positive response from our stakeholders by visiting every 
congressional office as a part of this outreach. Through this proactive 
communication process, the Department is better able to keep the 
congressional community abreast of security and safety issues of 
importance. Last month, we began our theft protection outreach efforts 
with Member offices and will continue this effort throughout the summer 
months.
    Additionally, to better plan and execute security for special 
events and demonstrations, the Department has focused its efforts to 
ensure a holistic event plan is developed, to include staffing and 
resource requirements, as well as roles and responsibilities. Further, 
the Department has implemented an after action reporting process to 
capture issues and achievements from each event to be used for 
corrective actions, future planning and training purposes.
    During the high-volume months when visits to the Capitol complex 
are at their height, the Uniformed Services Bureau is making specific 
efforts to expedite visitors through security screening checkpoints. A 
contributor to our success in this area is the Department's new 
security screening guidelines. So far, we have trained over 600 
officers, officials and security aides, to include all sergeants and 
lieutenants. These new security-screening guidelines standardize this 
process, so that officers are more consistent with their screening 
applications and more proficient in the detection of prohibited and 
unlawful items. Since the training was implemented, there have been 
some significant weapon seizures, to include the detection of a cane 
with a sword concealed inside and a switchblade knife in a backpack. 
Both of these detections resulted in arrests.
    Further, we have planned, coordinated and evaluated 15 exercises 
within the Capitol related to air evacuations, lockdowns, and active 
shooter, which simulates a person with a weapon within Capitol Complex 
structures. We have also conducted 60 training exercises across the 
Capitol Complex to improve readiness for sworn personnel in the field.
    In addition, the Department has recently finalized its initial plan 
on continuity of operations to ensure its readiness to support the 
Congress in the event that the legislative process must be relocated. 
This will serve as a living document for the Department, upon which we 
will continue to enhance our preparedness and readiness efforts. 
Further, the Department has focused efforts to ensure the readiness of 
our personnel to address short-term limited evacuations from buildings 
or the interruption of activities, so the Department has the ability to 
perform its mission.
    These are just a few of the operational activities that the 
Department has undertaken in an effort to enhance its management 
infrastructure. But, just as critical are the mission support functions 
in our administrative area.
    As we develop these synchronized systems and improve the overall 
planning and mission capability of the Department, we are also working 
toward developing and implementing best financial management and 
internal controls practices within our organizational elements. We have 
taken on several positive steps in this area, and most recently have 
worked towards the ability to produce a full set of auditable Federal 
financial statements.
    I am pleased to report that we have shown some progress in meeting 
this goal. The Department completed a full inventory of our capital 
assets, and assigned values to these assets. This effort led to the 
completion of a full set of Federal financial statements for the fiscal 
year that ended on September 30, 2007. We know that our financial 
statements require further refinement and improvement. We are committed 
to continuing these efforts over the next several years under the 
guidance of our CAO, with a goal to achieve a clean opinion on the 
financial statements for the fiscal year ending September 30, 2010. We 
also know that even with a clean opinion, we will have to continue to 
address audit findings in this area until we achieve a best practices 
financial management operation.
    We have also taken steps to identify and address critical staffing 
requirements within our Office of Financial Management, to include the 
areas of management, budget, procurement, and accounting. Without 
filling these key positions, I am concerned that we will not be able 
meet our goals to correct the recommendations and findings in this 
area. I am pleased to report that over the last 8 weeks, the Department 
has advertised all current vacancies within OFM, and we have selected a 
Director for the Office of Financial Management, a Procurement Officer, 
a Budget Officer, and a Procurement Analyst, as well as finalized the 
hiring of an accountant and a contracting officer, who have both 
already started working for us. We hope to have selections made and the 
requests for appointment forwarded to the Capitol Police Board and 
authorizing committees soon for the Deputy Director for the Office of 
Financial Management and the Budget Analyst.
    I am also pleased with our efforts to redesign our budget planning 
and execution process, with the approval and assistance of the 
Appropriation Committees, as a part of our new Force Development 
Process. We have provided for the first time a budget submission, which 
we believe demonstrates the resource requirements of the Department, 
defines our methodology for making these resource requests and 
demonstrates how the Department is utilizing the resources provided to 
it by the Congress.
    During my tenure, the Department has focused on instutionalizing my 
vision of ``Rising to the Challenge,'' and we have set the bar very 
high for our officials and staff in an effort to make the USCP better 
able to meet our mission and enable every sworn and civilian employee 
to take more pride in the organization.
    We began instituting the ``Rising to the Challenge'' vision by 
tackling goals that are as simple as officers' consistently looking 
professional and alert on post; or as complex as developing a standard 
and repeatable planning process for the Department that utilizes a 
comprehensive series of assessments and investment decisions. We have 
also worked to instill the common values of consistent practices, goal 
setting and commitment to the overall mission throughout every level of 
the Department.
    To ensure our success, we have worked to enhance communication and 
transparency, in order to keep all employees better informed on the 
workings of the Department, and the expectations of leaders and 
stakeholders. We have increased accountability down through all levels 
of management, so that the senior leaders can count on the front line 
supervisors to run the day-to-day operations, while we make a concerted 
effort at the statutory and Executive Management Team levels to map out 
the long-term strategic initiatives for the Department.
    Some key outcomes of my vision in 2007 were the successful 
completion of the Department's Force Development Process for the fiscal 
year 2009 budget development and submission, as well as the development 
of a formal process to track and address recommendations from the OIG 
and GAO.
    Force Development incorporates the principles of threat based 
planning into our Concept of Operations (ConOps), investment decisions 
and resource requests and allocations. This standardized business 
approach is based on the concepts of consistent planning, budget 
formulation, execution and performance evaluation, in the spirit of the 
Government Performance and Results Act (GPRA.) Force Development sets 
timetables and accountability for planning resource requirements, based 
on security risks and threats, as well as a higher level of 
accountability.
    Many of the components of the Force Development Process were 
already in place at the Department. We have simply designed a process 
flow that sets a consistent time table, integrates risk and other 
assessments into the formal process, links activities into one 
consistent and unified process, and adds a new level of performance 
tracking and reporting.
    I am also pleased with the intensive analysis that we have 
conducted in order to develop a small number of specific investment 
proposals for the fiscal year 2009 budget submission using a five-step 
process. Lead Agents, which were members of our Senior Management Team 
and program managers, developed detailed business cases for specific 
investment proposals that where designed to meet the most critical 
needs identified by the Department's annual environmental assessment. 
We utilized an internal costing group made up of representatives from 
the operational bureaus and administrative support areas of the 
Department, to define accurate resource requirements for each 
investment. We incorporated analysis panels of Senior Management Team 
members to meet with the Lead Agents to challenge their business cases 
and more clearly define the needs of the Department and develop 
recommendations for our Investment Review Board (IRB), which is 
comprised of members of the Department's Executive Management Team.
    Finally, the IRB met to discuss each business case proposal and ask 
questions of the Lead Agents to further validate and refine the 
requirement. Following the IRB meetings, we conducted an online rating 
and ranking process which delivered to me a comprehensive analysis of 
the IRB rating, ranking, and comments for each investment proposal. 
This analysis allowed me to make my final decision for the proposals 
considered for inclusion in our budget.
    The second outcome from my vision is the Department's efforts to 
address its management challenges. As you know, the Department 
struggled for several years to address the recommendations of the 
Government Accountability Office (GAO) and the Department's independent 
auditors. One of my first directives to the Executive Management Team 
was to embrace and implement the recommendations provided by the GAO 
and the USCP's Office of the Inspector General, which included the 
recommendations of our auditors.
    My goal was to use these recommendations as a roadmap for the 
Department's overall organizational improvement. The recommendations 
have provided the Department with an opportunity to implement a myriad 
of administrative and operational changes to create a well-managed 
organization, prevent the risk of waste, fraud, and abuse, and ensure 
the successful execution of our mission.
    As a first step toward meeting this goal, we established an Audit 
Liaison to coordinate the tracking and reporting of all open 
recommendations with the Executive Management Team. We implemented a 
directive, which establishes a formal audit resolution process, and is 
based on the examples provided through policies and best practices 
followed in other Government agencies. In addition, the Directive 
established a process of developing action plans to deal with each open 
recommendation and ensure accountability from all levels of USCP 
employees responsible for their resolution and closure.
    Today, I am pleased to report that the Department has made 
significant progress in addressing these recommendations and findings 
since October 2007. Since the beginning of the fiscal year, we have 
closed over 30 of the 118 remaining recommendations and findings, 
leaving open a total of 80 recommendations and findings to resolve. Of 
those closed, 8 recommendations were in the financial management area. 
The remaining closed items were in the human capital, asset management, 
information systems, strategic management, operations, and overall 
management and internal controls areas.
    Over the last year, we have:
  --Developed and submitted for audit a full set of financial 
        statements.
  --Developed and implemented a standardized and repeatable process to 
        ensure compliance with reprogramming requirements concerning 
        appropriated funds.
  --Implemented actions to monitor our purchase, travel, and fleet card 
        programs and the expenditures made under these programs.
  --Implemented a standardized process for addressing procurement 
        workloads to avoid backlogs.
  --Formalized the Department's Investment Review Board process and 
        provided training for its members.
  --Established a formalized process for responding to and resolving 
        recommendations and audit findings.
  --Institutionalized our semi-annual reporting to the Capitol Police 
        Board and our oversight committees.
  --Finalized our Continuity of Operations Plan and implemented a 
        process for review and enhancement of the plan to meet evolving 
        threats and requirements.
  --Finalized, submitted, and received approval for the USCP's 
        organizational chart.
  --Revised and implemented the processes and protocols for the use of 
        blocking vehicles.
  --Revised and implemented protocols for the usage of radio 
        frequencies during operational activities.
  --Developed and implemented a formalized process for the review and 
        approval of information technology procurements.
    Additionally, we have developed and are initiating the 
implementation of a strategic human capital plan, to include linkages 
to the Department's strategic plan and vision. This plan will assist 
the Department in addressing the gaps in the number, deployment, and 
alignment of human capital approaches to enable and sustain the 
contributions of critical skills and competencies within our workforce. 
We believe this plan is critical to our ability to hire and retain a 
professional workforce necessary to support the mission of the 
Department.
    Further, we have taken steps to suspend, review, and overhaul 
certain programs to validate that they are operating within the intent 
of Congress and under effective internal controls.
    Some examples of these are:
  --Suspension of the Student Loan Repayment Program in order to revise 
        the overarching directive and procedures governing the program 
        to ensure that the program is being utilized as a recruiting 
        and retention tool, as intended.
  --Suspension of the Specialty Assignment Pay, Fitness Proficiency 
        Pay, and Firearms Proficiency Pay in order to review these 
        discretionary programs for prudent management and oversight.
  --Enhancement of our internal controls program. These efforts have 
        provided a framework for organizational elements to address and 
        resolve audit findings and recommendations.
  --Review of our uniform and weapon inventories. This review resulted 
        in my decision to implement changes to our uniform policy, to 
        include the number and types of uniforms utilized by the 
        Department. My intent is to streamline the uniforms used by the 
        Department and reduce our inventory and long-term uniform 
        expenditures.
  --Review of other support areas such as training, procurement, travel 
        processes, and fleet management to continue progress in 
        addressing management and controls issues.
    In addition to our focus on these operational and administrative 
management activities, we have also been focused on the planning for 
and implementation of several large-scale initiatives, which will be 
impacting the Department within the upcoming year.
    The Department is making plans to provide security to the upcoming 
Democratic and Republican Conventions in August and September 2008, 
respectively. We are currently engaged in various planning efforts and 
site visits leading up to the events.
    As the completion of the Capitol Visitor Center nears, we are 
gearing up for the opening of this facility and to welcome the American 
public with courteous, efficient, and safe security. We are grateful 
for the authorization of an additional 21 sworn FTE in fiscal year 2008 
to support the USCP's CVC operational plan. As you know, we are 
requesting an additional 10 sworn FTE in order to support staff-led 
tours in the congressional office building tunnels. With these 
resources, we will have the tools to implement our operational plan 
consistent with current operating assumptions for the facility.
    In addition, with the recent legislation enacted in January 2008, 
Congress has expressed a timeline for the complete merger of the 
Library of Congress Police into the USCP. We have developed a very 
successful relationship with the Library of Congress (LOC) Police over 
the past few years and have integrated our sworn employees into their 
operations. In fiscal year 2009, we will be integrating the remaining 
LOC sworn personnel into the Department and will be training, 
equipping, and employing them as members of the USCP. Likewise, we will 
be welcoming their civilian employees into our ranks.
    While these are just a few examples of the serious efforts we have 
undertaken to enhance the management and internal controls of the 
United States Capitol Police, as well as implement long-term planning, 
I believe they represent our commitment to meet the challenges raised 
by the Congress and the successful execution of our mission to protect 
and defend the legislative process. Although much work remains to be 
done at the Department in the areas of management, we believe that 
significant progress has been made in implementing systems and 
processes that improve the administrative functions and our ability to 
perform our mission.
    In closing, I would like to say that I am looking forward to 
continuing my efforts as Chief of Police to make the Capitol Police a 
best practices organization. The progress we have made in the last year 
demonstrates the commitment and hard work of the employees of the 
Department. I want to recognize the fact that in many ways we are 
addressing and correcting processes, programs, and a culture that has 
been present for a long time. Everything will not be made perfect all 
at once. However, we will continue to see gradual results and a 
constant evolution into the premier organization I believe we should 
be. I am committed to continuing to keep you and our other stakeholders 
informed, and will insist on continued transparency and openness, both 
internally and with our external customers and stakeholders.
    We at the Capitol Police look forward to working collaboratively 
with the Congress to continue to safeguard the legislative process, 
Members, staff, and visitors to the Capitol Complex. Through this 
collaborative partnership, I believe we will realize our collective 
goal of transforming the United States Capitol Police into a premiere 
law enforcement organization.
    Thank you for the opportunity to appear before you today and the 
committee's continued support of the men and women of the United States 
Capitol Police.
    My colleagues and I are ready to address any questions you may 
have.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY JO ANN JENKINS, CHIEF OPERATING OFFICER

    Senator Landrieu. Dr. Billington.
    Dr. Billington. Madam Chair, Senator Alexander, Senator 
Allard, it is really an honor to be here to present the Library 
of Congress' fiscal year 2009 budget request and to be here 
along with our Chief Operating Officer, Ms. Jo Ann Jenkins, and 
other members of the Executive Committee who are seated behind 
me.
    I thank the Chair for your continuing interest in the 
vision and goals of the Library, for your efforts to focus 
attention on the Veterans History Program, and for the 
opportunity to work with you to bring Southeastern Louisiana 
University into our educational network which helps K through 
12 teachers to make broader use of the Library of Congress' 
collections of digitized primary sources.
    Senator Alexander, we look forward to working with you as 
well on a similar program with Middle Tennessee State 
University, and I thank you for being such a strong and 
thoughtful proponent of American history and civics education, 
which we are trying to advance with our educational programs 
and with the new library experience. So I look forward to 
continuing to work with you both and with all members of the 
subcommittee.
    Senator Allard, we have enjoyed hosting your capital 
conference at the Library these past several years. You will be 
missed. We thank you for your great interest in the Library and 
your support over the years, and when you retire at the end of 
the 110th Congress, we will miss you and wish you the very 
best.
    Madam Chair, we have submitted a very modest budget request 
for fiscal year 2009, based on fiscal year 2008 operating 
levels--levels that were achieved with some painful cuts in the 
Library's budget. We have limited ourselves to request funding 
only to meet mandatory pay raises and unavoidable price level 
increases, to sustain basic current services, and to rescue 
from the brink of collapse the unique program that the Congress 
mandated and funded in 2001 for preserving the growing volume 
of important information and knowledge that is produced only in 
highly impermanent digital form.

       <greek-l>LOC deg.COLLECTING AND PRESERVING DIGITAL CONTENT

    The fiscal year 2007 rescission of $47 million from the 
National Digital Information Infrastructure and Preservation 
Program resulted in a total loss to the program of $84 million 
when you add in the matching amount that the partners would 
have provided. We have requested $6 million in fiscal year 2009 
and have provided a 5-year plan for keeping this program alive. 
I will submit the plan with my testimony. Collecting and 
preserving ephemeral digital content is increasingly important 
for serving the information needs of the Congress--and for 
validating our new way of doing business, by sharing ongoing 
costs and expertise with a trusted network of vetted partners--
in Louisiana, Tennessee, Illinois, Nebraska, and other States.
    We have had to accept that our long planned roll-out of the 
transition to a digital format for talking books and playback 
machines will be prolonged from 4 to 6 years.
    Madam Chair, the Congress of the United States has been the 
greatest patron of a library in the history of the world. The 
Congress can be proud of the record of acquiring and 
preserving, even in difficult financial periods, the largest 
and most varied collection anywhere of the world's knowledge 
and of this Nation's creativity.

           <greek-l>LOC deg.AUSTERITY AFFECTS LIBRARY MISSION

    We respect the Congress' understandable desire for 
austerity in this year's budget request, and its authority to 
limit and redirect funds within the Library's appropriations. 
But I feel obligated to say that if we are stretched much 
further, we may soon reach a breaking point from which it will 
be difficult to return, particularly if we have to cut deeper 
into basic Library programs as we have had to do recently. For 
instance, we had to absorb roughly $16 million in mandated 
cost-of-living increases in fiscal years 2007 and 2008.
    We now have about 1,000 fewer staff to do far more work 
than was done 20 years ago when I became Librarian and before 
we began the Herculean task of superimposing a digital library 
and services on top of a traditional analog library. About 
three-quarters of the staff reductions have been in library 
services, endangering vital core missions. We are stretching 
out the useful life of the technological infrastructure of the 
Library. But we are reaching a dangerous point and we cannot 
and should not put in jeopardy the important role that the 
Library plays in the information infrastructure of America in 
this information age.

                <greek-l>LOC deg.NEW VISITORS EXPERIENCE

    Despite these challenges, this is a time of great promise 
for the Library--as we continue using digital technology to 
transform the way we do our work and deliver our services to 
the Congress and the Nation in all areas of the Library.
    Relying largely on private philanthropy and in-kind 
donations, our outstanding, dedicated staff has already begun 
transforming the public spaces of the Jefferson Building into 
an interactive learning center for the greatly increased number 
of visitors who will be coming to the Library when the Capitol 
Visitor Center opens. David McCullough said at the opening of 
our new digitally enhanced exhibit of the priceless original 
documents involved in the creation of the United States--and I 
am quoting David McCullough--``I saw yesterday an exhibition 
which every American ought to see: `Creating the U.S.'. If 
visitors to this, our capital city, whether they're from our 
own country or from abroad, were to see only one exhibition, 
one building, one place during their visit, seeing `Creating 
the U.S.' would be the one to see.''
    We are also bringing into full operation the magnificent 
new National Audio Visual Conservation Center created with the 
support and funding of the Congress and the unprecedented gift 
of more than $150 million plus expert guidance from David 
Woodley Packard and the Packard Humanities Institute. And we 
will begin putting on line, with the support of UNESCO and 
other national libraries, an educational World Digital Library 
of primary documents of other cultures that will be accessible 
in seven languages.

             <greek-l>LOC deg.STRATEGIC INFORMATION RESERVE

    Madam Chair, we recognize that difficult choices will 
continue to have to be made during this time of extraordinary 
budget constraints. But this Library is an essential part of 
our knowledge-based democracy. The Library collects, preserves, 
and makes accessible free of charge both here on Capitol Hill 
and everywhere else on the Internet important materials in 
languages and in formats that no one else does. We are in many 
ways a key part of our Nation's strategic information reserve. 
The small 2 percent increase for programs in our budget request 
directly affects that strategic reserve. This Library has never 
been more important for the economic, security, and civic 
health of America than now in this information age and in the 
midst of the digital revolution, the most profound change in 
recent history in the mode of communication, as well as the 
generation of human knowledge.

                          PREPARED STATEMENTS

    I ask for your support for our modest funding request for 
fiscal year 2009, and we look forward to working with the 
subcommittee to craft a budget for fiscal year 2010 that can 
ensure for the future the Library's historic mission of serving 
the Congress and the Nation in these challenging and changing 
but, at the same time, promising times. Thank you very much. I 
will be very pleased to answer any questions.
    Senator Landrieu. Thank you, Dr. Billington.
    [The statements follow:]
               Prepared Statement of Dr. James Billington
    Madam Chair, Senator Alexander, and other members of the 
subcommittee: It is an honor to be here to present the Library of 
Congress fiscal 2009 budget request. Madam Chair, I thank you for your 
continuing interest in the vision and goals of the Library. Senator 
Alexander, I want to welcome you to the subcommittee and look forward 
to working with you and all the members of the subcommittee.
    We have submitted a very modest budget request for fiscal 2009, 
based on fiscal 2008 operating levels--levels that were achieved with 
deep and painful cuts to the Library's budget. The Library has 
requested a total fiscal 2009 budget of $645.8 million, representing an 
increase of 5.3 percent over fiscal 2008. With this request, we have 
limited ourselves mainly to asking for funding to meet mandatory pay 
raises and unavoidable price-level increases, and a much smaller amount 
mainly to rescue from the brink of collapse the unique National Digital 
Information and Infrastructure Preservation Program (NDIIPP) that the 
Congress mandated and funded in 2001 for preserving the growing volume 
of valuable information and knowledge produced only in highly 
impermanent digital form.
    The Congress of the United States has been the greatest patron of 
the library in the history of the world. We respect the understandable 
desire of the Congress for austerity in this year's budget request. And 
we respect the Congress's authority to limit and redirect funds within 
the Library's appropriations. But I feel obligated to say that if we 
are stretched much farther, we may soon reach a breaking point. We are 
extending the useful life of the technical infrastructure of the 
Library, but we cannot and should not put in jeopardy this important 
part of the information infrastructure of America in this information 
age.
    This is a time of great promise for the Library. In all areas, 
digital technology is being used to transform the way we do our work 
and deliver services to Congress. Copyright's re-engineering program, 
Library Services' digital acquisitions program, the Office of Strategic 
Initiatives' NDIIPP initiative, the National Library Service for the 
Blind and Physically Handicapped Digital Talking Book program, and the 
Law Library's Global Legal Information Network are but a few examples 
of a broader institutional goal: to add digital content and services on 
top of traditional Library programs. The relatively modest increases we 
are requesting are almost all designed to sustain the progress we have 
been making in the digital transformation of our collections, services, 
and internal procedures. Our digital initiatives are not miscellaneous, 
unrelated activities; they are related pieces in transforming all 
Library functions for the future. The digital transformation will occur 
over several years and will require continuity of congressional 
support. Beginning with our fiscal 2010 request, we will provide 
detailed advanced projections of what we will propose both to add and 
to reduce over the next few years in order to sustain our historic 
mission for the Congress and the Nation at a time of revolutionary 
change in the generation and communication of knowledge.
    The fiscal 2008 appropriation, including the across-the-board 
rescission, resulted in a 0.83 percent increase for the Library of 
Congress over the fiscal 2007 funding level. While total funding for 
fiscal 2008 included a $12.5 million increase to support the Digital 
Talking Book program, the Congress reduced funding levels in several of 
the Library's other accounts, including a $10 million reduction to the 
Copyright Office's no-year funding balance, a $4 million general pay 
reduction, and more than $5 million in targeted reductions to our 
Library Services program. In addition to these direct cuts, the Library 
has had to absorb roughly $16 million in cost-of-living increases in 
fiscal 2007 and 2008.
    We now have more than 1,000 fewer staff to do far more work than 
was done 20 years ago when I became Librarian and before we assumed the 
Herculean task--and national leadership we have achieved--of 
superimposing digital library collections and services on top of our 
continuing role as the world's largest and most diversified repository 
of analog materials (books, maps, movies, music, etc.). We already are 
having to begin cutting back on one of our most vital core missions: 
the comprehensive acquisition of information and knowledge that we 
alone collect and preserve for the Nation's strategic information 
reserve. With difficulty and a focus on fiscal restraint, the Library's 
Executive Committee and I eliminated more than $52 million in critical 
funding needs from this fiscal 2009 budget request, committing either 
to forgo or seek to fund internally those items or activities in fiscal 
2009.
    All service units within the Library have been affected by the 
austere budgets of fiscal 2007 and 2008, but two programs were affected 
severely:
  books for the blind and physically handicapped digital talking book 
                                program
    The Digital Talking Book Program (DTB) was funded at $12.5 million, 
rather than our original request for a $19.1 million increase, which 
means that our long- planned roll-out of the transition to a digital 
format for talking books and playback machines will be prolonged from 4 
to 6 years. During the appropriations cycle, the Library made an appeal 
for $15 million for the DTB program, but this appeal was rejected in 
light of budget austerity across the broader Legislative Branch.
    Recognizing the very difficult budget environment that the Congress 
and the entire Federal Government face, Library leadership accepted the 
necessity of managing the Digital Talking Book program at the current 
(fiscal 2008) funding level and over the extended (6-year) transition 
period. Production of the playback machines is well underway, and 
digital books are being created, but the current funding level will, 
during this transition period, reduce the number of books on the shelf 
for blind readers, for whom we are the sole source of free reading 
material. The blind community continues to express its displeasure with 
the consequences of the lower funding level.
 national digital information and infrastructure preservation program 
                                (ndiipp)
    NDIIPP was founded and funded by the Congress in 2001 on the 
principle of shared stewardship and costs. The fiscal 2007 rescission 
of $47 million from NDIIPP resulted in a total loss to the 
collaborative national digital preservation effort of $84 million. We 
are living in an unprecedented period of unbounded creativity where 
important knowledge creation, legislative proceedings, and political 
discourse are increasingly documented only in ephemeral digital 
formats. We cannot as a national cultural institution of the United 
States afford to walk away from our mission responsibility to save 
these valuable records for future generations. The rescission to NDIIPP 
forced us to reduce by 75 percent the commitments we had already made 
to our partners in fiscal 2007. The rescission to NDIIPP has taken away 
the means by which we can save more content, expand the joint 
stewardship network, and build out the necessary underlying technical 
infrastructure.
    We have requested an increase of $6 million in fiscal 2009 and have 
provided a 5-year plan for keeping this program alive. Without these 
program funds, we will be forced to begin shutting down the joint 
stewardship program and walk away from shared stewardship and costs 
with our sustaining network partners. Absent this funding, we will be 
left only to voice our alarm at the risks of loss and remain on the 
sideline in hopes that others will have the means to save our digital 
cultural heritage records.
    Collecting and preserving ephemeral digital content is essential if 
we are to continue serving the information needs of the Congress. This 
program is also important for validating our new way of doing business, 
by sharing ongoing costs and expertise with the network of NDIIPP 
partners we have built up in Florida, Iowa, California, and Minnesota.
    The Library has developed specific goals it will achieve during the 
next 5 years. The program has acquired 66 terabytes of at-risk digital 
content collected and preserved by its partners within a network of 
repositories. This is equivalent to the content in approximately 66 
million books. It has developed a network of more than 130 partners in 
the content, technology, research, Government, and business sectors 
across 25 States; 10 of these partners are Federal agencies.
    The NDIIPP partners have created, for free download, publicly 
available tools for preserving digital content. These tools make the 
life cycle management of at-risk content easier. Together with our 
partners, we have created, standardized, and shared the means to 
harvest content from the web, prepare content metadata, prepare content 
for long-term storage, and allow sharing and exchanging content across 
digital libraries.
    During the next 5 years NDIIPP will increase by tenfold (to 650 
terabytes) the digital content under national stewardship. It will 
create a National Alliance for Content Stewardship that reaches all 50 
States. This alliance will establish a formal presence in every State 
to champion and catalyze digital preservation efforts and investments 
from the public and private sectors, and also construct the technical 
architecture necessary for storage of the 650 terabytes of content 
distributed across the partnerships.
    Other than funding for mandatory pay and price-level increases and 
a $6 million increase for the NDIIPP program, the Library has limited 
its fiscal 2009 program funding requests to $5.8 million in order to 
maintain the services of our most critical programs. We have requested 
$3 million to cover the increased assessment for the State Department 
Capital Security Cost-Sharing program to keep alive our all-important 
overseas offices; $0.9 million for the final increment of a 5-year 
adjustment for inflationary cost increases in the Library's 
Acquisitions Program; $1.8 million to restore salary funding for staff 
operating the Packard Campus for Audio-Visual Conservation in Culpeper, 
Virginia; and $156,000 for an additional staff member in the Library's 
Office of the Inspector General.
                            library services
    Beginning in fiscal 2006, Library Services (LS) began realigning 
its base funding in order to meet new requirements and support needed 
innovation without requesting new funding from the Congress for such 
programs and activities as upgrading of its preservation research and 
testing lab; acquiring historically important special collections that 
should rightly be included in the national library; and refurbishing 
many of the Library's most heavily used public spaces.
    With the reductions to the LS budget in fiscal 2007 and fiscal 
2008, current funding levels no longer support many important programs 
and activities. For example, the Packard Campus preservation 
laboratories are not yet operational. Even though staff and collections 
have been moved to Culpeper, fully half of the capacity to preserve at-
risk collections at the New Packard Campus for Audio-Visual 
Conservation cannot be realized.
    LS has absorbed part of the fiscal 2008 cuts by delaying hiring. 
This has resulted in gaps in critical language and subject-matter 
expertise. It has also meant that important supervisory and managerial 
vacancies in LS remain open at a time when anticipated retirements are 
at an all-time high. The long-term effects of the budget reductions are 
significant. Salaries and benefits of critical new hires will be 
annualized in fiscal 2009. As a result, major preservation contracts 
for mass deacidification and binding, and collections management 
contracts that provide care and service of collections items, must be 
reduced. This directly affects the stewardship of the collections built 
over the past 200 years and their availability for future generations. 
Finally, the Library will be unable to acquire many special collections 
that are appropriate for the Library's collections.
                               copyright
    The Library's fiscal 2009 budget justification includes a net 
appropriation request of $12.9 million to support the Copyright 
Office's core operations. Of this amount, $10 million represents a 
request to restore funding the Congress temporarily reduced in the 
fiscal 2008 budget. The Congress directed the Copyright Office to use a 
no-year balance to fund normal operating expenses in fiscal 2008. As 
the balance of the no-year account will be depleted in fiscal 2008, the 
Copyright Office must have appropriated funding restored in order to 
maintain operations.
    The total increase in net appropriations requested for the 
Copyright Office also includes $1 million to support the implementation 
of the Copyright Records Preservation Project. This funding will remain 
in place for 6 years for digital imaging of pre-1978 public records, 
supporting at a very basic level the Copyright Office's preservation 
and access goals.
                  congressional research service (crs)
    The CRS Director's testimony identifies four ways in which the 
Library's Congressional Research Service fulfills a unique niche for 
the Congress. First, CRS has experts in the worlds that Members and 
committees inhabit. They understand Congress as an institution, its 
work processes, Members' responsibilities, and legal and constitutional 
contexts. Second, the Service is in a unique position to analyze issues 
that arise from and are often dominated by the operations of executive 
agencies and their missions. Third, CRS is uniquely equipped to offer 
multi-disciplinary, analytic approaches to identifying relevant public-
policy issues and to offer solutions to address them. The fourth is the 
Service's ability to rally and immediately offer support when the 
Congress is faced with an emergency or other unexpected major event.
    Funding cuts and shortfalls in mandatory pay increases were 
mitigated by reducing the CRS staffing plan, deferring equipment 
purchases, and placing additional constraints on the acquisition of 
research materials. The plan for reducing FTE from 705 to 675 in the 
fiscal 2008 Operating Plan targets support functions to avoid any loss 
of direct research capacity. CRS has reduced equipment expenses by 
deferring or eliminating upgrades or replacement of IT and office 
equipment. Research material costs were lowered by reducing user access 
to electronic resources; canceling selective print titles; not 
purchasing new resources; and continuing to partner with Library 
Services to acquire public policy research materials.
                              law library
    The Law Library of Congress has placed special emphasis on the 
content of the U.S. legal material in the Global Legal Information 
Network (GLIN) and THOMAS to incorporate all laws published in the 
United States Statutes-at-Large and all congressional hearings. This 
will be expanded to include summaries and associated metadata for 100 
U.S. treaties and other international agreements. The Law Library's 
highest priority remains the need to re-classify books formerly 
categorized as ``Law'' into the K class in order to ensure a complete, 
current, and accessible law collection and provide timely responses to 
congressional requests for foreign legal law information. The Law 
Library has completed a comprehensive redesign of its public website 
and launched four RSS feeds thus far in fiscal 2008 that allow users to 
easily stay up-to-date with areas of interest by delivering news, such 
as the latest Research Report or issue of the Global Legal Monitor, to 
a desktop computer or other Internet device.
    In response to fiscal 2008 funding shortfalls related to the 
rescission and unfunded mandatory pay increases, the Law Library has 
realigned base funding from contractual services and equipment accounts 
in order to absorb payroll costs and to support key staff who provide 
important services to the Congress. The impacts of these include the 
shortening of performance periods for contractual services necessary to 
perform core law collections maintenance services, elimination of 
contracts providing GLIN data development and program support, and 
scaling back technological enhancements to the Law Library Multi-Media 
Center.
                   future projects and resource needs
    The Library's budget formulation process highlighted other highly 
critical activities that support the Library's customers, to increase 
the use of the Library's digital resources to promote knowledge and 
better world understanding and increase use of Library resources to 
inform scholarly, educational, and public-policy discourse. However, we 
chose not to bring forward a number of these important activities as 
requests for funding in this budget.
    The New Library of Congress Experience will give a greatly expanded 
number of visitors the opportunity to experience expanded exhibits and 
learn interactively from the breadth of our collections and knowledge 
of our curators and staff, all at the end of the passageway from the 
United States Capitol through the New Capitol Visitors Center. The 
journey will begin with a new orientation experience and travel though 
the Great Hall, as various new gallery spaces and educational content 
are delivered through state-of-the-art technology that will greatly 
enhance the in-person experience. To fulfill this journey, the Library 
will need to hire new specialized staff and create new systems, 
applications and interactive components to integrate and deliver 
complex technological services. In fiscal 2009, the Library will do 
what is possible with available resources and the significant private 
funds we have raised to implement these plans. However, given the scope 
of this effort, the Library will need to seek congressional support for 
the New Library of Congress Experience in fiscal 2010.
    Demand for online services, increased pressure on web services 
operations to enhance THOMAS, the World Digital Library (WDL), and the 
Legal Information Services (LIS) databases, and the need to develop new 
configurations and applications have severely strained technical 
assistance and infrastructure support provided by the Office of 
Strategic Initiatives (OSI) and Information Technology Services (ITS). 
Since 1995, THOMAS has provided free legislative information on the 
web. Our congressional and public constituencies have for several years 
been requesting upgrades to both THOMAS and LIS to enhance content and 
searchability. Again, the Library will attempt to use the prioritizing 
tools of the Strategic Plan to address these demands with existing 
resources. However, the IT and digital demands on the Library will need 
support from the Congress in fiscal 2010 to sustain the Library's 
ability to provide services to the Congress and its constituents.
                               conclusion
    2008 will be an exciting year in which our outstanding, dedicated 
staff will be working to build a new constituency for the Congress's 
Library. We will transform with mostly private funding the public 
spaces of the Jefferson Building into a learning center for the large 
number of visitors who will be coming when the Capitol Visitors Center 
opens; we will begin operations in the magnificent new National Audio-
Visual Conservation Center made possible by the unprecedented gift of 
more than $150 million by the Packard Humanities Institute and funding 
from the Congress; and we will begin putting online, with the support 
of UNESCO and a number of other national libraries, a World Digital 
Library of primary cultural documents in seven languages.
    Madam Chair, we recognize that difficult choices will continue to 
have to be made during this time of extraordinary budget constraints. 
But this Library is an essential part of our knowledge-based democracy. 
I ask for your support for our modest funding request for fiscal 2009 
and look forward to working with this committee to craft a budget for 
fiscal 2010 that will sustain the Library's historic mission of serving 
the Congress and the Nation.
                                 ______
                                 
Prepared Statement of Ambassador John O'Keefe, Executive Director, Open 
                        World Leadership Center
    Madam Chairwoman, Senator Alexander, and other members of the 
subcommittee, I appreciate the opportunity to submit testimony on the 
Open World Leadership Center's budget request for fiscal year 2009. The 
Open World Leadership Center, of which I am the Executive Director, 
conducts the only exchange program in the U.S. legislative branch and 
has hosted more than 13,000 emerging leaders from Russia, Ukraine, 
Azerbaijan, Kyrgyzstan, Tajikistan, Georgia, Moldova, Lithuania, 
Uzbekistan, and Kazakhstan, our newest country. All of us at Open World 
are very grateful for the continued support in the legislative branch 
and for congressional participation in the program and on our governing 
board. We look forward to working with you on the future of Open World.
    Over the past 8 years, Open World delegates have had the 
opportunity to meaningfully engage and interact with an estimated 
120,000 Americans throughout the United States in professional, theme-
focused programming that increasingly emphasizes continuing projects 
and partnerships. More than 6,000 American families and individuals in 
all 50 States have hosted the visiting participants. And in 2007 alone, 
the home hosting of Open World participants by dedicated Americans in 
187 different congressional districts saved the Center an estimated 
$1.8 million in per diem accommodation and meal costs. Over the life of 
the program, Open World has awarded more than $32 million in grants to 
hosting organizations located in every region of the country.
    Open World's impact on program participants is captured in the 
following statement by a Russian alumna from Orenburg who studied 
issues related to HIV/AIDS during her visit to Des Moines, Iowa, in 
2006: ``Upon return to Russia, I implemented several HIV preventive and 
treatment approaches. I was aware of these approaches prior to the Open 
World trip but it was only after seeing these efficiencies demonstrated 
in practice in the United States that I was able to actually implement 
them at home. To sum it up, the Open World trip to the U.S. confirmed 
for me the realistic possibility of implementing these very important 
measures in Russia.'' The alumna, who is a doctor specializing in 
infectious diseases, met with various professional counterparts in 
Iowa, including an HIV/AIDS outreach specialist at the Polk County 
Health Department and the executive director of the AIDS Project of 
Central Iowa.
    Open World has a track record of identifying tomorrow's leaders 
today. For example, Open World alumni make up 10 percent of the newly 
elected Russian State Duma. I believe part of Open World's secret for 
identifying leaders on the rise is its strategy of targeting all 
regions in Open World countries, not just the major cities. In Russia, 
the country with the largest and oldest Open World program, 80 percent 
of Open World alumni live outside Moscow and Saint Petersburg. We also 
select relatively young delegates--their average age is 38.
    Program participants come to discuss topical issues of mutual 
interest and benefit, such as ways of treating post-traumatic stress 
disorder among war veterans, preventing the spread of avian flu, 
furthering the rights of women and children, and protecting the 
environment. Mayors and city council members see firsthand how our 
elected officials respond to constituents. All our delegates work with 
American hosts and peers who share their interests and are often eager 
to partner with them on collaborative projects. For example, when Open 
World first partnered with Rotary International in 1999, there were 33 
Rotary clubs in Russia. Today there are 87 clubs and 21 Rotaracts.
    Since August 2007, when we began a concerted effort to track post-
visit successes, Open World has identified approximately 100 
collaborative projects, partnerships, and other concrete post-visit 
results each month. Some illustrative examples.
                     calendar year 2007 highlights
Russia
    Open World hosted 1,165 Russian participants in calendar year 2007. 
Delegates came from 77 of Russia's then 85 regions and represented a 
wide range of ethnic groups. Women accounted for 57 percent of the 
delegates. These participants were hosted in 45 U.S. States and the 
District of Columbia. Open World's civic hosting themes were 
accountable governance, rule of law, and social issues.
    Many exchanges focused on issues of importance to both countries. 
For example:
      A group of 16 nonproliferation experts visited the U.S. 
        Department of Energy national laboratories in Tennessee and 
        Washington State. As a result of the visit, an American 
        Material Protection, Control, and Accounting (MPC&A) contract 
        with a Russian entity that was due to expire in 2007 was 
        renewed for 2008, thereby enhancing control of nuclear 
        materials, including weapons-grade uranium and plutonium. 
        Another delegate who is a senior instructor in the 
        International Relations Department at St. Petersburg State 
        University has been selected by the university to teach a 
        course on nonproliferation policy, which would be the first-
        ever such course in a Russian university.
      In March 2007, Open World hosted Russian epidemiologists and 
        community health planning leaders who worked with their 
        counterparts in North Carolina on the preparation of a template 
        to assist small to medium-size communities around the developed 
        world in planning for, and responding to, outbreaks of 
        catastrophic disease.
      A delegate active in anti-human trafficking efforts was offered a 
        $48,000 grant by her U.S. hosting organization at the 
        completion of her 2007 Open World exchange to Arlington, 
        Virginia. The September 2008-September 2009 grant, which is 
        likely to be renewed annually, will support the new Center for 
        the Study of Organized Crime and Corruption in Stavropol and 
        its research on border security issues and irregular migration 
        patterns that promote terrorism, human trafficking, and labor 
        exploitation. The associate director of trafficking victims' 
        assistance programs at the U.S. Conference of Catholic Bishops, 
        along with two Montgomery County, Maryland, detectives who met 
        with this delegate while she was in the United States, visited 
        Russia in April. The delegate helped arrange for the Americans 
        to speak at numerous events, including a gathering of top-
        ranking police officers from Russia's Southern Federal 
        District, and a colloquy of students and faculty from the 
        Stravropol University of the Russian Ministry of Interior.
      Another delegate visited United Cerebral Palsy of Pittsburgh, 
        Pennsylvania, and was inspired to organize a daycare program 
        for children with cerebral palsy in Volgograd, Russia. She 
        subsequently received the Russian Presidential Award and a 
        grant of $35,000 for establishing the program.
      Four Russian mental health experts who counseled children and 
        families affected by the 2004 Beslan school attack spent the 
        evening of December 20, 2007, sharing experiences and 
        strategies for healing in a Lancaster County, Pennsylvania, 
        home with members of the Amish community who had suffered from 
        the Nickel Mines school shootings in October 2006. Grandparents 
        of one of the victims were among those who took part in the 
        profoundly moving session. Post-traumatic stress disorder 
        (PTSD) was the focus of a second Russian team hosted at the 
        same time by the University of Massachusetts Medical School in 
        Worcester, Massachusetts. Three of the Worcester delegates had 
        assisted Beslan survivors and continue to specialize in crisis 
        counseling; the fourth treats military veterans of the conflict 
        in Chechnya. During their Massachusetts visit, the delegates 
        worked with some of America's leading academic and clinical 
        experts in PTSD--including several Veterans Administration 
        specialists--and shared their own professional experiences in 
        the North Caucasus. Potential results of these visits include 
        journal articles, reciprocal visits by U.S. mental health 
        experts, and curriculum sharing between U.S. and Russian 
        institutions.
    The past year also saw impressive achievements produced by 
participants in earlier Open World exchanges. Below are just a few 
examples:
      Thanks to two Open World alumnae, the City of Ulan-Ude declared 
        2007 ``The Year of Civic Initiatives'' and allocated 2.8 
        million rubles (approximately $106,000) to 32 local NGOs to 
        organize 100 different activities and programs throughout the 
        year. One of the alumnae, an Ulan-Ude city administrator, was 
        inspired to launch this campaign by learning about the work of 
        Louisiana Eastern European Adoptive Families and other 
        Louisiana nongovernmental community organizations during a 2005 
        Open World exchange. She involved a second alumna, the first 
        deputy chairperson of her department, to help get the campaign 
        off the ground. As part of the initiative, the Ulan-Ude city 
        administration established an association called Family whose 
        goal is to develop a foster-homes program to help orphans 
        integrate into society.
      This winter, cultural program alumnus Arkadiy Babchenko's award-
        winning book ``A Soldier's War in Chechnya,'' an account of his 
        experience as a young soldier in Russia's Chechen wars, was 
        published in translation in the United States. Critics have 
        compared the book to ``All Quiet on the Western Front'' and 
        Michael Herr's ``Dispatches''.
      Another Russian alumna-author, Kseniya Golubovich, was one of 30-
        plus foreign writers to take part in the 2007 Fall Residency of 
        the University of Iowa's renowned International Writing Program 
        (IWP), thanks to a coveted fellowship she won while on a 2006 
        Open World cultural exchange hosted by IWP. Golubovich writes 
        essays on life in modern Russia for several newspapers and 
        journals, and publishes in a variety of genres. During her 
        fellowship she finished her second novel; met with a high 
        school creative-writing class; gave readings and talks at the 
        University of Iowa, Northwestern University in Evanston, 
        Illinois, and Harvard University; was invited to serve as a 
        presenter for an IWP-sponsored film series; and worked with 
        university students and faculty.
      More and more Open World hosts are organizing visits to build 
        ongoing ties with their Open World counterparts and other 
        contacts. In 2007, 71 American judges and legal professionals 
        visited Open World alumni in Ukraine and Russia. In another 
        example, the Los Alamos (New Mexico)-Sarov Sister Cities 
        Initiative, a regular Open World host organization, coordinated 
        the reciprocal visit in June 2007 of four Los Alamos 
        firefighters and police officials to Sarov, a city closed to 
        most foreigners and Russians. There the Americans consulted 
        with counterparts on specialized procedures for fighting forest 
        fires in a nuclear city.
Ukraine
    The new government seeks closer ties to Europe and the United 
States and, with a substantial grant from the Millennium Challenge 
Corporation, has begun a program to reduce corruption in the justice 
system and reform education. Ukraine is a pivotal state in the region, 
faced with pressures from east and west. Open World's program 
supplements Ukraine's efforts to move toward more accountability and 
transparency at all levels of government.
    Open World welcomed 255 current and future Ukrainian leaders in 
calendar year 2007, accomplishing wide geographic representation (25 of 
27 Ukrainian regions), hosting delegations across the United States (24 
States and the District of Columbia), and enrolling a high percentage 
of women delegates (49 percent). The Open World hosting themes for 
Ukraine in 2007 were accountable governance, NGO development, rule of 
law, and elementary and secondary education. Twenty-four Ukrainian Open 
World alumni took part in a major international forum entitled 
``Ukraine's Euro-Atlantic Future,'' held in Kyiv June 11-13. Forum 
sponsors included the Center for U.S.-Ukrainian Relations, the 
Democratic Initiatives Foundation, the Konrad Adenauer Foundation, and 
the NATO Information Center/Ukraine. The alumni were invited to share 
the impact of their U.S. visits during forum sessions. Open World 
alumni in attendance included government officials, judges, 
journalists, human rights and democracy advocates, and NGO leaders. A 
conference organizer said that the Open World alumni ``were the most 
articulate and best organized group at our . . . event.''
Expansion Countries
    Open World hosted 130 emerging leaders from Kyrgyzstan, Tajikistan, 
Moldova, Georgia, and Azerbaijan in 2007. Participants included 
parliamentarians, environmental leaders, health specialists dealing 
with HIV/AIDS, judges, and prosecutors. One group of Tajik leaders 
involved with ecotourism visited Nevada to see how State and local 
officials and private individuals promote both ecotourism and cultural 
tourism to the State's historic mining towns. During their exchange, 
they met with Thomas Tait, a former executive director of the Nevada 
Commission on Tourism. As a result of this meeting, the U.S. State 
Department has invited Mr. Tait to Dushanbe in 2008 to discuss 
ecotourism matters further with Open World alumni and other Tajik 
leaders.
    A Kyrgyz rule of law delegation hosted in Utah had the privilege of 
taking part in a mock session of the Utah Senate with the participation 
of State Senate President John Valentine. The following is an excerpt 
from a blog post by Senator Valentine dated September 13, 2007:
      Yesterday, we had the extraordinary honor of hosting 15 people 
        from Kyrgyzstan here at the Utah State Senate.
      The Kyrgyz delegation is in Utah for a week to study America's 
        political processes and the Rule of Law. Senators McCoy, 
        Bramble, Dmitrich and I, along with Rusty Butler of UVSC [Utah 
        Valley State College], Representative Chris Herrod (who speaks 
        Russian), and a few gifted staff replicated a legislative 
        session and the Kyrgyz leaders played the part of Utah State 
        Senators.
      They debated a mock bill, followed parliamentary procedure, tried 
        to amend the bill twice, and ultimately killed it. When it was 
        time to adjourn, they voted NOT to adjourn. Apparently we were 
        doing something right and they wanted to stay.
      We had a great three hours. It was wonderful to spend time with 
        good people from a part of the world beginning to find its way 
        toward a stable democracy and self rule.
    Senator Valentine subsequently visited Kyrgyzstan with the majority 
leader of the Montana State Senate, Senator Carol Williams, in part to 
be reunited with Open World alumni. In 1999, before her election to the 
Montana Senate, Senator Williams personally hosted Open World 
delegations through Peace Links, an Open World grantee. She had this to 
say upon her return from the State Department-sponsored trip to the 
capital city of Bishkek: ``More than ever, it is important for America 
to maintain and grow our relationships in Central Asia.'' In order to 
encourage the ties that are developing between the U.S. mountain States 
and Central Asia, Senator Valentine hosted Open World's inaugural 
parliamentary delegation from Tajikistan in 2007 and plans to visit 
Dushanbe in 2008.
    The mayor of the Azerbaijani village of Jil visited Texas in 2007. 
He noticed during visits to Bellaire and West University Place that 
``suggestion boxes'' were prominently placed to gather feedback from 
citizens on how to improve city services. He also learned that city 
administrators make their city's budget publicly available and publish 
a special bulletin for citizens with news on the city's progress. Upon 
his return to Jil, he immediately instituted all three of these ideas 
in order to increase transparency and accessibility of information to 
citizens. What is particularly notable is that Jil is only a 35-minute 
drive from the border of Iran, where there are more Azeri-language 
speakers than in Azerbaijan itself.
    The U.S. State Department Resident Legal Advisor based in 
Tajikistan, who confessed to harboring ``skepticism regarding U.S. 
taxpayer-funded visits of foreigners to the United States,'' had this 
to say after debriefing two defense attorneys who had traveled to 
Gainesville, Florida, in June 2007 on an Open World rule of law 
exchange:
      I personally knew two of [the] defense attorneys before they left 
        for the United States, and ``debriefed'' them upon their return 
        to Tajikistan. I was anxious to determine if their experience 
        went beyond subsidized tourism. To my great pleasure I found 
        that [it] had. For several hours they asked me about, and we 
        discussed, critical aspects of criminal justice and Rule of Law 
        that were prompted directly and exclusively by their 
        ``comparative law'' experience in the United States. Their 
        questions and expressions clearly indicated to me that they had 
        done far more than merely take a tourist's look around. In 
        addition to experiencing the general goodness of America, they 
        obviously saw and absorbed what I would have wanted of them in 
        satisfaction of my strict, developmental approach. This 
        educational opportunity will only enhance their professional 
        status in influencing change in Tajikistan. Moreover, it is 
        something I could vouch for in good faith to the U.S. citizens 
        who paid for it. I look forward to my continued involvement 
        with Open World, confident that the foregoing experience can be 
        replicated as to diverse individuals and fields of endeavor.
    Representative Larry Brown of the North Carolina General Assembly 
arranged for a delegation of newly elected Moldovan mayors to meet with 
the North Carolina Wine and Grape Council in Raleigh during a December 
2007 exchange. The U.S. hosts and delegates agreed that many of North 
Carolina's smaller wineries would benefit from Moldovan expertise in 
wine making. As a result of the meeting, the Continuing Education 
Division of Forsyth Tech Community College, the Moldovans' host 
organization, plans to launch a distance-learning course for small 
North Carolina vintners taught by Moldovan wine experts. As Suzanne 
Stafford of Forsyth Tech observed, ``The Moldovans get recognized and 
reimbursed for their expertise and the North Carolina winemakers 
improve their vintage. Everybody wins.''
Program Administration
    In September 2007, the Center's first full audit, for the 2006 
fiscal year, was completed. The independent auditor concluded that 
``the accompanying financial statements . . . present fairly, in all 
material respects, the financial position of the Center as of September 
30, 2006, and its net costs, changes in net position, budgetary 
resources, and financing of operations for the year then ended, in 
conformity with accounting principles generally accepted in the United 
States of America.'' The report also stated that the auditor's 
``consideration of internal control over financial reporting disclosed 
no material weaknesses.''
                                 goals
    In August 2006, the Open World Leadership Center Board of Trustees 
approved a strategic plan for fiscal years 2007-2011. The Strategic 
Plan was developed using the principles of the Government Performance 
and Results Act. It incorporates a 5-year outlook for the program and 
includes the following goals:
  --Expanding the geographic scope of the Program to include Eurasia 
        \1\ and the Baltic States.
---------------------------------------------------------------------------
    \1\ Eurasia here means Russia, Ukraine, Belarus, Moldova, Armenia, 
Georgia, Azerbaijan, Turkmenistan, Kazakhstan, Uzbekistan, Tajikistan, 
and Kyrgyzstan.
---------------------------------------------------------------------------
    More than 43 million Muslims reside in countries where Open World 
is now active, and planned expansion into another predominantly Muslim 
country, Turkmenistan, in 2008 would increase this figure to 47.9 
million. As stated earlier, in 2007 Open World hosted 130 leaders from 
five expansion countries: Georgia and Azerbaijan in the strategically 
important Caucasus region; Moldova in Eastern Europe; and Tajikistan 
and Kyrgyzstan in Central Asia. Open World hosted its inaugural 
exchange from Kazakhstan in April 2008. Rule of law was the focus for 
all 12 delegates, including the members of an intellectual property 
rights delegation that met with a staff member of the House Judiciary 
Subcommittee on Courts, the Internet, and Intellectual Property in 
Washington, DC, and then with the Motion Picture Association of America 
at the hosting site of Los Angeles. The Strategic Plan calls for Open 
World eventually to expand into all of Eurasia and the Baltic States.
  --Enhancing productivity and improving efficiencies.
    To offset increasing airfare costs, Open World has distributed 
delegate travel more evenly throughout the year in order to take 
advantage of lower fares during off-peak travel seasons. Distributing 
travel over time in this manner has the added advantage of providing 
staff more time to organize higher-quality programs. Center staff 
comprehensively reviewed all contracts and identified and implemented 
additional cost efficiencies. These cost savings will help the Center 
maintain hosting at planned fiscal year 2008 levels.
  --Continuing to enhance the quality of U.S. programming.
    Open World has streamlined the process for reviewing delegate 
program agendas and coordinating with U.S. hosting entities. The 
monitoring of hosting programs, regular communication with hosts, 
evaluative site visits, and post-visit evaluations contribute to annual 
reviews and evaluations of all program elements.
    Last year, the Center launched its new results-tracking mechanism, 
called the Client Management System (CMS), which systematically gathers 
quantitative results to measure the Open World Program's progress in 
meeting its goals.
  --Establishing a mechanism that facilitates the emergence of a 
        network of leaders in the United States and Open World 
        countries who have participated in the Program.
    The new Client Management System not only tracks results but 
automatically notifies Americans who have hosted Open World 
participants about results related to these individuals. Through its 
privately funded alumni program, Open World works closely with 
Americans visiting Russia and other Open World countries to facilitate 
meetings and partnerships.
    Open World's multilingual website, which includes a digital 
directory for direct, translated communications between American 
professionals and hosts and Open World delegates, fosters interactive 
communication and facilitates ongoing projects. Open World also 
operates online forums and multiple list serves for Russian alumni, one 
with news of grants, competitions, and other sources of financial 
support, the other with updates on Open World news and announcements 
and opportunities for cooperation and partnership with fellow alumni.
  --Establishing diversified funding sources.
    Open World is formulating a comprehensive development strategy and 
identifying potential funding and cost-share partners within the 
international organization community and the executive branch. The 
Board of Trustees voted in January 2008 to establish a binational 
business advisory board for the Russia program. Membership will consist 
of business leaders from both the United States and Russia who will 
advise the Center on sources of material support. The Center plans to 
partner with Russia's Federal Culture and Cinematography Agency to 
cost-share the travel to the United States of up to 200 Russian 
cultural leaders in 2008. Open World will also work to raise private 
funds to pay for 100 American cultural leaders to make reciprocal 
visits to Russia, with hosting costs to be provided by the same Russian 
agency.
                            open world 2008
    In response to congressional recommendations and directives from 
the Board of Trustees, Open World is maintaining a strong program for 
Russia and continuing its successful Ukraine program and expansion 
programs in Azerbaijan, Georgia, Kyrgyzstan, Moldova, and Tajikistan, 
while launching a program for Kazakhstan. We will add Turkmenistan in 
fall 2008 if funding is available. Below are just a few highlights of 
this year's activities:
    Building on the successes and results generated by past Open World 
programs on human-trafficking prevention, Open World plans to host a 
number of anti-human trafficking delegations this fall. Many of the 
delegates will come from the Far East and southern regions of Russia, 
where human trafficking is a serious problem. Open World will target 
law enforcement officials, prosecutors, judges, legislators, NGO 
officials, and legal advocates for participation. By meeting with their 
U.S. counterparts, these delegates will learn about U.S. prevention 
initiatives and have opportunities to discuss how Russian laws against 
human trafficking might be strengthened.
    The Center plans to partner with the House Democracy Assistance 
Commission to provide Open World programming to 25 Ukrainian and 
Georgian parliamentarians and parliamentary staff in 2008. We also plan 
to extend our acclaimed judge-to-judge rule of law program to our 
exchanges for expansion countries.
    Overseas, the Russian Government is considering establishing a 
mirror program to Open World. If begun, the program would be housed in 
the Russian legislative branch and would bring American political and 
civic leaders to Russia. And in May of this year, Open World will be 
holding an alumni conference in Ulyanovsk, Russia, for regional judges 
who have participated in Open World's rule of law program. The 
conference will include sessions on the adversarial principle in the 
litigation process, judicial ethics, and norms of international law, 
and on how programs such as Open World can help develop professional 
contacts and sister-court partnerships.
                          measures of success
    The Open World Leadership Center tracks the results of the Open 
World Program using eight categories, including projects, benefits to 
Americans, reciprocal visits, and partnerships. Since launching the 
results database in August 2007, Open World has identified more than 
800 such results (see attached chart).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    fiscal year 2009 budget request
    The Center's budget request of $13.9 million for fiscal year 2009 
is a 3.5 percent decrease from the original fiscal year 2008 request 
($14.4 million), but a slight increase over fiscal year 2007 funding 
($13.86 million). The funding request will enable the Center to restore 
its programming to pre-fiscal year 2008 levels and fully restore its 
proven mission of hosting young political, civic, and cultural leaders 
from Russia; maintain its important program for Ukraine; and continue 
smaller programs with select countries as approved by the Board of 
Trustees, in consultation with the subcommittee. The Board of Trustees 
believes that maintaining a robust grassroots-based Open World presence 
in Russia is necessary and important for future U.S.-Russia relations 
as Russia changes presidential administrations. Programs in expansion 
countries will account for a larger percentage of hosting than in the 
past, reflecting the growing geopolitical importance of Central Asia 
and the Caucasus. Program hosting capacity in fiscal year 2009 at the 
requested level remains far below the limit of 3,000 set in the 
Center's authorizing legislation.
    The budget request maintains hosting and other programmatic 
activities at a level of approximately 1,400 total participants. Actual 
allocations of participant slots to individual countries will be based 
on Board of Trustees recommendations and consultations with the 
committee and U.S. Embassies. The requested funding support is also 
needed to meet mandatory salary and benefit increases in fiscal year 
2009 and increased program costs due mainly to higher airfares and less 
favorable exchange rates.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits ($1.367 mil)
  --Contracts ($7.691 mil--awarded to U.S.-based entities) that 
        include:
    --Coordinating the delegate nomination and vetting process
    --Obtaining visas and other travel documents
    --Arranging and paying for air travel
    --Coordinating with grantees and placing delegates
    --Providing temporary health insurance for participants
  --Grants ($4.7 mil--awarded to U.S. host organizations) that include 
        the cost of providing:
    --Professional programming for delegates
    --Meals outside of those provided by home hosts
    --Cultural activities
    --Local transportation
    --Professional interpretation
    --Administrative support
    On March 31, 2008, as required by Public Law 110-161, the 
Consolidated Appropriations Act, 2008, the Open World Board of Trustees 
submitted a report entitled ``Potential Options for the Structure and 
Funding of the Open World Leadership Center'' to the Chairmen of the 
Senate and House Appropriations Committees. We look forward to 
discussing with you and the congressional leadership the report 
recommendations and the next steps to assure the Center's future.
                               conclusion
    Funding the 2009 Open World Program will allow more than 15,000 
Americans to meet and work with legislators, mayors, government 
administrators, judges, environmentalists, experts in human-trafficking 
prevention, and other leaders from across Eurasia. Many of our 
participants will engage in collaborative projects and ongoing 
partnerships with their new American contacts. Program participants 
will come from countries that share more than 1,145 miles of borders 
with Afghanistan and Iran. Americans will, once again, open their doors 
to leaders from Open World countries and give generously by 
contributing an estimated $1.8 million in donated accommodations and 
meals--freeing up appropriated funding that is applied to more grants 
to U.S. organizations to host delegates.
    While these results are measurable and visible, there are 
innumerable ``soft'' benefits that merit mention. In his ``2007 Year-
End Report on the Federal Judiciary,'' Chief Justice John G. Roberts, 
Jr., of the United States Supreme Court discusses a recent Open World-
hosted visit to the United States by Russian Supreme Court Justice Yuri 
Sidorenko, who chairs the Council of Judges of the Russian Federation. 
Chief Justice Roberts writes that Justice Sidorenko, while visiting the 
grave of Chief Justice William H. Rehnquist at Arlington National 
Cemetery, met with a group of American schoolchildren and recounted his 
friendship with the late Chief Justice, initiated during an earlier 
Open World visit, and their shared interest in the rule of law. These 
powerful ``defining moments'' occur regularly.
    The fiscal year 2009 budget request will enable the Open World 
Leadership Center to fully continue making major contributions to an 
understanding of democracy, civil society, and free enterprise in a 
region of vital importance to the Congress and the Nation. The 
subcommittee's interest and support have been essential ingredients in 
Open World's success.

         <greek-l>AOC deg.UTILITY TUNNELS--NUMBER ONE PRIORITY

    Senator Landrieu. Let us limit our first round of questions 
to 7 minutes each and then we will take a second round of 
questioning if necessary.
    Let me begin, if I could, with Mr. Ayers. Could you please 
explain why the utility tunnels are your number one priority 
and what the consequences would be if we are unable to provide 
the $127 million for the utility tunnel project?
    You might also want to take a second to explain in this 
very, very long and detailed list that you presented 
yesterday--and we will make a copy of this--what is significant 
about the top 10 projects that total $148 million.
    Mr. Ayers. Thank you, Madam Chairman. I am happy to do 
that.
    First, of course, the utility tunnels are our number one 
project for a number of reasons. One, there are some serious 
safety deficiencies there that need to be corrected 
immediately. So that is first and foremost.
    Second, we have a complaint from the Office of Compliance, 
which is essentially an enforcement action requiring us to 
correct those issues.
    Third, we have entered into an agreement with the Office of 
Compliance whereby we abate all of the known hazards in those 
utility tunnels by June 2012, a 5-year time period. In order to 
do that, this is the funding level needed in fiscal year 2009 
for us to meet our obligations of that agreement.

 <greek-l>AOC deg.OFFICE OF COMPLIANCE/OCCUPATIONAL SAFETY AND HEALTH 
                       ADMINISTRATION OBLIGATIONS

    The repercussions of not funding it at that level is that 
we will not be able to meet our obligations under that 
agreement, and we will have to extend out the term by which we 
ultimately correct the deficiencies there.
    You mentioned the top 10 projects on our priority list. All 
of those projects are fire and life safety projects, and all of 
them have citations from the Office of Compliance. So that 
gives us some indication as well as from the Office of 
Compliance, that they are very important projects and that is 
why they will ultimately flow to the top of our list.
    [The information follows:]

    However, the fact that a project has a citation is not the 
only criteria used to evaluate whether or not the project is a 
priority. The AOC has been conducting Facility Condition 
Assessments throughout the Capitol complex since 2004 to help 
us catalog and prioritize projects based on a set of objective 
criteria that allow us to evaluate the merits of each project. 
In addition, once a Facility Condition Assessment is completed 
on each facility, the information is rolled into a five-year 
Capital Improvement Plan. This is used to evaluate projects 
based on a set of pre-established criteria. These criteria 
include whether the work addresses fire and life-safety issues; 
code compliance; preservation of historic or legacy elements; 
economics and life cycle cost considerations, physical security 
and other considerations, such as environmental and energy 
efficiency.
    The projects are further evaluated based on the conditions 
of the facilities and their components, and the urgency in 
correcting the deficiencies. Projects categorized as deferred 
maintenance are the highest priority followed by capital 
renewal, capital improvement, and capital construction 
projects.

    Senator Landrieu. So, in other words, before we get to any 
of the beautification, expansion, cosmetic, and important 
architectural changes that need to be caught up, we have 10 
projects totaling what is it? $148 million I think.
    Mr. Ayers. That is correct.
    Senator Landrieu. $148 million. That is basically what the 
legislative Occupational Safety and Health Administration 
(OSHA) is saying we have to take care of before we can move on. 
And if we do not, we could be fined or--I am not sure if they 
can fine us. But there will be some actions taken for not 
complying.

           <greek-l>AOC deg.NONCOMPLIANCE ENFORCEMENT ACTIONS

    Mr. Ayers. That is correct. There are a variety of 
enforcement actions they can take on those, not only because 
they are the Office of Compliance. Each of these are important 
projects, ultimately, to do. They do ultimately protect life, 
safety, and provide egress from the buildings to people in the 
Capitol complex. So certainly those projects will ultimately 
show up in our priority list, whether the Office of Compliance 
issues a citation or not. Certainly the citation will help move 
them to the top of the list.

                <greek-l>AOC deg.GREENING OF THE CAPITOL

    Senator Landrieu. Another question. Another issue that has 
received a lot of coverage and interest is what we call the 
greening of the Capitol--the energy efficiency measures that 
have been initiated. How are these energy efficiency savings 
gained from such initiatives? Will some savings be reflected in 
the out-year budgets? Could you give a brief comment about any 
of the specifics regarding that?
    Mr. Ayers. Our basic requirement is to comply with the 
Energy Independence and Security Act of 2007 which requires all 
Federal agencies, including the Architect, to reduce energy 
consumption 3 percent per year over 10 years. That ultimately 
leads to a 30 percent reduction in 10 years.
    We recently completed the second year of that program. The 
first year we reduced energy across the Capitol complex by 6.5 
percent. The last year, we reduced it by 4 percent. We are into 
the third year of that program now, and we are implementing a 
wide variety of initiatives.
    For example, here in the Senate, we are working on a 
dimmable lighting system in many Members' offices. We have 
completed the first 10 of those and they are showing really 
good results, an energy reduction of some of them of over 50 
percent reduction in lighting load in each office. So we are 
rolling that program out and have recently received approval to 
do the next 10 Member offices.
    We are also replacing and enhancing our steam distribution 
system. We are turning off lights. We are replacing lights. We 
are being very careful about our mechanical systems that heat 
and cool office spaces, and we are also looking into public/
private partnerships through the use of the Department of 
Energy's energy savings performance contracts. That is really 
where we are going to get the most bang for our buck by 
implementing those contracts over the course of the next 
several years.

         <greek-l>AOC deg.CVC SOFT OPENING--TRAFFIC CONGESTION

    Senator Landrieu. One more question to you. I am privy to 
the plans for a soft opening of the CVC. We have all been 
briefed to some extent on the soft opening of the CVC and the 
plans for the visitors to be transported basically to that 
center with some limited access to certain streets surrounding 
the Capitol. And, that there may be another drop-off point, 
perhaps at Union Station.
    Do you share with me a concern that the congestion in front 
of Union Station today might not, under its current 
configuration, be able to absorb the thousands and thousands, 
if not millions, of tourists that might be dropped off at that 
point? I know there are some plans being discussed, but what 
are your views about that, Mr. Ayers?

                 <greek-l>AOC deg.CVC VISITOR APPROACH

    Mr. Ayers. Well, first and foremost, in terms of visitor 
approaches to the Capitol complex to visit the Capitol Visitor 
Center and ultimately the Capitol Building, the basic principle 
is those visitor approaches are not going to change from what 
they are today. People are still going to be dropped off on the 
west front, as well as use the Metro stations that are near the 
Capitol complex. But certainly, buses will have the ability to 
drop off on the west front and then go to Union Station to 
park. They have newly established 85-space parking facilities 
for tour buses there.
    I do share your concern that without any modifications to 
the front of Union Station now, it is very congested, it is 
very confusing, and quite frankly, it is difficult for people 
to cross the street there.
    I do know that the Redevelopment Corporation has studied 
the traffic around Union Station and they have proposed a 
pretty expansive renovation of that space, and it is my 
understanding that they intend to undertake that in the very 
near future.
    Senator Landrieu. Thank you. I will have some further 
questions, but let me turn now to Senator Alexander.

               <greek-l>AOC deg.PROJECT PRIORITY DEFINED

    Senator Alexander. Thank you, Madam Chairman.
    Mr. Ayers, continuing the chairman's questioning, if the 
citations did not exist, would those 10 projects still be at 
the top of your list of capital projects?
    Mr. Ayers. They would certainly be near the top. I am not 
prepared to say whether all 10 would be the first 10 on the 
list, but they would certainly be near the top. We do consider 
each one of them an important enhancement to life safety 
without a citation.
    Senator Alexander. But do you just automatically put 
something at the top of the list if the Office of Compliance 
gets interested in it?
    Mr. Ayers. I would not say it is automatic, but the 
likelihood of it reaching the top is in the high 90th 
percentile.
    Senator Alexander. The first 10 are all Office of 
Compliance citations. I used to be president of a university, 
and the accreditors would come by, say, for the law school, and 
they would say, well, to have the kind of law school we think 
you ought to have, you ought to spend all the money you have 
got on the law school, or we will do something to you. I would 
say, well, wait a minute. I was elected by the board to make 
decisions. We have an engineering school that needs some money, 
and we have a school over here that needs some money. We have 
this, that, and the other. So we had a discussion back and 
forth about that, and I did not accept everything the 
accreditors told me they thought the law school needed because 
I thought that was a big part of my job as well.
    It looks to me like you have just accepted whatever they 
said.
    Mr. Ayers. Well, that is true.

                <greek-l>AOC deg.OOC PROJECT ENFORCEMENT

    Senator Alexander. Then why do we not just let them set all 
of the priorities? I mean, why do we need a priority list from 
you?
    Mr. Ayers. Well, there is a list of projects that are below 
those 10.
    Senator Alexander. So you are saying we will just let the 
Office of Compliance tell us how to spend the first--how much 
is it? $148 million.
    Mr. Ayers. Well, I believe by issuing a citation and 
ultimately a complaint, that is an enforcement action against 
my organization.
    Senator Alexander. So you are saying every citation 
requires you to put that in the top priority. You just 
automatically put it there.
    Mr. Ayers. Ultimately those are going to quickly go to the 
top of the list, yes, because it is the law. It is an 
enforcement action, and we are required and compelled to do it.
    [The information follows:]

    As I noted earlier, the fact that a project has a citation 
is not the only criteria used to evaluate whether or not the 
project is a priority. We use our Facility Condition 
Assessments and a set of objective criteria, as well as 
consider fire and life-safety issues, historic elements, 
physical security, energy efficiency, and other important 
factors in our project prioritization process.

    Senator Alexander. But you said you negotiated with them to 
do it over a period of time. Correct?
    Mr. Ayers. We have done that on the utility tunnels, to do 
that over a 5-year period.
    Senator Alexander. What if you only had $100 million this 
year to spend on construction projects? Would these 10 
priorities still be the top 10?
    Mr. Ayers. I would say that is true.

              <greek-l>CPB deg.OVERTIME FOR CAPITOL POLICE

    Senator Alexander. Chief Morse, your budget includes $30 
million for overtime spending, which amounts to 574,000 hours. 
This is an increase of about one-third over last year's 
overtime budget. Help me understand why the increase is needed, 
and once you are fully staffed, do you think there will be less 
overtime? And what about the roughly 100 vacancies for sworn 
officers you now have? Would filling those make a difference in 
that, and if so, how realistic is it to expect that they might 
be filled soon?
    Mr. Morse. With regard to the increase, we have some 
additional requirements with the ``R'' tunnel. The AOC's 
current tunnel requirement is two posts 24 hours a day, 365 
days a year. So that equates to 11 FTE's or the equivalent 
overtime.
    We also have the New Visitors Experience, the new 
requirements of 385 hours per week beginning in fiscal year 
2009.
    We have preopening and certificate of occupancy and 
inspection October 1 through November 15, 2008, which gives us 
the opportunity to go into the CVC facility and begin training 
our officers, acclimating them to the facility and all the 
operating procedures, both emergency and routine.
    We have requirements based on all our USCP personnel who 
are working 16-hour days for events and rehearsals and security 
walk-throughs for the inauguration itself.
    So those are the additional requirements that are added to 
our base overtime requirements which are the normal post 
requirements, special events, extended sessions, our dignitary 
protection travel, planned special events, and the recruit 
class offsets, which you also mentioned.
    Certainly when you meet your authorized level, the overtime 
does drop. However, to exceed that current authorized level 
also drives other expenditures related to facilities, general 
expenses, training, et cetera.

                  <greek-l>CPB deg.OVERTIME REDUCTION

    Senator Alexander. Well, I guess what I am getting to, are 
we going to expect to live with this amount of overtime for the 
next 5 years? Particularly with the Capitol Visitor Center? 
Once you are fully staffed, can we expect a significant 
reduction in overtime?
    Mr. Morse. Yes. From this particular, you can see a 
decrease because some of these are just new starts that will 
not be in next year's budget. The inauguration is an example, 
as is the CVC, once we are up to speed with that, the New 
Visitors Experience, and then the completion of the tunnel 
projects.
    We also have, obviously, worked very hard to develop 
operating plans to reduce overtime, and this past year we were 
able to reduce overtime by about $3 million by simply taking a 
look at the deployment of our officers in relation to hours of 
operation, the number of pedestrians or vehicles that travel 
through posts, et cetera. So with that good work, we have had a 
significant reduction, and certainly with these additional 
requirements not being there, we should see a decrease in that 
request.
    Senator Alexander. Thank you, Chief Morse.
    Madam Chairman, my time is up.
    Senator Landrieu. Thank you.
    Senator Allard.
    Senator Allard. Thank you, Madam Chairman.

                      <greek-l>AOC deg.OOC HISTORY

    I am thinking back as to when we set up the Office of 
Compliance, about 1994, and at the time it was set up, the 
argument was made that the Members of Congress ought to learn 
to live under the same rules and regulations that everybody 
else has to in the private sector. And here we are. The Office 
of Compliance was to bring the Congress under OSHA, just like 
all the rest. We had issues between the executive branch. We 
did not want an executive agency coming in here and telling us 
what to do. So the Office of Compliance was set up.
    Now I think we are beginning to feel some of those rules 
and regulations that the private sector has to deal with when 
they deal with an OSHA inspection.
    There is no doubt that we have a problem with the tunnel, 
and it does need to be dealt with. And I can understand why it 
is your number one priority.

      <greek-l>AOC deg.OOC ALTERNATIVE PLANS FOR PRIORITY PROJECTS

    Has the Office of Compliance expressed an interest in 
working with you in setting priorities if the Congress does not 
come up with the money to meet your requirements that you need 
to meet? Have they indicated which one is most critical to a 
life-threatening situation, hazard to the workers and whatnot, 
or even the public to those that may have a lesser health 
hazard, if any at all?
    Mr. Ayers. Yes, Senator. We have certainly had those 
discussions with the Office of Compliance and we could 
certainly work collaboratively to develop those priorities if 
we were not funded at those levels. I think that is a clear 
possibility.
    Senator Allard. And do you think what they required is 
necessary?
    Mr. Ayers. Yes, I do. Each one of them are projects that 
have a citation against it. I am familiar with all of them, and 
ultimately all of them need to be done.
    Senator Allard. I think it is good news if they are willing 
to work with you and work with the priorities and work with the 
Members of the Congress. It is too bad all the Members of 
Congress are not here to appreciate how some of these rules and 
regulations can impact somebody who is in business for 
themselves because it is impacting the operation right here, 
and it does upset your priorities. So I just wanted to make 
that point.

               <greek-l>AOC deg.UTILITY TUNNELS--REBUILD

    The thing that surprised me is you have a $300 million 
price tag on it. That is one-half the cost of the Capitol 
Visitor Center. I am trying to think. Are you building new 
tunnels completely? When we first talked about these tunnels, I 
thought we were going in and just refurbishing and redoing 
them. This sounds like you are building completely new tunnels. 
Is that what we are doing?
    Mr. Ayers. Pretty close to that. On the ``R'' tunnel, as 
you know, from North Carolina all the way over to Constitution, 
that entire Second Street corridor needs to be completely 
excavated, curb to curb, all the way down to the floor level of 
the tunnel, which is some 30 feet deep or more in several 
areas. That is major, major construction work.
    Senator Allard. It is.

         <greek-l>CPB deg.UNITED STATES CAPITOL POLICE OVERTIME

    The other thing I wanted to talk a little bit about was, 
Chief Morse, I share the concern with the other members here on 
the panel about the overtime on the police officers. We have 
had this issue before here before this subcommittee. Are you 
doing an analysis? I think last time you were here we asked for 
an analysis. Would it be less expensive to bring on more 
officers who put in regular time than to carry a few officers 
with so much overtime? You understand the type of analysis. Is 
that being requested? Is anything being done in that regard to 
do that kind of an analysis?
    Mr. Morse. We have completed a manpower study that we were 
directed to do. And as a result of that, we have briefed the 
committees of oversight and we are beginning to implement that. 
But I think that the one issue that concerns me is that if we 
go above the current full-time equivalent (FTE) authorization 
that we have, it drives other cost factors, and facilities is 
one of them. We have really met our limitation of facilities 
with regard to the number of people that we have.

                <greek-l>CPB deg.OVERTIME ANALYSIS STUDY

    Senator Allard. Now, once you move into the new CVC, you 
are going to have more operating space there.
    Mr. Morse. We will have more operating space, but 
unfortunately, we have already outgrown that before we have 
actually gotten into it. So the mission continues to expand, 
and with that comes people. And we have tried to be very 
resourceful in the way that we deploy our officers and change 
working hours and look at where we are spending overtime and 
how to create a better overtime environment. But the mission 
drives the need for that.
    And also, there is a lot of variables that we cannot 
control, and those are events that occur that drive overtime.
    Senator Allard. Right after 9/11, I mean, that was a 
different environment altogether. You are not anywhere near 
that as far as overtime requirement.
    But I guess the bottom line, you are telling me that your 
analysis has indicated to bring on more officers does not 
create a savings. You are operating as efficiently as you can 
with the overtime that you are paying.
    Mr. Morse. That is correct.
    Senator Allard. Have you shared that study with this 
subcommittee?
    Mr. Morse. I believe we have talked about the ELS study.
    Senator Allard. I think it would be beneficial if we could 
have this subcommittee go over those because I think it is a 
concern of the subcommittee, obviously, and one we have had. 
And I think it would pay to have the subcommittee staff at 
least review and maybe even have the Government Accountability 
Office look at it and see if they come up with the same 
assessment that you have come up with on that.

           <greek-l>LOC deg.LIBRARY OF CONGRESS APPRECIATION

    My time is about out. I want to conclude by thanking Dr. 
Billington for his fine work over at the Library. When I was 
chairman of this subcommittee and having been an avid user of 
the Library, I have gained a great appreciation for the 
facilities that you have there.
    We have the new facility that we built out in Virginia for 
the movies and the storage of the film and everything, and that 
is pretty well completed and everything moving well out there. 
That is the Hewlett Packard Foundation that put that in at 
their own cost.
    Now, I was thinking about the operation and maintenance of 
that. Is that built into this budget or does their trust take 
care of that? I thought we took care of the operation and 
maintenance and everything of that building once it was 
constructed.

      <greek-l>LOC deg.MAINTENANCE AND STAFFING OF PACKARD CAMPUS

    Dr. Billington. Well, I think it is well underway. The keys 
were turned over to us last summer. We are still ramping up the 
operation, but practically everything has been transferred out 
there, more than 6 million items. We recently acquired the 
``CBS News'' archive, a major addition to it, which we never 
could have even contemplated taking. So it is already an 
asset----

                  <greek-l>LOC deg.FUND LEVEL CONCERNS

    Senator Allard. There is a lot of refrigeration over there 
in that building, and I would think that would be a cost that 
you have to deal with.
    Dr. Billington. There is, indeed.
    Senator Allard. Have you built that in?
    Dr. Billington. Maintenance costs are covered. The main 
problem we have is simply, the funds that were provided to 
fully staff it in 2008 are not there for 2009. So we have a 
request for the funding to get the campus up to the full 
operational level. This is extremely important because this is 
not just a question of entertainment. This is a question of 
information that is available on television, on radio, on 
recorded sound, as well as in films, documentaries, all kinds 
of media. We have been able, thanks to a successful private/
public relationship, to bring these collections and services 
all together. We are ramping up the various machinery and 
mechanisms. We would love to give you and other Members a tour. 
It was not only more than $150,000 from the Packard Foundation, 
but a great deal of expertise, as David Woodley Packard is 
probably one of the world's experts on this. Of course, we have 
very talented staff.
    The major thing that has not been covered is staffing. 
There was a 5-year plan agreed on, you remember, going back to 
the time that you were in the chair, which has been kept up 
faithfully. Based on this plan we have been able to move things 
out there, including all the 10 employees from the motion 
picture and recorded sound section in Dayton who now are safely 
relocated. We brought in collections from four different States 
where this stuff was stored. So we now have it all together, 
finally fulfilling a mandate that dates back to 1976 to create 
a national archive for radio and television, in addition to the 
movies and recorded sound.
    Our major need is just to get funding for the staffing that 
was part of the plan all along, but which for technical reasons 
is not in the 2009 budget. The cost is about $1.7 million to 
get those staff on board. With that funding for staff, we will 
be all set basically.
    There is an agreement to cover ongoing maintenance, thanks 
to the cooperation of the Architect of the Capitol. And it has 
been a wonderful three-way relationship to transform the 
campus. The Packard people have landscaped it. It has been very 
well accepted in the community. It is going to be a major force 
not just for preserving our audiovisual heritage. It is the 
biggest and most technologically sophisticated facility of its 
kind in the world, and we are actually making the collections 
more available through it for study, to be able to answer 
questions from the Congress about what was on television x, 
what was on radio y.
    All we need in terms of the appropriations process is to 
make sure that we have in the 2009 budget enough to bring on 
the key staff as was intended from the beginning.
    Senator Allard. Thank you.
    Madam Chairman, I know my time is out, but I think he said 
they spent $150,000. It is $150 million.
    Dr. Billington. $150 million.
    Senator Allard. Yes. We will get that inserted in the 
record correctly. I think that is what you said.
    Dr. Billington. I am sorry.
    Senator Allard. Yes, I think that was.
    Dr. Billington. $150 million.
    Senator Allard. Thank you. Thank you, Madam Chairman.
    Senator Landrieu. Thank you, Dr. Billington.

             <greek-l>CPB deg.CVC SECURITY--TRANSPORTATION

    Let me begin, Chief Morse, with my second round on the 
question I brought up, just to clarify. We have spent $600 
million-plus on a visitor center. The entrance was designed to 
be on First Street, on East Capitol basically. East Capitol 
comes right into the complex. And now I understand through a 
security analysis that you all have conducted, that dropping 
visitors off on First Street will probably not be able to occur 
because of the potential threat of the cargo space in and 
around many of these vehicles.
    So, again, the Architect spoke to this, but would you 
comment about some ideas that you might have about how to make 
this a pleasant experience for the millions of people that come 
to this Capitol? It is not just for those of us that work here 
and call it our office, but for the millions of people who 
actually own it and would like to get in to see it as 
conveniently as possible, what do you think might work to try 
to help resolve this, if we do decide that First Street cannot 
be reopened?

              <greek-l>CPB deg.LARGE VEHICLE RESTRICTIONS

    Mr. Morse. I think that there are a lot of other issues 
around buses in the District of Columbia and tourists than just 
the security component. Certainly the assessment was conducted 
and there is a risk there that was presented and the decision 
was to restrict buses, large vehicles, trucks, et cetera, to 
traverse the Capitol grounds. But we still allow public 
conveyance, Metro, Maryland and Virginia transportation, 
commuter transport, circulator system, along with sightseeing 
and taxi cabs and private vehicles.
    But one of the other components of buses into the city was 
that they had no place to park, and they had no place to 
traverse around the city other than the neighborhoods. And they 
had no place to drop passengers off in inclement weather. They 
had no place to spend time when perhaps a sightseeing 
attraction was not available at the time.
    So Union Station was just one option that was looked at as 
a hub for bus parking, as well as the other amenities that it 
provides. And the recommendations that were made were to also 
provide transportation from that location that would drop off 
at the visitor center itself.

                <greek-l>CPB deg.TRANSPORTATION OPTIONS

    Senator Landrieu. So, in other words, people would get off 
a tour bus and get onto a circulator or another tour vehicle 
and then approach the Capitol through the First Street, East 
Capitol side of the Capitol.
    Mr. Morse. That would be certainly one method, and then you 
have Metro there. And we are also surrounded by two other Metro 
stations. Also, the circulator proposal is also blended in with 
the other major attractions in the city. So there are many 
forms of transportation to the CVC, and as Mr. Ayers described 
it earlier, the current bus drop-off down in the southwest, 
First and Maryland Avenue, and the pick up at First and 
Pennsylvania will still exist, and we think----
    Senator Landrieu. But that is a walk up the hill. Right?
    Mr. Morse. Yes, ma'am.

              <greek-l>CPB deg.ACCOMMODATING CVC VISITORS

    Senator Landrieu. And we have so many seniors that visit 
this Capitol, and we have many disabled individuals that visit 
and a lot of parents with small children, so I think we have to 
be very careful. And I want to work very closely with all of 
you to come up with the very best way to get the citizens of 
this country, all of them, rich and poor and young and old, 
into this building safely, thus providing them the most 
enjoyable and enlightening and educational experience possible. 
And, then to move them out, and to do it with the good will of 
the neighborhoods. The city has a lot to say, and the local 
neighbors, of course, about how all this works.
    It is going to take effort, and it is going to take some 
money to make these changes because this is a huge investment 
that we have made in the visitor center. We want it to work 
from the beginning through the end of a person's visit. It is 
not just to make their visit to the Capitol better, but 
actually more safe. I will come back to that.
    Let me ask you one more question, and if the Senator will 
allow me, I have two questions to Dr. Billington--actually 
three.

                  <greek-l>CPB deg.COMMUNICATION ISSUE

    The radio proposal you submitted--could you just comment 
about the cost? I understand you just received a report. Could 
you comment about that, please? Your hand-held radios.
    Mr. Morse. Sure. The radio system proposal was a priority I 
made last year. We have a 25-year-old system that is analog and 
is in severe need of repair. Also, we are experiencing either 
hardware or interruptions at least once a week, as well as the 
lack of encryption and interoperability. We feel that in order 
to facilitate the business of the Congress and the safety of 
our officers and the complex, that we need a system that is 
enhanced and that covers all those capabilities.
    Senator Landrieu. How much is this system going to cost, 
and is it interoperable with the police forces in the region, 
specifically the District, Maryland, Virginia, et cetera?
    Mr. Morse. The system is and will be interoperable with 
local and Federal, State, municipalities that would assist us 
in a critical situation here at the campus. It also enables 
us--we are a very unique organization in that we have 
subterranean locations that we have to operate within. The 
actual procurement--from a procurement standpoint, they are 
telling me that it would be procurement sensitive.
    Senator Landrieu. You have not put an RFP out?
    Mr. Morse. Right.
    Senator Landrieu. So it is going to be an expensive system, 
but we are working toward an interoperable system. Obviously, I 
have had firsthand experience with the disasters of Hurricanes 
Katrina and Rita and the communications system collapsing, and 
we most certainly do not want that to happen again under any 
circumstance.
    One question to Dr. Billington. Then I will turn it over to 
Senator Alexander.

          <greek-l>LOC deg.DIGITAL TALKING BOOK IMPLEMENTATION

    Could you just explain the difference in how you will be 
able to conduct this digital talking book project? We have only 
been able to fund this project at $12 million a year for 6 
years, which is $72 million. The request from the advocacy 
group was $20 million over 6 years. So it is going to be $12 
million, which was originally requested. Can you just briefly 
explain the differences in either the level of service or what 
you are going to be able to do at the reduced amount of $12 
million a year?
    Dr. Billington. The difference between a 4- and 6-year 
program.
    Senator Landrieu. Yes.
    Dr. Billington. Well, each year, 120,000 analog players 
must be replaced because of equipment breakdowns. In the course 
of the 6-year transition program, actually we would have, even 
under the 6 years, more than enough digital players produced 
annually to replace the failed analog players.
    The problem is more in titles and so forth. Currently 2,000 
new titles are made available on analog cassettes each year. 
There will be fewer new titles in the digital format, 
particularly initially. By the sixth year of the transition 
program, we will be back at the same level of producing 2,000 
current digital titles per year. This is under the present 
system, which is actually $13.5 million a year including funds 
appropriated in 2005. But during this transition period we will 
closely monitor actual usage of both new and retrospective 
digital talking books and would modify the implementation plan 
to best meet the needs of the blind community.
    What it would require in financial terms to go from a 6 to 
a 4 year implementation would be an increase of $9 million a 
year over the next 3 years, including the one before us, or a 
total increase in the appropriation of $27 million over the 
$13.5 million a year as it now stands.
    Senator Landrieu. Well, I would like to continue to visit 
with you. And I was mistaken. It is whether it is going to be 
over a 4-year or a 6-year period. So it is a $72 million 
project, whether it is done over 6 years or 4 years.
    Let me just ask one more and then I will turn it over to 
Lamar.

     <greek-l>LOC deg.GROWING COLLECTIONS AND STORAGE REQUIREMENTS

    Part of what is driving some of the cost of the Library is 
the collection policy of actually 10,000 new items daily, I 
understand from what I read, coming into the Library. At this 
rate of growth, how soon will your existing storage facilities 
be filled? How much additional storage will be needed, and has 
the Library given any thought to re-examining and narrowing its 
collection policies to be more selective about what it 
collects? And I know that is a long question with several 
parts, but if you could limit your response to 1 or 2 minutes 
and you can follow it up with some written testimony.
    Dr. Billington. The question, Madam Chair, then is should 
we find some way of reducing that number.
    Senator Landrieu. Is it 10,000 items a day?
    Dr. Billington. Well, it is 8,000 to 10,000. It varies, but 
we have had over 2 million a year. We have 240 terabytes of 
stored information in the Library in addition. This is the 
world's most universal collection, and it is very hard to 
predict what future Congresses or even this Congress are going 
to want or what the scholarly world, which is very heavily 
concentrated in America, will most benefit from.
    We could, of course, re-examine that. It would change the 
fundamental mission at a certain point. It does not mean we 
collect everything. Actually we get somewhere between 20,000 
and 22,000 items a year--a day, rather. These are not all 
bought, by the way. Most of these come on exchange or on 
copyright deposit or otherwise are free--so this is an 
enormous, unique collection device of the world's knowledge.

                <greek-l>LOC deg.STORAGE CAPACITY RATING

    Senator Landrieu. And our storage capacity. How would you 
rate it? Pretty good?
    Dr. Billington. The storage capacity is being expanded, 
thanks to the Fort Meade program. That has been delayed, 
stretched out, as almost everything we have has been stretched 
perhaps longer than we would like.
    We are currently actually examining and evaluating our 
acquisitions policy for both artifactual and for digital 
information. We will probably make a change. In fact, we are 
working with the GAO to study this problem.
    We are also studying current storage usage. But the plan, 
even though it has been delayed--the Architect of the Capitol 
has worked very effectively to expand storage at Fort Meade. We 
have ample storage capacity at the new Culpeper center for the 
audiovisual materials. We are studying this and we will be 
happy to get back to you on it. And I appreciate your asking.
    Senator Landrieu. Thank you.
    Dr. Billington. The one thing about acquisitions--the 
reason that we do it and one of the very few constraints, along 
with this Culpeper staffing, that we have to really worry 
about--is, if you do not acquire the things the first time 
around, you do not have a second chance in most cases.
    Senator Landrieu. It is very complicated, I know.
    Dr. Billington. One other thing I would say is that the 
Library of Congress uniquely collects things that other 
libraries do not, some via our overseas offices which we must 
maintain--that is another one of the areas of programmatic 
necessity--to sustain the overseas offices.
    Senator Landrieu. Well, thank you so much.

          <greek-l>LOC deg.TRANSITION TO DIGITAL TALKING BOOKS

    I think Senator Alexander has one final question.
    Senator Alexander. I have one. I am glad the chairman asked 
about the digital books. I can remember, as my mother lost her 
eyesight, how valuable back then the cassettes were for her. So 
we will watch that carefully and do our best to try to provide 
as much funding as we can to help it move along rapidly.
    Will there be any gap in service as you go from cassettes 
to digital talking books?
    Dr. Billington. There is going to be a reduction in 
numbers, that is, numbers of available books. There will be the 
transition between the old cassettes and the new digital 
machines. There is always some awkwardness of having to use 
both, or having to substitute one for the other without the 
full number of books. There will be some problems.
    But there are a lot of things that have to be determined. 
You may remember last year when the $12.5 million was 
appropriated from both Houses, we did the exceptional thing of 
introducing an appeal to restore it to $15 million, which would 
have shortened the timeframe to about 5 years.
    It is true for many blind people this is their principal 
asset. This is the principal means, really the only means, of 
reading for many of them. It is also true and not widely 
realized that blind people read a lot more than sighted people. 
This is an important area.
    We want to study it very carefully. We want to make sure we 
have plenty of feedback, whatever the Congress determines----
    Senator Alexander. Well, I know you are working hard on it.

               <greek-l>LOC deg.ABSORBING MANDATED COSTS

    Dr. Billington. The only other thing I would say is that, 
in general, we have been so tight with what we submitted to you 
this year that we have erred on the side of caution, because we 
really cannot transfer unfunded mandates. Mandated pay raises 
are unavoidable. We really do not have much give in the system 
anymore considering how much more we are doing in all respects. 
If it turns out that we receive an increase in one area, 
something over what we have been led to believe is possible 
from the overall budgetary point of view, we really just cannot 
absorb that from elsewhere in the overall budget. I have not 
made such an argument before in 20 years of testifying, but we 
are really reaching a point where, if a requirement is added, 
you cannot assume the Library can absorb it.
    Senator Landrieu. Well, I can assure you this subcommittee 
is going to be very sensitive, when we ask you to add things or 
the Congress, to the underlying mission of the Library, which 
is unique and very special. And we are very sensitive to that. 
Both of us will be.

        <greek-l>AOC deg.CVC TEMPORARY CERTIFICATE OF OCCUPANCY

    I have one more question that I really need to ask about 
the CVC, if I could, to you, Stephen. When do you believe that 
we could have a soft opening of the visitor center? Because I 
know this has been long awaited. We are all anxious to have it 
open as soon as possible. When are you saying that we could at 
least have a soft opening for it?
    Mr. Ayers. We intend to have the temporary certificate of 
occupancy on July 31, and we are very confident in that date. 
It is after that date that Ms. Rouse, our CEO for visitor 
services, will begin moving her staff into the facility and the 
police will begin moving in. She has always anticipated, as the 
entire team has anticipated, that there will be 90 days of sort 
of this ramp-up period from July 31 up through October. So I 
think it is later in that timeframe that we could have a soft 
opening.
    Senator Landrieu. So you will get your certificate July 31, 
and you feel very confident about this.
    Mr. Ayers. Yes.
    Senator Landrieu. And then some time, of course, to have 
the staff move in and have the opportunities for a soft 
opening.
    And the Rules Committee, I think, is working with our 
committee to plan some of this procedure, both the House and 
the Senate. So we will look forward to working with all of you 
on that.

                     ADDITIONAL COMMITTEE QUESTIONS

    I have several other questions, but because of the time and 
Senator Alexander had to leave to go to the floor, I am going 
to go ahead and recess the meeting, submit the rest of my 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
                Questions Submitted to Stephen T. Ayers
            Questions Submitted by Senator Mary L. Landrieu
    Question. The AOC has requested $33,625,000 for CVC operations, 
including activities related to the opening of the facility later this 
year. Are any of the activities you requested funding for not currently 
authorized?
    Answer. The legislation authorizing specific operations within the 
Capitol Visitor Center (CVC) and the transfer of certain functions to 
the AOC is still pending, thus direct authority for such operational, 
organizational, and other certain funding of CVC needs is not in place. 
In the interim, authority is derived, in part, from the AOC's existing 
authority to receive funding to perform its necessary functions. 
Funding the operations of the CVC--as a division of the AOC--is a 
necessary function. Authority is also derived, in part, from the 
legislation authorizing the appointment of the CEO of Visitor Services 
(H.R. 2206, Sec 6701), and the ``Four Leaders Letter'' (March 30, 2007) 
to the AOC from Congressional leadership directing that the AOC perform 
necessary actions to ensure the opening and operation of the CVC in the 
absence of specific legislation.
    Enactment of the pending CVC legislation is necessary to perform 
certain functions such as operating the gift shop with a revolving 
fund, contracting for the operation of the restaurant, providing 
insurance for non-Government exhibit artifacts, and transferring 
management responsibilities and funding for the Capitol Guide Service. 
In addition, the AOC has requested funding in fiscal year 2009 for 
items such as interpreters, graphic design services, and public 
educational programs. The AOC is working with Congressional Oversight 
Committees to gain approval for these efforts.
    Question. The AOC estimates the need for $240,000 for graphic 
design services for books and brochures that cannot be accomplished 
through the GPO. What specifically cannot be accomplished through the 
GPO and what is the basis of this estimate?
    Answer. Recently, the AOC's Office of Visitor Services staff has 
met several times with the GPO to gain a better understanding of the 
services that the GPO offers. Any gift shop design services or 
additional printing services (with the GPO but not funded by the 
Capitol Printing and Binding appropriation) will be paid for out of the 
gift shop ``seed'' funds or the revolving fund. The CVC believed it was 
possible that there may be CVC operational graphic design services that 
the GPO would not be able to provide, or special operations brochures 
that would be disallowed under the Capitol Printing and Binding 
appropriation, and thus would need to be paid for out of the CVC 
operations budget. We will be meeting with Senate staff within the next 
few weeks to discuss what types of operational printing can be paid for 
out of the Capitol Printing and Binding appropriation and then will 
provide detailed briefings to Oversight and Appropriations staff. The 
original estimate was based on knowledge of printing costs for other, 
non-Government museums.
    Question. Please provide details associated with an estimated 
$800,000 for ``extended hours'' of the CVC.
    Answer. At the time of the fiscal year 2009 CVC budget submission, 
it was not yet determined how many days per week and how many hours per 
day the CVC would be open to the public. The $800,000 overtime request 
was based on an assumption that operating hours would be from 8:30 a.m. 
to 4:30 p.m., 7-days-a-week, with 20 ``peak weeks'' per year. Based on 
revisions to CVC operations plans since the budget submittal, the full 
$800,000 will not be required. However, if Members host evening events 
and CVC staff is required at these events, it is estimated that 
beginning as early as January 2009, the CVC may require additional 
payroll funds for overtime costs. Based on hosted evening events 
beginning as early as January, we estimate that approximately $200,000 
in overtime costs may be required, but this is contingent upon the 
number of events, and decisions regarding whether the exhibits, gift 
shops, and central coatrooms will be open during the events.
    Question. If the Congress was able to provide only $100 million for 
your construction budget, would you suggest that all of these funds go 
to meet citations? If the citations did not exist, would the projects 
in your budget still be the highest priorities?
    Answer. The fiscal year 2009 study, design, and construction budget 
requests reflect numerous internal reviews and were subjected to the 
AOC's project prioritization criteria and process. If only $100 million 
was provided in the fiscal year 2009 budget, the first project on the 
list--the Utility Tunnel Improvement Program--would be funded at some 
level. We are examining options to adjust the fiscal year 2009 request 
and still meet the settlement agreement deadline. We are currently 
assessing rephasing options based on additional testing and studies, 
and will brief the staffs in detail when the options are developed.
    The top 10 projects on the AOC prioritized list are citation-
related projects. Based on our project prioritization criteria, any 
project addressing an existing citation was placed at the top of the 
list of potential fiscal year 2009 projects. Lacking the formal 
citations, all of these life-safety projects would still be required. 
Where they would have fallen within a prioritized listing is not 
certain. It is important to note that at the time the fiscal year 2009 
budget was being prepared, the Office of Compliance had rated each of 
the citation deficiencies at its highest risk code. The AOC also would 
rate these deficiencies with an appropriate degree of urgency since the 
required work for each project impacts an entire building and its 
occupants. The AOC is in the process of reassessing the fiscal year 
2009 executability of each of the top projects based on events that 
have occurred since we submitted our 2009 budget request. We will 
provide detailed briefings to Oversight staff after we complete our 
assessment. At that time, we will be able to address the question as to 
whether all of the remaining $100 million (after Utility Tunnel Project 
rephasing) would go toward citation projects.
    Question. There are no major projects included for the Senate 
Office Buildings in the fiscal year 2009 budget. Why? What are some of 
the major Senate building improvements we can expect in the future?
    Answer. Numerous Senate Office Building projects were initially 
identified for potential inclusion in the AOC's fiscal year 2009 budget 
request. However, only one of these was identified as having an 
``Immediate Urgency,'' while the remaining projects were determined to 
have a ``High Urgency.'' Our fiscal year 2009 request included only 
those projects with an ``Immediate Urgency.'' Thus, only one Senate 
project fell above the cut-line considered for inclusion in the fiscal 
year 2009 request.
    The project initially identified for potential inclusion in the 
fiscal year 2009 request was Phase II of Infrastructure Improvements in 
the Dirksen Senate Office Building (DSOB). However, this project was 
deferred to a subsequent fiscal year because construction of its 
prerequisite project, Phase I, Infrastructure Improvements is ongoing 
and precludes a fiscal year 2009 construction start for Phase II. 
Therefore, Phase II was deferred despite its ``Immediate Urgency.'' The 
AOC anticipates funding for Phase II of the project will be requested 
in the fiscal year 2010 budget.
    Dependant upon their future placement within a list of AOC 
prioritized needs, Senate projects that may be included in the fiscal 
year 2010 request include: Citation Abatement, Russell Senate Office 
Building (RSOB); Egress Improvements, DSOB and Hart Senate Office 
Building (HSOB); Smoke Detection, HSOB; Infrastructure Upgrades, Senate 
Underground Garages; Infrastructure Modernization, DSOB; Exterior 
Envelope, RSOB; Kitchen Exhaust Upgrades, DSOB and RSOB; Skylight 
Replacement, HSOB and RSOB; South West Steps Waterproofing and 
Vestibule Addition, RSOB; Greening and Energy Reduction Initiatives; 
Air Handling Unit Modernization, HSOB; Steam Humidification 
Replacement, DSOB and HSOB; Roof Replacement, HSOB; and Senate 
Jurisdiction Master Plan Execution.
    Question. For the utility tunnel program, AOC has requested more 
than $126 million. Of this total, about $2 million is requested for 
work on the Capitol Visitor Center (CVC) tunnel. Why is this project 
not covered by the CVC project funding for tunnels?
    Answer. The $2 million identified is for construction of a new 
emergency egress for the Capitol Visitor Center (CVC) utility tunnel. 
One of the utility tunnel safety citations received in 2006 involved 
providing safe egress from tunnels in the case of emergency. The AOC 
and OOC, after a review of industry practice, agreed that a standard 
travel distance of 300 feet to an emergency egress meets OSHA 
requirements. The AOC adopted this standard for all of its utility 
tunnels, and therefore, the application of this new standard to the CVC 
utility tunnel required the installation of this new emergency egress.
    Funding for this new egress was not included in the original CVC 
project. Since the utility tunnel will be turned over to the Capitol 
Power Plant (CPP) for operations and maintenance, and the Utility 
Tunnel Improvement Program is funding construction of all new egresses, 
the AOC included this project in the Tunnel Improvement Program. This 
will ensure its completion within the Settlement Agreement timeframe, 
its consistency with new, required egress design standards, and 
coordination with other facets of the Program.
    Question. The AOC requests $1 million for the design of the 
relocation of the East Refrigeration Plant Chillers in the fiscal year 
2009 budget estimate. Please describe the factors that make this 
project an immediate priority. If the relocation is not funded this 
year, will the chillers still be capable of supporting Capitol Complex 
operations in the upcoming year? What are the detrimental effects, if 
any, of not moving the chillers this year?
    Answer. This project is an immediate priority because of the 
advanced age of the infrastructure of chillers 2 and 3. The East 
Refrigeration Plant (ERP) is well past its useful life. The reliability 
of all supporting systems including pumps, valves, electrical 
switchgear, and cooling units are increasingly subject to failure. As 
the infrastructure fails, in order to maintain system reliability, 
operations and maintenance costs will continue to increase and become 
potentially cost prohibitive. The two 3,000-ton ERP chillers are 
considerable investments and assets, but are underutilized in the ERP. 
Relocation of the chillers and replacement of their aged infrastructure 
will result in increased capacity, efficiencies (operating in one plant 
vs. two), and energy savings.
    The fiscal year 2009 request is to bring the relocation project to 
full design, including abatement and remediation projects in the East 
Switch Yard. Timing for this relocation project is critical and 
requires the sequential implementation of several key steps within two 
phases. The first required step is to prepare the existing bay in the 
West Refrigeration Plant Expansion (WRPE) for the incoming chillers. 
The design challenge is to accommodate the installation of two 3,000-
ton chillers, supporting pumps, valves, and controls into an existing 
chilled water system and building structure. If the fiscal year 2009 
design relocation request is not funded, the relocation of the ERP 
chillers will be delayed and increased CPP efficiencies will not be 
realized. Costs to abate and remediate hazards will only increase over 
time if not addressed.
    The capability to continue supporting the Capitol complex without 
moving the chillers is difficult to ascertain given the precarious 
state of their support infrastructure within the ERP. When these 
chillers must be brought into service, the CPP has to operate them, as 
well as the WRPE chillers in an inefficient configuration. This results 
in increased electrical and water utility costs. During the relocation 
of the ERP chillers, the CPP must still provide continuous and reliable 
chilled water to its customers without interruption. It is less risky 
to move the chillers within a known and controlled timeframe, rather 
than be forced to shorten schedules in order to install the chillers 
within a new building with new infrastructure.
    An additional benefit to funding the project in fiscal year 2009 is 
that the eventual demolition of the ERP interior structures and 
decommissioning of switchyard and cooling towers will allow space for 
potential operational and/or energy saving projects such as heat 
recovery steam generators, gas turbines or turbo generators.
    Question. In the fiscal year 2009 Combined Requirements Chart, the 
AOC projects the need to fund the $20 million design of an in-plant 
power generation system, a cogeneration system for the Capitol Power 
Plant (CPP). AOC categorized this design project as ``High Urgency''; 
however, Congress has not officially made the decision to pursue a 
cogeneration system for the CPP. How can AOC project the need for $20 
million for the design of a project that Congress has not yet decided 
to pursue? Is this an isolated instance within AOC's projected future 
needs or are there multiple projected design costs that do not 
currently have congressional review or approval?
    Answer. These are two different issues. The AOC's identifying the 
urgency of this project from a technical standpoint in the Combined 
Requirements Chart was part of a prioritization exercise used to 
formulate its fiscal year 2009 budget request.
    The CPP cogeneration project is identified in this chart as having 
a ``High Urgency.'' This initial determination was based on the 
technical merits of the project alone, as measured against objective 
project prioritization criteria. However, the prioritization rating 
alone is not the final determinant as to whether a request is, or is 
not, included in a budget submission. Prior to a budget submission, the 
AOC's Program Development Process calls for reviews of the prioritized 
project list at numerous levels, to include the Senior Leadership Team 
and the Acting Architect. At these review levels, additional factors 
are considered beyond a project's prioritization. The AOC may add or 
move projects above or below the prioritization cutoff line for valid 
reasons outside the scope of the prioritization criteria.
    Given the current lack of Congressional approval to pursue a 
cogeneration system for the CPP, even if the cited project had been 
classified as having the higher ``Immediate Urgency'' rating, it would 
not have been included in the fiscal year 2009 Budget Submission, and 
funding has not been requested in fiscal year 2009.
    Question. What is AOC's process for scrubbing its backlog of 
capital projects? For example, if a capital improvement project 
addresses several items in the deferred maintenance (DM) and capital 
renewal (CR) backlog, what steps does AOC take to reflect these changes 
in both backlogs as well as its projections for future budget needs?
    Answer. Often, a project addressing Deferred Maintenance will also 
include Capital Improvements, as ``replacement-in-kind'' fails to take 
advantage of new technologies, opportunities to reduce energy 
consumption, or other improvements. When the majority of the project's 
scope addresses Deferred Maintenance, the project is classified as a 
Deferred Maintenance project for prioritization purposes. When the 
portion of the project addressing Deferred Maintenance is limited, and 
the majority of the project is providing for Capital Improvements, the 
project is classified as a Capital Improvement project. In either case, 
upon completion of the project, the extent to which Deferred 
Maintenance is addressed is captured in an AOC database (Facilities 
Management Assistant) and the tracked and reported backlog is reduced 
appropriately.
    The projection of future budget needs, with respect to Deferred 
Maintenance, is always in a state of change. As initiatives addressing 
a Deferred Maintenance item are completed, that item is removed from 
the backlog; however, new Deferred Maintenance items also appear in the 
database as a result of ongoing updates to the Facility Condition 
Assessments.
    Question. The AOC cited bi-annual town hall meetings with employees 
to encourage open dialogue and feedback as one of its fiscal year 2007 
significant accomplishments. However, the AOC originally established 
employee focus groups as its primary method for collecting employee 
feedback and has not conducted focus groups since 2004. The AOC 
recently reported plans to conduct the next round of employee focus 
groups concerning matters such as worker safety, for example, in early 
2008. Have these focus groups been conducted yet? If not, why not? If 
they have been conducted, what are the preliminary findings of the 
focus groups? Are AOC employees indicating that they are satisfied with 
the level of communication from AOC management and other supervisors?
    Answer. Establishing bi-annual town hall meetings was an outcome of 
the 2004 focus groups. Employees expressed a need for a ``10,000-foot 
view'' of the Agency and its operations, and the Town Hall meetings are 
designed to provide employees with the information and the opportunity 
for dialogue they requested. During the Town Hall meetings, each 
Organization Head (i.e.: Jurisdiction Superintendent for operations and 
Director/Officer for GA) gives an overview of the Agency's major 
initiatives, especially those taking place in other AOC organizations 
of which employees would be less aware. Additional information is 
provided, such as updates on new policies issued, projects started or 
completed, and employee benefits.
    The AOC originally planned to conduct another round of focus groups 
in fiscal year 2007, but those plans were put on hold due to funding 
issues under the Continuing Resolution. From April 15-25, 2008, the AOC 
held 24 employee focus group sessions at different times and days to 
accommodate all shifts and work schedules. More than 10 percent of AOC 
employees participated. Preliminary data verifies that the 226 
voluntary participants are highly reflective of the professional 
composition of the total AOC employee base. A report on the focus group 
sessions is now being finalized, and the AOC will brief its oversight 
committees on the findings from the sessions.
    Question. In its list of fiscal year 2007 significant 
accomplishments, AOC reported rolling out Management Operations 
Reporting (cost-accounting) agency-wide. While this is commendable, 
recent GAO reports have indicated that full implementation and use of 
AOC's agency-wide cost-accounting system is years away. Given that this 
effort has been underway for several years now, why is AOC's cost-
accounting system still not fully implemented within the agency? How 
far away is AOC from fully implementing its cost-accounting system? 
Please describe where the agency is in this process and what steps 
remain to achieve full implementation.
    Answer. The MOR (cost accounting) project is a phased, multi-year 
project. The project is on schedule for full implementation of cost 
accounting by fiscal year 2010, with the use of cost accounting data 
for performance-based budgeting in fiscal year 2011. The milestone 
targets, as described in the AOC's Strategic Plan, are as follows: 
fiscal year 2007: Cost accounting introduced, pilot, and AOC-wide 
rollout (completed); fiscal year 2008: Adjustment and normalization of 
cost data (in process); fiscal year 2009: Baseline data collection (in 
planning); fiscal year 2010: Full implementation; and fiscal year 2011: 
Mature cost accounting system in-place and performance-based budget 
implemented.
    In fiscal year 2007, the AOC rolled out its cost activity taxonomy 
with more than 1,000 codes. After finding duplicative codes and 
determining that the codes did not link well to the Strategic Plan, we 
streamlined and standardized cost activity codes to approximately 300. 
In fiscal year 2008, we are adjusting and normalizing cost data, 
creating new managerial reports, and monitoring compliance. In fiscal 
year 2009, the AOC will pilot future benchmarking efforts to enable the 
organization to measure jurisdictions against one another and against 
other Federal agencies. We will introduce an indirect cost allocation 
methodology, so the full cost of work at the AOC can be measured. We 
will also integrate non-financial data (e.g. square footage) with cost 
data to provide more visibility on the cost of activities or outputs.
    The installation of business intelligence tools will play a major 
role in future reporting and benchmarking efforts. Enhanced reporting 
tools will provide better and timelier information to management. In 
fiscal year 2010 and beyond, as the AOC cost accounting and reporting 
systems continue to mature, we anticipate that managers will use cost 
accounting data to project future resource needs, identify and examine 
workload trends, allocate administrative expenses, determine unit 
costs, track workload output, measure performance, and assist with 
budget formulation and execution.
    Question. What is the status of hiring an Inspector General? When 
do you expect an IG to be on-board?
    Answer. The AOC has contracted with an executive search firm to 
conduct a nationwide search. In addition to posting a vacancy 
announcement on USA Jobs (OPM's Web site), this firm is aggressively 
recruiting passive IG candidates (network, cold call, and data mine). 
To identify potential AOC IG candidates, recruiters have reached out to 
85 contacts at various levels within a wide variety of organizations. 
The outreach efforts have yielded more than 130 potential candidate 
leads to date. The recruiting firm is now reaching out to the leads to 
determine their suitability for the AOC IG position. The AOC 
anticipates receiving a list of the top candidates to be interviewed by 
late May and selecting the new IG in early June. Arrival of the IG 
candidate will depend upon his/her current employment and location, but 
it is hoped to have the new IG on staff by late June.
    Question. AOC has requested new statutory authority regarding 
Senior Executive Service-level employees. Please describe the reasoning 
behind the 29 (now 30) positions AOC has requested? What is the status 
of AOC's development of a senior-level employee performance appraisal 
system?
    Answer. Existing AOC statutory authority at 2 U.S.C. 1849 
establishes three separate AOC executive level pay categories, (e.g., 
one at the SES pay level; one at 135 percent of the minimum GS-15 pay 
level; and one at 95 percent of the SES pay level.). The legislation 
that the AOC has requested would create a single cadre of AOC SES 
positions paid at the established SES pay rates in accordance with 
subchapter VIII of Chapter 53, Title 5. The 29 positions identified in 
the proposed legislation was the total number of AOC executive level 
positions authorized by statute in the three AOC executive level pay 
categories. Note: That number has increased by 1, from 29 to 30 due to 
the addition of a Deputy CEO for Visitor Services for the CVC. On 
February 1, 2008, the AOC instituted a revised executive appraisal 
system that we believe meets the requirements and criteria of 
subchapter II of Chapter 43, Title 5.
    Question. In recent fiscal years, Congress has appropriated funds 
for the Architect to pursue energy efficiency studies and initiatives. 
How are energy efficiency savings gained from such initiatives 
reflected in AOC's fiscal year 2009 budget request?
    Answer. In fiscal year 2008, $400,000 ($399,000 post-rescission) 
was appropriated for energy audits. Funds were received at 
approximately the same time that the AOC had to submit its fiscal year 
2009 budget request. These energy audits have not yet been finalized; 
however, we anticipate the audits will be completed in time to consider 
a number of energy projects when developing our fiscal year 2010 budget 
request.
    The current fiscal year 2009 request includes the following 
specific energy studies: Daylight Harvesting Study; Constant Volume 
Systems Conversion Study; Existing Motor Premium Study; Retro-
Commission Building Heating, Ventilation, Air Conditioning Systems, 
Phase 2 Study; Electrical Sub-Metering Study; Domestic Water Process 
Survey Study; and the Server/Heating, Ventilation, Air Conditioning 
Study.
    The fiscal year 2009 budget request contains the following Capitol 
Power Plant projects that are projected to generate substantial 
reductions in energy usage: Chiller Replacement, West Refrigeration 
Plant (Design); and Wickes Boiler Modernization and Controls 
Replacement, Capitol Power Plant (Design).
    Question. Has any consideration been given to the addition of a 
gift shop and snack bar/restaurant at the Botanic Garden?
    Answer. The Botanic Garden realizes that a gift shop/food service 
would provide services that are sometimes requested by our visitors, 
and has considered these options. However, the over-riding factor in 
not pursuing them is the very limited amount of available space in the 
Conservatory. The Garden is using the West Orangerie as an exhibit 
space, and at times, as a staging area. The East Orangerie has been 
retrofitted as a classroom and is used for many, varied, public 
education programs. The Garden believes that it achieves more in terms 
of mission fulfillment by providing educational programs and exhibits 
than it would by providing a restaurant.
    If the Garden were able to acquire additional space and resources, 
a gift shop and/or food service operation could be added. Both would 
require additional storage space for merchandise and safe food 
preparation, utility hook-ups, as well as sewer and sanitary 
provisions.
                                 ______
                                 
              Questions Submitted to Dr. James Billington
            Questions Submitted by Senator Mary L. Landrieu
                    fiscal year 2009 budget request
    Question. According to your budget justification, the Library's 
senior leadership was instructed to conduct in-depth reviews of their 
programs, priorities, and current and planned projects in formulating 
the fiscal 2009 budget. This included proposals for funding cuts or 
elimination of programs. Please delineate the program cuts that were 
made in the budget formulation.
    Answer. In formulating the Library of Congress' fiscal 2009 budget, 
the Librarian asked the senior leadership to proactively identify 
projects or programs that could be cut or eliminated. While a majority 
of the offices did not make wholesale cuts of programs or projects, a 
number of offices and programs have been significantly affected by 
funding limitations. $52 million in critical new funding needs were 
identified in the early stages of fiscal 2009 budget formulation, much 
of it to address information technology infrastructure requirements. 
However these needs were eliminated from the fiscal 2009 budget 
submission in recognition of the severely constrained Federal budget 
environment.

----------------------------------------------------------------------------------------------------------------
          Program/project/initiative                                Description                        Funding
----------------------------------------------------------------------------------------------------------------
Information Technology Infrastructure.........  Infrastructure investment for ACF, NAVCC, Web            $21.177
                                                 Services, New Visitors Experience, and Capitol
                                                 Data Center.
Digital Talking Books.........................  Restore funding to original 4-year implementation        $13.2
                                                 timeframe.
Library Services Base Restoration.............  Partial restoration of fiscal 2007-2008 base cuts.        $8.998
New Visitors Experience.......................  Enhance awareness of LoC programs and collections.        $4.423
Facility Services.............................  Business Process Reengineering....................        $1.247
Law Library...................................  GLIN expanded access and Law Materials............         $.540
Human Resources...............................  Career Development................................         $.161
Contracting...................................  Contract Specialist Support.......................         $.188
Security......................................  Reading Room contract guards......................         $.142
Congressional Research Service................  Enhanced Access...................................        $1.761
                                                                                                   -------------
      Total, Fiscal 2009 Funding Requirements   ..................................................       $51.837
       Eliminated from Request.
----------------------------------------------------------------------------------------------------------------

    Integrated Support Services (ISS) was unable to request needed 
resources for the Facility Design and Construction office (FD&C). The 
IG has documented inefficiencies in FD&C core business processes, space 
management practices, and resource and staff support capacities that 
could be addressed through business process reengineering and technical 
and developmental training. ISS cannot respond to the IG 
recommendations, such as developing procedural manuals and utilizing 
automated systems to improve space allocation and design, without 
sufficient resources. Additionally, necessary custodial contract 
support for Fort Meade collections Modules 3 and 4 has been unavailable 
due to a lack of resources.
    The combination of non-recurring program costs, insufficient price 
level increases, rescissions, and the need to contribute to unfunded 
mandates has left the Law Library of Congress with more than 81 percent 
of its fiscal 2008 budget dedicated to payroll costs. The Law Library, 
the smallest Service Unit within the Library, will be unable to absorb 
further funding cuts or the elimination of programs in its fiscal 2009 
budget without building significant arrearages or sacrificing key legal 
research and reference services to Congress.
    Fiscal constraints necessitated reductions in staff size and 
infrastructure investments in CRS. With almost 90 percent of the budget 
devoted to staff salaries and benefits, cuts will result in a smaller 
workforce. CRS positions are being reduced by 30 to a level of 675 FTE, 
the lowest level in 33 years. The loss of positions is being confined 
to the supporting offices to protect the analytical capabilities of the 
Service. Meanwhile, the cuts in infrastructure investments will delay 
the modernization of aging equipment and outdated capabilities. The 
hope is that this cost cutting will be transitory and not sustained in 
future years.
    Library Services' cuts were made primarily in funding to acquire 
collections identified by curators as being valuable and useful to the 
Library, and by not requesting the restoration of fiscal 2007-2008 base 
funding cuts of approximately $9 million and $13.2 million for the 
Digital Talking Book Program.
    Question. Also, please delineate all shifts in funding from one 
significant program, project, or activity to another that were made as 
part of the proposed budget.
    Answer. The fiscal 2009 budget did not include shifts in funding 
from one significant program, project, or activity to another. Rather, 
the fiscal 2009 budget request reflected fiscal restraint through 
elimination of critical funding needs, by either forgoing or seeking to 
internally fund those items or activities in fiscal 2009.
                            staffing levels
    Question. What is the actual staffing level you expect to attain 
for fiscal 2008, by Appropriation/PPA, compared to the ``authorized'' 
level? What is the real increase in staffing requested for fiscal 2009, 
compared to the actual level in fiscal 2007 and fiscal 2008 (expected)?
    Answer.

              LIBRARY OF CONGRESS COMPARISON OF FTE LEVELS, FISCAL 2007 ACTUAL--FISCAL 2009 REQUEST
----------------------------------------------------------------------------------------------------------------
                                                         Fiscal 2008                         Fiscal 2009 request
                                             -----------------------------------           ---------------------
                                     Fiscal                                        Fiscal      vs.        vs.
        Appropriation/PPA             2007    Authorized                            2009      fiscal     fiscal
                                     actual    FTE level   Expected  Difference  requested     2007       2008
                                   FTE level      \1\     FTE level                 FTE       actual    expected
                                                                                               FTE        FTE
----------------------------------------------------------------------------------------------------------------
Library of Congress, S&E:
    National Library:
        Library Services.........      1,534       1,640      1,618         +22      1,618        +84  .........
        Office of Strategic              310         363        343         +20        363        +53        +20
         Initiatives.............
Law Library......................         92         101        101  ..........        101         +9  .........
    Management Support Services:
        Office of the Librarian..        134         150        147          +3        150        +16         +3
        Human Resources Services.         56          72         69          +3         72        +16         +3
        Integrated Support               138         157        149          +8        157        +19         +8
         Services................
        Security and Emergency           123         131        123          +8         95        -28        -28
         Preparedness............
        Office of the Inspector           14          18         18  ..........         18         +4  .........
         General.................
                                  ------------------------------------------------------------------------------
          Total, Library of            2,401       2,632      2,568         +64      2,574       +173         +6
           Congress S&E..........
                                  ==============================================================================
Copyright Office, S&E:
    Basic........................        448         439        433          +6        439         -9         +6
    Licensing Division...........         30          30         28          +2         30  .........         +2
    Copyright Royalty judges.....          5           6          6  ..........          6         +1  .........
                                  ------------------------------------------------------------------------------
      Total, Copyright Office,           483         475        467          +8        475         -8         +8
       S&E.......................
                                  ==============================================================================
Congressional Research Service,          681         675        675  ..........        675         -6  .........
 S&E.............................
BBPH, S&E........................        114         128        128  ..........        128        +14  .........
                                  ------------------------------------------------------------------------------
      Total Library of Congress        3,679       3,910      3,838         +72      3,852       +173        +14
       appropriations............
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal 2008 authorized FTE level per approved Operating Plan.

                      performance-based budgeting
    Question. Please describe the efforts you will take in the next 
year to further the Library's use of performance-based budgeting.
    Answer. The Library's strategic plan provides the foundation for 
annual planning and budgeting efforts. The Congressional Budget 
Justification's (CBJ) new format and content represents the Library's 
initial efforts to illustrate how the Library's funding allocations 
align with the five strategic plan goals. The new CBJ format and 
content also includes key organizational performance targets which 
communicate the results the Library plans to achieve with requested 
resources.
    Future Library efforts to implement the ``Spirit of GPRA'' and to 
demonstrate how performance informs budgetary decisions will include 
the following:
  --Improve the program performance assessment program. A team of 
        Library-wide planners has been established to improve the 
        quality of the fiscal 2010 annual program performance targets 
        against the key performance benchmarks of specific, measurable, 
        achievable, relevant and time bound (referred to as the SMART) 
        criteria. The team is also working to increase the number of 
        performance targets that have pre-defined standards for 
        achieving results.
  --In detailing prior year (i.e., fiscal 2008) performance 
        information, include results achieved against previously 
        planned (and reported in fiscal 2009 CBJ) targets.
  --Provide detailed breakout of operating budgets in table format for 
        each Subunit overview section. This will further respond to 
        committee feedback about needing a clearer (tabular) 
        presentation of operating plan budget details.
  --Include in Subunit Overviews narratives specific information about 
        how budgeted resources have enabled organizations to achieve 
        results in the prior year and how base budget decisions (and 
        projected base adjustments) are informed by performance goals. 
        This information will speak to the question of how Library is 
        ``scrubbing the base'' and how performance is driving resource 
        decisions.
  --Finally, the Library will continue to lead the effort across the 
        Legislative Branch to define the ``spirit of GPRA,'' improve 
        our implementation efforts, and share best business practices. 
        The Library's Strategic Planning Officer chairs a subcommittee 
        of the Legislative Branch Financial Management Council (LBFMC) 
        that is focusing on GPRA. In 2007 this subcommittee developed a 
        performance system for the Legislative Branch agencies to use 
        to demonstrate measurable results. This performance system 
        defines key performance indicators, elements and validation 
        criteria derived from the GAO Report, GAO 01-1008G, Internal 
        Control Implementation and Evaluation Tool, dated August 2001. 
        This system establishes a Legislative Branch-wide definition of 
        the ``spirit of GPRA.'' In 2008 the subcommittee has been 
        working to develop a baseline against the performance system 
        criteria. The subcommittee will soon be performing a gap 
        analysis to ensure that the best practices are implemented 
        across the Legislative Branch.
                          contracts management
    Question. According to the Inspector General, there are significant 
and long-standing problems in the Contracts Office, which has 
responsibility for over $180 million in annual spending. The 
deficiencies may prevent the Library from obtaining the best value in 
contracts and may expose it to liability. Please provide a complete 
explanation for your plans to overhaul this office.
    Answer. The Chief Operating Officer named an Acting Director of 
Contracts and Grants Management (OCGM) effective April 14, 2008. The 
incumbent formerly served as the Library's Chief of Contracts and 
Logistics and has more than 20 years of experience in directing and/or 
auditing acquisitions and logistics operations in both military and 
civilian agencies. She has directed the day-to-day operations of 
Federal contracting officers, logisticians, and auditors/program 
evaluators who audited high profile, complex, multi-billion dollar 
Department of Defense (DOD) acquisitions.
    The new director was instructed to review and devise an action plan 
within her first 30 days on the job. The following represents her 
approach and plans for transforming the Contracts Office in the 
immediate future.
    New policy and procedures have been implemented around four 
critical goals:
Goal One: Improve Communications
    OCGM Help Desk Phone and E-mail has been established for tracking 
status.
    New policies/procedures have been implemented for processing 
Requisitions.
    Acquisition Planning implemented for fiscal 2008 and fiscal 2009 
contract actions.
    Contracts Working Group established and first meeting held on May 
7, 2008.
Goal Two: Increase Productivity
    Tiger Team, made up of the most experienced contract specialists, 
has been formed to handle backlog contract actions.
    Interviews have been completed for the three GS-13 contract 
specialists appropriated, and offers have been extended.
    An Open Continuous Announcement (GS-12; GS-13; GS-14; GS-15) for 
contract specialists has been implemented to expedite hires as 
permanent staff openings occur.
    A contract has been awarded to conduct Workflow Analysis of the 
entire Contracts Operation, and the vendor began work on May 27. 
Specifically, the vendor will:
  --Benchmark current work practices with best practices and develop 
        new PALTS.
  --Develop an Acquisition Strategy/protocol for the Agency.
  --Examine two automated systems and recommend an integration 
        strategy.
    --IAG w/DCAA Support effective--May 2008;
    --OCGM Website Update--June 2008;
    --Acquisition Alerts Handbook Update--July 2008; and
    --COTR Training and Cert Program--August 2008.
Goal Three: Improve Timeliness In LC Contracting Process
    The following activities have been implemented to positively affect 
efficiency:
  --OCGM Tiger Team (Backlog)--May 5, 2008;
  --LC-wide Acquisition Planning (Memo to SU's)--May 12, 2008;
  --Personnel Assists--June-Sept 2008;
  --Workflow Analysis (Start Date)--May 19, 2008;
  --Using Various Contract Types--Now;
  --Using Letter Contracts for Urgent and Compelling--Now; and
  --Using Class D&Fs--Now.
Goal Four: Improve Business Practices and Documentation
    Update Contracts Operating Instructions--April 2008-December 2008.
    Re-establish the Contract Review Board.
  --Established a Group to focus on Contract File Management.
                                 ndiipp
    Question. You have requested an increase of $6 million for the 
National Digital Information Infrastructure and Preservation Program 
to, according to your budget justification ``maintain a minimum 
operational funding level.'' How did you determine what the minimum 
operational funding level should be for this program? Please provide 
the 5-year plan for NDIIPP spending.
    Answer. The minimum operational funding level was formulated based 
on several factors. These include:
  --Recognition of agency and legislative branch budgetary constraints.
  --Our annual program operational experience to date.
  --A realistic assessment of needed content, network, and technical 
        infrastructure investments to attain our 5-year program 
        outcomes.
    The strategy is to approach the selection and preservation of 
content as triage of the most critical needs and risks to preserve 
digital content determined to be most valuable to public policy and 
Congress.
    The 5-year plan that follows outlines the goals and outcomes for 
the program.

   Office of the Associate Librarian for Strategic 
                                       Initiatives,
                                   The Library of Congress,
                                                    Washington, DC.
Date: February 5, 2008.
From: Laura E. Campbell, Associate Librarian for Strategic Initiatives/
        Chief Information Officer
Subject: NDIIPP Plan 2008-2013

    The National Digital Information Infrastructure and Preservation 
Program (NDIIPP) is the Library's strategic direction for collecting 
and preserving critically important content that only exists in digital 
form. It is a transition to a new way of doing business, sharing 
ongoing costs and expertise with a trusted network of vetted partners. 
In order to sustain this collaborative approach to the stewardship of 
digital content ongoing investments are necessary.
    Attached please find the NDIIPP Plan for 2008-2013.
               Collecting and Preserving Digital Content
  National Digital Information Infrastructure and Preservation Program
PROGRAM AND RESOURCE PLAN, FISCAL YEAR 2008-FISCAL YEAR 2013
                            fiscal year 2008
        ndiipp: making the transition to sustainable stewardship
Goal
    Align strategic direction of the NDIIPP program with available 
resources while fulfilling pre-2007 agreements with partners.
Fiscal year 2008 objectives
    Operate existing network.
    Follow through on multi-year partnership agreements made in fiscal 
year 2007, to the extent possible with limited resources (see charts on 
page 5).
    Transition the no-year, term-limited program scenario to an annual 
operating program.
    Prepare NDIIPP Report (2003-2008).
Program Achievements Fiscal Year 2003-2008
    Content.--66 terabytes \1\ at-risk digital content collected and 
preserved by partners; provide access for Congress to partner content.
---------------------------------------------------------------------------
    \1\ A terabyte is the equivalent of the digital text of 1 million 
books.
---------------------------------------------------------------------------
    Network.--Network of 130 partners in content, technology, research, 
government and business sectors across 25 States; 10 Federal agencies 
collaborating to develop standards to preserve and sustain at-risk 
content on a national level; report of Section 108 Copyright Working 
Group.
    Technical Infrastructure.--Storage and transfer infrastructure for 
66 terabytes of partner content; 12 shared tools and technology 
services built and customized especially for digital content capture, 
storage and management.

   FISCAL YEAR 2008 PROGRAM OPERATING PLAN--SOURCES AND USES OF FUNDS
       [Original planned vs. current budget, dollars in millions]
------------------------------------------------------------------------
                                            Fiscal year
          Fund type/Description            2007 original  Current budget
                                            planned \1\
------------------------------------------------------------------------
          NDIIPP No-year fundsFund source:
    Fiscal year 2008 beginning balance..          $5.513          $5.748
    Fiscal year 2008 restoration request          21.500  ..............
                                         -------------------------------
      Total no-year funds...............          27.013           5.748
                                         ===============================
Fund use:
    Staff \2\...........................           1.478  ..............
    Program management and network                 1.249           0.412
     administration.....................
    Grants to/contracts with partners:
        States regional demonstration             13.500           2.291
         projects.......................
        Content partnerships............           6.000           1.688
        Repositories and infrastructure            2.000           1,357
         partnerships...................
                                         -------------------------------
          Total no-year funds...........          24.227           5.748
                                         ===============================
Fiscal year 2008 ending balance                    2.786  ..............
 (projected)............................            NDIIPP Base FundsFund source: Fiscal year 2008 enacted...  ..............           1.478
Fund use: Staff \2\.....................  ..............           1.478
Fiscal year 2008 ending balance           ..............  ..............
 (projected)............................
------------------------------------------------------------------------
\1\ Original planned amounts developed in February 2007.
\2\ Request for staff salaries to be supported by base funds in the
  Fiscal Year 2008 Operating Plan.


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
Investments
    From fiscal year 2009-2013, the NDIIPP Program will invest 
resources in three areas;
  --Content will focus on bringing at-risk content under stewardship 
        through a network of national partners.
  --Network will focus on expanding digital preservation action by 
        establishing the National Alliance for Content Stewardship.
  --Technical Infrastructure will collaborate with partners to enable 
        cost-effective storage and management of a variety of types of 
        content brought under stewardship.
Projected Achievements Fiscal Year 2009-2013
    Content.--650 terabytes of at-risk digital content under national 
stewardship, representing nearly a ten-fold increase over current 
levels.
    Network.--The National Alliance for Content Stewardship operational 
in all 50 States.
    Technical Infrastructure.--Cost effective storage and management of 
650 terabytes of at-risk digital content distributed across the 
partnerships.

                                    NDIIPP FUNDING, FISCAL YEAR 2009-2013 \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year--
                                                               -------------------------------------------------
                                                                  2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Staff.........................................................     1.478     1.478     1.478     1.478     1.478
Content.......................................................     3.499     3.499     3.499     3.499     3.499
Network.......................................................      .724      .724      .724      .724      .724
Technical infrastructure......................................     1.810     1.810     1.810     1.810     1.810
                                                               -------------------------------------------------
      Total...................................................     7.511     7.511     7.511     7.511     7.511
----------------------------------------------------------------------------------------------------------------
\1\ Does not reflect price level or mandatory changes.


                            NDIIPP FUNDING BY OBJECT CLASS FISCAL YEAR 2009-2013 \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year--
                         Object class                          -------------------------------------------------
                                                                  2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
11xx pay......................................................     1.478     1.478     1.478     1.478     1.478
21xx travel...................................................      .050      .050      .050      .050      .050
24xx printing.................................................      .015      .015      .015      .015      .015
25xx contractual services.....................................     2.968     2.968     2.968     2.968     2.968
31xx equipment/software.......................................     1.000     1.000     1.000     1.000     1.000
41xx grants...................................................     2.000     2.000     2.000     2.000     2.000
                                                               -------------------------------------------------
      Total...................................................     7.511     7.511     7.511     7.511     7.511
----------------------------------------------------------------------------------------------------------------
\1\ Does not reflect price level or mandatory changes.


                                         CONTENT--ANNUAL INVESTMENT \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year--
                        Investment area                        -------------------------------------------------
                                                                  2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Cartographic/geospatial.......................................      .475      .502      .479      .460      .444
Web sites.....................................................     1.519     1.623     1.797     1.885     1.928
Audio visual..................................................     1.366     1.232     1.084     1.011      .977
Images and text...............................................      .138      .141      .140      .144      .150
                                                               -------------------------------------------------
      Total...................................................     3.499     3.499     3.499     3.499     3.499
----------------------------------------------------------------------------------------------------------------
\1\ Does not reflect price level or mandatory changes.


                                         NETWORK--ANNUAL INVESTMENT \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year--
                        Investment area                        -------------------------------------------------
                                                                  2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Membership....................................................      .290      .145      .145      .145      .145
Standards development.........................................      .217      .290      .290      .290      .290
Professional development......................................      .145      .217      .217      .217      .217
Outreach......................................................      .072      .072      .072      .072      .072
                                                               -------------------------------------------------
      Total...................................................      .724      .724      .724      .724      .724
----------------------------------------------------------------------------------------------------------------
\1\ Does not reflect price level or mandatory changes.


                                 TECHNICAL INFRASTRUCTURE--ANNUAL INVESTMENT \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year--
                        Investment area                        -------------------------------------------------
                                                                  2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Tools.........................................................      .362      .543      .543      .543      .543
Services......................................................      .724      .543      .905      .905      .905
Transfer protocols............................................      .362      .362      .181      .181      .181
Storage capacity..............................................      .362      .362      .181      .181      .181
                                                               -------------------------------------------------
      Total...................................................     1.810     1.810     1.810     1.810     1.810
----------------------------------------------------------------------------------------------------------------
\1\ Does not reflect price level or mandatory changes.

                  fiscal year 2009 to fiscal year 2013
                                content
Goal
    By 2013, place over 650 terabytes of high value at-risk digital 
content of particular interest to Congress and its constituents under 
national stewardship.
Links to Library's Strategic Plan
    Content goal, Outcome 3.--Increased shared content stewardship 
among libraries and other cooperating bodies.
    Content goal, Outcome 4.--Increased creative and intellectual 
output that contributes to the body of knowledge available to the 
Congress and other constituencies.
Investments
    The following four categories of content (see table below) 
represent high priorities:

                                               CONTENT CATEGORIES
----------------------------------------------------------------------------------------------------------------
             Category                            Description                              Examples
----------------------------------------------------------------------------------------------------------------
Cartographic/Geospatial..........  Today's maps are born digital and are   Congressional cartography
                                    rich with data critical to land use    At-risk State, regional and local
                                    management, disaster relief,            government geospatial data (e.g.,
                                    environmental planning and homeland     emergency response assets,
                                    security.                               jurisdictional boundaries,
                                                                            infrastructure maps)
                                                                           Aerial and satellite imagery,
                                                                            including coastal imagery
Web Sites........................  The Web is an increasingly important    Materials related to critical public
                                    source of information by and about      policy issues (e.g., public health
                                    government, as well as a mirror of      and medical preparedness, water
                                    the political and social events of      quality management, foreign
                                    our time. Much of the documentation     investment and international
                                    of our daily lives, as well as public   outsourcing, personal privacy
                                    discourse and debate, has moved to      protection and data security)
                                    this new digital landscape in which    State and local digital publications
                                    content appears and vanishes at         and agency policy documents
                                    incredible speed.
Audio Visual.....................  The very nature of broadcast            Foreign news broadcasts
                                    distribution makes television and      U.S. television broadcasts
                                    radio one of the most at-risk forms    Radio broadcasts
                                    of content. Non-commercial
                                    programming from both the United
                                    States and foreign countries is of
                                    particular interest.
Images and Text..................  These materials represent substantial   State and local agency records (e.g.,
                                    information investments that have       court records, vital records, land
                                    been made by the government, cultural   ownership records)
                                    heritage institutions and other        Databases containing the results of
                                    segments of society.                    research and surveys
                                                                           Previously digitized content
----------------------------------------------------------------------------------------------------------------

                                                                           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                           
Content Types
    Content under stewardship by NDIIPP partners includes geospatial, 
digital television, web sites, social science datasets, business 
records and digital cultural heritage collections. Adding access 
functionality for search and retrieval and user interfaces, increases 
the cost of stewardship beyond basic maintenance costs of secure, 
monitored storage and data management. There is also a cost multiplier 
effect across complex and diverse content types.
                                network
Goal
    By 2013, establish agreements with diverse stakeholders in all 50 
States to sustain a digital preservation network.
Links to Library's Strategic Plan
    Outreach goal.--Increase awareness of the value and utility of the 
Library.
Investments
    Network investments are in:
    Membership.--Building on fiscal year 2003-2008 partnerships, 
establish the National Alliance for Content Stewardship.
    Standards Development.--Collaborate with partners from content, 
technology, government and business sectors to develop standards to 
sustain at-risk digital content.
    Professional Development.--Promote awareness and adoption of good 
preservation practices through professional development for digital 
content stewards.
    Outreach.--Promote public awareness through a Web site and various 
media outlets. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        technical infrastructure
Goal
    By 2013, enable cost-effective storage and management of 650 
terabytes of a variety of types of digital content.
Links to Library's Strategic Plan
    Content Goal, Outcome 2.--Enhanced preservation and accessibility.
    Content Goal, Outcome 3.--Increased shared content stewardship 
among libraries and other cooperating bodies.
    Organization Goal, Outcome 1.--Optimized cultural, physical and 
technology environment maximizing quality, efficiency and creativity.
Investments
    The partners work collaboratively to develop the NDIIPP technical 
infrastructure by building the information systems, tools and services 
that support the digital programs.

                          PROJECTED OUTCOMES FOR FISCAL YEAR 2009-FISCAL YEAR 2013 \1\
----------------------------------------------------------------------------------------------------------------
                 Category                                                 Outcome
----------------------------------------------------------------------------------------------------------------
Tools....................................  Systems and utilities that can be used by content collectors and
                                            managers to automate tasks and processing
Services.................................  Operational services for digital content management offered to
                                            stewardship communities
Transfer protocols.......................  Robust and scalable digital content delivery mechanisms among
                                            partners and between the Library's preservation and access technical
                                            environments
Storage capacity.........................  Architecture to store more by reducing cost per byte over time
----------------------------------------------------------------------------------------------------------------
\1\ See next page for detailed milestones chart by technical infrastructure components.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         overseas field offices
    Question. The budget request includes $5,366,000 for the Department 
of State Capital Security Cost-Sharing Program, an increase of 
$2,966,000 over the fiscal 2008 level. What are the implications if 
this increase isn't funded?
    Answer. If the increase is not funded, the Library will have to 
shift funds within its base to cover the CSCS assessment. The amount 
due to the Department of State was determined during fiscal 2007 and 
cannot be reduced at this point. The shifting of base funds will force 
the Library to consider closing some of its six offices. Because of 
their size and cost, two of the largest offices could be affected--
Cairo, Egypt and Jakarta, Indonesia. The effect of closing these two 
offices would be grave. Analysts and reference specialists would be 
deprived of current, valuable materials from hotbed areas of the world. 
Lack of access to these materials would impede getting vital 
information pertaining to these areas. Closing these offices would also 
result in the termination of the Cooperative Acquisitions Program for 
regions covered by these two offices. Each overseas office currently 
operates a cooperative acquisitions program with at least forty 
participating libraries and educational and research centers.
    Question. What is the total cost of the overseas field offices, by 
office, compared to fiscal 2008?
    Answer. In addition to the $5,366,000 cited above for the Capital 
Security Cost Sharing program assessment, the projected costs for the 
offices for fiscal 2009 are $8.86 million total. The projected costs 
(salaries and overhead) for each office are:
  --Brazil--$1,338,508;
  --Egypt--$1,169,158;
  --India--$2,299,547;
  --Indonesia--$1,499,494;
  --Kenya--$1,707,071; and
  --Pakistan--$847,246.
    Projected costs may change due to regional rates of inflation and 
the falling value of the U.S. dollar against foreign currencies. 
Additionally, approximately $600,000 will be spent to run the 
Cooperative Acquisitions Programs, all recovered from program 
participants and not included in the amounts cited above or the 
Library's funding request.
    Question. What plans does the Library have to change its methods 
for acquiring materials from the six areas the field offices cover?
    Answer. Because the Library has determined that there are no viable 
means to continue to collect research materials from these areas 
without an actual presence in the regions, the Library does not plan to 
change the methods of acquiring materials from areas currently covered 
by the six offices. The Library still views as sound its ongoing (1) 
acquisitions of materials by its Capitol Hill staff for materials from 
parts of the world that have robust publishing and information 
dissemination infrastructures and (2) its acquisitions of materials by 
staff locally situated in areas of the world where materials are 
difficult to obtain, that is, through its six overseas offices. 
Commercial book vendors remain inadequate for the parts of the world 
covered by the overseas offices and generally do not acquire non-
commercially produced items. Non-commercial research materials, such as 
government and non-government issued reports, large bank reports, oil 
company reports, etc., would no longer be acquired without the local 
presence of the offices. Additionally, office staff members have 
language and subject expertise used to catalog materials acquired, 
which considerably lowers the overall cost of cataloging the materials. 
Without this expertise of the local staff, the processing of the 
materials that would be acquired would be done by Library staff in 
Washington at far greater expense. There is a growing lack of trained 
professional librarians in the United States with language and area 
studies expertise of the regions where we have overseas offices. The 
Library monitors publishing trends in all parts of the world. When 
problems are identified, we seek low-cost options for securing 
publications. China is a notable example. A single acquisitions office 
would not be adequate for such a large country. We have worked with 
local professors and graduate students to identify and purchase 
materials from remote regions of China.
    Question. What is the Library doing to work with other institutions 
to seek to cover some of the costs of the field offices?
    Answer. The Library works with the participants of the Cooperative 
Acquisitions Programs, whereby participants offset the cost of running 
the acquisitions programs and indirectly keep the cost of acquiring 
materials down by through discounts resulting from the purchase of 
multiple copies.
                        loc contractor employees
    Question. What is the total amount the Library spends on contracts 
each year? How many contract employees does this equate to? What is the 
average price of a contractor employee per hour, and how does that 
compare to the cost of the average LOC employee?
    Answer. The Library spent $2.256 million on personal services 
contracts in fiscal 2007, primarily for expert skills or unique 
services required on a special or occasional basis, which could not be 
provided with any degree of efficiency by current Library staff. Hourly 
costs per contractor ranged widely based on the specific requirements 
of each contract. Where specific data was available on the costs of 
individual contractors (as opposed to the more prevalent breakdown of 
costs by task order or deliverable), hourly rates ranged from $25 to 
$125. The average hourly rate across all contracts was $60, as compared 
to the average cost of salaries and benefits of all Library employees 
over the same time period of $50.
                        cataloging productivity
    Question. Please explain the extent to which the Library has become 
more efficient in its cataloging efforts over the past several years.
    Answer. From fiscal 2003 to 2007, cataloging production increased 
from 525 titles per FTE to 890 titles, an increase of 70 percent in 
only 5 years. At the same time, the cost per title cataloged decreased 
from $115.56 to $81.97, a reduction of more than 29 percent despite 
salary increases and inflation. (These costs include staff and 
supervisory salaries, fringe benefits, and directorate, service unit, 
and agency overheads.) Productivity and efficiency have increased 
through the following measures:
  --Implementation of the Library's first integrated library system (LC 
        ILS) in August 1999 laid the foundation for continuous business 
        process improvements.
  --The LC ILS allowed the Library to develop automated applications 
        that could interface with the LC ILS to facilitate staff 
        efficiencies in searching and creation, validation, and quality 
        assurance of bibliographic data.
  --Through ``copy cataloging,'' staff increased the use of cataloging 
        data created at other institutions to represent items in the 
        Library's collections, thereby reducing cataloging costs by 
        one-third for this group of items. To optimize use of copy 
        cataloging, the Library (1) introduced software that searches 
        the LC ILS and the external source of cataloging data with a 
        single search and (2) centralized most copy cataloging activity 
        in a single work team composed of technician level staff, 
        thereby reducing the cost of copy cataloging. To ensure that 
        the Library and the Nation's libraries have access to a supply 
        of high-quality cataloging copy, the Library provides training 
        and administrative infrastructure for the Program for 
        Cooperative Cataloging, an international consortium of more 
        than 500 institutions.
  --Catalogers now complete call numbers for most originally cataloged 
        materials as part of a single workflow process.
  --The Library focused on using the appropriate level of cataloging 
        for all materials. In 1997, the Library adopted a new default 
        level of cataloging that is sufficient for most of the 
        materials it catalogs. Reference and rare materials receive 
        fuller cataloging, while materials of low research value may 
        receive minimal-level or collection-level cataloging, which 
        describes resources at a lower expense.
  --The Library's six overseas offices were upgraded with the Library's 
        ILS software and now catalog the materials they acquire at 
        lower costs than can be done by Library staff on Capitol Hill.
  --The Library receives records suitable for initial bibliographic 
        control from approximately thirty of its book dealers 
        throughout the world, generally at no additional charge.
  --The Library obtains, through outsourcing, materials ready to be 
        shelved, with complete cataloging, for some Italian, Japanese, 
        and Russian materials.
  --The Library has begun using data leased from commercial sources in 
        order to avoid keying massive amounts of data, again reducing 
        cataloging costs.
  --The Cataloging in Publication (CIP) program, which in fiscal 2007 
        provided cataloging in advance of publication for 53,210 books 
        judged likely to be widely acquired by the Nation's libraries, 
        is now nearly all electronic. Staff prepare catalog records on 
        the basis of publisher galleys submitted in electronic form, 
        permitting much of the catalog record to be constructed 
        automatically. Further, the cost of mailing data via the U.S. 
        mail has been practically eliminated.
  --The Library instituted partnerships with other research libraries 
        in which the other libraries catalog electronic galleys that 
        will be published by their own institutions. More than 3,300 
        catalog records were obtained through this Electronic CIP 
        Cataloging Partners program in fiscal 2007.

  LIBRARY OF CONGRESS ACQUISITIONS AND BIBLIOGRAPHIC ACCESS DIRECTORATE
        COST AND OUTPUT PER STAFF MEMBER, FISCAL 2003-FISCAL 2007
------------------------------------------------------------------------
                                           Bibliographic
               Fiscal year                  volumes per      Cost per
                                                FTE           record
------------------------------------------------------------------------
2003....................................             525         $115.56
2004....................................             559          124.95
2005....................................             644          119.66
2006....................................             840           94.64
2007....................................             890           81.97
------------------------------------------------------------------------

                             reading rooms
    Question. According to the Inspector General, there is significant 
underutilized reading space owing to the dramatic growth in, and 
improved access to electronic information. Please describe plans to 
consolidate the reading rooms.
    Answer. Following the Inspector General's recommendation in 
September 2007 to gather data on reading room use during the first 
quarter of 2008, Library Services actively engaged in a comprehensive 
usage survey among all the subject- and format-based research centers 
and reading rooms. Library Services is continuing to compile statistics 
in a consistent fashion during the second quarter as well to facilitate 
future decision-making. The recent inauguration of the Library of 
Congress Experience has resulted in greater public visitation and an 
expected increase in new cards issued by the Reader Registration unit. 
Even more visitors and a rise in new readership are anticipated once 
the CVC opens later this year. The recent announcement of the 
relocation--falsely described as a closure--of the European Reading 
Room that was broadcast over the Internet by scholars resulted in 
numerous complaints to Congress by researchers, underscoring the 
sensitivity of reducing the number of points of access to collections 
and staff expertise.
    The Copyright Office consolidated three reading rooms (the 
Copyright Card Catalog, the Records Maintenance Unit retrieval area, 
and the Licensing Division's reading room) during the renovation of 
Copyright Office workspace. This action freed much-needed space for 
critical program activities and allowed the sharing of infrastructure 
and support services while making possible the provision of nearly the 
same level of service with fewer staff and with a smaller investment in 
infrastructure and technology. Also, as a result of consolidation 
visitors are confined to one area, reducing expenses for signage, 
security, etc.
                          collections storage
    Question. Current collections policies result in a daily addition 
of approximately 10,000 items to the library's collections. At this 
rate of growth, how soon will existing storage facilities be filled?
    Answer. The figure of 10,000 items per day includes both special 
format collections (e.g., maps, manuscripts, prints) and books and 
bound periodicals. For the book collections, approximately 1,500 items 
are added to the general, Areas Studies and Law collections daily. 
Special format collections constitute the remainder.
    Existing storage facilities have been, or are in the process of 
being, filled. Significant overcrowding in the facilities housing both 
book collections and special format collections has dictated a space 
utilization plan that requires the most efficient use of existing 
facilities and a construction/rental program for additional storage 
space off-site.
    Question. When will additional storage space be needed?
    Answer. Additional storage space is needed at the present time and 
is currently in the Library's plans. Initiatives currently underway to 
address this are:
  --Upgrades to the third floor fire protection system at the National 
        Audio-Visual Conservation Center (NAVCC) at Culpeper, Virginia 
        which will permit the Library to complete the relocation of the 
        recorded sound and moving image collections to that facility, 
        allowing for future collections growth in those media.
  --Completion of Modules 3 and 4 and four cold storage rooms at the 
        High Density Storage Facility (HDSF) at Fort Meade, Maryland. 
        Scheduled for completion in the late winter or early spring 
        2009, this facility will house more than 16 million pieces in 
        150,000 containers of special collections material. The content 
        of each shelf has been mapped to the shelf to maximize 
        capacity, and for both Modules 3 and 4, there is no growth 
        space allocated. Waiting lists of special format collections 
        have been developed for subsequent construction/rental.
  --Reconfiguration of existing space at the Landover Center Annex 
        (LCA), Landover, Maryland, to accommodate collections now on 
        Capitol Hill in a Fort Meade-type configuration (storing 
        collections by size to maximize capacity). This reconfiguration 
        is anticipated to allow for approximately 6 months of growth in 
        the book collections.
  --Construction of additional modules at Fort Meade. Design has been 
        finalized for Module 5 which, like Modules 1 and 2, will house 
        books and bound periodicals. Upon completion, Module 5 will 
        have a storage capacity of 2.2 million items, and will allow us 
        to remove the increasing number of items stored on the floor in 
        the Jefferson and Adams Buildings, and to accommodate the more 
        than 300,000 items added to the general, Area Studies, and Law 
        Library collections annually.
    Question. How much additional storage will be needed?
    Answer.
Book and Bound Periodical Collections
    For the book collections, we are currently exceeding 100 percent 
capacity in the Jefferson, Adams and Madison bookstacks.
    Our goal, in the classified collections is to reduce the shelf load 
to an average of 80 percent, which allows for the uneven growth of 
individual classes of material (in a classified/subject) collection. An 
average shelf load of 80 percent has been deemed the maximum average 
beyond which ongoing shifting and significant overcrowding ensue. In 
order to get to this target average, approximately 3.4 million items 
need to be relocated from Capitol Hill to off-site storage. This 
represents approximately 1.5 Fort Meade modules.
    Note: There are a number of safety-related programs mandated by the 
Office of Compliance that will significantly reduce the storage 
capacity in the Jefferson Building stacks (addition of staircases). If 
these come to fruition, it will significantly alter the space 
projections for the book collections. The permanent loss of capacity is 
likely to be approximately 200,000 items, and during construction, more 
than 500,000.
    If we were to obtain two additional book storage modules at Fort 
Meade of the same size as the current modules, with a total capacity of 
4.4 million items, that would allow us to transfer the requisite number 
of volumes (3.4 million plus annual additions to the collections), 
allowing us to achieve our target shelf load. Currently, Modules 5 and 
6 are planned to house the requisite book collections, however the 
construction schedule for both of these remains uncertain. From that 
point on, we would require one additional book storage module every 6 
or 7 years.
Special Format Collections
    Special collections do not grow at the fairly steady rate the book 
and bound periodical collections do.
    A significant number of the special collections are housed in both 
overcrowded and inappropriate environmental conditions, inconsistent 
with the value and uniqueness of these collections.
    NAVCC has the necessary capacity to accommodate some future growth 
of the recorded sound and moving image collections. However, this 
requires upgrading of the third floor fire protection systems, which is 
currently underway.
    As stated earlier, Modules 3 and 4 at Fort Meade will allow us to 
relocate approximately 150,000 containers from overcrowded storage 
spaces on Capitol Hill. A waiting list has been developed of 
collections that will not fit into these two modules, and options are 
being pursued such as interim rental space until permanent space can be 
constructed at Fort Meade. Module 7 at Fort Meade will be the next 
special format collections module.
    Question. What is the status of moving items to Fort Meade for 
storage?
    Answer. Module 1 is completely filled with approximately 1.6 
million items.
    Module 2 is approximately 65 percent filled. However, there are a 
significant number of categories of ``must send'' items for which space 
must be allocated in Module 2 because the construction schedule for the 
next book storage module (Module 5) is uncertain. Among these 
categories: children's literature and minimal level cataloging. In 
addition, space has been set aside for post-processed material 
scheduled for transfer to Modules 3 and 4. An active program is 
currently underway to box and otherwise prepare special format 
collections for transfer to Modules 3 and 4 when these open next year. 
Since post-processed collections often take up significantly more space 
than is the case pre-processing, we have planned to move some of these 
to Module 2 and relocate them to Modules 3 and 4 when the latter 
modules open. Given this, while Module 2 is not yet completely filled, 
there is very limited space remaining for permanent transfer if we are 
to leave the necessary growth space for the ``must sends'' and for the 
post-processed special collections.
    Modules 3 and 4 have been completely laid out, with every item 
assigned a shelf location. When these modules become available in early 
2009, we will begin the relocation process.
    Question. What is the remaining capacity at the existing storage 
modules, and how does that compare to the original plan?
    Answer. As stated above, there is almost no remaining capacity in 
the two existing modules. Module 1 is filled; Module 2 is approximately 
65 percent filled. However, we will complete as much filling as 
possible by the end of calendar 2008, and must leave some space for the 
``must sends'' and interim space for post-processed collections moving 
to Modules 3 and 4.
    Question. Has more storage capacity been consumed then had been 
planned at Fort Meade?
    Answer. The availability of modules for both the book and special 
format collections is behind the originally projected schedule. 
According to the original construction and storage needs projections, a 
module should have been constructed and become available for storage 
every 2 years beginning in 1997. Had we been able to follow that 
schedule, we would now be occupying Module 6, with Module 7 coming 
online in calendar 2009.
    The Copyright Office also is experiencing a storage capacity 
problem. The Copyright Office is required to retain works deposited in 
connection with registration of claims to copyright. Copyright deposits 
are housed in two facilities: The Landover Annex (50,000 square feet, 
filled to capacity); and Sterling, Virginia, leased from Iron Mountain, 
Inc. (116,000 square feet).
    The annual cost for Iron Mountain storage is $191,000. Projected 
storage growth at that facility is 7,000 cubic feet per year, which 
increases the storage cost by $11,500 per year.
    The current leased storage space, however, does not adequately 
provide a safe and secure environment for the protection of the deposit 
collections. The facility fails to meet the requirements of 36 211 CFR 
1228, ``Disposition of Federal Records, Subpart K, Facility Standards 
for Records Storage Facilities'' because the space is unconditioned and 
subject to wide temperature and humidity fluctuations. In order to 
properly fulfill the Office's mandate of protecting and preserving 
America's cultural heritage, materials would need to be moved to a 
NARA-certified facility that meets the 36 CFR 1228 requirements. 
Storage at such a facility would increase storage fees by 100 percent 
to $382,000 annually plus an annual growth increase of $23,000.
    In addition to storage costs, deposits and other materials must be 
transferred to and retrieved from storage on a regular basis. These 
transfer costs are $33,000 per year. This is projected to increase at a 
rate of 10 percent per year, based on the growing rate of services 
requiring deposit retrieval.
                            digital content
    Question. With the explosive growth in the creation and 
distribution of digital content, what opportunities and challenges does 
this present the Library in terms of increasing access to and 
preserving the Library's collections in the future?
    Answer.
Opportunities
    Digitized Content:
  --Technological advances continue to provide opportunities to enhance 
        access by increasing both the quantity and quality of our 
        digitized content. Scanning equipment is getting better and 
        faster.
  --Increasing sophistication in automated image quality review tools 
        (device targets and software) allows us to increase efficiency 
        of image quality review processes. The more of the production 
        workflow we automate, the more we increase throughput through 
        the production pipeline, while ensuring image quality.
    Born Digital Content:
  --The evolution of the Web into social networks brings opportunities 
        for the Library to engage with public and private sector 
        organizations to take advantage of access tools that distribute 
        the description and linkage to content across organizations. 
        Some very commonly used technologies are web services that 
        allow users and researchers to organize and describe content in 
        ways that serve multiple communities of users.
  --The Library will have the opportunity to provide access to more 
        diverse content by collaborating with a network of collecting 
        partners who have experience and expertise in the collection 
        and management of diverse data types, e.g. Geospatial, social 
        science datasets, web archives.
    Growing recognition of value of cultural heritage materials by 
commercial and non-governmental sectors is providing increasingly 
attractive opportunities to form mutually beneficial partnerships. 
Expectations for secure and trustworthy long-term management of digital 
content provide an opportunity to explore current and in-progress 
industry solutions. Identification of common challenges provides a 
solid basis for working with other Federal agencies and research 
institutions on common technical architecture requirements and 
standards.
    By reengineering Copyright Office business operations and 
transitioning to a web-based processing environment, the Office is 
positioned to acquire, retain, and eventually forward to the Library's 
collections copyright deposits submitted electronically on a large 
scale.
Challenges
    Technologies associated with digital content creation, 
dissemination, and curation evolve over time, creating large bodies of 
digital works with diverse formats, often built on layers of legacy 
applications that may become obsolete.
    Ongoing re-investments and training are needed to take advantage of 
continuing developments in digital library and information management, 
technical architecture, search and discovery, and web presentation 
tools.
    Anticipated exponential growth in digital content, whether for 
broad open immediate access or long term collection holdings and 
digital preservation, incur a new layer of management responsibility 
and costs for the institution that continue to grow every year as the 
volume of content grows. The receipt, storage and rendering of digital 
content in increasingly complex digital formats require continuous 
investment in staff recruitment and training to maintain currency and 
relevancy of technical skills.
    Growing user expectations for rapid, anytime, anywhere, easy access 
to the Library's collections continue to strain the Library's 
resources. Expectations that the content should be easily findable and 
searchable are difficult to meet with existing access mechanisms and 
tools. Securing databases/repositories against unauthorized access will 
continue to require investments in information security.
    The predicted ten-fold growth of digital data within the next 5 
years presents challenges for the judicious identification, selection 
and acquisition of content for the Library's collections as well as the 
storage and management of large volumes of data for preservation.
    The Library will have the challenge of developing and maintaining 
increasingly complex information architecture, access aids, and 
interfaces to more diverse digital content types as they are brought 
into its collections or linked to at collaborating partner sites.
    Retaining electronic works as originally deposited to satisfy a 
legal requirement while also copying and converting electronic works 
for the purpose of long term preservation and accessibility needs.
    Amending the copyright law and regulations to require deposits of 
certain types of works and to define ``best edition'' requirements to 
include the Library's preferred digital formats.
    Amending the copyright law to allow the Library to harvest online 
material, such as websites, in lieu of or in addition to mandatory 
deposit requirements.
    Question. What practical steps is the Library taking to address 
these opportunities and challenges?
    Answer.
Digitized Content
    We are actively engaging with other Federal agencies, cultural 
heritage institutions, and commercial partners, allowing us to make 
more content available to increasingly broad constituencies. 
Digitization partnerships allow the Library to increase its 
digitization capacity for public domain collection materials. As long 
as the resulting files can be made freely available to the public, 
either immediately or following a relatively brief embargo period, the 
Library views these partnerships as advantageous. Digitization 
partnerships include:
  --Commercial partnerships to defray and subsidize the cost of 
        digitization. In their general desire for copies of digitized 
        text materials, these partners are willing to absorb a 
        significant portion of the costs of digitization. In these 
        situations, the Library has a great deal of latitude in 
        choosing the actual materials to be digitized.
  --Commercial partnerships to investigate technical problems of mutual 
        interest. A good example of this is the partnership we 
        initiated last year with Xerox to investigate performance 
        issues related to large databases of JPEG2000 images, which is 
        a format under consideration for both master and derivative 
        files.
  --Joint Federal agency or cultural heritage institution partnerships 
        that share digitization cost burdens. As an example, we've had 
        great success in coordinating with GPO and other institutions 
        to minimize duplication of effort for scanning of government 
        documents. The National Digital Newspaper Program (NDNP) is 
        another example of cost-sharing; in this case, between the 
        Library and NEH. We have also received a $2 million grant from 
        the Sloan Foundation to digitize book collections, providing 
        the Library with the opportunity to digitize items that are 
        physically deteriorating, including brittle and difficult-to-
        scan materials. We continue to evaluate projects to digitize 
        specific sets of material, including exploring a collaborative 
        project with NOAA to digitize 30,000 coastal survey maps.
  --Born Digital Content.--The NDIIPP program model also follows an 
        approach of shared costs, risks and expertise with networks of 
        partners especially skilled with specific content types to save 
        at-risk born digital content. These Partners also have been 
        instrumental in developing the technical infrastructure and 
        tools necessary for the collection and preservation of digital 
        content. Expert communities are forming around specific content 
        types such as geospatial. The Library will need to partner with 
        these communities for secure and enduring access to valuable 
        content.
  --Electronic Deposit.--A goal of the Copyright Office's multi-year 
        reengineering project is to increase the acquisition of digital 
        materials for the Library's collections. The Copyright Office 
        is encouraging remitters to file e-service registrations 
        including, where appropriate, submission of deposit copies and 
        partnering with other Library service units in an eJournals 
        eDeposit project.
  --Digital Content Management Requirements and Standards.--The Library 
        has been working with other public sector entities to develop 
        common requirements for the management of digital content from 
        initial ingest through long-term access and preservation.
    Question. As the Library's digital collections grow, how will the 
Library balance the public's interest in more easily accessing the 
Library's collections through means such as the internet against the 
need to protect the intellectual property of authors?
    Answer. It may be impossible with today's technology to make an 
item from the Library's digital collections available to the general 
public via the Internet and at the same time prevent the making of 
unauthorized copies. It is also important to strike the proper balance 
in regard to public access to the Library's digital acquisitions and 
the copyright owner's incentives to create. To the extent that the 
public's access would interfere or compete with the traditional markets 
of a copyright owner, such access could have a negative effect on the 
goal of copyright--to encourage the creativity of authors. The Library 
will need to do more research on the feasibility of rendering 
information via the Internet both in a format that will not allow 
storing or printing of the information and in a manner that does not 
interfere with a copyright owner's traditional markets. In the 
meantime, the availability of digital works in the Library's 
collections may need to be limited to on-site delivery. Policy will 
also need to be prepared covering inter-library loan of digital works.
    Question. The exceptions to copyright law granted to libraries and 
archives under Section 108 of the Copyright Act may need to be amended 
to address access to digital materials. How can the suggested 
recommendations from the March 2008 Section 108 Study Group Report help 
the Library and others sufficiently deal with challenges arising from 
digital technology?
    Answer. The Copyright Office has commenced a review of the Section 
108 Study Group Report and associated recommendations. As a preliminary 
observation, we note that most of the recommendations address 
preservation activities. As the Office moves forward, it will focus on 
the recommendations but will also study and seek comment on additional 
issues, including the ability of libraries to make copyrighted works 
more accessible.
    Question. As the national Library, how is the Library providing 
leadership in the development of standards regarding digital content 
conventions?
    Answer. Federal Agency Digitization Working Group Leadership.--In 
early 2007 the Library convened several Federal agencies (now numbering 
ten) to formulate a collective set of guidelines for digitization of 
images and, more recently, audio and video. The primary objective of 
the Federal Agency Digitization Working Group is to define the 
landscape in which standards guidelines were needed, and identify and 
prioritize ``gaps'' to be filled over time. These guidelines will be 
objectives based, i.e., they will be based on the purpose of the scan 
and the material involved, as a ``one size fits all'' approach does not 
apply. The group also will be formulating guidelines for metadata to be 
embedded within digitized images. The member agencies of the Federal 
Agency Still Images Digitization Working Group are LC, NARA, GPO, NLM, 
NAL, Smithsonian, National Gallery of Art, NTIS, National Geological 
Survey, and NTA. The Audio/Video subgroup currently comprises LC, DOT, 
GPO, NLM, NARA, NPS, and the Smithsonian.
    Digitization Guidelines.--The Library developed guidelines in the 
1990's for digitization of text, image, microfilm, audio and video. 
Those guidelines continue to be updated, and are available on the 
Library's Web site.
    Metadata Standards Leadership.--For many years Library Services in 
the Library has been a leader in the development of rules and formats 
for describing resources--and for the last 10 years we have focused 
more of these efforts on harnessing retrieval of digital content. The 
cataloging rules are being revamped to be more accommodating to digital 
content; the formats for metadata have been enriched for digital 
content description and for linking to the digital resources described. 
A new Web compatible format for describing digital resources, Metadata 
Object Description Schema (MODS), has been developed under the 
leadership of the Library since 2002 in collaboration with the 
community and is being widely used in digital projects across the 
United States. The Library has also teamed with the community to 
develop standards for ``wrapping'' digital resources so that they can 
be preserved and used in different systems, Metadata Encoding and 
Transmission Standard (METS), and the Library serves as the official 
home for that standard. Several standards for technical metadata (MIX 
and textMD) that are essential in the METS wrapper are also maintained 
by Library Services for and with the community. Library Services played 
and continues to play a leading role in the development of an important 
standard for preservation metadata related to digital resources, 
PREMIS, a major step forward in the struggle to assure the preservation 
of electronic media. The Library has become a center of activity for a 
variety of standards that are helping U.S. institutions collect and 
serve digital material because the Library is considered a stable and 
trusted home for these emerging and essential standards
    Web Archiving Tools.--The Library has supported the development of 
web archiving capture tools that reduce the volume of redundant data 
captured for frequently collected web sites. This is the SmartCrawler 
being developed at Internet Archive in partnership with the British 
Library and the Bibliotheque Nationale de France.
    Tools Development for Automated Evaluation and Validation of Image 
Files.--The Library has been working to develop methods and tools to 
perform automated evaluation and validation of the digital image 
files--verifying against both encoding and metadata guidelines and a 
comprehensive set of image characteristics. One tool (the Configurable 
Image Validator) is in production and the other (the Digital Image 
Conformance Evaluation system) is in beta testing. Both tools are based 
on flexible profiles that can be changed as guidelines evolve and 
expand.
    Question. How will the trend toward digital content affect the 
Library's costs in terms of information technology infrastructure and 
management and human capital requirements?
    Answer. The cost implications are significant. Increased content 
requires increases in servers, storage, software and the maintenance to 
support the additional hardware and software. Additional labor in the 
form of FTEs or contractors will also be required to manage the growing 
repositories. All of the growth will also be subject to technical 
refreshment every 3-5 years and requires continuing migration of the 
content to new or upgraded repositories, access systems, and services.
    To the extent resources allow, the Library is continually evolving 
and enhancing its technical infrastructure to support the increased 
volume and diversity of digital content. The Library employs multiple 
storage strategies to deal with the volume, diversity, and access 
requirements for the content. As the expectations for access to digital 
content rise, the costs for preservation rise. A dark archive with 
curator-only access costs less than a publicly available archive with a 
variety of user services where more expensive storage, servers, 
indexing services, and user interface development are required for 
highly-available public dissemination. Thus, our infrastructure 
strategies will be driven by the type and frequency of access, as well 
as the underlying data needs. For instance, tape-based repositories 
would be employed for content only available via fair use or other 
restrictions. Non-Copyright protected content that would be in high 
public demand would be stored on our fastest disk retrieval 
repositories. In all cases, the Library plans for the requirement to 
ensure the integrity of the underlying content and its accompanying 
metadata for future users.
    Question. What are the implications for the cost of managing the 
paper collections.
    Answer. The cost of managing the paper collections will not be 
affected by growth in the creation and distribution of digital content. 
The legacy collections will always require careful management and 
preservation and publishers are expected to continue to produce needed 
content in book form for years to come, thus adding to the costs of 
preserving the rising numbers of analog materials.
    The Library already acquires much digital content on CDs, DVDs and 
CD-ROMs. The challenge is electronically delivered digital content. 
Such content, in the form of digital files in various formats, includes 
electronic books and journals, audio recordings, audiovisual works, 
photographs, GIS and other data. Presently the Library is experimenting 
with eDeposit for eJournals, as part of a strategic effort to build a 
digital repository for copyright deposits acquired by the Library for 
its collections. The Copyright Office is acquiring many works as 
digital files through its eService; however, where the work is 
published in a physical form, physical copies must be deposited. The 
Library could get works published online through the copyright deposit 
system. However, for preservation and access purposes, the Library 
would like to have the authority to receive digital files that best 
serve its purposes. Pre-publication versions, rather than the published 
versions, appear to be preferable. If the law is amended to permit the 
Library to acquire these pre-publication versions and their relevant 
metadata, then the amount of e-content available to researchers will 
rise dramatically.
    Question. What are the cost implications for preserving and making 
available digital content?
    Answer. Digital content is frequently additive and not a substitute 
for the Library's analog collections. The management, storage and 
preservation of digital content will result in new and different costs 
for the Library. Investments are needed in not only the underlying 
technical infrastructure, but also new life cycle management processes 
and staff expertise to effectively provide stewardship of digital 
content over very long time frames. The Library will need to define how 
digital content is to be stored, normalized, and made available and 
define and implement an infrastructure that protects the content, 
stores it in a cost effective repository infrastructure, and make it 
available through an access management protocol that prevents 
unauthorized copying.
    In contrast to the management of analog materials, the requirements 
and cost factors for digital materials are increasingly leading to a 
multi-layer architecture with modular services as most cost-effective 
for specific purposes. For example, services (including servers, 
storage and software) for public access systems are different from 
those provided for digital content indexing and pre-processing, and 
different from those provided for long-term preservation storage.
    Digitization has been, and largely remains, an access strategy. We 
are committed to making as much material as possible freely available. 
Having said that, though, there is a huge secondary preservation 
benefit to digitizing our materials, especially those that are rare or 
unique. Being able to offer high quality images instead of serving the 
physical materials saves considerable wear and tear on the originals, 
so that we are in effect helping to preserve the originals by serving 
their digital surrogates.
    In some cases, though, digitization itself serves a direct 
preservation purpose. This is easiest to see in the case of brittle 
materials, where the physical items themselves have deteriorated, and 
digitization in effect provides a replacement copy.
    Because we have made such a considerable investment in our 
digitized materials, preservation of those digitized materials is 
itself a concern. By carefully weighing decisions about available 
formats, and working to provide metadata for identifying the content 
and characteristics of those files, we ensure that our digital 
investments will be sustainable over the long term. However, these 
materials do constitute an additional body of digital content for which 
we then become responsible.
    Question. Has the Library considered accepting digital content as a 
substitute for paper content for certain categories of its collections?
    Answer. The Library expects to acquire born digital (digital only) 
content in greater amounts as such content becomes increasingly 
available. Such content includes electronic books and journals, motion 
pictures, audio recordings, photographs, and GIS data. Presently, the 
Library is experimenting with an eDeposit for eJournals project as part 
of a strategic effort to build a robust electronic copyright deposit 
system for the acquisition of electronic content and associated 
metadata. As the Copyright Office implements demand deposits of content 
in digital format, the amount of e-content available to researchers 
will rise dramatically. However, the Library does not at this time 
expect to substitute digital surrogates for published paper copies.
    Question. The Open Content Alliance is a collaborative effort of a 
group of cultural, technology, nonprofit, and governmental 
organizations seeking to build a permanent archive of multilingual 
digitized text and multimedia content. How does this relate to the 
Library's NDIIPP efforts? What is LOC doing to work with the Open 
Content Alliance?
    Answer. The Library received $2 million from the Alfred P. Sloan 
Foundation in support of a ``Digitizing American Imprints'' project, to 
work with the Internet Archive and the Open Content Alliance to 
digitize public domain books from the General Collections. 
Specifically, the Library proposed to concentrate on materials from the 
Genealogy and Local History collections as well as the American History 
collection. Materials scanned as part of that project will be 
incorporated into the digital collections made available by the Open 
Content Alliance.
    The project uses the scanning technology of the Open Content 
Alliance. The Library is currently processing these materials with ten 
scanning stations owned and operated by the Internet Archive. The 
Library also is working with a number of other Open Content Alliance 
institutions (e.g., the Smithsonian Institute, the Missouri Botanical 
Garden, and the Boston Library Consortium) to develop solutions to 
address the challenges of large scale book digitization.
    The Library also has other book digitization agreements.
    NDIIPP focuses on building a network of institutions to collect and 
preserve materials that are born digital or already exist in digital 
form. There is no direct relationship between NDIIPP and the Open 
Content Alliance.

                         CONCLUSION OF HEARING

    Senator Landrieu. Again, thank you all for your service to 
the Capitol and to the country. We appreciate it greatly. Thank 
you.
    Meeting recessed.
    [Whereupon, at 4:50 p.m., Wednesday, April 30, the hearing 
was concluded and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


              MATERIAL SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following testimonies were received by 
the Subcommittee on the Legislative Branch for inclusion in the 
record.
    The subcommittee requested that agencies provide written 
testimony because, given the Senate schedule, there was not 
enough time to schedule separate hearings for these agencies.]

                              U.S. SENATE

                        Office of the Secretary

     Prepared Statement of Nancy Erickson, Secretary of the Senate
    Madam Chairwoman, Senator Alexander, and members of the 
subcommittee, thank you for your invitation to present testimony in 
support of the budget request of the Office of the Secretary of the 
Senate for fiscal year 2009.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of the 26 departments of the 
office, their recent achievements, and their plans for the upcoming 
fiscal year.
    My statement includes: Presenting the fiscal year 2008 budget 
request; implementing mandated systems, financial management 
information system (FMIS) and legislative information system (LIS); 
continuity of operations planning; and maintaining and improving 
current and historic legislative, financial and administrative 
services.
             presenting the fiscal year 2009 budget request
    I am requesting a total fiscal year 2009 budget of $26,020,000. The 
request includes $24,020,000 in salary costs and $2,000,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $1,632,000 over the fiscal year 2008 budget 
as a result of the costs associated with the annual cost of living 
adjustment and targeted merit awards that are associated with our 
Employee Feedback and Development Plans. The operating budget remains 
the same as our request in fiscal year 2008.
    The net effect of my total budget request for 2009 is an increase 
of $1,632,000.
    Our request is consistent with the amounts requested and received 
in recent years through the Legislative Branch Appropriations process. 
This request will enable us to continue to attract and retain talented 
and dedicated individuals to serve the needs of the United States 
Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Items                                 fiscal year      estimates      Difference
                                                                   2008, Public     fiscal year
                                                                    Law 110-161        2009
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $550,000      $1,390,000        +$60,000
    Administrative services.....................................        $550,000      $1,390,000        +$60,000
    Legislative services........................................        $550,000      $1,390,000        +$60,000
                                                                 -----------------------------------------------
      Total operating budget....................................      $2,000,000      $2,000,000  ..............
----------------------------------------------------------------------------------------------------------------

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 Senate offices. Consistent with our strategic plan, 
the Disbursing Office continues to modernize processes and applications 
to meet the continued demand by Senate offices for efficiency, 
accountability and ease of use. Our goals are to move to an integrated, 
paperless voucher system, improve the Web FMIS system, and make payroll 
and accounting system improvements.
    During fiscal year 2007 and the first half of fiscal year 2008, 
specific progress made on the FMIS project included:
  --Web FMIS was upgraded twice, once in August 2007 and again in 
        November 2007. This system is used by Office Managers and 
        Committee Clerks to create vouchers and manage their office 
        funds, by the Disbursing Office to review vouchers and by the 
        Committee on Rules and Administration to sanction vouchers. The 
        two releases provided both technical and functional changes. 
        The August release provided a new look, additional 
        functionality, and ease of use features to the application's 
        web pages. The budget function within the application was also 
        completely re-written to simplify budget entry. The November 
        release permitted the start of three pilot programs. The first 
        pilot permitted vendors paid by direct deposit to receive e-
        mail messages providing necessary account information to 
        properly credit their accounts. The second pilot incorporated 
        the functionality of the Senate Automated Vendor Inquiry (SAVI) 
        System into Web FMIS, simplifying the systems architecture. The 
        third pilot enabled the Disbursing Office to remit, via direct 
        deposit, quarterly State tax payments to States.
  --The computing infrastructure for FMIS is provided by the Sergeant 
        at Arms (SAA). Each year the SAA staff upgrades the 
        infrastructure hardware and software. Three major upgrades were 
        accomplished during the last year. The first, upgrading the 
        mainframe operating software from Z/OS version 1.4 to version 
        1.7. The second, upgrading the FMIS database software, from DB2 
        version 8 to version 8.1. The third, upgrading the Web Sphere 
        software from v 6.0.2 to v 6.1. For each activity, the 
        Disbursing staff tested the changes in the FMIS testing 
        environment and then validated the changes in the production 
        environment.
  --Disaster operation services for FMIS are provided at the Alternate 
        Computer Facility (ACF). In both August 2007 and December 2007, 
        the SAA conducted disaster recovery tests of the Senate's 
        computing facilities, including FMIS functions. The test 
        involved switching the Senate's network from accessing systems 
        at the Primary Computer Facility (PCF), to the ACF, and 
        powering down the PCF. The August test permitted the Disbursing 
        staff a two-hour functional testing window. Within this time, 
        Disbursing successfully tested all critical on-line components 
        of FMIS, including Payroll, ADPICS, FAMIS, SAVI, Web FMIS, and 
        Checkwriter. The December test allotted a longer test window, 
        permitting a more complete and thorough testing of all of the 
        different components including critical batch processes which 
        had not been accomplished in our previous tests.
    During the remainder of fiscal year 2008 the following FMIS 
activities are anticipated:
  --Implementing the release focused on eliminating the partial use of 
        employee social security number as part of each employee's 
        identification number. A new employee identification number 
        will be established within our payroll system and this change 
        will be incorporated and passed onto other integrated systems.
  --Implementing an imaging prototype to better assess system, 
        application and functional requirements.
  --Completing analysis of the appropriate hardware/software 
        acquisition strategy for electronic signatures, and imaging of 
        supporting documentation, and beginning acquisition.
  --Implementing on-line distribution of payroll system reports.
  --Implementing e-mail notification to additional vendors of payments 
        made via direct deposit after the successful completion of the 
        pilot program.
  --Participating in the yearly disaster recovery test.
    During fiscal year 2009 the following FMIS activities are 
anticipated:
  --Conducting a pilot of the technology for paperless payment. This 
        assumes identification of satisfactory hardware and software 
        for electronic signatures and imaging of supporting 
        documentation, and resolution of related policy and process 
        issues.
  --Continuing the implementation and the required updates to the 
        Hyperion Financial Management application to provide the Senate 
        the ability to produce auditable financial statements.
  --Continue the implementation of on-line financial reports.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office.
                         capitol visitor center
    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. The Clerk of 
the House and I continue to facilitate periodic meetings with senior 
staff of the joint leadership of Congress to address issues that might 
impact the status of the project or the operation of Congress in 
general.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the Capitol Visitor 
Center will bring substantial improvements in enhanced security and 
visitor amenities, and its educational benefits for our visitors will 
be tremendous.
      continuity of operations and emergency preparedness planning
    The Office of the Secretary continued to support the Senate's 
emergency preparedness program throughout 2007. The Secretary's staff 
participated in the planning and conduct of nine emergency preparedness 
and continuity of operations (COOP) exercises last year. In July, we 
reviewed the requirements and challenges of conducting legislative 
business at an alternate location with the Clerk of the House. Later 
that month, we worked with the Office of the Sergeant at Arms to set up 
a functioning Senate chamber at an offsite location. The offices of the 
Secretary and the Sergeant at Arms continue to work with the House of 
Representatives to refine existing plans for offsite alternate 
chambers.
    In December of 2007, a joint discussion took place on ensuring the 
continuity of the legislative process in the event that both Congress 
and the Presidency must operate from alternate locations. Legislative 
staff of the Secretary of the Senate and the Clerk of the House were 
joined by White House staff to work out procedural and logistical 
issues which might arise in such a contingency. This was a productive 
meeting, and it is hoped that it will become an annual event. Other 
joint exercises with the Executive Branch are planned.
    The Secretary's staff worked on a joint effort with the Sergeant at 
Arms to create a software application to automate the production and 
maintenance of COOP plans. That project is expected to be completed in 
June of this year.
                          legislative offices
    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators to carry out their 
daily chamber activities and the constitutional responsibilities of the 
Senate. The department consists of eight offices: the Bill Clerk, 
Captioning Services, Daily Digest, Enrolling Clerk, Executive Clerk, 
Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates, which are supervised by the Secretary through the Director of 
Legislative Services. The Parliamentarian's office is also part of the 
Legislative Department of the Secretary of the Senate.
    Experienced veterans of the Secretary's office supervise each of 
the nine offices within the Legislative Department. The average length 
of service of legislative supervisors in the Office of the Secretary of 
the Senate is 19 years. The experience of these senior professional 
staff is a great asset for the Senate. In order to ensure well-rounded 
expertise, the legislative team cross-trains extensively among their 
specialties.
                               bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk keeps this information in 
its handwritten files and ledgers and also enters it into the Senate's 
automated retrieval system so that it is available to all House and 
Senate offices through the Legislative Information System (LIS). The 
Bill Clerk records actions of the Senate with regard to bills, 
resolutions, reports, amendments, cosponsors, public law numbers, and 
recorded votes. In addition, the Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form within 
moments of the action involved, so the Bill Clerk's office is generally 
regarded as the most timely and most accurate source of legislative 
information.
Legislative Activity
    The Bill Clerk's office processed into the database more than 2,000 
additional legislative items and more than 75 additional roll call 
votes than in the previous congress' first session, for an overall 
percentage increase of slightly more than 32 percent. Only three 
legislative categories (Senate Joint Resolutions introduced, Senate 
Concurrent Resolutions submitted, and House Joint Resolutions received) 
saw no change or a small decline in activity. In contrast, three other 
categories (Amendments submitted, House Bills received, and Measures 
Reported) saw significant increases in activity. For comparative 
purposes, below is a summary of the first sessions of the 109th and 
110th Congresses:

------------------------------------------------------------------------
                                    109th         110th
                                  Congress,     Congress,      Percent
                                 1st Session   1st Session     change
------------------------------------------------------------------------
Senate bills..................         2,169         2,524       +16.367
Senate Joint Resolutions......            27            27  ............
Senate Concurrent Resolutions.            75            64       -14.667
Senate Resolutions............           347           418       +20.461
Amendments submitted..........         2,695         3,892       +44.416
House bills...................           286           513       +79.371
House Joint Resolutions.......            11             9       -18.182
House Concurrent Resolutions..            88            93        +5.682
Measures reported.............           286           428       +49.650
Written reports...............           212           254       +19.811
                               -----------------------------------------
      Total legislation.......         6,196         8,222       +32.699
                               =========================================
Roll Call Votes...............           366           442       +20.765
House Messages \1\............           225           263       +16.889
Cosponsor Requests \2\........         7,000         8,859       +26.557
------------------------------------------------------------------------
\1\ This number reflects how many messages from the House are typed up
  by the Bill Clerks for inclusion in the Congressional Record. It
  excludes additional activity on these bills.
\2\ This number reflects how many cosponsors were input and subsequently
  appear in the Congressional Record.

Assistance from the Government Printing Office
    The Bill Clerk's staff maintains a good working relationship with 
the Government Printing Office (GPO) and seeks to provide the best 
service possible to meet the needs of the Senate. GPO continues to 
respond in a timely manner to the Secretary's requests, through the 
Bill Clerk's office, for the printing of bills and reports, including 
the expedited printing of priority matters for the Senate chamber. To 
date, at the request of the Secretary through the Bill Clerk, GPO 
expedited the printing of 83 measures for floor consideration by the 
Senate during the first session of the 110th Congress.
                     office of captioning services
    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings for 
Senate offices on Webster, the Senate intranet.
General Overview
    Captioning Services strives to provide the highest quality closed 
captions, and year after year the office demonstrates it is up to the 
challenge. For the 14th year in a row, the office has achieved an 
overall accuracy average above 99 percent. Overall caption quality is 
monitored through daily Translation Data Reports, monitoring of 
captions in realtime, and review of caption files on Webster.
    The real-time searchable Closed Caption Log, available to Senate 
offices on Webster, continues to be an invaluable tool. Legislative 
staff, in particular, have come to depend upon its availability, 
reliability and content to help in the performance of their duties. The 
Senate Recording Studio is in the process of updating the Closed 
Caption Log software, which has not been updated since it was developed 
more than a decade ago.
    Continuity of operations planning (COOP) and preparation continues 
to be a top priority to ensure that the office staff is prepared and 
confident about the ability to relocate and successfully function from 
a remote location in the event of an emergency.
Capitol Visitor Center Update
    The office continues to prepare and plan for its relocation to the 
Senate expansion space in the Capitol Visitor Center (CVC), where it 
will be housed with the Senate Recording Studio.
                          senate daily digest
    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest;
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees, and committees of conference;
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which actually appears in the Extensions of Remarks 
        section of the Congressional Record.
  --To enter into the Senate's Legislative Information System (LIS) all 
        official actions taken by Senate committees on legislation, 
        nominations, and treaties;
  --To publish in the Daily Digest a listing of all legislation which 
        has become public law;
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        roll call votes. (See Chart--Resume of Congressional Activity); 
        and
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.
Committee Activity
    Senate committees held 1,005 meetings during the first session of 
the 110th Congress, 89 more than were held during the first session of 
the 109th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest, published in the Congressional Record, and entered in LIS. 
Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day.
Chamber Activity
    During the first session of the 110th Congress, the Senate was in 
session 189 days, for a total of 1,375 hours and 54 minutes, and 
conducted 6 live quorum calls and 442 record votes. (See Attachment for 
20-Year Comparison of Senate Legislative Activity)
Computer Activities
    The Digest replaced its WordPerfect-based system for creating the 
Daily Digest with a new Word-based system that has shortened the time 
it takes to create the Digest and send it to the Government Printing 
Office (GPO). Information Systems staff, working closely with Daily 
Digest staff, developed a Daily Digest Authoring System to provide the 
Daily Digest with structured methods for creating, editing, and 
managing files.
    The Digest continues the practice of sending a disc along with a 
duplicate hard copy to GPO. GPO receives the Digest copy by electronic 
transfer, which promotes the timeliness of publishing the Congressional 
Record. The Digest office continues to feel comfortable with this 
procedure, both to allow the Digest Editor to physically view what is 
being transmitted to GPO, and to allow GPO staff to have a comparable 
final product to cross reference.
    The Digest office continues to work closely with Senate computer 
staff to refine the LIS document management system. The Digest is 
pleased to report that all refinements made to the Senate Committee 
Scheduling application have been successfully implemented.
Government Printing Office
    The Daily Digest staff continues to work with GPO on issues related 
to the printing of the Digest; with the onset of electronic transfer of 
the Digest copy, occurrences of editing corrections or transcript 
errors are infrequent. Discussions with GPO continue regarding page 
references inserted by GPO.

                          DATA ON LEGISLATIVE ACTIVITY--SECOND SESSION, 109TH CONGRESS
                                   [January 4, 2007 through December 31, 2007]
----------------------------------------------------------------------------------------------------------------
                                                                      Senate           House           Total
----------------------------------------------------------------------------------------------------------------
Days in Session.................................................             190             164  ..............
Time in Session.................................................    1,375hrs 54"    1,477hrs 52"  ..............
Congressional Record:
    Pages of proceedings........................................          S16071          H16951  ..............
    Extension of remarks........................................  ..............           E2664  ..............
Public bills enacted into law...................................              30             108  ..............
Private bills enacted into law..................................  ..............  ..............  ..............
Bills in conference.............................................               5               7  ..............
Measures passed, total \1\......................................             621           1,127           1,748
    Senate bills................................................             102              44  ..............
    House bills.................................................             147             516  ..............
    Senate joint resolutions....................................               5               3  ..............
    House joint resolutions.....................................               6               8  ..............
    Senate concurrent resolutions...............................              28               9  ..............
    House concurrent resolutions................................              32              94  ..............
    Simple resolutions..........................................             301             453  ..............
Measures reported, total \1\....................................             422             486             908
    Senate bills................................................             257               2  ..............
    House bills.................................................              72             328  ..............
    Senate joint resolutions....................................               5  ..............  ..............
    House joint resolutions.....................................               1  ..............  ..............
    Senate concurrent resolutions...............................               8  ..............  ..............
    House concurrent resolutions................................               6               7  ..............
    Simple resolutions..........................................              73             149  ..............
Special reports.................................................              22               8  ..............
Conference reports..............................................               1              12  ..............
Measures pending on calendar....................................             333              48  ..............
Measures introduced, total......................................           3,033           6,194           9,227
    Bills.......................................................           2,524           4,930  ..............
    Joint resolutions...........................................              27              75  ..............
    Concurrent resolutions......................................              64             278  ..............
    Simple resolutions..........................................             418             911  ..............
Quorum calls....................................................               6               9  ..............
Yea-and-nay votes...............................................             442             648  ..............
Recorded votes..................................................  ..............             529  ..............
Bills vetoed....................................................               1               5  ..............
Vetoes overridden...............................................               1               1  ..............
----------------------------------------------------------------------------------------------------------------
\1\ These figures include all measures reported, even if there was no accompanying written report. A total of
  253 written reports have been filed in the Senate, a total of 506 reports have been filed in the House.


                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1988          1989          1990          1991          1992          1993          1994          1995          1996          1997
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/25           1/3          1/23           1/3           1/3           1/5          1/25           1/4           1/3           1/3
Senate Adjourned....................................         10/21         11/21         10/28        1/3/92          10/9         11/26         12/01        1/3/96          10/4         11/13
Days in Session.....................................           137           136           138           158           129           153           138           211           132           153
Hours in Session....................................      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"
Average Hours per Day...............................           8.2           7.4           9.1           7.6           8.5           8.3           9.0           8.7           7.8           7.1
Total Measures Passed...............................           814           605           716           626           651           473           465           346           476           386
Roll Call Votes.....................................           379           312           326           280           270           395           329           613           306           298
Quorum Calls........................................            26            11             3             3             5             2             6             3             2             6
Public Laws.........................................           473           240           244           243           347           210           255            88           245           153
Treaties Ratified...................................            15             9            15            15            32            20             8            10            28            15
Nominations Confirmed...............................        42,317        45,585        42,493        45,369        30,619        38,676        37,446        40,535        33,176        25,576
Average Voting Attendance...........................         91.58          98.0         97.47         97.16          95.4          97.6         97.02         98.07         98.22         98.68
Sessions Convened Before 12 Noon....................           120            95           116           126           112           128           120           184           113           115
Sessions Convened at 12 Noon........................            12            14             4             9  ............             6             9             2            15            12
Sessions Convened after 12 Noon.....................             5            27            17            23            10            15            17            12             7             7
Sessions Continued after 6 p.m......................            37            88           100           102            91           100           100           158            88            96
Sessions Continued after 12 Midnight................             7             9            13             6             4             9             7             3             1  ............
Saturday Sessions...................................  ............             1             3             2             2             2             3             5             1             1
Sunday Sessions.....................................  ............  ............             2  ............  ............  ............  ............             3  ............             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1998          1999          2000          2001          2002          2003          2004          2005          2006          2007
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/27           1/6          1/24           1/3          1/23           1/7          1/20           1/4           1/3           1/4
Senate Adjourned....................................         10/21         11/19         12/15         12/20         11/20          12/9          12/8         12/22          12/9         12/31
Days in Session.....................................           143           162           141           173           149           167           133           159           138           189
Hours in Session....................................      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"
Average Hours per Day...............................           7.7           7.3           7.2           7.1           7.0           8.7           7.7           7.7           7.4           7.2
Total Measures Passed...............................           506           549           696           425           523           590           663           624           635           621
Roll Call Votes.....................................           314           374           298           380           253           459           216           366           279           442
Quorum Calls........................................             4             7             6             3             2             3             1             3             1             6
Public Laws.........................................           241           170           410           136           241           198           300           169           248           142
Treaties Ratified...................................            53            13            39             3            17            11            15             6            14             8
Nominations Confirmed...............................        20,302        22,468        22,512        25,091        23,633        21,580        24,420        25,942        29,603        22,892
Average Voting Attendance...........................         97.47         98.02         96.99         98.29         96.36         96.07         95.54         97.41         97.13         94.99
Sessions Convened Before 12 Noon....................           109           118           107           140           119           133           104           121           110           156
Sessions Convened at 12 Noon........................            31            17            25            10            12             4             9             1             4             4
Sessions Convened after 12 Noon.....................             2            19            24            21            23            23            21            36            24            32
Sessions Continued after 6 p.m......................            93           113            94           108           103           134           129           120           129           144
Sessions Continued after 12 Midnight................  ............  ............  ............             2             3             8             2             3             3             4
Saturday Sessions...................................             1             3             1             3  ............             1             2             2             2             1
Sunday Sessions.....................................  ............  ............             1  ............  ............             1             1             2  ............             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.


              DISPOSITION OF EXECUTIVE NOMINATIONS (110-1)
                    [From: 01/04/2007 to 12/31/2007]
------------------------------------------------------------------------------------------------------------------------------------------------
Civilian Nominations, totaling 490, disposed of as
 follows:
    Confirmed.....................................                   276
    Unconfirmed...................................                   180
    Withdrawn.....................................                    31
    Returned to White House.......................                     3
Other Civilian Nominations, totaling 3,807,
 disposed of as follows:
    Confirmed.....................................                 3,799
    Unconfirmed...................................                     8
Air Force Nominations, totaling 6,096, disposed of
 as follows:
    Confirmed.....................................                 6,090
    Unconfirmed...................................                     5
Returned to White House                                                1
Army Nominations, totaling 6,721, disposed of as
 follows:
    Confirmed.....................................                 6,698
    Unconfirmed...................................                    19
    Returned to White House.......................                     4
Navy Nominations, totaling 4,691, disposed of as
 follows:
    Confirmed.....................................                 4,688
    Unconfirmed...................................                     3
Marine Corps Nominations, totaling 1,342, disposed
 of as follows:
    Confirmed.....................................                 1,341
    Unconfirmed...................................                     1                      SummaryTotal Nominations carried over from the First       ....................
 Session
Total Nominations Received this Session...........                23,147
Total Confirmed...................................                22,892
Total Unconfirmed.................................                   216
Total Withdrawn...................................                    31
Total Returned to the White House.................                     8
------------------------------------------------------------------------

                            enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House. The Enrolling Clerk 
physically transmits all Senate messages to the House of 
Representatives.
    During 2007, 43 enrolled bills (transmitted to the President) 3 
enrolled joint resolutions (transmitted to the President) and 8 
concurrent resolutions (transmitted to the Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    Overall, a total of 1,041 pieces of legislation in one form or 
another, were passed or agreed to by the Senate, and all were processed 
from this office. The Enrolling Clerk prepared and delivered 205 
messages from the Senate to the House of Representatives.
    Throughout 2007, the Enrolling Clerk's staff continued to train and 
work closely with the Legislative Information System (LIS) Project 
Office in an effort to further implement the use of XML software 
editors in the production of Senate documents.
                            executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares daily the Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the office processes all executive communications, 
presidential messages and petitions and memorials.
Nominations
    During the first session of the 110th Congress, there were 1,174 
nomination messages sent to the Senate by the President, transmitting 
23,147 nominations to positions requiring Senate confirmation and 31 
messages withdrawing nominations sent to the Senate during the first 
session of the 110th Congress. Of the total nominations transmitted, 
490 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, National Oceanic and Atmospheric Administration, 
and Public Health Service. In addition, there were 3,807 nominees in 
the ``civilian list'' categories named above. Military nominations 
received this session totaled 18,850 (6,096--Air Force; 6,721--Army; 
4,691--Navy; and 1,342--Marine Corps). The Senate confirmed 22,892 
nominations this session. Pursuant to the provisions of paragraph six 
of Senate Rule XXXI, eight nominations were returned to the President 
during the first session of the 110th Congress.
Treaties
    There were 10 treaties transmitted to the Senate by the President 
during the first session of the 110th Congress for its advice and 
consent to ratification. These were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 110-1 through 110-10).
    The Senate gave its advice and consent to eight treaties with 
various conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were nine executive reports relating to treaties ordered 
printed for the use of the Senate during the first session of the 110th 
Congress (Executive Report 110-1 through 110-9). The Senate conducted 
30 roll call votes in executive session, all on or in relation to 
nominations and treaties.
Executive Communications
    For the first session of the 110th Congress, 4,531 executive 
communications, 276 petitions and memorials and 33 Presidential 
messages were received and processed.
Legislative Information System
    The Executive Clerk consulted with the computer staff during the 
year to improve the processing of nominations, treaties, executive 
communications, presidential messages and petitions and memorials.
    Additionally, the Executive Clerk worked closely with the 
Legislative Information System staff of the Sergeant at Arms (SAA) in 
the development of the new program for processing the nomination lists 
through a Web-based application which can be done entirely by the 
Executive Clerk, freeing the SAA programmers from this responsibility. 
It has proved to be a time and cost effective method of managing the 
nomination lists from the Pentagon, and the Departments of State, 
Commerce, and Health and Human Services.
                             journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The Senate Journal is published each calendar year, and 
in 2007 the Journal Clerk completed the production of the 923 page 2006 
edition.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
chamber, noting the following by hand for inclusion in the Minute Book: 
(i) all orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and roll call votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication at the end of each 
calendar year of the Senate Journal.
    The LIS Senate Journal Authoring System continues to be updated as 
needed to further assist in the efficiency of production. The 2007 
Senate Journal is expected to be sent to GPO for printing at the end of 
May 2008.
                     official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief, and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office staff interacts with Senate personnel on 
additional materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to the Government Printing Office (GPO). Each day roughly 90 percent of 
transcript production for GPO is done electronically, thus 
significantly reducing the time required by GPO to retype materials for 
presentation in the Congressional Record by the next day. There were 
many days during the year that the full Senate portion of the 
Congressional Record was done electronically with no rekeying done by 
the GPO. There was not one occasion in 2007 that the Congressional 
Record was not delivered to the Senate by the following day at noon.
    This year saw further procedural work in a pilot project to provide 
on-line Record corrections. Trial efforts by this office showed that, 
throughout the year, very few of such errors were found in the many 
hundreds of thousands of words produced in the Congressional Record.
                            parliamentarian
    The Parliamentarian's office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the Chair, senators, and their staff, 
as well as committee staff, House Members and their staffs, 
administration officials, the media and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, unanimous consent agreements, as 
well as provisions of public law affecting the proceedings of the 
Senate.
    The Parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other senator on procedural matters. 
The Parliamentarians work closely with the staff of the Vice President 
of the United States and the Vice President himself whenever he 
performs his duties as President of the Senate.
    The Parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President and ensure that enrolled bills are signed in a 
timely manner by duly authorized officers of the Senate for 
presentation to the President. The Parliamentarians are a critical 
point of contact for emergency planning for representatives of the 
President.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of the 
amendments offered to the legislation pending on the Senate floor, and 
monitor them for points of order. In this respect, the Parliamentarians 
reviewed more than 1,000 amendments during 2007 to determine if they 
met various procedural requirements (such as germaneness). The 
Parliamentarians also reviewed thousands of pages of conference reports 
to determine what provisions could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2007, the Parliamentarian and his assistants referred 
3,177 measures and 4,839 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of particular 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. As in previous years, the office 
continues to address the jurisdictional questions posed by the creation 
of the Department of Homeland Security, by the adoption of S. Res. 445 
reorganizing intelligence and homeland security jurisdiction of the 
Senate's committees, and by the enactment of the Intelligence Reform 
and Terrorism Prevention Act of 2004. The Parliamentarians have made 
dozens of decisions concerning the department's responsibilities.
    During all of 2007, the Parliamentarians reviewed a myriad of 
drafts of the ethics reform proposals before they were finally adopted 
into law. The Parliamentarians now have the responsibility for 
potentially reviewing every provision of every bill, joint resolution, 
or conference report considered by the Senate for the presence of 
earmarks, as well as to advise whether the conferees exceeded their 
authority in including any provision in a conference report.
    The Parliamentarian's office hopes to complete a Supplement to the 
Senate Precedents by the end of this Congress. This is an enormous 
undertaking, but will be a valuable resource for Members and their 
legislative staff.
    During 2007, the Parliamentarians again (as they have in the past) 
conducted a comprehensive seminar for Senate staff on Senate procedure, 
under the joint auspices of the Secretary of the Senate and Sergeant-
at-Arms. This seminar was videotaped for ongoing use by the Senate as 
an institutional teaching tool.
                          financial operations
                           disbursing office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information, and advice to the offices of the United States Senate and 
to Members and employees of the Senate. The Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, prepare 
auditable financial statements, and provide appropriate counseling and 
advice. The Senate Disbursing Office collects information from Members 
and employees that is necessary to maintain and administer the 
retirement, health insurance, life insurance, and other central human 
resource programs and provides responsive, personal attention to 
Members and employees on an unbiased and confidential basis. The Senate 
Disbursing Office also manages the distribution of central financial 
and human resource information to the individual Member offices, 
committees, administrative and leadership offices in the Senate while 
maintaining the confidentiality of information for Members and Senate 
employees.
    The organization is structured to enhance its ability to provide 
quality work, maintain a high level of customer service, promote good 
internal controls, efficiency and teamwork, and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.

                            Executive Office

    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day-to-day operations of the Disbursing Office (DO);
  --respond to any inquiries or questions that are presented;
  --maintain fully and properly trained staff;
  --safeguard the staff as well as the assets of the Secretary of the 
        Senate;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments; and
  --handle all information requests from the Committee on 
        Appropriations and Committee on Rules and Administration.
    This year the Executive Office arranged with the Senate Office of 
Orientation and Training to conduct a customer service presentation. We 
also coordinated specialized training in the ADPICS and FAMIS systems 
for the Sergeant at Arms (SAA) Finance Staff. In addition, all staff 
attended the new ethics training and the office participated in all of 
the Senate continuity of operations (COOP) exercises as well as two 
disaster recovery exercises performed last year.
    As a result of the change in majority, the Executive Office issued 
more than 200 letters to staff explaining the requirements of displaced 
staff as authorized by applicable Senate Resolutions. This was the 
first election year cycle where so many offices were affected. At the 
same time, we prepared and arranged for the distribution of retroactive 
cost of living adjustment (COLA) letters and issued budget letters to 
the 140 Senate accounting locations when the full year continuing 
resolution was passed.
    The Executive Office was involved in the coordination of the 
Government Accountability Office cash count of the Financial Services 
office (Front Office) operations and provided all of the requested 
information for the agreed-upon procedural review of the Office of 
Public Records. Both offices received a clean bill of health.
    Staff provided assistance to numerous Senate offices in making 
estimates before the end of the fiscal year, particularly in the 
preparation of payroll assumptions. In addition, the office prepared an 
account analysis of all expenditures and transfers from 1990 to 2007 
for the Senate Collection.

               Deputy for Benefits and Financial Services

    The principal responsibility of this position is to provide 
expertise and oversight on Federal retirement, benefits, payroll, and 
financial services processes. Coordination of the interaction between 
the Front Office, Employee Benefits, and Payroll sections is also a 
major responsibility of the position, in addition to the planning and 
project management of new computer systems and programs. The deputy for 
Benefits and Financial Services ensures that job processes are 
efficient and up to date, modifies computer support systems as 
necessary, implements regulatory and legislated changes, and designs 
and produces up-to-date forms for use in all three sections.
General Activities
    Implementation of the new Federal Employees Dental and Vision 
Insurance Program (FEDVIP) took place in January. The implementation 
was successful and proceeded smoothly. Expected follow-up trouble-
shooting and minimal fine-tuning of technical programming issues was 
completed during January and February.
    Oversight of the many issues resulting from the change in Senate 
Majority was conducted from January through March. Incoming, outgoing 
and transferring staff were processed and counseled and adjustments to 
office allowances were processed. Research on the appropriate 
Resolutions was conducted. Similar actions took place following the 
death of Senator Craig Thomas of Wyoming and the resignation of Senator 
Trent Lott of Mississippi.
    After year-end processing of payroll for calendar year 2006, W-2 
forms were issued promptly and made immediately available on the 
Document Imaging System (DIS). After budget approval, the retroactive 
employee COLA was processed over a 2-month period in March and April to 
allow for make up of the retroactive portion due employees.
    The new server for the DIS became fully operational early in 2007. 
During the year, the deputy worked with SAA Technical Support to 
determine additional DIS requirements to provide greater human 
resources management system functionality and provide off-site access 
to a wider array of payroll documents. The office intends to implement 
these upgrades in 2008 and to complete plans to expand the scope of the 
DIS to bring it into full compliance with COOP guidelines.
    A major initiative is to eliminate the use of employee social 
security numbers wherever possible. During 2007, the ``Social Security 
Migration'' project was begun. The office has worked extensively with 
SAA Technical Support to establish requirements and guidelines and 
develop strategies for the payroll system side of this important 
migration. Meetings and coordination have led to extensive testing, 
programming and feedback. In addition, Disbursing has conducted 
research and coordinated with internal Senate and external users on how 
this migration will affect their end products and provided information 
and test data so transitions will be smooth. Because the payroll system 
``communicates'' with so many entities receiving and providing data, 
this migration is a major project that requires extensive coordination. 
The migration is anticipated for mid-2008.
    The deputy and Payroll group worked with Disbursing's information 
technology group, several SAA Technical Support groups and contractors 
to establish the guidelines and specific requirements for the provision 
of electronic payroll reports for Senate offices. Testing and 
implementation of this project is scheduled for 2008.
    Due to the increase in popularity and participation in the Student 
Loan Program (SLP), the Financial Clerk and deputy dedicated time and 
resources to establishing an SLP administrator position. In addition, 
Disbursing was involved in extensive research with the Internal Revenue 
Service (IRS) on guidelines affecting the taxability of reimbursements 
to the Senate of SLP payments. Efforts were made to make the program 
guidelines and administration clearer to participants and office 
administrators.
    In response to the passage of S. 1, the Honest Leadership and Open 
Government Act of 2007, Disbursing staff coordinated with the staff of 
the Office of Public Records and other offices of the Secretary as well 
as SAA Technical Support to determine the requirements of the 
legislation and prepare for implementation of those requirements. 
Payroll system programming was established and tested to provide 
compliance with the legislation within a very short timeframe. 
Terminating employee notices were drafted and data for Web site 
availability was provided. In compliance with the legislation, notices 
were sent to terminating employees beginning in November and Web site 
data was delivered before the end of the year.

          Front Office--Administrative and Financial Services

    The Front Office is the main service area of all general Senate 
business and financial activity. The Front Office staff maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Office staff also provides training to newly authorized payroll 
contacts along with continuing guidance to all contacts in the 
execution of business operations. It is the receiving point for most 
incoming expense vouchers, payroll actions, and employee benefits 
related forms, and is the initial verification point to ensure that 
paperwork received in the Disbursing Office conforms to all applicable 
Senate rules, regulations, and statutes. The Front Office is the first 
line of service provided to senators, officers, and employees. All new 
Senate employees (permanent and temporary) who will work in the Capitol 
Hill Senate offices are administered the required oath of office and 
personnel affidavit. Staff are also provided verbal and written 
detailed information regarding pay and benefits. Advances are issued to 
Senate staff authorized for official Senate travel. Cash and check 
advances are entered and reconciled in Web FMIS. Repayment of travel 
advances is executed after processing of certified expenses is 
complete. Numerous inquiries are handled daily, ranging from pay, 
benefits, taxes, voucher processing, reporting, laws, and Senate 
regulations, and must always be answered accurately and fully to 
provide the highest degree of customer service. Cash and checks 
received from Senate entities as part of their daily business are 
handled through the Front Office and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system.
General Activities
  --Processed approximately 1,000 cash advances, totaling approximately 
        $900,000 and initialized 730 check/direct deposit advances, 
        totaling approximately $630,000.
  --Received and processed more than 25,000 checks, totaling over 
        $2,200,000.
  --Administered oath and personnel affidavits to more than 2,700 new 
        Senate staff and advised them of their benefits.
  --Maintained brochures for 11 Federal health insurance carriers and 
        distributed approximately 4,100 brochures to new and existing 
        staff during the annual Federal Employees Health Benefits 
        (FEHB) Open Season.
  --Provided 30 training sessions to new administrative managers.
    The Front Office continues its daily reconciliation of operations 
and strengthened internal office controls. New locks for cash drawers 
were installed, allowing better central control of the cash 
accountability. Training and guidance to new administrative managers 
and business contacts continued, as did the incorporation of updates of 
the scanning and imaging project into daily operations. A major 
emphasis was placed on assisting employees in maximizing their Thrift 
Savings Plan (TSP) contributions and making them aware of the TSP 
catch-up program. The Front Office continued to provide the Senate 
community with prompt, courteous, and informative advice regarding 
Disbursing Office operations.

                            Payroll Section

    The Payroll Section maintains the human resources management system 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by senators, 
chairmen and other appointing officials for their staffs, including 
appointments of employees, salary changes, title changes, transfers and 
terminations. It is also responsible for input of all enrollments and 
elections submitted by Members and employees that affect their pay 
(e.g., retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments) and for the issuance of accurate 
salary payments to Members and employees. The Payroll Section jointly 
maintains the Automated Clearing House (ACH) FedLine facilities with 
the Accounts Payable Section for the normal transmittal of payroll 
deposits to the Federal Reserve. Payroll expenditure, projection and 
allowance reports are distributed to all Senate offices. Issuance of 
the proper withholding and agency contribution reports to the 
Accounting Department is handled by Payroll as is transmission of the 
proper TSP information to the National Finance Center. In addition, the 
Payroll Section maintains earnings records for distribution to the 
Social Security Administration and employees' taxable earnings records 
for W-2 statements. The Payroll Section is also responsible for the 
payroll expenditure data portion of the Report of the Secretary of the 
Senate. The Payroll Section calculates, reconciles and bills the Senate 
Employees Child Care Center (SECCC) for their staff employee 
contributions and forwards payment of those contributions to the 
Accounting Section. The Payroll Section provides guidance and 
counseling to staff and administrative managers on issues of pay, 
salaries, allowances, and projections.
General Activities
    In March, the Payroll Section processed a retroactive employee Cost 
of Living Adjustment (COLA) of 2.64 percent. Due to a delay in the 
fiscal year funding and the authorization of the COLA, the Payroll 
Section processed the COLA as adjustments in March and April to 
accommodate both the retroactive portion due employees as well as the 
prospective portion. To accomplish this, they worked with the SAA 
Technical Support staff to insure proper application of the COLA. The 
Payroll Section maintained the normal schedule of processing TSP 
election forms. Employees took full advantage of the increase of TSP 
deductions making the most of the new $15,500 maximum. For those 
employees over age 50, the TSP catch-up program provided an opportunity 
to make additional contributions in excess of the standard limitations.
    Payroll allowance, expenditure and projection reports are provided 
to all Senate offices on a monthly basis. A desire to provide these 
reports in an electronic format was previously identified. Payroll 
participated in determining and refining requirements and identifying 
strategies for the project during 2007. The goal is to make these 
reports available electronically in 2008.
    The Payroll Section provides administration of the Student Loan 
Program. Due to the growth of the Program, a dedicated Student Loan 
Administrator was added as a full time position within the Payroll 
Section. The SLP Administrator worked to improve processes for 
administration of the program. In addition, strides were made in 
providing clarification to issues affecting SLP, and additional 
emphasis was placed on recovery of outstanding debts to the SLP. The 
dedicated SLP e-mail address and phone line have proven successful 
additions for users as well as the SLP Administrator.
    The Payroll Section staff worked diligently in 2007 with the SAA 
Technical Support staff and external entities to eliminate use of paper 
and tape-driven correspondence. In July, the Payroll Section began 
transmitting all U.S. Savings Bond payments electronically to the 
Federal Reserve. In September, they began transmitting all TSP payments 
electronically. This transmission of TSP payments was the final phase 
in complete electronic transmission with the TSP. Disbursing is now 
completely paper-free and tape-free in its correspondence and 
transmissions with the TSP and the Federal Reserve for Savings Bonds.
    The Payroll Section was involved in the implementation and follow-
up of the FEDVIP which took effect January 1, 2007. The office 
continues to refine and improve processes in working with the third-
party administrators who administer FEDVIP, FSA and Long Term Care 
(LTC) Insurance.
    The 2007 majority change presented the Payroll Section with the 
task of transferring all staff in those affected offices to their new 
offices and making the related budgetary changes to office allowances, 
projections and expenditures. Disbursing Office staff looked into the 
specifics of applicable Senate Resolutions to determine their impact on 
outgoing staff and to ensure that procedures allowed for the proper 
administration of the resolutions. Payroll processed the paperwork and 
payments for approximately 350 employees affected by the change. In 
addition, the Payroll Section administered transfers and payments of 
staff following the death of Senator Craig Thomas of Wyoming and again 
after the resignation of Senator Trent Lott of Mississippi.
    The Payroll Section is also assisting in the testing and trouble-
shooting of the ``Social Security Migration'' project that will take 
place in 2008. Members of the Payroll staff attended a conference where 
they garnered valuable information on the Senate's Payroll System, 
planned upgrades and updates, as well as networking with other users 
who have dealt with similar migrations.
    The Payroll Section again participated in disaster recovery 
testing. This year two separate tests were conducted. Both entailed 
using the Alternate Computing Facility (ACF) processing equipment to 
operate the payroll system from the Hart Building while SAA programmers 
ran trial payrolls from remote sites. Part of the test was for members 
of SAA Production Services to produce the payroll output from printers 
located at the ACF. The payroll system test proved very successful.
Employee Benefits Section (EBS)
    The primary responsibilities of the Employee Benefits Section are 
administration of health insurance, life insurance, TSP, and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information, and interpretation of retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
the Federal Flexible Spending Account (FSA) Program, the Federal LTC 
Insurance Program and FEDVIP. In addition, the sectional work includes 
research and verification of all prior Federal service and prior Senate 
service for new and returning appointees. EBS provides this information 
for payroll input. It also verifies the accuracy of the information 
provided and reconciles, as necessary, when official personnel folders 
and transcripts of service from other Federal agencies are received,. 
Senate transcripts of service, including all official retirement and 
benefits documentation, are provided to other Federal agencies when 
Senate Members and staff are hired elsewhere in the Government. EBS is 
responsible for the administration and tracking of employees placed in 
Leave Without Pay (LWOP) to Perform Military Service and the occasional 
civilian appointment to an international organization. EBS also handles 
most of the stationery and forms inventory ordering and maintenance, as 
well as all benefits, TSP, and retirement brochures, for the Disbursing 
Office. EBS processes employment verifications for loans, bar exams, 
the Federal Bureau of Investigation, Office of Personnel Management, 
and Department of Defense, among others. Unemployment claim forms are 
completed, and employees are counseled on their eligibility. Department 
of Labor billings for unemployment compensation paid to Senate 
employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment, as are the employee fees associated 
with FSAs. Designations of Beneficiary for Federal Employees' Group 
Life Insurance (FEGLI), retirement, and unpaid compensation are filed 
and checked by EBS.
General Activities
    The year began with EBS finalizing retirement estimates and 
processing the many retirement cases associated with the outgoing 
senators and their staffs, as well as those staff on committees who 
were affected by the changes. Many regular retirement, death, and 
disability cases were also processed throughout the year.
    There was a great deal of employee turnover in early 2007, 
resulting in a dramatic increase in appointments to be researched and 
processed, retirement records to be closed-out, termination packages of 
benefits information to be compiled and mailed out, and health 
insurance enrollments to be processed. Transcripts of service for 
employees going to other Federal agencies, and other tasks associated 
with employees changing jobs were at a high level this year. These 
required prior employment research and verification, new FEHB, FEGLI, 
FSA, FEDVIP, Civil Service Retirement System (CSRS), Federal Employees 
Retirement System (FERS) and TSP enrollments, and the associated 
requests for backup verification.
    With the death of Senator Craig Thomas, EBS assisted with the 
resulting benefits and retirement claims counseling and processing. EBS 
provided counseling and assisted Senator Thomas' staff with transition 
issues. EBS also assisted Senator John Barrasso and his staff with 
their transition to fill the seat of Senator Thomas. EBS also counseled 
Senator Trent Lott's personal and Whip staff with their transition 
issues in light of the senator's resignation.
    EBS conducted agency-wide seminars on CSRS and FERS and attended 
interagency meetings as a result of the many new features of the TSP 
Program. EBS also attended a conference conducted by our payroll 
systems developer, Integral Systems, to broaden our knowledge in system 
applications and upgrades, with an emphasis on security.
    Many employees changed health plans during the annual FEHB Open 
Season. These changes were processed and reported to carriers very 
quickly. This year, the Disbursing Office again offered Senate 
employees access to the online ``Checkbook Guide to Health Plans'' to 
research and compare FEHB plans. This tool will remain available to 
staff throughout the year. The Disbursing Office also hosted a FEHB 
Open Season Health Fair, which was well attended. The Health Fair 
included representatives from most of the local and national FEHB 
plans. Other representatives in attendance included LTC, FSA, FEDVIP 
and The Consumers Checkbook Guide.

                 Disbursing Office Financial Management

    Headed by the deputy for Financial Management, the mission of 
Disbursing Office Financial Management is to coordinate all central 
financial policies, procedures, and activities; to process and pay 
expense vouchers within reasonable time frames; to work toward 
producing an auditable consolidated financial statement for the Senate; 
and to provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
Disbursing Office Financial Management is segmented into three 
functional departments: Accounting, Accounts Payable, and Budget. The 
Accounts Payable Department is subdivided into three sections: Vendor/
SAVI, Disbursement and Audit. The deputy coordinates the activities of 
the three functional departments, establishes central financial 
policies and procedures, and carries out the directives of the 
Financial Clerk and the Secretary of the Senate.

                         Accounting Department

    During 2007, the Accounting Department approved 51,950 expense 
reimbursement vouchers and 29,400 certification and vendor uploads, 
processed 1,300 deposits for items ranging from receipts received by 
the Senate operations, such as the Senate's revolving funds, to 
cancelled subscription refunds from Member offices. General ledger 
maintenance also prompted the entry of thousands of adjustment entries 
that include the entry of all appropriation and allowance funding 
limitation transactions, all accounting cycle closing entries, and all 
non-voucher reimbursement transactions such as payroll adjustments, 
COLA budget uploads, stop payment requests, travel advances and 
repayments, and limited payability reimbursements. The department 
continues to scan all documentation for journal vouchers, deposits, 
accounting memos, and letters of certification to facilitate both 
storage concerns and COOP backup.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications. During January 2007, the 
Accounting Department completed the 2006 year-end process to close and 
reset revenue, expense, and budgetary general ledger accounts to zero. 
The new certificate of deposit log, developed in 2006, was modified to 
make it more user-friendly for data entry, and some testing was 
required to make fully functional.
    The Department of the Treasury's monthly financial reporting 
requirements includes a ``Statement of Accountability'' that details 
all increases and decreases to the accountability of the Secretary of 
the Senate, such as checks issued during the month and deposits 
received, as well as a detailed listing of cash on hand. Also, reported 
to the Department of the Treasury on a monthly basis is the ``Statement 
of Transactions According to Appropriations, Fund and Receipt 
Accounts,'' a summary all activity of all monies disbursed by the 
Secretary of the Senate through the Financial Clerk of the Senate. All 
activity by appropriation account is reconciled with the Department of 
the Treasury on a monthly and annual basis. The annual reconciliation 
of the Treasury Combined Statement is also used in the reporting to the 
Office of Management and Budget (OMB) as part of the submission of the 
annual operating budget of the Senate.
    This year, the Accounting Department transmitted all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security, and Medicare to the Federal Reserve Bank. The 
department also performed quarterly reporting to the IRS and annual 
reporting and reconciliation to the IRS and the Social Security 
Administration. Payments for employee withholdings for State income 
taxes were reported and paid on a quarterly basis to each State with 
applicable State income taxes withheld. System modifications were 
installed to allow electronic (ACH) payment of quarterly State taxes. 
Extensive effort was put forth to gather information for the various 
jurisdictions as to their requirements for ACH transmittal. A pilot 
program for the electronic payment of quarterly State taxes consisting 
of Minnesota, Pennsylvania, Maryland, Virginia, and Washington, DC, was 
transmitted in January of 2008. Monthly reconciliations were performed 
with the National Finance Center regarding the employee withholdings 
and agency matching contributions for the TSP.
    There are also internal reporting requirements, such as the monthly 
ledger statements for all Member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regard to official expenditures in detail and summary form. It is 
the responsibility of the Accounting Department to review and verify 
the accuracy of the statements before Senate-wide distribution.
    The Accounting Department, in conjunction with the deputy for 
Financial Management and the Assistant Financial Clerk, continues to 
work closely with the SAA Finance Department in completing a new draft 
of the Senate Wide Financial Statements for fiscal year 2006 in 
accordance with OMB Bulletin 01-09, ``Form and Content of Agency 
Financial Statements'' and any updates required by OMB Circular A-136, 
``Form and Content of the Performance and Accountability Reports''. 
Plans are underway to finalize the implementation of the fixed asset 
system, and financial management software has been upgraded to a new 
release and is expected to be fully operational during the first 
quarter of 2008. These two items are priorities discussed in monthly 
accounting meetings.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The Budget 
division is responsible for the preparation, issuance and distribution 
of the budget justification worksheets. Despite working under a 
continuing resolution in fiscal year 2007, the budget justification 
worksheets were mailed to the Senate accounting locations and processed 
in November. The budget baseline estimates for fiscal year 2008 were 
reported to OMB by mid-January. The budget analyst is also responsible 
for the preparation of 1099's and the prompt submission of forms to the 
IRS before the end of the January.

    Accounts Payable: Vendor/Senate Automated Vendor Inquiry Section

    The Vendor/Senate Automated Vendor Inquiry (SAVI) Section maintains 
the accuracy and integrity of the Senate's central vendor (payee) file 
for the prompt completion of new vendor file requests and service 
requests related to the Disbursing office's Web-based payment tracking 
system known as SAVI. This section also assists the information 
technology (IT) department in performing periodic testing and 
monitoring the performance of the SAVI system. Currently, more than 
15,300 vendor records are stored in the vendor file, in addition to 
approximately 10,000 employee records. Daily requests for new vendor 
addresses or updates to existing vendor information are processed 
within 24 hours of being received. In 2004, the A/P Department began 
paying vendors electronically via the ACH. Besides updating mailing 
addresses, the Vendor/SAVI section facilitates the use of ACH by 
switching the method of payment requested by the vendor from check to 
direct deposit. Whenever a new remittance address is added to the 
vendor file, a standard letter is mailed to vendors requesting tax and 
banking information. If a vendor responds indicating they would like to 
receive ACH payments in the future, the method of payment is changed. 
Currently, more than 2,100 vendors and over half of the home State 
office landlords are being paid via ACH.
    SAVI is a Web-based payment tracking system. Senate employees can 
electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments. The 
most common service requests are requests for system user 
identification and passwords and to reactivate accounts. Employees may 
also request an alternative expense payment method. An employee can 
choose to have their payroll set up for direct deposit or paper check, 
but can have their expenses reimbursed by a method different from their 
salary payment method.
    The Vendor/SAVI section works closely with the A/P Disbursements 
group resolving returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect ABA routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor/SAVI section electronically scans and stores all 
supporting documentation of existing vendor records and new vendor file 
requests. Currently electronic records for over 9,000 vendors have been 
verified against paper records and the paper files certified for 
destruction. In the near future, this section will assist the IT 
Department in testing an automatic e-mail notification system which 
will alert vendors when an EFT payment has been made and will provide 
pertinent payment information.
    During 2007, the Vendor/SAVI section processed over 2,450 vendor 
file requests, completed nearly 2,200 SAVI service requests, mailed 
over 1,150 vendor information letters, and converted almost 500 vendors 
from check payment to direct deposit.
    The SAVI web-based system was upgraded in 2006 and further upgrades 
were discussed in 2007. Currently, SAVI exists as a stand alone 
application, but it will be incorporated into Web FMIS in 2008. This 
will enable users to take advantage of SAVI more fully while using a 
single system to handle payment inquiries. Since outside vendors do not 
have access to SAVI, an e-mail notification system was developed to 
alert vendors when payments are made. Testing began in 2007 and was 
completed in January of 2008 under a pilot program. Another major 
upgrade is the conversion of current employees social security numbers 
to an employee identification number so that no part of their Social 
Security number will be used as part of their vendor number.

               Accounts Payable: Disbursements Department

    A disbursement is the entry and exit point for voucher payments. 
The department received in excess of 152,000 vouchers. All of these 
items were paid by the department either by Treasury check or ACH. As a 
result of the increasing popularity of electronic payment, the 
department wrote 28,659 expense checks and the remainder of the 
payments was via ACH. Approximately 150,000 reimbursements were 
transmitted via ACH. The department has experienced a slight decrease 
in the number of checks written, but a substantial increase in the 
number of ACH payments, thus in keeping with the department goal of 
reducing the use of paper checks.
    A new version of Checkwriter was installed as part of the release 
of Web FMIS version 2007.2. The new version was needed to facilitate 
the payment of quarterly State taxes via ACH.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Currently, files are maintained for the current period and two 
prior periods in-house as space is limited. Older documents are stored 
at the Senate Support Facility (SSF). The inventoried items are sorted 
and recorded in a database for easy document retrieval. Several 
document retrieval missions were successfully carried out and the 
department continues to work closely with warehouse personnel.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include re-issuance of items 
held as accounts receivable collections, re-issuance of payments for 
which non-receipt is claimed, and various supplemental adjustments 
received from the Payroll Department. Such adjustments are usually 
disbursed by check, but an increasing number are now handled 
electronically through ACH. Paper payroll check registers were replaced 
by an electronic version using Reveal software in 2006, and a 
spreadsheet is maintained by Disbursements to track cases of non-
receipt of salary checks, including stop payment requests and re-
issuance.
    During 2007, while experiencing an increase in ACH payments, 
Disbursing also experienced an increase, though small, in the number of 
ACH returns. Returns are usually the result of receiving incorrect 
account or routing information and are easily corrected with payee 
contact. Some returns result from account closings or non-participating 
financial institutions and, while a bit more difficult, these items are 
resolved either by receiving updated information or simply converting 
the payment to a check. All rejected items are logged into an ACH 
reports folder. They are classified as either Payroll or Accounts 
Payable, and the actual daily reports are also scanned into the folder. 
Once logged in, the payroll items are forwarded to the Payroll 
Department, and the non-payroll items are forwarded to Vendor/SAVI to 
determine appropriate corrective action. Accounting memos are prepared 
outlining the actions to be taken, and Disbursements prepares the 
adjustments as warranted.
    The Department also prepares the forms required by the Department 
of Treasury for stop payments. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement supervisor and the Accounts Payable manager continued 
using the Department of Treasury--Financial Management Service (FMS) 
online stop pay and check retrieval process known as PACER. The PACER 
system allows us to electronically submit stop-payment requests and 
provides online access to digital images of negotiated checks for 
viewing and printing. Once a check is viewed, it is printed and may be 
scanned. Scanned images are then forwarded to the appropriate 
accounting locations via e-mail. During 2007, over 500 requests were 
received for check copies. The use of PACER has enabled us to save the 
$7.50 processing fee we paid in the past. PACER is expected to go to a 
Web-based product in 2008, thus enabling us to research using the 
Internet rather than the slower mainframe system currently in use.

                   Accounts Payable: Audit Department

    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations, identifies duplicate payments submitted by 
offices, monitors payments related to contracts, trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System, and 
assists in the production of the Report of the Secretary of the Senate.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. The Funds Advance Tracking System (FATS) was 
used to ensure that advances were charged correctly, vouchers repaying 
such advances were entered, and balances were adjusted for reuse of the 
advance funds. An ``aging'' process was also performed to ensure that 
travel advances were repaid in the time specified by the travel advance 
regulations. Travel advances may be repaid via regular voucher 
processing, or may be canceled if the corresponding travel is not taken 
and the funds are returned.
    Late in 2006, a new advance module was placed into service for 
issuing and tracking advances. The module is part of Web FMIS version 
11 and is the first of a two-phase project. The first phase has been 
completed and accommodates issuance, tracking, and repayment of 
advances. The second phase accommodates entry and editing of election 
dates and Senator-elect vouchers and has now been installed. In 
addition to other functionality, an advance type of petty cash was 
created and regular petty cash audits are performed by the department. 
We successfully performed 22 petty cash audits in 2007.
    The Accounts Payable Audit Section processed in excess of 152,000 
expense vouchers in fiscal year 2007, as well as 30,000 uploaded items. 
In addition, the section sanctioned in excess of 87,000 vouchers under 
authority delegated by the Senate Committee on Rules and 
Administration. This translates to roughly 16,600 vouchers processed 
per auditor, and 30,000 vouchers posted per certifier. The voucher 
processing consisted of providing interpretation of Senate rules, 
regulations and statutes and applying the same to expense claims, 
monitoring of contracts, and direct involvement with the Senate's 
central vendor file. On average, vouchers greater than $100.00 that do 
not have any issues or questions are received, audited, sanctioned 
electronically by the Senate Committee on Rules and Administration 
using Web FMIS and paid within 8 to 10 business days.
    Uploaded items are of two varieties: certified expenses and vendor 
payments. Certified expenses have been around since the 1980's and 
included items such as stationery, telecommunications, postage, and 
equipment. Currently, the certifications include mass transit, mass 
mail, franked mail, excess copy charges, Photography Studio, and 
Recording Studio charges. Expenses incurred by the various Senate 
offices are certified to the Disbursing Office on a monthly basis. The 
expenses are detailed on a spreadsheet which is also electronically 
uploaded. The physical voucher is audited and appropriate revisions are 
made. Concentrated effort is put forth to ensure certified items appear 
as paid in the same month they are incurred.
    Vendor uploads are used to pay vendors for the Stationery Room, 
Senate Gift Shop, State office rentals, and refunds of security 
deposits for the Senate Page School. The methodology is roughly the 
same as for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the State office rents are generally paid a few days 
prior to the month of the rental in keeping with a general policy of 
paying rent in advance.
    The Disbursing Office has sanctioning authority for vouchers of 
$100.00 or less. These vouchers comprise approximately 60 percent of 
all vouchers processed. The responsibility for sanctioning rests with 
the certifying accounts payable specialists and are received, audited, 
and paid within 5 business days of receipt. As in the previous year, 
Disbursing continued to pass two post-payment audits performed by the 
Senate Committee on Rules and Administration.
    Additionally, advance documents and non-Contingent Fund vouchers 
are now posted in Audit. Currently, there are three certifying accounts 
payable specialists who handle the bulk of the sanctioning 
responsibilities within the group.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, and 
the permissibility of an expense; and participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress. The section trained 36 new administrative managers and chief 
clerks and conducted 6 informational sessions for Senate staff through 
seminars sponsored by the Congressional Research Service (CRS). The 
Accounts Payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of new 
hardware, software, and system applications. Web FMIS version 2007.1 
was in use for most of the year and version 2007.2 was released in 
August. The section participated in testing for the release of Web FMIS 
version 2008.1 late in the year. Testing and discussions continue for 
employee identification number conversion, and implementation is 
expected in 2008.
    The cancellation process for advances was upgraded and streamlined 
in 2006 and continues to work well. This was necessary to ensure 
repayment of advances systematically for canceled or postponed travel 
in accordance with Senate Travel Regulations, as well as to provide 
functionality consistent with the release of Web Advances Phase I. The 
new process eliminates the need to create zero dollar vouchers, allows 
the Disbursing Office to completely handle the cancellations in FAMIS, 
and allows administrative managers to simply void their advance 
documents.

                Disbursing Office Information Technology

Financial Management Information System
    The Disbursing Office Information Technology (DO IT) department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
the Senate's Financial Management Information System (FMIS) which is 
used by staff in 140 Senate accounting locations (i.e., 100 Senator's 
offices, 20 committees, 20 leadership and support offices, the Office 
of the Secretary of the Senate, the SAA, the Senate Committee on Rules 
and Administration Audit section, and the Disbursing Office). 
Responsibilities of the department include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Managing the FMIS project, including contract management;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's disaster recovery activities.
    The Disbursing Office is the ``business owner'' of FMIS and is 
responsible for making the functional decisions about FMIS. The SAA 
Technology Services staff is responsible for providing the technical 
infrastructure, including hardware (e.g., mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management and database administration; and regular batch processing. 
The office's contract support team along with the SAA, is responsible 
for operational support and is also under contract with the Secretary, 
for application development. The three organizations work 
cooperatively.
    Highlights of the year include:
  --Implementation of two releases of FMIS;
  --Incorporating the functionality of the FATS sub-system into Web 
        FMIS, thus enabling Disbursing to retire the FATS system;
  --Preparing for converting employee vendor numbers to a number that 
        does not contain any portion of the employee's social security 
        number;
  --Preparing for a pilot of remitting quarterly State tax payments via 
        direct deposit;
  --Testing infrastructure changes that included upgrades to the 
        mainframe operating system (Z/OS), the database (DB2), and Web 
        Sphere;
  --Coordinating and participating in the FMIS portion of the yearly 
        Senate-wide disaster recovery exercise for the ACF;
  --Coordinating and participating in a first-time FMIS only disaster 
        recovery exercise for the ACF;
  --Issuing a spreadsheet by which any Senator's office could estimate 
        a potential COLA for their office based on office-defined 
        criteria;
  --Supporting the Senate Committee on Rules and Administration's post-
        payment audit of a statistically valid sample of vouchers of 
        $100.00 or less;
  --Installing new printers throughout the Disbursing Office; and
  --Conducting monthly classes and seminars on Web FMIS.
            Supporting Current Systems
    The DO IT department supports FMIS users in all 140 accounting 
locations, Disbursing's Accounts Payable (A/P), Accounting, 
Disbursements, Vendor/SAVI and Front Office sections, and the Senate 
Committee on Rules and Administration Audit staff. The activities 
associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS (help desk); answer hundreds 
        of questions; and meet with chiefs of staff, administrative 
        managers, chief clerks, and directors of various Senate offices 
        as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for database access optimization;
  --Security--maintain user rights for all ADPICS, FAMIS, and Web FMIS 
        users;
  --System administration--design, test and make entries to tables that 
        are at the core of the system;
  --Support of accounting activities--perform functional testing and 
        production validation of the cyclic accounting system 
        activities. This includes rollover, the process by which tables 
        for the new fiscal year are created, and archive/purge, the 
        process by which data for the just lapsed fiscal year is 
        archived for reporting purposes and removed from the current 
        year tables;
  --Support the Senate Committee on Rules and Administration post 
        payment voucher audit process--provide the data from which the 
        Rules Committee audit staff selects a statistically valid 
        sample of vouchers for $100 or less. In this way the Rules 
        Committee audit staff review vouchers sanctioned under 
        authority delegated to the Financial Clerk;
  --Upload bulk financial transactions directly to FAMIS--upload 
        documents, such as certifications and vouchers from the Keeper 
        of Stationery, directly into FAMIS. These documents, submitted 
        via spreadsheets, are reviewed by the DO A/P and/or Accounting 
        sections prior to upload; and
  --Training--provide functional training to all Senate FMIS users.
            Normal Tasks
    As part of our normal tasks to support current systems, Disbursing 
created 110 new Web FMIS user accounts and an additional 112 new 
ADPICS/FAMIS user accounts. Additionally, the office staff created new 
organization, department and location codes for the new senators in the 
110th Congress (nine newly elected Senators, one due to the death of 
Senator Craig Thomas, and one due to the resignation of Senator Trent 
Lott). Through the ``rollover'' process, Disbursing created the tables 
necessary for two new fiscal periods--fiscal year 2008 (for all FMIS 
users), which began 10/1/2007 and Resolution 89B (for Committees), 
which began 3/1/2007. The two queries for the Rules Committee's audit 
identified 24,770 records for the period 10/1/2006 to 3/31/2007 and 
25,195 for the period 4/1/2007 to 9/30/2007. The office uploaded over 
340 files of multiple documents such as certifications, vouchers from 
the Keeper of Stationery, SAA budget entries, and journal entries. 
Finally, since this was a year in which a new Congress began, 
Disbursing staff offered Web FMIS classes twice a month during February 
and March in order to meet the needs of the Senate user community. The 
classes were offered once a month for the remainder of the year.
            Unusual Tasks
    IT completed a number of unusual tasks to support current systems 
this year:
  --Designed and implemented a new office information authorization 
        form as well as two new mainframe system forms (security and 
        document approval paths updates) to facilitate user 
        administration;
  --Implemented procedures to create documents for rarely used funds, 
        such as foreign travel, in Web FMIS instead of ADPICS, taking 
        advantage of the sophisticated functionality in Web FMIS for 
        travel advances and travel advance repayments simplifying 
        processing of these documents by the A/P and Accounting staff; 
        and
  --Created and distributed a spreadsheet for Senate offices to use to 
        calculate a potential January 2008 COLA using office-defined 
        criteria.
            Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. During 2007, the SAA implemented 
three major upgrades to the FMIS infrastructure: upgrading the 
mainframe operating software, Z/OS from version 1.4 to version 1.7; 
upgrading the FMIS database from DB2 v 8 to DB2 v 8.1; and upgrading 
the Web Sphere software from v 6.0.2 to v6.1. Because the Z/OS upgrade 
was accomplished as a stand-alone activity, IT tested all FMIS 
subsystems in a testing environment and validated all FMIS subsystems 
in the production environment after the implementation. Since the other 
two upgrades were accomplished at the same time as a FMIS release, DB2 
with the 2007-2 release and Web Sphere with the 2008-1 release, all 
were tested as part of the release testing.
            Managing and Testing New System Development
    During 2007, the DO IT department supervised development, performed 
extensive integration system testing, and implemented changes to FMIS 
subsystems. For each, implementation and production verification was 
done over a weekend in order to minimize system down time to users. 
Since 2006, multiple sub-system upgrades were consolidated into two 
releases each year. This reduced the amount of regression testing 
required. In order to accurately reflect the variety of changes in each 
release, the releases are now numbered by fiscal year. During 2007, 
Disbursing implemented two releases, and worked on a third:
  --FMIS r2007-2, implemented in August 2007;
  --FMIS r2008-1, implemented in November 2007; and
  --FMIS r2008-1.5, scheduled to be implemented in January 2008.
    The items selected for development and implementation were based on 
user requests, suggestions from the SAA technical staff, and the IT 
department. The IT department meets regularly with users through 
scheduled user group meetings. For five weeks this spring the 
Disbursing IT department met weekly with the Web FMIS users group in 
order to review the new page designs and functionality that were 
implemented in FMIS r2007-2. Additionally, Disbursing IT met with the 
ADPICS/FAMIS users group (primarily SAA users) on a monthly basis. IT 
also implemented a monthly meeting with the Accounting Section in order 
to address their concerns in a user group format.
            FMIS 2007-2
    For Web FMIS users in senators and committee offices, FMIS 2007-2 
implemented a new look, additional functionality and ease-of-use 
features. The most prominent changes for these users included changes 
to the homepage, which now displays:
  --a budget summary panel with subtotals by payroll and non-payroll 
        for amounts budgeted, spent and remaining;
  --a tab with a graphical display of the four top non-payroll 
        expenditure categories;
  --a count of documents that have been saved but not submitted; and
  --a document quick access panel that enables searching for a document 
        by vendor name, or document number.
    Additionally, this release features a completely re-written budget 
function that simplifies budget entry. The ease-of-use features include 
automatic population of fields when a new vendor or expense category is 
added and when the office has only one location.
    Integration of the election date functionality from the FATS system 
into Web FMIS resulted in automatic notification, at the point that a 
document is submitted, if the per diem expenses on that document 
violate the 60-day election date moratorium period. This release marked 
the retirement of the legacy FATS system, simplifying the FMIS system 
architecture.
    For the Rules Committee Audit users, the new functionality in this 
release enabled them to ``check out'' documents instead of having 
documents assigned to them by a supervisor. The new functionality was 
so well received that it is anticipated it will be used for the imaged 
document pilot.
    For the Accounting Section, enhancements to the CD Log function 
simplified the work required to prepare deposits to be made to the 
Senate's depository bank.
    For SAA users, there were three important enhancements. Two changes 
enabled use of the SAA's work flow system. These were the ability to 
interface on-demand purchase order and voucher information from ADPICS 
and adding an approver field to several ADPICS screens. The other 
enhancement was to add fields in Web FMIS that will enable the SAA 
finance staff to use Web FMIS to create travel advance and voucher from 
advance documents, thereby enabling the SAA to take advantage of the 
sophisticated functionality in Web FMIS for travel advances and travel 
advance repayments.
            FMIS 2008-1
    With this release, Disbursing began three pilot programs. The first 
pilot sends e-mail messages to vendors paid by direct deposit that 
provides the same basic information that would be on a check stub. 
Providing the check stub information directly via e-mail helps the 
vendor credit the payment properly. The second pilot incorporates the 
functionality of SAVI into Web FMIS as ``Staffer Functionality.'' When 
implemented Senate-wide, staffers will use Web FMIS functionality to 
create expense summary reports and view payment information. They will 
be able to access this functionality using three different browsers: 
Internet Explorer 7, Safari, and Firefox. Full implementation will 
eliminate the SAVI subsystem and therefore simplify FMIS system 
architecture. The third pilot enables Disbursing to remit, via direct 
deposit, quarterly State tax payments to States.
    For Web FMIS users in Senators and committee offices, this release 
provided a completely re-written reconciliation function, added budget 
ease-of use features, and enabled users to create a custom user id. 
Additionally, Disbursing began posting documents under the Web FMIS 
Help system in order to provide more assistance on-line. New system 
functionality enabled Disbursing to relate identification of users who 
manage accounts for multiple offices. these ``multi-org'' users.
    The release included functionality for other user groups as well. 
For SAA users, this release provided online inquiries that enabled them 
to easily access payment information. For Disbursing IT system 
administrators, this release provided new functionality for managing 
users and the Web FMIS system functions assigned to them.
            Planning
    The Disbursing IT department performs two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
                Schedule Coordination
    In 2007, this department continued to hold two types of meetings 
among Disbursing, SAA and the contractor to coordinate schedules and 
activities. These were:
  --Project specific meetings--a useful set of project-specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Archive/Purge meetings 
        and Web FMIS budget function meetings); and
  --Technical meeting--a weekly meeting to discuss the active projects, 
        including scheduling activities and resolving issues.
                Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002, 
a 5-year strategic plan was written by the Disbursing IT and Accounting 
staff for Disbursing Office Strategic Initiatives. This detailed 
description of five strategic initiatives formed the base for the 
Secretary of the Senate's request in 2002 for $5 million in multi-year 
funds for further work on the FMIS project. The five strategic 
initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, in order to reduce the Senate(s 
        dependence on paper vouchers. This will enable continuation of 
        voucher processing operations from an alternate location should 
        an emergency occur;
  --Web FMIS.--Respond to requests from the Senate's accounting 
        locations for additional functionality in Web FMIS;
  --Payroll System.--Respond to requests from the Senate's accounting 
        locations for online real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
                Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the Disbursing IT department during the summer of 2003 and includes 
developing the task orders with contractors, overseeing their work and 
reviewing invoices. In 2007, two new task orders were executed:
  --Web FMIS reporting enhancements; and
  --Service year 2008 extended operational support, which covers 
        activities from September 2007 to August 2008.
    In addition, work continued under four task orders executed in 
prior years:
  --Imaging and signature design and electronic invoicing enhancement 
        continuation;
  --Web FMIS r10;
  --SAA finance system and reporting enhancements; and
  --Service year 2007 extended operational support (which covered 
        activities from September 2006 to August 2007).
                Administering the Disbursing Office's Local Area 
                    Network (LAN)
    Disbursing continued to administer its own local area network 
(LAN), which is separate from the network for the rest of the 
Secretary's Office. Upkeep of the LAN infrastructure, including 
performing routine daily tasks, and replacing equipment regularly is 
critical to providing services. During 2007, LAN administration 
activities included:
  --Maintaining and Upgrading the Disbursing Office's LAN;
  --Installing Specialized Software; and
  --Maintaining Projects for the Payroll and Benefits Section.
                Maintaining and Upgrading the Disbursing Office LAN
    Disbursing maintained the existing workstations with appropriate 
upgrades including:
  --Installing new printers for all staff;
  --Ordering, and beginning to deploy new laptops for selected staff; 
        and
  --Implementing Internet Explorer 7 for all staff.
                Installing Specialized Software
    Disbursing uses a variety of specialized software that is critical 
to workflow processes. In 2007, Disbursing:
  --Updated check scanning software.--This software enables staff to 
        scan the front and back of checks deposited by Disbursing in 
        its depository bank;
  --Updated ``Reveal'' software.--This software enables staff to view 
        reports created by the FMIS batch process on-line;
  --Installed a new version of ``EasyACH''.--This software enables 
        Disbursing to resend direct deposit payments, a functionality 
        that was eliminated from the new ACH software provided by the 
        Federal Reserve; and
  --Tested a replacement for ``Rumba''.--This software emulates a 
        mainframe 3270 terminal and is used by all Senate staff who 
        access ADPICS and/or FAMIS.
                Maintaining Projects for Payroll and Employee Benefits 
                    Sections
    Disbursing continued to support the Payroll/Benefits Imaging 
system, developed by SAA staff, which electronically captures and 
indexes payroll documents submitted at the front counter. This is a 
critical system for the Payroll and Employee Benefits sections. During 
2007, the Disbursing network administrator worked with SAA staff to 
configure and install two servers for this project: one in the 
Disbursing Office and one at the ACF.
                Coordinating the Disbursing Office's Disaster Recovery 
                    Activities
    In August, the SAA technical staff conducted a Senate-wide disaster 
recovery test of the Senate's computing facilities, including FMIS 
functions. The test involved switching the Senate's network from 
accessing systems at the Primary Computing Facility (PCF) to the ACF 
and powering down the PCF. The SAA's primary purpose was to test the 
technical process of switching to the ACF; thus, only a limited amount 
of time was available for functional testing. In essence, FMIS systems 
and data were ``failed-over'' to the ACF, made available for testing 
for the functional testing window, and then the systems were ``failed 
back'' to the PCF. The data, changed during the test period, was not 
``failed back''. Thus, changes made while testing at the ACF were not 
reflected in production data.
    The Disbursing staff set minimal goals of accessing all critical 
FMIS subsystems. While the Disbursing IT staff coordinated activities, 
the actual testing was done by Disbursing functional and technical 
staff, the contractor, and SAA technical staff. Disbursing IT staff and 
the contractor tested ADPICS/FAMIS, Web FMIS, SAVI, and Checkwriter. 
Disbursing payroll staff and SAA technical staff tested the payroll 
system.
    Within the limited scope of the test, Disbursing successfully 
tested all the critical components of FMIS, with the exception of (a) 
accessing Checkwriter, (b) accessing some reports used by Disbursing 
(e.g., on the Reveal server and the Disbursing report server), and (c) 
critical batch processes which were not tested.
    At the Disbursing Office's request, the SAA added a FMIS-only 
Disaster Recovery test in December. The longer time allotted to this 
test enabled more complete functional testing, (including for example, 
following single documents from data entry in ADPICS and Web FMIS 
through payment in FAMIS), running more reports than during other 
tests, and testing the critical payroll and FAMIS batch processes. 
While the Disbursing IT staff organized the functional test plan, the 
actual testers included Disbursing IT staff, payroll staff, contractor 
support staff, and, for the first time, SAA Finance staff. No major 
problems were encountered and because of the longer time of this test, 
the problems that were encountered were investigated.
                         administrative offices
                     conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Initiatives include: 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate Leadership.
    Over the past year, the office has embossed 89 books and matted and 
framed 250 items for Senate leadership. For more than 25 years, the 
office has bound a copy of Washington's Farewell Address for the annual 
ceremonial reading of the address. In 2007, a volume was bound and read 
by Senator Bob Corker of Tennessee.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2007, conservation 
treatments were completed for 56 volumes of a 7,000 volume collection 
of House hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets; replacing acidic tab 
sheets with alkaline paper; cleaning the cloth cases; and replacing 
black spine title labels of each volume as necessary. The office will 
continue preservation of the remaining 3,694 volumes.
    The office assisted the Senate Library with books sent to the 
Government Printing Office's Library Binding section. Additionally, the 
office collaborated with the Senate Library to create three exhibits 
located in the Senate Russell building basement corridor.
    The Office of Conservation and Preservation staff continues to 
assist Senate offices with conservation and preservation of documents, 
books, and various other items. For example, the office staff continues 
to monitor the temperature and humidity in the Senate Library storage 
areas, including the Senate Support Facility, for preservation and 
conservation purposes.
                                curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.
Collections: Commissions, Acquisitions, and Management
    A painting of Senator Robert C. Byrd was unveiled in the Old Senate 
Chamber on September 25, 2007, as part of the Senate Leadership 
Portrait Collection. Additionally, a portrait of Senator Tom Daschle 
was approved and was unveiled on April 22, 2008; a painting of Senator 
Trent Lott will be completed in late 2008.
    One hundred and eight objects were accessioned into the Senate 
collection, including 38 Senate Chamber floor and gallery passes--the 
earliest dating to 1882; 26 invitations and programs to events such as 
portrait unveilings, joint sessions, and the laying in state of 
President Gerald Ford; 6 political cartoons from the weekly humor 
magazines Judge and Puck; 10 stereoviews of the Capitol; a circa 1970s 
electronic speaker (commonly referred to as a ``squawk box'') which 
allowed Senators and staff to listen to Senate floor proceedings from 
their offices; the paint palette used by artist Michael Shane Neal 
while working on the portrait of Senator Byrd; and two revolving desk 
chairs similar to those used in Capitol offices and committee rooms in 
the early 20th century.
    Of particular note was the Senate Commission on Art's acquisition 
of a large and elaborate 1880s Hall's safe which had been auctioned as 
excess Senate property by the General Services Administration in the 
1970s. The safe illustrates the necessary modernization of 
administrative procedures due to rapidly increasing Senate membership 
after the Civil War. This historic object--with its gold leaf, etched 
surfaces, inlaid wood, and hand painting--is also a superior example of 
19th century American industrial arts.
    Forty-one new foreign gifts were reported to the Select Committee 
on Ethics and transferred to the Curator's office. They were catalogued 
and are maintained by the office in accordance with the Foreign Gifts 
and Decorations Act. Appropriate disposition of 28 foreign gifts was 
completed following established procedures.
    Seventy-four collection objects were moved into a new curatorial 
storage space in the Senate Support Facility (SSF), which provides 
state-of-the-art museum storage for the Senate's art and historic 
collections. All objects were given a priority designation and 
identified with color coded object tags. In the event of an emergency, 
the colored tags will assist staff in removing the highest priority 
objects first.
    An integrated pest management (IPM) program administered by the 
Curator's office is now in operation for the SSF curatorial storage 
space. The pest management program monitors for the presence of insect 
pests, which can cause damage to furniture, rugs, and other textiles. 
To date, there has been no evidence of pests that are a threat to 
collections. Other practices, including regular cleaning of the space 
and inspection of all objects prior to placing them in storage, are 
also key components of the program. During the fall, additional support 
for the IPM program was established through the Architect of the 
Capitol's (AOC) overall pest management program for the SSF. The 
program provides supplies and includes expert advice for structural 
repairs, sanitation, and storage procedures to prevent the entrance and 
harboring of pests.
    Also in operation in the SSF curatorial storage space is an 
environmental monitoring system. This is the first phase of an 
extensive electronic environmental monitoring system that tracks 
environmental conditions in significant spaces; information on 
temperature, relative humidity, and the presence of water is sent to a 
computer in the Curator's office. The system also alerts staff when 
readings deviate from established ranges.
    Preparations continued for the two new curatorial storage spaces in 
the Capitol Visitor Center (CVC). Installation of the specialized 
preservation storage equipment for these spaces will occur in late 
2008.
    In 2007, the Curator's office began implementation of a 
comprehensive maintenance program for all collections and historic 
spaces under its care. The purpose of the program is fourfold: to 
monitor the condition of both collections and the spaces in which they 
are displayed and stored; to maintain systematic records of condition 
changes and steps taken to make improvements; to prioritize the 
maintenance and conservation needs of collections; and to develop 
communication and educational resources for other Members of the Senate 
community regarding the care of collections and historic spaces. An 
outline of the program was created and a comprehensive monitoring plan 
is in place. Daily and weekly inspections are conducted, with plans for 
monthly inspections underway.
    Surveys of the condition of related objects in the Senate 
collection are another component of the integrated maintenance program. 
They are an important tool for prioritizing conservation needs so that 
resources are directed to the most unstable objects first, before 
additional damage further diminishes their historic and aesthetic 
value. The conservation undertaken in 2007 for several historic 
overmantel mirrors was in response to an assessment conducted in 2006, 
and planning began this year for an assessment of the Senate's historic 
timepieces. For the time being, treatment for Eliphalet Frazer Andrews' 
portrait of John Adams and for the frame for John Blake White's 
painting, Sergeants Jasper and Newton Rescuing American Prisoners from 
the British, have been postponed until such time as they can be 
addressed within the context of collection conservation priorities.
    To improve artwork lighting in the Senate wing of the Capitol, the 
Curator's office developed a pilot project to address the quality of 
the light and apply museum lighting standards to a segment of the 
second floor corridor. A lighting designer produced a plan for the 
pilot area, provided equipment specifications, and positioned the 
lights, which the AOC purchased and installed. Building on the artwork 
lighting pilot project, recommendations were obtained for lighting 
needs related to new artwork installations in four areas of the Senate 
wing--Room S-109, the east and west Brumidi stairwells, and the Senate 
chamber lobby. The report was forwarded to the AOC for a feasibility 
review.
    In preparation for display in the CVC, the Curator's staff 
developed specifications based on original construction and finish 
techniques for the replication of an original 1819 Senate chamber desk. 
The desk will be built by the Senate Sergeant at Arms (SAA) Cabinet 
Shop, and the Curator's office staff will record all phases of the 
construction and finishing for future reference.
    As part of its ongoing effort to document the Senate chamber desks, 
the staff developed a new database to more accurately record 
information. The database allows the office to document the specific 
dates a Senator occupied a desk, as well as the period in which the 
desk drawer was inscribed. This is a significant improvement from past 
databases, which were unable to determine the exact dates of occupancy 
and the sequence of desks occupied.
    Keeping with scheduled procedures, all Senate collection objects on 
display were inventoried, noting any changes in location. In addition, 
as directed by S. Res. 178 (108th Congress, 1st session), the office 
submitted inventories of the art and historic furnishings in the Senate 
to the Committee on Rules and Administration. The Curator's staff, with 
assistance from the SAA and Senate Superintendent's staffs, compile the 
inventories, which are to be submitted every 6 months.
Conservation and Restoration
    During 2007 conservation treatment was completed on four paintings 
in the Senate fine art collection, and work began on the recently 
acquired painting Henry Clay in the U.S. Senate, as well as on several 
historic mirrors in the decorative art collection.
    Conservation was completed on the monumental painting, The Battle 
of Lake Erie, by William Henry Powell, which has been displayed in the 
east grand stairway of the Senate since 1873. The canvas had not had 
any major conservation since 1956, and cleaning removed a heavy layer 
of grime and buildup from tobacco smoke. Following cleaning, areas of 
previous repairs and retouching were treated to remove discolored 
repaint and make repairs less noticeable. The entire canvas received a 
new coat of synthetic resin varnish, and final toning and inpainting 
were done where necessary to integrate old damages. At the same time, 
the frame received a surface cleaning and damage on the bottom right 
side was filled and gilded to match the surrounding surface.
    A frame conservator repaired minor damage to the outer gilt frame 
of the painting, George Washington at Princeton, by Charles Willson 
Peale; and emergency conservation was done on the gilt frame of Mike 
Mansfield, by Aaron Shikler, which was damaged while hanging in S-207 
of the Capitol. Additionally, a conservator applied a protective 
coating of varnish to Bradley Stevens' painting, The Connecticut 
Compromise, which is adhered to the wall above the entrance to the 
Senate Chamber Lobby in the Senate Reception Room.
    Conservation treatment began on the Phineas Saunton's monumental 
painting, Henry Clay in the U.S. Senate, donated to the Senate in 2006. 
Due to the extremely fragile and unstable condition of the painting, 
and its size (11 feet by 7 feet), it was necessary to limit the amount 
of shipping it underwent until conservation could begin. A painting 
conservator conducted a condition evaluation on-site, and the 
evaluation was provided to other painting conservators to prepare 
proposals. The painting was then shipped directly from the donor to the 
conservator selected, where it is now undergoing extensive analysis 
prior to conservation. Treatment for the frame was handled separately. 
Conservation is anticipated to be completed by late 2008, and the 
painting will then be installed in the east Brumidi stairway.
    In response to critical conditions identified in the Senate 
historic mirror collection, the Curator's office developed a multi-
phased conservation project. The first mirror frame (S-115) underwent 
extensive conservation to address existing structural, gesso, ornament, 
and finish problems and was returned to the Capitol earlier this year. 
As part of this initial effort, procedures, and standards were 
instituted that will aid in future planning.
    Conservation treatment was also completed on a gilt frame 
overmantel mirror in conjunction with planned renovations of the 
Veterans' Affairs Committee hearing room (SR-418). Treatment included 
removal of tape, consolidation of small areas of separation, and touch-
up to minor losses in gilding.
    The Curator's staff participated in training sessions for the U.S. 
Capitol Police regarding the care and protection of art in the Capitol, 
and continued to educate the housekeeping personnel on maintenance 
issues related to the fine and decorative art collections.
Historic Preservation
    The Curator's office worked with the AOC and SAA to review, 
comment, plan, and document Senate wing construction projects that 
affect historic resources. Construction and conservation efforts that 
required considerable review and assistance included exit sign 
installations; restaurant exhaust system upgrades; directional sign 
installations; Brumidi corridor mural conservation; egress modification 
of the Brumidi west corridor, the Old Senate Chamber, and the Old 
Supreme Court Chamber; the refurbishing of rooms S-115 and S-120; and 
scagliola conservation. The AOC's appointment of an historic 
preservation officer enhanced this effort. The Curator's staff will 
work with the AOC's historic preservation officer to refine project 
review procedures in order to ensure the highest preservation standards 
are applied to all Capitol projects. Finally, the Curator's office's 
initiative to increase their service offerings by facilitating projects 
for Capitol offices has been very successful. In 2007 the staff 
assisted the Committee on Rules and Administration, the Committee on 
Veterans' Affairs, and the Democratic Leader with preservation 
projects.
    An initiative to document the appearance of Capitol leadership 
suites continued in 2007. This program records changes in the 
decorative history of the Senate wing's historic spaces, providing 
important visual documentation on the history of the rooms.
    Research and investigation continued on the ambitious Senate 
Reception Room restoration and rehabilitation project. The office 
conducted surveys and interviews with staff to gain an understanding of 
the current use of the room. Fabric analysis was contracted by the AOC 
and initial samples collected. Appropriate members of the Senate 
Reception Room Advisory Board were assembled in order to advise on the 
testing. The Curator's staff has continued to keep the Senate community 
informed on the progress of this developing project.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court chambers, and coordinated periodic use of both rooms for 
special occasions. New procedures were developed with the U.S. Capitol 
Police to record after-hours access to the historic chambers by current 
Members of Congress.
    By order of the U.S. Capitol Police, the Old Senate Chamber was 
closed to visitors after September 11, 2001. However, the historic room 
was opened to Capitol Guide and staff-led tours during eight Senate 
recesses in 2007. Thirty-six requests were received from current 
Members of Congress for after-hours access to the chamber. A re-
enactment swearing-in ceremony for the newly elected Senators of the 
110th Congress, and also the re-enactment swearing-in ceremonies for 
Senator John Barrasso of Wyoming and Senator Roger Wicker of 
Mississippi were of special significance.
    The Senate Curator worked closely with the AOC and their contractor 
to oversee the creation of accurate, existing condition drawings of the 
Old Senate and Old Supreme Court chambers. These architectural drawings 
were completed and accepted by the Historic American Building Survey 
for their collection. The drawings provide important historical and 
archival documentation of the Capitol--no such detailed drawings 
existed previously of these historic chambers, or any spaces within the 
Capitol. The drawings will be available on-line and at the Library of 
Congress.
Loans To and From the Collection
    A total of 54 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership and officers in 
the Senate wing of the Capitol. The staff returned 13 loans, 
coordinated 15 new loans, and renewed loan agreements for 25 other 
objects. Over 30 loans are projected to be renewed next year.
    The Senate state chinaware was inventoried and used at 14 
receptions for distinguished guests, both foreign and domestic. It was 
used for events such as a luncheon for the President of Iraq and a tea 
for the Prime Minister of New Zealand. The Secretary of the Senate's 
official china continues to be used for large functions and hosting 
foreign dignitaries, and the Curator purchased additional china pieces 
this year.
Publications and Exhibitions
    In response to increasing concerns regarding the dissemination of 
inaccurate information about the Capitol and Congress, the Curator's 
office staff, in conjunction with staff from the Senate Library, the 
Senate Historical Office, and the Office of Web Technology, published 
an on-line Guide to Staff-Led Tours, available on the Senate's Webster 
intranet site. This electronic publication provides a brief and easy-
to-follow outline for all important art works and historic spaces 
within the Capitol. It can be printed from the site in a format 
convenient for staff to carry and refer to while conducting a tour, and 
it provides links to more detailed information as a resource for 
further research.
    As part of an ongoing program to provide more information about the 
Capitol and its spaces, the office developed a brochure for the 
Democratic Leader's suite. To expand on the information provided by 
existing brochures and allow customization, the office created 
templates for either a companion pamphlet or a fact sheet. The 
Assistant Republican Leader's suite was one of the offices to benefit 
from this initiative. Additionally, as part of an ongoing program to 
provide more information about the Capitol and its spaces, all 
Commission on Art brochures were updated and added to the Senate.gov 
Web site.
    The office updated The Senate Chamber Desk Web site for the 110th 
Congress. In addition, four new stories were added to the traditions 
and historical facts section, and a procedural document was created to 
provide technical details and standards for future updates.
    The Senate Curator and staff continued to be a significant 
contributor to Unum, the Secretary of the Senate's newsletter.
Polices and Procedures
    The Commission on Art in 2007 issued guidelines that govern the use 
of the Old Senate and Old Supreme Court Chambers. These guidelines, 
incorporate the many regulations, policies and precedents of the 
Chambers' use, and ensure that these historic spaces are maintained, 
used, and protected according to the Senate's original intent in 
restoring them in the 1970s. The historic chambers were previously 
governed by rules that were read into the Congressional Record by then-
Majority Leader and Chairman of the Commission on Art Mike Mansfield in 
1975 and 1976. The new guidelines strengthen the original rules and 
address the wide variety of demands that are now placed upon the rooms. 
The rules are consistent with the Commission's supervisory and 
maintenance responsibilities under 2 USC  2103.
    The 110th Congress Senate Curatorial Advisory Board was empanelled 
in 2007. Four new and eight returning members were welcomed at the 
first meeting held on October 25, 2007. Composed of respected scholars 
and curators, this 12-member board provides expert advice to the 
Commission on Art regarding the Senate's art and historic collections 
and preservation program, and assists in the acquisition and review of 
new objects for the collection.
Collaborations, Educational Programs, and Events
    The office is coordinating efforts to celebrate the 100th 
anniversary of the Richard B. Russell Senate Office Building, which 
opened its doors in early 1909. Several meetings were held among the 
offices of the Curator, Library, Historian, and Web Technology to 
develop a multi-faceted effort consisting of research, restoration, 
publications, and exhibition projects that will mark the centennial of 
the first Senate office building. In anticipation of the historical 
resources needed to support these initiatives, the Curator's staff 
conducted extensive archival research, identifying over 200 images 
documenting the construction and completion of the building and it 
furnishings and occupants.
    In 2007 the Senate Curator granted permission for the use of Senate 
art images and text published on Senate.gov to a team of scholars based 
at the University of Maryland in College Park. These scholars, in 
collaboration with other experts at various universities, are 
developing an automated image cataloging system for use by college 
professors and researchers. Once complete, the system will permit users 
to search the texts of scholarly journals and books for metadata terms 
which can be applied to specific images of art and architecture, and to 
cross-reference these metadata terms with the appropriate approved 
cataloging thesaurus in the appropriate field. Although the application 
is in the early stages of development, the cooperation of the Curator's 
staff has resulted in important contributions to the project; 
additionally, when the application is launched, it is hoped to benefit 
the office by developing effective metadata for both collections 
management and Senate.gov functions.
    The Curator assisted the AOC Curator and staff of the Joint 
Committee on the Library to develop a plan for the National Statuary 
Hall statues in the CVC, and also guidelines for the Rosa Parks statue. 
Other joint projects with institutions included assistance to the 
Center for Legislative Archives at the National Archives for the 
February 2008 exhibit of the Senate's collection of Clifford Berryman 
cartoons and continued work with the CVC exhibit staff on several 
initiatives for the new facility.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical groups and art museums. 
The staff also assisted the Secretary with the new Senate staff 
lecture/tour series.
Office Administration and Automation
    During 2007 the office continued work on the major redesign of the 
Senate art Web site, with the goal of providing easier, more intuitive 
access to the Senate's art, historical collections, and on-line 
exhibits and publications. This task was undertaken in coordination 
with the Senate Webmaster and Senate Library staff. This year saw the 
completion of the specifications for information structure and ``wire 
frame'' design layouts for most portions of the site. Working 
extensively with the staff from the Office of Web Technology, Curator 
staff also developed a protocol for instructing the Senate.gov content 
management system to automatically generate new layouts with existing 
metadata used to populate and configure the current site. This task 
also required careful coordination with the Curator's collections 
management team to ensure that data recorded in the process of managing 
the Senate's collections is appropriately configured to be used 
successfully in the new art site environment.
    The Curator's continuity of operations (COOP) plan was tested with 
an extensive in-house tabletop exercise. Over two dozen recommendations 
to improve the office's COOP readiness were identified as a result of 
this exercise, and the proposed modifications are currently being made.
    The office modernized its procedures for public requests to use 
Senate collection images by developing a Web-based system accessible 
through Senate.gov. Staff receive approximately 75 requests each year 
for images, and the new electronic system has greatly improved the 
ordering process.
Objectives for 2008
    The Curator's staff will oversee installation of the collection 
storage equipment for the two storage spaces in the CVC in the fall of 
2008. Museum-quality storage systems have been ordered to house 
collection objects in these new spaces. Objects in need of archival re-
housing will be identified and prioritized as part of the preparations 
for the collection move in 2009.
    The office is continuing with the installation of the environmental 
monitoring system. Sensors will be placed in the historic chambers and 
curatorial storage rooms in the Capitol and CVC by the end of the year. 
The Curator's staff is also continuing the integrated pest management 
program established last year. Monthly monitoring is currently done in 
the storage spaces in the Capitol and SSF, and will be instituted in 
the CVC storage spaces when completed.
    Conservation and preservation concerns continue to be a top 
priority. The conservation treatment begun in 2007 to restore the 
historic painting and frame, Henry Clay in the U.S. Senate, will be 
completed in 2008. Efforts are also underway, in collaboration with the 
AOC and with the services of a conservator, to repair graffiti related 
damage and clean Alexander Calder's monumental sculpture, Mountains and 
Clouds. Also related to the conservation will be the development of a 
maintenance plan, installation of new protective measures, and efforts 
to better educate staff and visitors about this important work of art. 
Following completion of an assessment of the Senate's historic 
timepieces, planning will begin for the conservation and maintenance of 
the clocks.
    The Curator's office will continue its effort to locate and recover 
significant historic Senate pieces, with a special emphasis on the 
Russell Building furnishings. Recent efforts have focused on the 
acquisition of a mahogany flat top desk, swivel arm chair, easy chair, 
and davenport. Last year, office staff conducted an initial survey of 
existing pieces which indicated that less than half of the pieces 
originally supplied for Senator's personal offices remain in the 
Senate. The Senate Curator hopes to identify, preserve, and protect 
these unique pieces. The first phase will be to conduct a detailed 
condition survey of the surviving historic Russell furnishings. The 
survey will determine conservation priorities, provide information on 
the age, origin, and importance of the pieces, and furnish necessary 
records for disaster planning.
    With regard to collections documentation and access, the office 
plans several initiatives to improve data standards and electronic 
access to records should a COOP event occur. The first phase will 
involve developing more detailed cataloguing and data entry guidelines 
to ensure electronic object records are consistent. The guidelines will 
combine all current style guides and cataloging procedures into a 
single document for easy and efficient access. In addition, the current 
collection database will be evaluated to assess the stability and 
efficiency of the system, since the amount of information (including 
photographs) for each object continues to grow. This project will most 
likely lead to a phased project to update and/or upgrade the system.
    The office will move towards identifying art handling companies 
that can be of assistance in the event of an emergency. Other emergency 
preparedness activities include identifying alternate locations for 
staging and storage, and developing procedures for the initial response 
steps in an emergency. All current loan agreements will be scanned and 
procedures for maintaining current loan agreements in electronic format 
will be developed. This will assist the office in the event of an 
emergency and provide the information needed to locate loans and 
contact lenders.
    Professional photography is scheduled for numerous objects in the 
Senate collection, including upcoming Senate leadership portraits, CVC 
loan objects, and historic prints.
    The office will continue to administer the current commissioned 
leadership portrait of Senator Trent Lott and advance efforts to 
commission a painting of Senator Bill Frist. The staff coordinated the 
unveiling of the portrait of Senator Tom Daschle.
    With the restoration of the S-115 mirror completed, staff will move 
forward with other critical frame conservation priorities from the 
multi-phased conservation project developed in 2007. This work will 
employ the procedures and standards established in the first 
conservation project, refining them as necessary, and will include on-
site consolidation of at least two mirrors. The staff will also work 
with the AOC to remedy known installation hardware concerns.
    The staff will continue to focus efforts at coordinating with the 
AOC regarding preservation issues related to Senate restoration and 
remodeling projects, disseminate project information to the Senate, 
develop preservation projects at the request of the Senate, conduct 
condition inspections, and arrange necessary maintenance. The Curator 
staff will enhance outreach to Capitol offices and continue to promote 
its preservation services. The Senate Curator will oversee specific 
projects, including the creation and installation of the occupant's 
State seal in S-210, and the restoration and rehabilitation of the 
Senate Reception Room.
    The office will enlarge its offerings of brochures and information 
sheets on historic rooms by beginning research on the Republican 
Leadership suite.
    In 2008 the Curator's staff will launch the first phase of its 
redesigned art Web site. The new site will organize art works by 
subject, rather than by medium, as it is currently organized. In 
addition to the reorganization, the newly launched site will include 
images from the Senate's graphic art collection.
    Curator's staff will also develop and post two new Web sites in 
2008. The first will address frequently heard myths about Senate art, 
dispelling this misinformation through the use of interactive quizzes 
and evidence-gathering. The second Web site will illustrate the history 
and conservation of Phineas Staunton's monumental painting of Henry 
Clay.
    Most notably, the Curator's staff will continue plans for the 
Russell Senate Office Building Centennial. Among the proposals under 
consideration are informational panels to be placed at appropriate 
locations in the building, a publication, lectures and tours, a Web 
exhibit, restoration of original building furnishings, and an exhibit 
showcasing the original seven furniture pieces supplied in 1909 to 
Senators for their offices. Planning and development will continue 
through 2008, and the results will be unveiled in early 2009.
                 joint office of education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, DC, and the States. There are three branches within the 
office. The Technical Training branch is responsible for providing 
technical training support for approved software packages and equipment 
used in either Washington, DC, or the State offices. Staff in this 
branch provides instructor-led classes, one-on-one coaching sessions, 
specialized vendor provided training, computer-based training, and 
informal training and support services. The Professional Training 
branch staff provides courses for all Senate staff in areas which 
include management and leadership development, human resources issues 
and staff benefits, legislative and staff information, and new staff 
and intern information. The Health Promotion branch staff provides 
seminars, classes and screenings on health and wellness issues. Staff 
from this branch also coordinates an annual health fair for all Senate 
employees and plans three blood drives every year.
Training Classes
    The Joint Office of Education and Training offered 990 classes and 
events in 2007, drawing 10,124 participants. Registration desk staffers 
handled over 32,000 e-mail and phone requests for training and 
documentation.
    Of the above total, 240 Technical Training classes were held with a 
total attendance of 1,024 students. An additional 487 staff received 
coaching in 202 sessions on various software packages and other 
computer related issues. Two hundred seventy-eight Professional 
Development classes were held with a total attendance of 3,270 
students. The staff managed or assisted the staffs of the Employee 
Assistance Program, Office of Security and Emergency Preparedness, the 
Disbursing Office, the Senate Library and the Senate Select Committee 
on Ethics with 163 training classes attended by 2,013 students.
    The Office of Education and Training staff is available to work 
with teams on issues related to team performance, communication, or 
conflict resolution. During 2007, over 142 requests for special 
training and team building were met with 1,389 staff taking part.
    In the Health Promotion area, 2,552 staff participated in 62 Health 
Promotion activities throughout the year. These activities included: 
lung function and kidney screenings, blood drives, the Health and 
Fitness Day, and seminars on health related topics.
    Annually, this office provides a Senate Service Expo for Senate 
office staff. Thirty-five presenters from the offices of the Secretary 
of the Senate, the Sergeant at Arms, the Architect of the Capitol, the 
Capitol Police and the Library of Congress participated in this year's 
program.
State Training
    Since most of the classes that are offered are only practical for 
Washington, DC-based staff, the Office of Education and Training 
continues to offer the ``State Training Fair'' which began in March 
2000. In 2007, 3 sessions of this program were attended by 164 State 
staff.
    This office also conducted the State Directors Forum, which was 
attended by 49 State administrative managers and directors and a 
Constituent Services Forum attended by 76 State staff. In addition, 
this office has implemented the ``Virtual Classroom'' which is an 
Internet-based training library of 3,000+ courses. To date, 504 State 
office and Washington, DC, staff have registered and accessed a total 
of 1,153 different lessons using this training option. Additionally, 
the Professional Training branch offered 22 video teleconferencing 
classes, which were attended by 355 State staff and Technical Training 
offered 13 video teleconferencing classes for 96 State staff. Three 
Technical Training Trips reached 76 staff in 3 States. Education and 
Training also created 18 Senate-specific self-paced lessons that have 
been accessed by 320 staff.
                  senate chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), Senate offices became 
subject to the requirements, responsibilities and obligations of 11 
employment laws. The SCCE is charged with the legal defense of Senate 
offices in employment law cases at both the administrative and court 
levels, from the inception of the case through appeals and Supreme 
Court review. Also, on a day-to-day basis, the SCCE provides legal 
advice to Senate offices about their obligations under employment laws. 
Accordingly, each Senate office is an individual client of the SCCE, 
and each office maintains an attorney-client relationship with the 
SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and administrative 
        hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Union drives, negotiations, and unfair labor practice charges;
  --Occupational Safety and Health Act (OSHA)/Americans with Disability 
        Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.
Litigation, Mediations, and Alternative Dispute Resolutions
    The SCCE defends each of the employing offices of the Senate in all 
court actions, hearings, proceedings, investigations, and negotiations 
relating to labor and employment laws. The SCCE handles cases filed in 
the District of Columbia and cases filed in any of the 50 States.
OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA inspection questionnaires; assisting offices in the 
preparation of emergency action plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued. The 
SCCE played a significant roll in the inspection process by pre-
inspecting Senate offices to ensure compliance with the ADA/OSHA and by 
providing counsel to Senate offices during the inspection process.
    In 2007, the SCCE pre-inspected 132 Senate offices to ensure 
compliance with the ADA and OSHA. Inspections included 98 Senate Member 
offices in the Hart, Dirksen, and Russell buildings, 31 Sergeant at 
Arms (SAA) offices also in the Hart, Dirksen, and Russell buildings, 
the Senate Day Care Center, Senate Webster Hall Page Dormitory, and the 
Senate Support Facility. At the conclusion of the inspection process, 
Senate offices had no significant problems, and 97 percent of the 
problems were abated immediately.
Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws, thereby reducing 
their liability.
    In 2007, the SCCE gave 55 legal seminars to Senate offices. The 
topics included:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --The Fair Labor Standards Act (FLSA);
  --Avoiding Legal Landmines in Your Office;
  --Understanding Sexual Harassment in the Workplace;
  --A Manager's Guide to Preventing and Addressing Sexual Harassment in 
        the Workplace;
  --Hiring the Right Employee: Advertising and Interviewing;
  --Military Service Academies Interview Training;
  --Employers' Common Mistakes and How to Avoid Them;
  --The Employment Eligibility Verification Program;
  --Diversity Awareness: The Legal Perspective;
  --Americans with Disabilities Act of 1990;
  --Legal Pitfalls in Evaluating, Disciplining and, Terminating 
        Employees;
  --A Manager's Guide to Complying with the Family and Medical Leave 
        Act; and
  --Interviewing Candidates for the Page School Program.
Legal Advice
    The SCCE meets with Members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks, and counsels 
at their request to provide legal advice. For example, on a daily 
basis, the SCCE advises Senate staff on matters such as interviewing, 
hiring, counseling, disciplining, and terminating employees in 
compliance with the law; handling and investigating sexual harassment 
complaints; accommodating the disabled; determining wage law 
requirements; meeting the requirements of the Family and Medical Leave 
Act; management's rights and obligations under union laws and OSHA; 
management's obligation to give leave to employees for military service 
and to reinstate them at the conclusion of that service; and 
management's obligation to verify with Department of Homeland Security 
and the Social Security Administration that each new hire is legally 
eligible to work in the United States. In 2007, the SCCE had over 1,998 
such meetings.
    The SCCE provides legal assistance to employing offices to ensure 
that their employee handbooks and office policies, supervisors' 
manuals, job descriptions, interviewing guidelines, and performance 
evaluation forms comply with the law. In 2007, the SCCE prepared 199 
such documents for Senate offices.
Union Drives, Negotiations and Unfair Labor Practice Charges
    In 2007, the SCCE handled one union drive and assisted in 
negotiations with another union.
Miscellaneous
    The SCCE, working with the Office of Web Technology, has prepared 
and designed an SCCE website to be launched in 2008. The site will 
inform Senate offices of their legal obligations under the CAA, will 
provide Senate offices access to legal forms and documents, and will 
alert Senate offices of upcoming SCCE seminars.
    Working with the management of Member offices, the SCCE has 
developed a series of 11 legal seminars that the SCCE will present 
monthly to chiefs of staff, administrative directors, office managers 
and the committee counterparts of each. Those completing the series 
will receive a certificate from the Secretary of the Senate.
    Responding to requests by Member offices, the SCCE designed two new 
seminars: ``Military Service Academies Interviewing Training'' and 
``Interviewing Candidates for the Page School Program.'' The SCCE gives 
these seminars across the country to the individuals who interview on 
behalf of Member offices for the academies and/or the Senate Page 
School. The purpose of the training is to ensure that the interviews 
are conducted in compliance with the law.
    Since 2001, the SCCE has utilized a document management system. In 
this fiscal year, we upgraded the system to stay current with 
technological advances. In addition, the SCCE continues to operate a 
``paperless'' office by scanning and electronically storing all 
incoming documents.
                            senate gift shop
    Since its establishment in October 1992 (2 U.S.C. 121d), the Senate 
Gift Shop has continued to provide service and products that maintain 
the integrity of the Senate while increasing the public's awareness of 
its history. The Gift Shop serves Senators, their spouses, staffs, 
constituents, and the many visitors to the U.S. Capitol complex.
    The products available include a wide range of fine gift items, 
collectables, and souvenirs created exclusively for the U.S. Senate. 
The services available include special ordering of personalized 
products and hard-to-find items, custom framing, including red-lines 
and shadow boxes, gold embossing on leather, etching on glass and 
crystal, engraving on a variety of materials, and shipping domestically 
and abroad.
Facilities
    In addition to the three physical locations, the Gift Shop has 
developed a presence on Webster, the Senate's Intranet. The Web site 
currently offers a limited selection of products that can be purchased 
by phone, email, or by printing and faxing the order form provided on 
the site. Plans to further develop the Web site include a greater 
selection of merchandise, eventually adding an e-commerce component to 
facilitate online transactions. The Gift Shop Administrative Office 
staff also provide mail order service by phone or fax, and special 
order and catalogue sales by phone, fax, and face-to-face.
    The Gift Shop maintains two warehouse facilities. The bulk of the 
Gift Shop's stock is held in the Senate Storage Facility (SSF), an 
offsite storage site. While the Sergeant at Arms (SAA) of the Senate is 
in charge of the SSF's overall management, the Director of the Gift 
Shop has responsibility for the operation and oversight of the interior 
spaces assigned for Gift Shop use. Storing inventory in this 
centralized, climate-controlled facility provides protection for the 
Gift Shop's valuable inventory in terms of physical security as well as 
improved shelf life for perishable and non-perishable items alike.
    The second Gift Shop warehouse is maintained in the Hart Building. 
This facility serves as the point of distribution to the Gift Shop 
store and the Capitol Gift Shop counter, both of which have limited 
storage space. Stock from the Hart warehouse is sold directly from the 
Administrative and Special Order Office. The Hart warehouse also 
accommodates the Gift Shop's receiving, shipping, and engraving 
departments. Gift Shop management will continue to look for ways to 
make improvements with the product-handling between the on-site and 
off-site warehouse locations.
Sales Activities
    Sales recorded for fiscal year 2007 were $1,573,827.93. Cost of 
goods sold during this same period were $1,064,357.47, accounting for a 
gross profit on sales of $509,470.46.
    In addition to tracking gross profit from sales, the Gift Shop 
maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2007, the balance in the revolving fund was 
$2,302,981.87. The inventory purchased for resale was valued at 
$2,750,681.79.
Additional Activity
    The Gift Shop is currently upgrading both its back office and point 
of sale computer systems. This will create the opportunity for the 
Senate Gift Shop computer hardware and software packages to be upgraded 
sufficiently to fulfill its needs well into the foreseeable future.
    In fiscal year 2007 the Gift Shop initiated a program to address 
issues pertaining to lead content in product and the Consumer Product 
Safety Commission's (CPSC) recommended guidelines concerning lead. 
After several meetings with representatives from the CPSC and 
independent private companies that offer lead testing programs, the 
Senate Gift Shop implemented a program for evaluating and monitoring 
products.
Selected Accomplishments in Fiscal Year 2007
            Official Congressional Holiday Ornaments
    The year 2007 marked the 14th year of the Congressional Holiday 
ornament. Each ornament in the 2006-2009 series of unique collectables 
depicts an image celebrating the day-to-day activities taking place on 
the Capitol grounds. The four images of the series are based on 
original oil paintings commissioned by the Gift Shop.
    Sales of the 2007 holiday ornament exceeded 30,000 ornaments, of 
which more than 7,000 were personalized with engravings designed, 
proofed, and etched by Senate Gift Shop staff. This highly successful 
effort was made possible by the combined efforts of our administrative, 
engraving, and store staffs. Additional sales of this ornament and 
ornaments from previous years are expected to continue for years to 
come.
            Capitol Bookend
    The Capitol bookend is a remarkably detailed recreation of the 
central portion of the Capitol. Created of resin, metal, and plaster, 
the piece displays fine architectural details. Marble recovered during 
the renovations to the east front of the Capitol was added to the 
building materials, making the piece truly unique.
            Capitol Box
    The Gift Shop worked with the Pickard Corporation, a manufacturer 
of fine china in Illinois, to recreate a round porcelain box originally 
developed by Tiffany and Company more than 12 years ago and 
subsequently taken out of production by Tiffany. The round box contains 
a series of four images on its perimeter depicting the early meeting 
places of Congress. The lid depicts a more recent image of the Capitol 
as it appears today. With Tiffany's permission, the original designs 
and colors were replicated on a Pickard Corporation white porcelain 
box. It was produced in the United States. Early sales indicate that 
this will once again be a most popular item with Gift Shop customers.
            Webster Intranet Site
    The Web site has been expanded with the addition of sections 
dedicated to artwork, jewelry, commemorative plates, and baby goods. 
The overall design of the Web site has been updated and navigation 
through the site has been streamlined.
Projects and New Initiatives for 2008
            Senate Photo Studio
    In partnership with the Senate Photography Studio, the Gift Shop 
will offer prints of original photos taken by Senate photographers. 
These images will be offered as an exclusive to the Gift Shop and be 
made available in several sizes and formats. Professional matting and 
framing will be available.
            Congressional Plate Series
    The 108th, 109th, and 110th Official Congressional Plates will 
continue to be sold for years to come. The 111th congressional plate, 
the final of the series, has been produced and delivered. This plate 
will be held in inventory and not offered for sale until the convening 
of the 111th Congress.
            Hand Painted Fine China
    The Gift Shop is developing a line of fine china that will be hand-
painted with Brumidi floral motifs taken from the LBJ Room, the 
President's Room, and the Brumidi northwest corridors in the Capitol. 
The painting will be done by Anna Weatherly, an artist based in 
Arlington, Virginia. The collection will include assorted plates, cups 
and saucers, and cachepots.
            Candlesticks
    The Gift Shop is working with Mottahedeh & Company, a New York-
based firm specializing in fine art giftware, to design and produce an 
exclusive brass candlestick. This item will replicate a stanchion that 
is part of the rail and banister adorning the marble staircase 
descending to the northwest Brumidi corridor.
            Senate Bronze Door Bookend
    The Gift Shop has begun designing a new bookend, this one depicting 
the Senate bronze doors originally designed by Thomas Crawford in 1855. 
The bookend will depict the fine architectural and artistic details of 
the original doors which are located near the Senators' entrance to the 
chamber floor. As with the Capitol bookend, the materials used to 
create the Senate bronze door bookend will contain marble recovered 
from the Capitol itself.
            Senate Scarves
    The Gift Shop has developed four new scarf designs depicting 
various elements of Constantino Brumidi art. The ceiling of the LBJ 
Room and other Brumidi corridor frescos are the central subject for 
this product. Echo Design Group of New York will be providing the first 
proofs of the scarves in early 2008. We anticipate that this product 
will be available for sale in the spring of this year.
            Webster Intranet Site
    In the coming year the Gift Shop will continue to increase Web site 
usability. The addition of content, as well as the continual refinement 
of page design and navigation features, enhances user satisfaction. 
Using the Web site, staffers in State offices have the opportunity to 
take better advantage of the services the Gift Shop offers.
            Capitol Complex Lumber
    In the autumn of 2001, the construction of the Capitol Visitor 
Center extension required the removal of many trees from the Capitol 
complex. As part of a Gift Shop initiative, the felled trees were 
recovered, milled, kiln dried, and are now being stored as lumber at 
the Senate Support Facility. This stored wood, approximately 12,000 
board feet, has been inventoried and separated by species. Several 
products have been created from this commemorative lumber. Wooden desk 
boxes with a variety of Capitol images on porcelain stone inset into 
the lids are already popular. One style of wooden pen has been produced 
and is offered for sale in the shop. Other designs are to follow 
shortly. Over the course of the next year, additional opportunities for 
using this lumber in the development of new products will be explored.
                        senate historical office
    Serving as the Senate's institutional memory, the Historical Office 
staff collects and provides information on important events, 
precedents, dates, statistics, and historical comparisons of current 
and past Senate activities for use by Members and staff, the media, 
scholars, and the general public. The staff advises senators, officers, 
and committees on cost-effective disposition of their non-current 
office files and assists researchers in identifying Senate-related 
source materials. The historians keep extensive biographical, 
bibliographical, photographic, and archival information on the 1,897 
former and current senators. Historical Office staff edits historically 
significant transcripts and minutes of selected Senate committees and 
party organizations for publication, and conducts oral history 
interviews with key Senate staff. The photo historian maintains a 
collection of approximately 40,000 still pictures that includes 
photographs and illustrations of Senate committees and most former 
senators. The office staff develops and maintains all historical 
material on the Senate Web site, Senate.gov.
Editorial Projects
            Pro Tem: Presidents Pro Tempore of the United States Senate 
                    Since 1789
    To honor the important role played by the Senate's president pro 
tempore (PPT) since 1789, the historians completed a book-length 
history of the office and its occupants. For each of the 87 individuals 
who have served in the office, a biographical profile highlights their 
PPT service along with their non-Senate careers, includes commentary by 
contemporaries, historians, and biographers, and presents a 
photographic likeness of the individual. Divided into four sections 
(The Formative Years, 1789-1860; A Question of Succession, 1861-1890; 
Fathers of the Senate, 1891-1946; The Modern Era, 1947-present), the 
book includes contextual essays that explain the evolution of the 
office, its changing duties and responsibilities, its place in the line 
of presidential succession, and the unique role played by these leaders 
in Senate history. The 120-page book includes a preface by current 
President pro tempore Robert C. Byrd and will be printed in May of this 
year.
            Traditions of the United States Senate
    In support of the 2006 new Members' orientation program, the office 
prepared a 32-page booklet designed as a guide to the Senate(s 
distinguishing customs and rituals. The booklet's popularity inspired 
publication of a revised edition entitled Traditions of the United 
States Senate. In the early months of the 110th Congress, prior to 
publication of the updated Chamber floor seating chart, this booklet 
was distributed to Senate chamber gallery visitors. Sufficient copies 
are available so that it can serve that same purpose at the start of 
the 111th Congress. Copies are available through the Senate Office of 
Printing and Document Services.
            ``States in the Senate''
    In 2007, the Historical Office staff began the development of a new 
feature for Senate.gov, ``States in the Senate.'' In this collaborative 
project, the historians, historical editor, photo historian, and 
historical writer began researching and writing time lines and 
selecting illustrative images for each of the 50 States, highlighting 
persons and events of the State's history that relate to the U.S. 
Senate. When complete, the project will present an interactive time 
line for each State, with links to relevant documentary and visual 
material. It is designed to inform senators, staff, and constituents 
about their State's historical role in the Senate.
            Russell Building Centennial
    In preparation for the centennial of the Russell Senate Office 
Building's 1909 opening, the office prepared text for a 32-page booklet 
that will highlight the facility's design, construction, and subsequent 
evolution. Relevant excerpts from the office's oral history interviews 
have been compiled, and identification of photographs and other images 
to illustrate the building's history is underway. In collaboration with 
the staffs of the Office of Senate Curator, the Architect of the 
Capitol, and the Senate Library, the historians are planning exhibits 
and a feature on Senate.gov.
            Administrative History of the Senate
    Throughout 2007, the assistant historian continued the research and 
writing for the historical account of the Senate's administrative 
evolution. This study traces the development of the offices of the 
Secretary of the Senate and Sergeant at Arms (SAA), considers 19th and 
20th century reform efforts that resulted in reorganization and 
professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified. In particular, 
during the past year the assistant historian has taken advantage of 
newly available archival and print sources for the 19th century to 
complete additional research and has continued to write the first four 
chapters covering the period 1789-1877.
            The Idea of the Senate
    For more than two centuries, senators, journalists, scholars, and 
other first-hand observers have attempted to describe the uniqueness of 
the Senate, emphasizing the body's fundamental strengths, as well as 
areas for possible reform. From James Madison in 1787 to Lyndon Johnson 
biographer Robert Caro in 2002, sharp-eyed analysts have left memorable 
accounts that can help modern senators better understand the Senate in 
its historical context. This project identifies 30 major statements by 
knowledgeable observers. Each of the brief chapters includes an 
extended quotation and an essay that places the quotation in historical 
context. This work will be published during 2008.
            Rules of the United States Senate, Since 1789
    In 1980, Senate Parliamentarian Emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office staff, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, the office's goal is to 
show how--and why--the Senate's current rules have evolved from earlier 
versions. This work, to be completed during 2008, will contain eight 
narrative chapters outlining key debates and reasons for significant 
changes. Appendices will include the original text of all standing 
rules and all changes adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-2008
    Since publication of the 2005 print edition of The Biographical 
Directory of the United States Congress, the historians have added new 
biographical sketches and bibliographical citations that incorporate 
recent scholarship to the work's online database (http://
bioguide.congress.gov). The assistant historian and historical writer 
work closely with the staff of the House Office of History and 
Preservation to maintain accuracy and consistency in the joint Senate-
House database and to promote this valuable resource among historians, 
teachers, students, and the public.
            Oral History Program
    The office's historians conduct a series of oral history 
interviews, which provide personal recollections of various Senate 
careers. Interviews were completed with several members of the Senate's 
telecommunications staff; Deputy Assistant Sergeant at Arms Michael A 
Johnson; John D. Lane, administrative assistant to Senator Brien 
McMahon (D-CT, 1945-1952); G. William Hoagland, former staff director 
of the Senate Budget Committee and advisor to Senate majority leader 
Bill Frist; and James R. Ketchum, the former Senate Curator. Other 
interviews are ongoing with former Senator Charles McC. Mathias (R-MD, 
1969-1987); Tim Profeta, who played a significant role in drafting the 
legislation that created the Office of Senate Legal Counsel during his 
long and diverse Senate staff career that spanned 30 years; and Keith 
Kennedy, former staff director of the Senate Appropriations Committee. 
In addition, the office staff inaugurated a new oral history project, 
conducting interviews with current and former Senate spouses. The 
complete transcripts of 25 interviews conducted since the 1970s have 
been posted on the Senate.gov. Each month, the office features a 
different oral history on the Web site. Unum, the Secretary of the 
Senate's newsletter, now features a series entitled ``Senate Voices,'' 
which includes excerpts from the oral histories, beginning with former 
Senator George A. Smathers (D-FL, 1951-1969).
            Member Services: Members' Records Management and 
                    Disposition Assistance
    The Senate archivist assisted Members' offices with planning for 
the preservation of their permanently valuable records, emphasizing the 
importance of managing electronic records and transferring valuable 
records to a home-state repository with a digital asset management 
system. The Senate archivist held meetings with staff members from 
offices that will close at the end of the 110th Congress were held to 
plan for the preservation and deposit of Members' collections. This 
included identifying appropriate repositories for those members who had 
not already selected one and working with staff to promote informed 
selection and preservation of historical documentation, including 
electronic records. The archivist revised the Checklist for Closing a 
Senator's Office and the pamphlet, Senators' Papers: Management and 
Preservation Guidelines. To enhance communication within the Senate 
regarding archival preservation, the archivist led brown-bag lunch 
discussions and has developed a Listserv that promotes archival 
training for staff within members' offices, efficient records 
management, and historical records preservation. The Center for 
Legislative Archives sponsored a special staff directors' tour and 
dinner to promote appreciation of records preservation. The Senate 
archivist continued to work with staff from all repositories receiving 
senatorial collections to ensure adequacy of documentation and the 
transfer of appropriate records with adequate finding aids and provided 
advice on access restrictions as well. The archivist conducted a 
seminar on records management for Senate offices and participated in 
the Sergeant at Arms' Senate Services Fair. In addition, in May 2008, 
the archivist will begin offering training in records management for 
State office staff through the use of video teleconferencing. The 
archivist continues to serve in leadership roles for the Society of 
American Archivists' Congressional Papers Roundtable and the 
Association of Centers for the Study of Congress.
            Member Services: Committee Records Management and 
                    Disposition Assistance
    The Senate archivist provided each Senate committee with staff 
briefings, record surveys, guidance on preservation of information in 
electronic systems, and instructions for the transfer of permanently 
valuable records to the National Archives' Center for Legislative 
Archives. The archivist oversaw the transfer to the Archives of 642 
accessions of Senate records. The historians provided many training 
sessions to Senate interns tasked with archiving committee records. The 
archivist and assistant archivist responded to approximately 197 
requests for loans of records back to committees, totaling nearly 1,000 
boxes. The archivist worked with the Foreign Relations Committee to 
transfer classified transcripts to the National Archives. The archivist 
worked with the Senate Committee on Rules and Administration and the 
Senate Recording Studio to begin the transfer of televised recordings 
of committee hearings to the National Archives. The archival assistant 
continued to provide processing aid to committees and administrative 
offices in need of basic help with noncurrent files. The staff 
initiated a project to scan committee National Archives' transfer 
sheets dating from 1982 through 2004 into the OnBase document 
management system supported by the SAA. To date, records of the Senate 
Committees on Agriculture, Nutrition, and Forestry; Appropriations; 
Armed Services; Banking, Housing, and Urban Affairs; and Health, 
Education, Labor and Pensions have been processed. This information is 
provided to the Center on electronic media both as a security measure 
and to enhance future researcher access to the records as they become 
open for research.
            Member Services/Educational Outreach: ``Senate Historical 
                    Minutes''
    The Senate historian continued a series of ``Senate Historical 
Minutes,'' begun in 1997 at the request of the Senate Democratic 
Leader. In 2007, he prepared and delivered a ``Senate Historical 
Minute'' biweekly at Democratic Conference meetings. These 430-word 
``Minutes'' enlighten Members about significant events and 
personalities associated with the Senate's institutional development. 
More than 300 of them are available as a regularly expanded feature on 
Senate.gov (``Historical Minute Essays''). An illustrated compilation 
was published in 2006 as 200 Notable Days: Senate Stories, 1787-2002.
            Photographic Collections
    The photo historian enhanced the office's upcoming publications on 
Senate presidents pro tempore and the Russell Building's centennial by 
selecting images to illustrate the respective texts. The photo 
historian continued to provide timely photographic reference service by 
phone and e-mail, while cataloging, digitizing, rehousing, and 
expanding the office's 40,000-item image collection. She also 
maintained the office's continuity of operations (COOP) plan and 
updated backup copies of the office's vital electronic records. The 
photo historian worked closely with the National Archives to arrange 
for the scanning of a large collection of early 20th century historical 
photographs donated to the Office, thus adding hundreds of new images 
to the collection.
            Educational Outreach
    Much of the Historical Office's correspondence with the general 
public takes place through Senate.gov, which has become an 
indispensable source for information about the institution. Office 
staff maintain and frequently update the Web site with timely reference 
and historical information. In 2007, the office staff responded to more 
than 1,300 inquiries from the general public, the press, students, 
family genealogists, congressional staffers, and academics, through the 
public e-mail address provided on the Senate.gov. The diverse nature of 
their questions reflects varying levels of interest in Senate 
operations, institutional history, and former Members. Office staff 
also provided seminars on the general history of the Senate, Senate 
committees, women senators, Senate floor leadership, relations between 
the press and the Senate, and the U.S. Constitution. The historians 
also participated in Senate staff seminars and office retreats, and 
conducted dozens of briefings for specially scheduled groups.
            Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets semiannually to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. Its membership 
representing the Senate includes the Secretary of the Senate, who is 
chairing the panel during the 110th Congress, the Senate historian, and 
appointees of the secretary and the majority and minority leaders. The 
Historical Office staff provides support services for the Committee's 
regular meetings.
            Capitol Visitor Center Exhibition Content Committee
    Staff historians completed their assignments in drafting text for 
displays in the 17,000 square-foot exhibition gallery of the Capitol 
Visitor Center.
                            human resources
    The Office of Human Resources was established in June 1995 as a 
result of the Congressional Accountability Act. The office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary of the Senate that not only 
fulfill the legal requirements of the workplace but which complement 
the organization's strategic goals and values.
    These responsibilities include recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; maintaining 
the employee handbooks and manuals; internal grievance procedures; 
employee relations and services; and organizational planning and 
development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, parking allocations, and the summer 
intern program that offers college students the opportunity to gain 
valuable skills and experience in a variety of Senate support offices. 
As a 2008 initiative, Human Resources has migrated eligible commuters 
to the Smart Benefits Program, which is operated by the Washington 
Metropolitan Area Transit Authority.
Recruitment and Retention of Staff
    Human Resources has the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates, and 
assisting with all phases of the hiring process. Human Resources 
coordinates with the Sergeant at Arms (SAA) Human Resources Department 
to post all SAA and Secretary vacancies on the Senate intranet, 
Webster, so that the larger Senate community may access the posting 
from their own offices.
Training
    In conjunction with the Senate Chief Counsel for Employment, staff 
continues to develop and deliver training for department heads and 
staff. Training topics include sexual harassment, interviewing skills, 
Family Medical Leave Act administration, and an overview of the 
Congressional Accountability Act.
Interns and Fellows
    Human Resources staff manages the Secretary's internship program 
and the coordination of the Heinz Fellowship program. From advertising, 
conducting needs analyses, communicating, screening, placing and 
following up with all interns, the office keeps a close connection with 
these program participants in an effort to make the internship most 
beneficial to them and the organization.
Combined Federal Campaign
    The office has taken an active role in the Combined Federal 
Campaign (CFC) for the Senate community at-large. The office serves as 
co-director of the program for the Senate, participating in kick-off 
meetings, identifying key workers in each office, and disseminating and 
collecting necessary information and paperwork.
                          information systems
    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), and the Government Printing Office (GPO) on technical 
issues and joint projects. The department provides computer-related 
support for all local area network (LAN) servers within the Office of 
the Secretary. Information Systems staff provide direct application 
support for all software installed on workstations, initiate and guide 
new technologies, and implement next generation hardware and software 
solutions.
Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the office of Secretary of the Senate. Emphasis is 
placed on the creation and transfer of legislative records to outside 
departments and agencies, meeting Disbursing Office financial 
responsibilities to the Member offices, and office mandated and 
statutory obligations.
Fiscal Year 2007 Summary of Improvements to the Secretary's Local Area 
        Networks
    The Senate Active Directory/Messaging Architecture (ADMA) project 
implementation provided a central point of IT system administration, 
and the opportunity to deploy enterprise-wide solutions which include 
remote access to Outlook Web Access, Webster, Legislative Information 
Systems (LIS), and newswire services. The Secretary's office piloted 
and successfully implemented the ADMA Refresh program, replacing server 
hardware to take advantage of increased performance factors, lower 
power consumption, and improve efficiency by reducing the number of 
servers required to provide new technologies.
    The passage of S. 1, the Honest Leadership and Open Government Act 
of 2007, mandated the replacement of the existing Public Records filing 
solution with an enhanced joint solution with the House of 
Representatives. Four older servers were replaced to accommodate the 
increased amount of lobby registrations. Software development directed 
by the SAA and the Secretary of the Senate in collaboration with the 
Office of the House Clerk's staff insured the new system was available 
in December 2007. A single web portal was introduced for registrants 
who are no longer are required to visit two different Web sites to file 
lobby reports. Additionally, the new architecture provides fail-over 
capability to the Alternate Computing Facility (ACF).
    Upgraded and replaced 30 percent of handheld mobile devices 
(BlackBerry) for essential staff. Coverage is now available in Webster 
Hall.
    New laptops with secure wireless printing functionality were 
provided for the teaching staff of the Senate Page School.
    Initiated Senate Gift Shop and Stationery Room Project requirement 
to update existing point of sale and back office hardware and software 
application. Project is ongoing in 2008.
    Completed additional Senate Wireless network access verification 
testing for staff access in Hart, Russell, Dirksen, and Postal Square 
locations.
    Completed installation of Disbursing backup servers at an offsite 
location.
    Installed and upgraded ADMA servers for Chief Counsel for 
Employment (SCCE) department. Provided SCCE with additional mini-file 
server to transport all critical data to an offsite location.
    In the past, technical staff were required to visit approximately 
75 workstation and laptop locations to install LIS applications. In May 
2007, an improved method was adopted to audit software applications, 
and deployed standard applications and LIS upgrades without visiting 
each workstation location. In 2007, 5 major and 40 minor upgrades were 
required on each legislative workstation/laptop. The time saved 
represents a tremendous support cost reduction, and insures a more 
efficient method of software application deployment with fewer 
interruptions to the end user.
    Installed and deployed a group of eight ``hot-spare'' laptops at 
the ACF. These units are located in a secure data center, and insure 
legislative staff can access LIS applications from any senate location 
or access from outside the Senate with virtual private network (VPN) 
access.
    Upgraded and replaced the senate Library database and Web servers.
    Implemented Curator Environmental application at the Senate Support 
Facility.
    Living Disaster Recovery Planning System (LDRPS) has been a long-
term project to provide both Secretary and SAA staff with the ability 
to author and distribute COOP documents on-line. Phase 2 is scheduled 
for completion in March 2008, and Office of Security and Emergency 
Preparedness (OSEP) implementation is scheduled for June 2008.
    The Infosystems Desktop Virtualization project began in November 
2006 and expanded in 2007 to include a critical application, Member 
status tracking. Desktop virtualization involves separating the 
physical location where the personal computer desktop lives (such as a 
home or office) from where the user is accessing the computer (such as 
airport or hotel business center). The member status VM (virtual 
machines) environment was successfully tested during the July 2007 COOP 
exercise. VM lower the initial hardware investment cost by 80 percent, 
reduce power consumption requirements, and can simplify and expedite 
disaster recovery efforts. The LIS Project office has adopted the VM 
software application for testing different versions of its LEXA 
software.
    Each year a different staff member from the Information System 
department is assigned to direct the Senate Concurrent Capability 
Exercise. This strategy allows for each department staff person to gain 
experience in the event of a short or long-term COOP event.
    In conjunction with SAA and OSEP, the Secretary has adopted WebEOC 
as the standard application tool to manage localized or widespread coop 
events. Initial staff training for key departments was accomplished in 
the fourth quarter of 2007.
    Installed offsite laptop for Parliamentarian to process an indexed 
search of all precedents off-line when not connected to the Senate 
fiber network.
    Replaced and upgraded Senate Security workstations in preparation 
of the relocation to the CVC.
    Increased IT security with requesting real-time email security 
alert notifications from the SAA/Security Operations center. While 
intrusion detection has been dramatically increased at the network 
perimeter, increased levels of user training are required. SAA training 
personnel provided on-site IT Security training classes for personnel 
located in the offices of the Senate Gift Shop, Senate Library, and 
Office of Reporters of Debate
    Adopted the Microsoft Office Groove application during the July 
2007 COOP exercise as the standard file migration tool to transfer 
legislative documents when GPO, Senate Office of Legislative Counsel, 
or the Secretary's staff is displaced.
    Installed Senate Messaging Alert Client (SMAC) on all BlackBerry 
devices.
    Developed standardized server operating system software images for 
server upgrades in the Disbursing Office and SCCE.
    Implemented Remote Data Replication (RDR) process. Effectively this 
consists of a set of ``sync'd'' servers and provides automatic failover 
of all Secretary data files and Outlook mail account information to the 
ACF.
                      interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
26th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are as follows: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; British-American 
Interparliamentary Group; United States-Russia Interparliamentary 
Group; United States-China Interparliamentary Group; and United States-
Japan Interparliamentary Group.
    In June, the 46th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group was held in Texas and the United States-China 
Interparliamentary Group meeting was held in Washington, DC. In July, 
the British-American Parliamentary Group meeting was held in Vermont. 
IPS staff handled the arrangements for these successful events.
    All foreign travel authorized by the Majority and Minority Leaders 
is arranged by the IPS staff. In addition to delegation trips, the 
office provided assistance to individual senators and staff traveling 
overseas. Senators and staff authorized by committees for foreign 
travel continue to call upon this office for assistance with passports, 
visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader and 
the Minority Leader, IPS assists staff members of senators and 
committees in completing the required reports.
    IPS maintains regular contact with the Department of State and 
foreign embassy officials. The office staff frequently organizes visits 
for official foreign visitors and assists them in setting up meetings 
with leadership offices. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senate offices on a broad range of protocol 
questions. Occasional questions come from State officials or the 
general public regarding Congressional protocol.
    On behalf of the Majority and Minority Leaders, the staff arranges 
receptions in the Senate for heads of state, heads of government, heads 
of parliaments, and parliamentary delegations. Required records of 
expenditures on behalf of foreign visitors under authority of Public 
Law 100-71 are maintained in IPS.
    Planning is underway for the 48th Annual Meeting of the Canada-U.S. 
Interparliamentary Group and the first meeting of the United States-
Japan Interparliamentary Group which will be held in the United States 
in 2008. Advance work, including site inspection, will be undertaken 
for the Mexico-U.S. Interparliamentary Group conference and the United 
States-Russia Interparliamentary Group conference to be held in the 
United States in 2009. Preparations are also underway for the 2008 
United States-China Interparliamentary Group meeting and the spring and 
fall sessions of the NATO Parliamentary Assembly.
                                library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; and a wide array of online systems. 
The library also authors content for three Web sites--LIS.gov, 
Senate.gov, and Webster.
Notable Achievements
    Senate-wide taxonomy, indices, and content development projects 
implemented to improve Web information delivery, functionality, and 
stability.
    Knowledge base project implemented to manage Senator biography 
database.
    Installed, tested, and implemented three new servers to support the 
catalog database upgrade and Web-based catalog.
    Processed 5,913 congressional documents received from a university 
library yielding 275 documents not previously in the Senate collection.
    Shelved more than 8,000 volumes of the Congressional Serial Set at 
the Senate Support Facility (SSF) and completed an inventory of the 
Serial Set collection.
    The use of Web technology to meet the Senate's ever-increasing 
demand for information continues. A Web content management system 
(CMS), first installed in 2002 to support Senate.gov publishing, 
significantly improved the library's ability to efficiently deliver 
Senate information, while saving staff time and labor. The increased 
availability of resources on the Web combined with efficient content 
management has dramatically increased library inquiries. Prior to the 
availability of Web-based information, library inquiries totaled 
46,368. Present-day inquiries totaled approximately 1.5 million.

                                            SENATE LIBRARY INQUIRIES
----------------------------------------------------------------------------------------------------------------
                                                                         Web                           Increase
                                                             --------------------------               from prior
                      Year                       Traditional                               Total         year
                                                               Intranets    Senate.gov                (percent)
----------------------------------------------------------------------------------------------------------------
2007...........................................       26,309       63,186    1,392,947    1,482,442           -9
2006...........................................       31,032       35,634    1,561,138    1,627,804          +90
2005...........................................       33,080       40,488      782,588      856,156          +35
2004...........................................       33,750       20,749      581,487      635,986          +61
2003...........................................       46,234       18,871      329,327      394,432     \1\ +751
2002...........................................       40,359        6,009      ( \2\ )       46,368      ( \3\ )
----------------------------------------------------------------------------------------------------------------
\1\ Web inquiry statistics, first available in 2003, increased the total from the previous year by 751 percent.
\2\ Not available.
\3\ Baseline.

    The library continues to invest in training on information 
modeling, meta data management best practices, and using XML publishing 
technology. Understanding the power of current technology and user 
needs enables the library to generate cost-efficient, relevant, and 
educational Web resources. This appreciation of user needs stems from 
the most valuable service the library offers to the Senate--traditional 
face-to-face and telephone research services.
Webster Modernization
    The library is serving as a major contributor in the first major 
review of Webster, the Senate intranet, since 2002. The Webster 
Modernization project has three primary goals: establish a Webster 
Advisory Group (WAG), redesign the information architecture, and 
develop a taxonomy. As a WAG member, the library will help to determine 
guidelines, policies, and technical and content areas of responsibility 
for the four Webster stakeholders--Secretary of the Senate, Sergeant at 
Arms (SAA), Senate Chaplain, and the Senate Committee on Rules and 
Administration. The new Webster home page is expected to launch in 
2008.
    The library is committed to building and maintaining a service-
oriented information architecture, encyclopedia-like index pages, and 
the first-ever taxonomy in support of Webster. The information 
architecture will be displayed as five site-navigational index pages 
arranging Senate administrative products and services by service, 
organization, legislative topic, building location, and A-to-Z 
subjects. Index pages will include key subjects such as votes, the 
Congressional Record, and research databases. The taxonomy will produce 
targeted site search results in a timely and efficient manner.
    Incorporating a CMS into the Webster redesign will significantly 
improve both site production and end user workflow. The library is 
working with the Web Technology office to establish processes that will 
repurpose Senate.gov content and CMS functionality. Staff time 
dedicated to both authoring and editing Web publications is 
significantly reduced by repurposing a single data source.
    A redesigned ``New Books List'' on the library's Webster site was 
launched in August. The new list is produced in XML and Web-published 
via the CMS--key components in the success of the entire Webster 
project. These technologies streamline the publishing process and cut 
production time in half. Colorful book jacket images and Government 
documents are featured on the new list. A prototype redesign for the 
library's catalog page was created to incorporate preconfigured 
executable searches for new Senate hearings, new books, books on order, 
and hearings held by committee during a given year.
Floor Schedule
    The CMS offers added efficiencies by permitting floor schedule 
information for Webster and Senate.gov to be published from a single 
source. In addition to convening and adjournment times, program 
highlights, and links to roll call votes and the Daily Digest, the 
Webster floor schedule will link to Legislative Information System 
(LIS) bill status records for currently active legislation. Librarians 
publish the floor schedule after each Senate meeting adjourns.
Legislative Records
    Improved procedures to guarantee legislative data accuracy were put 
into place in February when the Senate Validation Clerk position was 
transferred to the library. Each day that the Senate is in session, the 
validation clerk edits the Congressional Record against LIS data. 
Discrepancies are promptly reported to the appropriate office and 
corrected. These changes have greatly improved the workflow between the 
Secretary of the Senate, the SAA, and the LIS Office within the Library 
of Congress.

                      LEGISLATIVE RECORD VALIDATION
------------------------------------------------------------------------
                      Document type                            Edits
------------------------------------------------------------------------
Bill status.............................................              61
Daily Digest............................................              53
Debates.................................................              67
Executive status........................................              26
Legislative activity....................................               5
Morning Business........................................              31
                                                         ---------------
      Total.............................................             243
                                                         ===============
2007 Days in session....................................             171
------------------------------------------------------------------------

    Efficient Web-publishing tools, including the CMS and XML, are used 
to produce the library's three most popular legislative publications--
Hot Bills List, Appropriations Legislation, and Cloture Motion Activity 
tables. These publications, which are generated from a single data 
source, appear on Webster, LIS.gov, and Senate.gov. Librarians are 
responsible for monitoring floor activity and updating these tables on 
a daily basis.

                              HOT BILLS, APPROPRIATIONS, AND CLOTURE WEB INQUIRIES
----------------------------------------------------------------------------------------------------------------
                         Publication                           Senate.gov      LIS        Webster       Total
----------------------------------------------------------------------------------------------------------------
Hot bills (active legislation)..............................      376,512       22,794        2,815      402,121
Appropriations legislation (fiscal year 1987-present).......       16,528        9,917        9,464       35,909
Cloture motion activity (1971-present)......................        7,183          865        5,664       13,712
                                                             ---------------------------------------------------
      Total Web Inquiries...................................      451,742  ...........  ...........  ...........
----------------------------------------------------------------------------------------------------------------

Instruction and Professional Outreach
    Two new research classes and an interactive resource page on 
Webster were developed this year. Librarians combine service, research, 
and technical skills to provide practical training for the Senate. In 
conjunction with National Library Week, Technical Services presented 
public catalog training sessions for Senate staff.

                         SENATE LIBRARY CLASSES
------------------------------------------------------------------------
                    Subject                       Students     Classes
------------------------------------------------------------------------
Insider's Guide to Senate.gov.................           11            2
LIS Savvy.....................................          297           37
Research tips and tricks......................           37            2
                                               -------------------------
      Totals..................................          345           41
------------------------------------------------------------------------

Senator Biography Database
    The library is overseeing efforts to customize a multifunction data 
repository for biographical and institutional information about the 
1,897 individuals who have served as United States senators. The 
knowledge database will enhance the storage, organization, and 
retrieval of Senate Web content through support for the site search 
engine, taxonomy construction, as well as display of an A-to-Z index 
and topical subindexes. The library is testing 50 member record data 
fields with an initial database release scheduled for August 2008.
Collection Development
    The library provides several digital resources to the Senate. The 
American State Papers and the United States Congressional Serial Set, 
with a comprehensive collection of 325,000 legislative documents and 
56,000 maps, were added this year. These provide staff with desktop 
access to two centuries of the most important legislative documents. 
The New York Times microfilm collection scope expanded significantly to 
include 1851-1961 following the transfer of microfilm reels from two 
executive branch agencies.
    The library received and processed the first installment of 5,913 
congressional documents offered by the University of Wyoming. These 
acquisitions provided the Senate with 275 documents not previously in 
the collection and represent a rare opportunity to improve the 
comprehensiveness of the congressional collection.
    As a participant in the Government Printing Office's (GPO) Federal 
Depository Library Program (FDLP), the library receives selected 
categories of legislative, executive, and judicial branch publications. 
The library received 18,903 Government publications in 2007, 12,050 of 
those through the FDLP. In response to the trend of issuing Government 
documents in electronic format, 702 links were added to the library 
catalog, bringing the total to more than 22,300. The links provide 
Senate staff desktop access to the full-text of each document.

                              ACQUISITIONS
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Congressional Documents.................................          14,736
Executive Branch Publications...........................           4,167
Books...................................................             822
                                                         ---------------
      Total Acquisitions................................          19,725
------------------------------------------------------------------------

    A major ongoing project is the title-by-title evaluation of 
executive branch publications. During the project's sixth year, 1,279 
items were withdrawn from the collection, 651 of which were donated to 
requesting Federal libraries. The project's final phase will improve 
organization and access by integrating Government documents into the 
larger primary collection. Toward this end, 382 documents were merged 
into the collection.
Cataloging
    The library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 187,700 
bibliographic items. During 2007, 13,643 items were added to the 
catalog--a 3 percent increase over 2007--including 6,628 new titles, 
and 5,637 withdrawn items. A total of 37,331 maintenance transactions 
contributed to the content, currency, and record integrity of the 
catalog.
    Senate staff searched the library catalog on 5,035 occasions (+6 
percent), viewing 4,819 catalog pages. The catalog is updated nightly 
to ensure that Senate staff will retrieve accurate and current 
information on library holdings. The addition of book jacket images for 
280 new titles enhanced visual appeal and utility.
    A related, ongoing project involves cataloging the Senate 
Historical Office's book collection. Records for 298 titles were added 
to the library catalog, bringing the total number of Historical Office 
titles to 1,665. Library staff assisted the Historical Office with the 
reorganization and shelving of their book collection in LC call number 
order.

                 INFORMATION SERVICE SUPPORT ACTIVITIES
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Document Deliveries.....................................           3,319
Circulation:
    Item Loans..........................................           2,547
    New Accounts........................................             406
    Total Accounts......................................           1,308
Microform Center:
    Titles Used.........................................              49
    Journals Used.......................................             658
    Pages Printed.......................................           2,926
Photocopies.............................................         101,533
------------------------------------------------------------------------

Name Authorities Cooperative Program (NACO)
    NACO, an international cataloging authority headquartered at the 
Library of Congress, manages personal name and subject control for the 
library community. As one of 457 participants, the library contributed 
248 personal names and congressional terms. That exceptional number 
underscores the very special nature of the Senate's collections and 
skills of the library's catalogers.
Library System Upgrade
    The library installed, tested, and deployed two new data servers 
and a Web server to support the catalog upgrade. New capabilities have 
shortened data transfer time, provided needed data redundancy, enhanced 
authority record maintenance, and provided support for dynamic delivery 
of catalog content. That content will be desktop available via 
preconfigured executable searches and RSS feeds. The server and system 
upgrades were accomplished with no service disruption for Senate staff 
searching the library's catalog.
Senate Support Facility (SSF)
    A networked computer workstation and printer were added to the 
library's SSF site. This provides for communication with the main 
library and facilitates searching the Senate's online resources, 
including Webster and the library catalog.
    Staff shelved more than 8,000 volumes of the United States 
Congressional Serial Set received from Allegheny College, Meadville, 
Pennsylvania. The project replaced volumes that were in poor condition, 
identified volumes in need of conservation, and recovered 40 missing 
volumes.
Preservation and Binding
    During the year, 393 volumes containing hearings, committee prints, 
bills and resolutions, Congressional Records, and other materials were 
bound by the GPO. In addition, two sets of the Annals of Congress (84 
volumes) were cleaned and bound for preservation. Technical Services 
staff attended several book repair training sessions led by the 
Director of the Office of Conservation and Preservation. In the course 
of these sessions, 36 historic volumes were repaired.
Budget
    Budget savings in 2007 totaled $1,058; and, after a decade of 
budget monitoring, savings total $76,871.86. This continual review of 
purchases eliminates materials not meeting the Senate's current 
information needs. This oversight is also critical in offsetting cost 
increases for core materials and for acquiring new materials. The goal 
is to provide the highest service level using the latest technologies 
and best resources in the most cost-effective manner.
Continuity of Operations (COOP) Plan
    Several library initiatives further enabled the Office of the 
Secretary to provide information services to the Senate from off-site. 
Projects include housing core documents at the SSF, training staff to 
remotely access the Senate network from a Senate-issued laptop, and 
training staff to remotely check-in with the Office of Security and 
Emergency Preparedness from a Senate-issued Blackberry. Additionally, 
the library expanded the digital congressional research collection 
containing fully searchable congressional documents dating from the 
First Congress. These databases can be remotely accessed and support 
immediate digital delivery of information.
Unum, Newsletter of the Office of the Secretary of the Senate
    Unum, the Secretary's quarterly newsletter has been produced by 
Senate Library staff since October 1997. It serves as an historical 
record of accomplishments, events, and personnel in the Office of the 
Secretary of the Senate. The newsletter is distributed throughout the 
Senate, and to former staff and Senators. The four 2007 issues 
highlighted the 10-year anniversaries of LIS and Unum, three committee 
histories, and a National Library Week book talk by former Senator 
Edward Brooke.
Major Library Goals for 2008
    Establish taxonomy and service-oriented architecture for the 
Webster redesign.
    Use the Senator Biography Database to populate frequently requested 
information lists published on Senate.gov.
    Provide library profiles to disaster recovery agencies.
    Establish a GPO contract for binding special material.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2007--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         13         82        301         31        365         15         95        167      1,056
February.............................................         11         29        389  .........        300         14         77        201      1,010
March................................................         41         66        323  .........        369         44        145        226      1,173
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         65        177      1,013         31      1,034         73        317        594      3,239
                                                      ==================================================================================================
April................................................         25         49        162        230        282         30         72        221      1,046
May..................................................         33        125        136        214        358         40         62        282      1,217
June.................................................         22         76        161  .........        375         21        128        369      1,130
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         80        250        459        444      1,015         91        262        872      3,393
                                                      ==================================================================================================
July.................................................         11         53        168         25        384         13         84        379      1,106
August...............................................          4         45        165        304        349         22         64        505      1,454
September............................................         19         54        257        103        234         21         61        254        984
                                                      ==================================================================================================
      3rd Quarter....................................         34        152        590        432        967         56        209      1,138      3,544
                                                      ==================================================================================================
October..............................................         81        127        216        230      2,331        131         43        480      3,558
November.............................................         24         65        171        146      2,723        152         71        425      3,753
December.............................................         22         51        285        150      1,326         73         65        288      2,238
                                                      ==================================================================================================
      4th Quarter....................................        127        243        672        526      6,380        356        179      1,193      9,549
                                                      ==================================================================================================
2007 Total...........................................        306        822      2,734      1,433      9,396        576        967      3,797     19,725
2006 Total...........................................        347        889      2,062      1,271      3,350        221        748      3,003     11,544
                                                      ==================================================================================================
Percent Change.......................................      -11.8       -7.5       32.6       12.8      180.5      160.6       29.3       26.4       70.9
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2007--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Bibliographic Records Cataloged
                                                          S.    ------------------------------------------------------------------------------
                                                       Hearing                    Government Documents           Congressional Publications      Total
                                                       Numbers             -------------------------------------------------------------------  Records
                                                       Added to    Books                                                              Docs./   Cataloged
                                                         LIS                  Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                                                                                     Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.............................................         12         65          7  .........          10        550          5         12        649
February............................................         36         15          2          6          14        357  .........         10        404
March...............................................         29         28          7          2           5        601         19         14        676
                                                     ---------------------------------------------------------------------------------------------------
      1st Quarter...................................         77        108         16          8          29      1,508         24         36      1,729
                                                     ===================================================================================================
April...............................................         26         41          5  .........          29        331          4          8        418
May.................................................         59         48          5  .........          55        255  .........         11        374
June................................................         16         41          6          1          23        505         43          8        627
                                                     ---------------------------------------------------------------------------------------------------
      2nd Quarter...................................        101        130         16          1         107      1,091         47         27      1,419
                                                     ===================================================================================================
July................................................        288         15          1          2          59        527          1         17        622
August..............................................        115         17         14          5           7        510          1          1        555
September...........................................         44         31          7          2          18        751          1          8        818
                                                     ---------------------------------------------------------------------------------------------------
      3rd Quarter...................................        447         63         22          9          84      1,788          3         26      1,995
                                                     ===================================================================================================
October.............................................         35         83         18          6          22        548  .........          7        684
November............................................          5         46          5  .........          14        326  .........         25        416
December............................................         22         21          7         33          11        319  .........         15        406
      4th Quarter...................................         62        150         30         39          47      1,193  .........         47      1,506
                                                     ---------------------------------------------------------------------------------------------------
2007 Total..........................................        687        451         84         57         267      5,580         74        136      6,649
2006 Total..........................................        318      1,499         70         96         171      5,506         98        692      8,132
                                                     ===================================================================================================
Percent Change......................................      116.0      -69.9       20.0      -40.6        56.1        1.3      -24.5      -80.4      -18.2
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2007--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   Center Pages      Pages
                                                   Loaned     Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January........................................         275         374          62           153         8,389
February.......................................         286         289          29           211        11,314
March..........................................         168         306          31           158         4,886
                                                ----------------------------------------------------------------
      1st Quarter..............................         729         969         122           522        24,589
                                                ================================================================
April..........................................         244         369          66           186         7,674
May............................................         241         286          24           414         6,083
June...........................................         204         270          56           253        16,327
                                                ----------------------------------------------------------------
      2nd Quarter..............................         689         925         146           853        30,084
                                                ================================================================
July...........................................         193         237          34           146        12,795
August.........................................         180         191          31           359         9,074
September......................................         207         223  ..........           171         7,842
                                                ----------------------------------------------------------------
      3rd Quarter..............................         580         651          65           676        29,711
                                                ================================================================
October........................................         216         318          29           308         7,794
November.......................................         206         290          29  .............        5,914
December.......................................         127         166          25           567         3,441
                                                ----------------------------------------------------------------
      4th Quarter..............................         549         774          83           875        17,149
                                                ================================================================
2007 Total.....................................       2,547       3,319         416         2,926       101,533
2006 Total.....................................       2,941       3,290         878         4,479       101,297
                                                ================================================================
Percent Change.................................       -13.4        +0.9       -52.6         -34.7          +0.2
----------------------------------------------------------------------------------------------------------------

                           senate page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the Nation's capital, within the 
limits of the constraints imposed by their work situation.
Summary of Accomplishments
    Completed the process to be re-accredited by the Middle States 
Commission on Secondary Schools on December 12, 2007.
    Conducted closing ceremonies for two successful page classes on 
June 8, 2007, and January 18, 2008, the last day of school for each 
semester.
    Successfully completed orientation and course scheduling for the 
Spring 2007 and Fall 2007 pages. Needs of incoming students determined 
the semester schedules.
    Provided extended educational experiences, including 19 field 
trips, a guest speaker, opportunities to play musical instruments and 
vocalize, and foreign language study with the aid of tutors. Summer 
pages participated in eight field trips to educational sites as an 
extension of the page experience. Administered national tests for 
qualification in scholarship programs as well.
    Continued the community service project embraced by pages and staff 
since 2002. The Senate Page School students and staff collected items 
for gift packages and then assembled and shipped the packages, which 
included letters of support, to military personnel in Afghanistan and 
Iraq.
    Purchased updated materials and equipment, including new academic 
support software for use in math, social studies, and English. 
Purchased a few pieces of replacement equipment for the science lab, as 
well as an LCD projector and presentation cart for use in all 
classrooms.
    Reviewed and updated the continuity of operations and evacuation 
plans. Pages and staff continue to practice evacuating to primary and 
secondary sites.
    Participated in escape hood training. Staff was recertified in CPR/
AED procedures.
    Trained tutors and substitute teachers in evacuation procedures.
    Continued ongoing communication among the Page School, the SAA, 
Party Secretaries, and the Page Program.
Summary of Plans
    Our goals include:
  --Continuing individualized small group instruction and tutoring by 
        teachers on an as-needed basis;
  --Continuing to offer foreign language tutoring assistance to 
        students;
  --Complementing the curriculum with field trips focusing on sites of 
        historic, political, and scientific importance;
  --Administering English usage pre- and post-tests to students each 
        semester to assist faculty in determining needs of students for 
        usage instruction;
  --Offering staff development options, including attendance at 
        seminars conducted by Education and Training and subject matter 
        and/or educational issue conferences conducted by national 
        organizations';
  --Continuing the community service project;
  --Conducting a Senate Page School Feedback Survey of all first 
        semester pages to assist staff in determining areas of strength 
        and areas for improvement in the program; and
  --Providing all necessary responses to the re-accreditation report.
                     printing and document services
    The Office of Printing and Document Services (OPDS) serves as the 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, Chapter 7 (Congressional Printing and Binding) of the 
U.S. Code as it relates to Senate documents, hearings, committee prints 
and other official publications. The office assists the Senate by 
coordinating, scheduling, delivering and preparing Senate legislation, 
hearings, documents, committee prints and miscellaneous publications 
for printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents and 
other publications; orders all blank paper, envelopes and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.

                           Printing Services

    During fiscal year 2007, OPDS prepared 4,744 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. This number represents a 10 
percent increase over the previous year. Since the requisitioning done 
by the OPDS is central to the Senate's printing, the office is uniquely 
suited to perform invoice and bid reviewing responsibilities for Senate 
printing. As a result of this office's cost accounting duties, OPDS is 
able to review and assure accurate GPO invoicing as well as play an 
active role in helping to provide the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. OPDS also 
coordinates a number of publications for other Senate offices such as 
the Curator, Historian, Disbursing Office, Legislative Clerk, and 
Senate Library, as well as the U.S. Botanic Garden, U.S. Capitol Police 
and Architect of the Capitol. These tasks include providing guidance 
for design, paper selection, print specifications, monitoring print 
quality and distribution. Last year's major printing projects included 
``The Report of the Secretary of the Senate'', ``New Senators Guide'', 
``The United States Senate 110th Congress, Traditions of the United 
States Senate'', and ``PRO TEM: Presidents Pro Tempore of the United 
States Since 1789''.
Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the Sergeant at Arms Computer 
Division that provides more billing accuracy and greater information 
gathering capacity and adheres to the guidelines established by the 
Senate Committee on Rules and Administration for commercial reporting 
companies to bill the Senate for transcription services. During 2007, 
OPDS provided commercial reporting companies and corresponding Senate 
committees a total of 935 billing verifications of Senate hearings and 
business meetings. Over 77,000 transcribed pages were processed at a 
total billing cost of over $498,000, a 15 percent increase over the 
previous year.
    The office continued processing all file transfers and billing 
verifications, between committees and reporting companies 
electronically ensuring efficiency and accuracy. Department staff 
continues training to apply today's expanding digital technology to 
improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                       2004            2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................             787             949             934             935
Average per Committee...........................            41.4            49.9            49.2            49.2
Total Transcribed Pages.........................          56,262          66,597          66,158          77,831
Average Pages/Committee.........................           2,961           3,505           3,482           4,096
Transcribed Pages Cost..........................        $366,904        $426,815        $433,742        $498,541
Average Cost/Committee..........................         $19,311         $22,463         $22,829         $26,239
----------------------------------------------------------------------------------------------------------------

Secretary of the Senate Service Center
    The Service Center within OPDS is staffed by experienced GPO 
detailees who provide Senate committees and the Secretary of the 
Senate's Office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease, or eliminate, additional 
overtime costs associated with the preparation of hearings. 
Additionally, the Service Center provides work for GPO detailees 
assigned to legislative offices during Senate State work periods.

                           Document Services

    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House floor 
proceedings, Extension of Remarks, Daily Digest and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed 11,992 distinct legislative items during the 
first Session of the 110th Congress, including Senate and House bills, 
resolutions, committee and conference reports, executive documents, and 
public laws.

                                         CONGRESSIONAL RECORD STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                       2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          34,787          24,881          37,699
    For the Senate..............................................          16,393          12,362          16,659
    For the House...............................................          18,394          12,519          21,040
Total Copies Printed and Distributed............................       1,049,463         780,302       1,001,619
    To the Senate...............................................         295,366         210,084         274,524
    To the House................................................         397,327         326,648         424,944
To the Executive Branch and the Public..........................         356,770         243,570  ..............
Total Production Costs..........................................     $16,014,706     $13,115,660  ..............
    Senate Costs................................................      $6,640,823      $5,006,708      $6,483,411
    House Costs.................................................      $8,933,244      $7,784,653     $10,035,868
    Other Costs.................................................        $440,639        $324,299        $374,102
----------------------------------------------------------------------------------------------------------------
Data provided by the Government Printing Office.

    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. Improved database reports allow 
the office to report receipt of all legislative bills and resolutions 
received in the Senate which can then be made available online and 
accessed through other Web sites, such as LIS and Thomas, by 
congressional staff and the public.
Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate. However, the office also has a responsibility to the general 
public, the press, and other Government agencies. Requests for 
legislative material are received at the walk-in counter, through the 
mail, by fax, and electronically. Online ordering of legislative 
documents and the Legislative Hot List Link, where Members and staff 
can confirm arrival of printed copies of the most sought-after 
legislative documents, continued to be popular. The Legislative Hot 
List site is updated several times daily each time new documents arrive 
from GPO to the Document Room. In addition, the office handled 
thousands of phone calls pertaining to the Senate's official printing, 
document requests and legislative questions. Recorded messages, fax, 
and e-mail operate around the clock and are processed as they are 
received, as are mail requests. The office stresses prompt, courteous 
customer service while providing accurate answers to Senate and public 
requests.

                                  SUMMARY OF ANNUAL CUSTOMER SERVICE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                                      On-line         Counter
         Calendar year          Congress/session    Public mail     Fax request       request         request
----------------------------------------------------------------------------------------------------------------
2004..........................  108th/2nd.......           1,137           2,229             564          36,780
2005..........................  109th/1st.......           1,369           2,326           1,464          40,105
2006..........................  109th/2nd.......           1,048           1,633           1,751          26,640
2007..........................  110th/1st.......             957           1,346           1,613          24,854
----------------------------------------------------------------------------------------------------------------

On-Demand Publication
    The office supplements depleted legislation where needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees, who provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports. 
On-demand publication allows the department to cut the quantities of 
documents printed directly from GPO and reduces waste. The DocuTech is 
networked with GPO, allowing print files to be sent back and forth 
electronically. This allows OPDS to print necessary legislation in the 
event of a GPO COOP situation. During 2007, the DocuTech Center 
produced 378 task orders, for a total of 8,843 unique legislative 
documents and over 595,000 printed pages.
Accomplishments and Future Goals
    Over the past year, OPDS has striven to provide new services and 
improve existing ones. Of particular note is the office staff's 
commitment to the ``Greening the Capitol'' initiative. Improved quality 
100 percent recycled copier and letterhead paper has been made 
available to all Senate offices. The office staff works diligently to 
track document requirements by monitoring print quantities and reducing 
waste and associated costs. Electronic proofing procedures implemented 
in 2006 continued; over four hundred new and revised print jobs were 
routed electronically for customer approval, improving turnaround time 
and efficiency.
    The office's future goals include working with GPO on their Federal 
Digital and Microcomp Replacement Systems developing online ordering of 
stationery products for Senate offices. The office staff continually 
focuses on COOP and the emergency preparedness. OPDS staff continues to 
seek new ways to use technology to assist Members and staff with added 
services and improved access to information.
                        office of public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October, 2006, through September, 2007, the 
Public Records office staff assisted more than 2,400 individuals 
seeking information from reports filed with the office. This figure 
does not include assistance provided by telephone, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 140,010 photocopies were sold in the 
period. In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.
Fiscal Year 2007 Accomplishments
    The office staff changed the lobbying e-filing program to conform 
with the modifications to the IBM forms made by the Clerk of the House; 
and began work to implement S. 1, the Honest Leadership and Open 
Government Act, which amended the Lobbying Disclosure Act of 1995.
Plans for Fiscal Year 2008
    The Public Records office will complete implementation of S.1.
Automation Activities
    During fiscal year 2007, the Senate Office of Public Records staff 
began design of a new lobbying data base, new public query programs for 
senate.gov, and a new page design for senate.gov.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports. 
Filings totaled 4,461 documents containing 283,564 pages.
Lobbying Disclosure Act of 1995 (LDA)
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2007, 6,915 registrants represented 18,068 
clients and employed 41,386 individuals who met the statutory 
definition of ``lobbyist'' since the January 1, 1996 enactment of the 
LDA. The number of registrants increased by almost 350 from the 
previous year, while the number of clients actually decreased by 3,400. 
This reduction is due, in part, to a review of the records to remove 
duplicate entries. The total number of individual lobbyists disclosed 
on 2007 registrations and reports was 16,469. The total number of 
lobbying registrations and reports processed was 43,705.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2007. The reports were available to the public and press by Thursday, 
June 14. Copies were provided to the Select Committee on Ethics and the 
appropriate State officials. A total of 3,693 reports and amendments 
were filed containing 22,465 pages. There were 424 requests to review 
or receive copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records has received 365 reports during 
fiscal year 2006.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 682.
                            senate security
    The Office of Senate Security (OSS) was established, under the 
Secretary of the Senate, by Senate Resolution 243 (100th Congress, 1st 
Session). The office is responsible for the administration of 
classified information programs in Senate offices and committees. In 
addition, OSS serves as the Senate's liaison to the Executive Branch in 
matters relating to the security of classified information in the 
Senate. This report covers the period from January 1, 2007, through 
December 31, 2007.
Personnel Security
    Five hundred eighty-seven Senate employees held one or more 
security clearances at the end of 2007. This number does not include 
clearances for employees of the Architect of the Capitol, nor does it 
include clearances for congressional fellows assigned to Senate 
offices. OSS also processes these clearances.
    OSS processed 3,315 personnel security actions, a 45.8 percent 
increase from 2006. One hundred-forty investigations for new security 
clearances were initiated last year, and 96 security clearances were 
transferred from other agencies. Senate regulations, as well as some 
Executive Branch regulations, require that individuals granted Top 
Secret security clearances be reinvestigated at least every 5 years. 
Staff holding Secret security clearances are reinvestigated every 10 
years. During the past 12 months, reinvestigations were initiated on 87 
Senate employees. OSS processed 193 routine terminations of security 
clearances during the reporting period and transmitted 431 outgoing 
visit requests. The remainder of the personnel security actions 
consisted of updating access authorizations and compartments.
    Overall, the average time required to process a Senate employee for 
a security clearance has decreased from 309 days to 270 days. The 
average time for investigations has decreased by 12.6 percent relative 
to 2006. The average time for an initial investigation conducted and 
adjudicated by the Department of Defense (DOD) is 241 days from the 
date that OSS requests the investigation until the letter from DOD 
granting the clearance is received in OSS. The average time for DOD 
initial investigations decreased 13.0 percent. The periodic re-
investigation process averages 304 days, a decrease of 9.4 percent 
relative to 2006. The average time for an initial investigation 
conducted by the Federal Bureau of Investigation (FBI) and adjudicated 
by DOD is 225 days, while the periodic re-investigation process 
averages 363 days. The FBI investigation with DOD adjudication times 
represents a decrease of 22.1 percent and 6.2 percent respectively.
    Two hundred-one records checks were conducted at the request of the 
FBI and Office of Personal Management (OPM). Four record checks were 
performed on behalf of Customs and Immigration. The remaining checks 
were performed for the FBI. This represents a 1.0 percent increase in 
records checks completed by OSS.
Security Awareness
    OSS conducted or hosted 64 security briefings for Senate staff. 
Topics included: information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents a 0.2 
percent increase from 2006.
Document Control
    OSS received or generated 3,623 classified documents consisting of 
118,070 pages during calendar year 2007. This is a 45.6 percent 
increase in the number of documents received or generated in 2006. 
Additionally, 80,940 pages from 2,910 classified documents no longer 
required for the conduct of official Senate business were destroyed. 
This represents a 30.3 percent increase in destruction from 2006. OSS 
transferred 1,232 documents consisting of 38,525 pages to Senate 
offices or external agencies, up 36.0 percent from 2006. These figures 
do not include classified documents received directly by the 
Appropriations Committee, Armed Services Committee, Foreign Relations 
Committee, and Select Committee on Intelligence, in accordance with 
agreements between OSS and those Committees. Overall, Senate Security 
completed 7,765 document transactions and handled over 237,535 pages of 
classified material in 2007, an increase of 38.0 percent
    Secure storage of classified material in the OSS vault was provided 
for 107 Senators, committees, and support offices. This arrangement 
minimizes the number of storage areas throughout the Capitol and Senate 
office buildings, thereby affording greater security for classified 
material.
Secure Meeting Facilities
    OSS secure conference facilities were utilized on 1,406 occasions 
by a total of 9,213 people during 2007. Use of OSS conference 
facilities increased 19.9 percent over 2006 levels. Eight hundred 
ninety-six meetings, briefings, or hearings were conducted in OSS' 
three conference rooms. Of those, nine were ``All senators'' briefings, 
and two were hearings. OSS also provided, to senators and staff, secure 
telephones, secure computers, secure facsimile machine, and secure 
areas for reading and production of classified material on 510 
occasions in 2007.
Projects and Accomplishments
    OSS hosted the second annual Technical Exposition for the Office of 
the Director of National Intelligence (DNI) in April 2007. Classified 
and unclassified exhibits representing the technical and scientific 
accomplishments of the U.S. Intelligence Community were shown to 
Members of the U.S. Senate and the U.S. House of Representatives, as 
well as cleared staff from throughout the Legislative Branch. OSS 
personnel provided assistance with security, site preparation, and 
escorting during the 4 months leading up to the Expo. The office and 
DNI are planning another Expo in March 2008.
    OSS is preparing to move to the Capitol Visitors Center (CVC) when 
it is ready for occupancy in the summer of 2008. OSS has been 
coordinating with internal offices and other U.S. Government agencies 
to insure the space will be appropriate for the storage, processing and 
discussion of classified material. OSS is developing plans and 
procedures for use of the new space and for moving the Senate's 
classified holdings to the new space in a secure and efficient manner. 
This will involve determining the need for holding each of the 
approximately 10,000 documents currently stored in the office.
                            stationery room
    The mission of the Keeper of the Stationery is to:
  --Sell stationery items for use by Senate offices and other 
        authorized legislative organizations;
  --Select a variety of stationery items to meet the needs of the 
        Senate environment on a day-to-day basis and maintain a 
        sufficient inventory of these items;
  --Purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules;
  --Maintain product supply and order capability during Continuity of 
        Operations incidents;
  --Maintain individual official stationery expense accounts for 
        Senators, Committees and Officers of the Senate;
  --Render monthly expense statements;
  --Ensure receipt of reimbursements for all purchases by the client 
        base through direct payments or through the certification 
        process;
  --Make payments to all vendors of record for supplies and services in 
        a timely manner and certify receipt of all supplies and 
        services; and
  --Provide delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2007            2006
                                            Statistics      Statistics
------------------------------------------------------------------------
Gross Sales.............................      $5,456,125      $4,945,381
Sales Transactions......................          45,608          45,471
Purchase Orders Issued..................           7,356           6,795
Vouchers Processed......................           8,078           8,313
Office Deliveries.......................           7,305           6,085
Number of Items Delivered...............         153,813         156,172
Number of Items Sold....................         587,529         608,104
                                         ===============================
Mass Transit Media Sold.................          91,569          86,483
    $20.00..............................          75,922          72,388
    $10.00..............................           6,955           4,510
    $5.00...............................           8,692           9,585
                                         ===============================
Public transportation users.............           1,763         ( \1\ )
------------------------------------------------------------------------
\1\ Not available.

Fiscal Year 2007 Highlights and Projects
            Recycling Initiatives
    Through review of products and processes, the Stationery Room began 
examining its recycling commitment to promote the ``Greening of the 
Capitol'' initiative that was launched during this reporting period. 
Our goal is to promote environmentally-friendly and safe products and 
product end-of life cycle disposition.
    In conjunction with the Office of the Senate Superintendent, the 
Stationery Room launched a battery recycling program, placing battery 
recycling containers in the store area for customers to safely dispose 
of batteries for recycling. These containers are collected periodically 
by the Superintendent's Office and shipped to a metals recycling plant 
for environmentally-safe disposition.
    The Stationery Room is also lending its support in promoting the 
Senate Superintendent's recycling program for safe disposition of 
printer, fax and copier cartridges. This effort was initiated to 
eliminate the disposal of these materials in landfills. Users are 
encouraged to drop these materials off at the Superintendent's drop-off 
site in the Dirksen Building. The Stationery Room promotes this effort 
through signage in and around the store, reminding customers of the 
drop-off site and periodic flyers which are enclosed with monthly 
statements.
    The use of copy paper sold in the Stationery Room was also 
investigated. For many years, the Stationery Room has carried copy 
paper with a 30 percent post-consumable content. The Stationery Room 
has added or increased its selections to include 50 percent and 100 
percent post-consumable copy paper.
    Business cards ordered through the Stationery Room were another 
target of opportunity for change. The Stationery Room staff worked with 
vendors to provide a business card stock with a 30 percent-50 percent 
post-consumable content. Additionally, vendors are now using a soy-
based ink in the printing process.
    Fine writing papers and envelopes were also analyzed for content 
and it was determined the post-consumable content from the paper mills 
could be increased without degradation of the quality. These products 
now contain a post-consumable content of 50 percent.
    Operational requirements are currently under review to ensure 
materials used also meet the same goals to promote an environmentally 
friendly campus. The Stationery Room is currently evaluating use of 
various types of plastic and paper bags, along with reusable bags made 
of 100 percent post-consumer plastic bottles that are now sold in the 
store.
            Senate Support Facility (SSF)
    The facility continues to be a major asset for Stationery Room 
operations. During fiscal year 2007, the Senate Sergeant at Arms 
Central Operations Division transported 31,678 cartons of product from 
the U.S. Capitol Police screening facility to the SSF for processing 
and distribution to the Senate campus. This process has virtually 
eliminated most commercial vehicular traffic coming to the Senate 
campus in support of Stationery Room operations. The Senate Sergeant at 
Arms' (SAA) Central Operations Division is to be commended for the 
support and ``team effort'' they provide to the Stationery Room 
operation in meeting its responsibilities to the Senate community.
            Public Transit Subsidy Program
    During the last quarter of fiscal year 2007, the Washington 
Metropolitan Transit Authority (WMATA) advised the Stationery Room they 
would be discontinuing the Metrochek paper media at the end of 2008 and 
transitioning agencies to the Smart Benefit Smart Trip Card. A WMATA 
analysis showed that 60 percent of participants in the Public 
Transportation Subsidy Program were already using the Smart Trip Card. 
WMATA determined it would be more cost-effective and efficiencies could 
be achieved by moving all participants to the Smart Benefit program. 
Since 1992, the Stationery Room has been administering the Senate's 
Public Subsidy Program and with that responsibility has begun a 
transition process, working with WMATA, the
    Committee on Rules and Administration and the Executive Office of 
the Secretary of the Senate to accomplish this move in fiscal year 
2008.
            Computer Modernization
    The Senate Stationery Room continues to utilize the Microsoft 
Business Dynamics Retail Management System and the Microsoft Business 
Dynamics Great Plains accounting software for its operations, which was 
installed in August 2005. During this reporting period, strategic 
planning began for the applications to be upgraded by the primary 
contractor. This planning resulted in the execution of a contract at 
the end of this reporting period. It is projected the Stationery Room 
system will be upgraded from version 1.2 of the Retail Management 
System (RMS) to version 2.0 and from version 8.0 to 9.0 of the Great 
Plains accounting software during the second/third quarter of fiscal 
year 2008.
    Also during fiscal year 2007, the Stationery Room did some 
preliminary investigations for two system enhancements, which would 
provide value and efficiencies for its customers. Subject to funding 
for fiscal year 2009, the Stationery Room would like to proceed with 
the e-commerce storefront online ordering system and further develop a 
means to move select data to the SAA's TranSAAct system for use by 
Senate offices. The latter would move monthly customer account 
statements along with transactional detail to the TranSAAct system. The 
migration of account/sales data would eliminate the monthly mailings 
and labor associated with the statements while building historical data 
retention for sales transaction information and budget forecasting.
                        office of web technology
    The Department of Web Technology is responsible for the Web sites 
that fall under the purview of the Secretary of the Senate:
  --the Senate Web site (Senate.gov)--available to the world; and
  --the Secretary's Web site on Webster (Webster.senate.gov)--available 
        to Senate staff.
                    the senate web site--senate.gov

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Senate Web site content is maintained by over 30 contributors 
from seven departments of the Secretary's office and three departments 
of the Sergeant at Arms (SAA). Content team leaders meet regularly to 
share ideas and coordinate the posting of new content.
Major Additions to the Site in 2007
    A portal for new lobbying disclosure and guidelines established 
through the legislation commonly referred to as S. 1, the Honest 
Leadership and Open Government Act of 2007. This portion of the site 
connects visitors to the various new disclosure and registration 
applications associated with the Office of Public Records. http://
www.senate.gov/pagelayout/legislative/g_three_sections_with_teasers/
lobbyingdisc.htm
  --Homepage feature articles were published on the following topics:
  --Art in the Senate: A View of the Senate's Past;
  --What Happens When a New Congress Begins?;
  --New Multimedia Exhibit, Isaac Bassett: A Senate Memoir;
  --Oral History Project: Life in the Senate;
  --The president of the Senate's Role in the Legislative Process; and
  --``We the People'' Celebrating the Constitution.
Accomplishments of the Office of Web Technology in 2007
    Completed upgrade of Documentum Content Management System (CMS) to 
5.3 from 4.3. Upgrade was done seamlessly to content authors and users 
of Senate.gov, so no down time was experienced.
    Trained content authors in the use of new Documentum CMS and 
produced documentation to assist in authoring.
    Aided Senate Library in collecting requirements and writing a 
statement of work for developing a new knowledge base. The Montague 
taxonomy system will be used to organize data available on Senate.gov 
and Webster.
    Collaborated with other stakeholders (Secretary, SAA, Committee on 
Rules and Administration and Chaplain) on the design of a new Webster. 
A governance board was established with members from each of the 
stakeholders. The information architecture and wireframe layouts of the 
centrally managed intranet pages were established and agreed to. Work 
on the masthead/banner and the graphical presentation of the central 
pages is nearing completion, and development of the site is currently 
underway.
    Audited the Senate.gov pages regularly, updating and correcting 
links; verifying content; and reviewing individual page designs 
throughout Senate.gov.
    Initiated a project to develop a children's Web site on Senate.gov. 
Worked with content team leaders to gather and analyze existing content 
on Senate.gov and publications produced by the Office of the Secretary 
to find topics of interest to children. The content analysis phase of 
this project is ongoing.
    Continued on the Senate.gov content reorganization project. A task 
force was established to study the ``Legislation and Records'' bucket, 
or section, and return recommendations on reorganization of the content 
therein. The task force did a thorough study, including conducting 
usability tests on items that were more difficult to locate, and 
returned a report to the full content team. The report was accepted 
unanimously. The changes in the ``Legislation and Records'' section 
will be implemented when all six buckets have been reviewed. The task 
force will turn their efforts now to the ``Senators'' bucket.
    Reorganized the file structure of the CMS. Began work on the 
``Congressional Records'' folder, tracking file moves and editing 
existing reference items that will live in this section. This 
restructuring of the file system will make it easier to collect usage 
statistics for the site.
    Worked with the Curator's office to reorganize their content within 
the ``Art and History'' bucket. Facilitated discussions on information 
architecture and page layout of art content, and offered advice on 
usability and best practices.
    Initiated a project to build a library of documentation to 
facilitate the creation and maintenance of web content; updated 
existing instructions on using Documentum to reflect changes in the new 
version of the CMS; documented tasks to be done at the beginning of a 
new Congress; and created procedures and directions manual for updating 
the Senate Chamber Desk Web site.
    Collaborated with the staffs of the Historical Office, Curator, and 
Library to produce the Webster page Guide to Staff-Led Tours. The 
intention of the site is to aid staff while they conduct tours of the 
Capitol. It includes information on art, architecture, and the history 
of the Capitol.
Senate.gov Usage Statistics
    In 2007, over 8 million visitors a month accessed the Senate Web 
site. Twenty-one percent of them entered through the main Senate 
Homepage while the majority came to the site via a bookmarked page 
(possibly directly to their Senator's site) or to a specific page from 
search results.

----------------------------------------------------------------------------------------------------------------
                                                                                                     2006-2007
                        Title of web page                          2006 Visits/    2007 Visits/       Percent
                                                                       month           month         Increase
----------------------------------------------------------------------------------------------------------------
Visits--Entire Site.............................................       6,081,000       8,196,662              26
Senate Homepage.................................................       1,685,000       1,704,675               1
----------------------------------------------------------------------------------------------------------------

    Reviewing statistics on Web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2007
----------------------------------------------------------------------------------------------------------------
                                                                   2006 Visits/    2007 Visits/
                            Top pages                                  month           month      Percent Change
----------------------------------------------------------------------------------------------------------------
Senators contact info list......................................         216,929         448,301             +52
Roll Call votes.................................................          63,099          62,879  ..............
Active legislation..............................................          30,053          36,907             +19
Senate leadership...............................................          19,278          18,191              -6
Bills and resolutions...........................................          18,155          17,231              -5
State information...............................................          15,988          14,774              -8
Committee hearings scheduled....................................          15,901          18,232             +13
----------------------------------------------------------------------------------------------------------------

    The most popular page on the main Senate Web site is the list of 
Senators with links to their Web sites and comment forms by a large 
margin. Visitors also continue to be interested in legislative matters 
in 2007 with Roll Call Vote Tallies, the Active Legislation table, and 
the Bill and Resolutions section being particularly popular.

                   Webster--HTTP://Webster/Secretary

Webster Usage Statistics
    The most popular page on the Secretary's Web site is the 
``Financial Services'' page with about 1,600 visitors a month--more 
than the Secretary's main homepage which receives about 1,550 a month. 
The ``Financial Services'' page (which is linked to from the Webster 
homepage) contains information on employee benefits (insurance, 
retirement, payroll, etc.) and provides access to the many forms 
employees need to obtain or modify these benefits. Other popular areas 
of the Secretary's site include the Senate Library Web site, the list 
of departments with descriptions and contact information, jobs 
postings, and the Web page that lists all Secretary of the Senate 
services.
    The Secretary's site on Webster will be redesigned in the coming 
year in keeping with the look of Webster's main page. The redesign will 
incorporate the ability for staff in departments to update their sites 
themselves if they wish.
              legislative information system (lis) project
    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.
Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the LIS in January 2000, the LIS 
Project staff shifted its focus to the data standards program and 
established the LIS Augmentation Project (LISAP). The over-arching goal 
of the LISAP is to provide a Senate-wide implementation and transition 
to XML for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Senate Legislative Counsel (SLC) and the Enrolling 
Clerk. The XML authoring application is called LEXA, an acronym for the 
Legislative Editing in XML Application. LEXA replaces the DOS-based 
XyWrite software used by drafters to embed locator codes into 
legislative documents for printing. The XML codes inserted by LEXA 
provide more information about the document and can be used for 
printing, searching and displaying a document. LEXA features many 
automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project staff has worked very 
closely with the SLC and the Enrolling Clerk to create an application 
that meets the needs for legislative drafting.
LISAP: 2007
    Throughout 2007 additional features and fixes were added to LEXA, 
enabling the SLC to use the application for more and more of their 
drafting requests. In 2007, 99 percent of introduced and reported bills 
and resolutions produced in the SLC were drafted in XML. Some of the 
new functionality added to LEXA in the last year included the 
following:
  --A utility to list and then print multiple files as one document;
  --An improved tool for creating conference reports in draft and final 
        forms;
  --Additional tagging for creating appropriations language in a bill 
        or amendment; and
  --Various new or improved features to automate and speed the drafting 
        process and creation of almost all types of measures.
    The Senate Enrolling Clerk's staff began doing much of its document 
preparation in LEXA at the beginning of the 110th Congress. The LEXA 
developers worked closely with the office to improve the processes for 
creating engrossed and enrolled documents in XML. The two groups also 
worked closely with the Government Printing Office (GPO) to make 
certain that the engrossed and enrolled documents print in the required 
formats. Although a few of the lesser-used printed versions still 
remain to be worked out, the last major stage to be completed in 2007 
was for Senate engrossed amendments (EAS). With the addition of the EAS 
documents, almost all stages of a measure can be produced in XML.
    Support for LEXA users remains an important concern. The LIS 
Project Office provides support for LEXA through the LEXA HelpLine and 
LEXA Web site (http://legbranch.senate.gov/lis/lexa). The HelpLine is a 
single phone number that rings on all the phones in the office. The Web 
site, which is located on a server accessible by the legislative 
branch, is used to distribute updates of the application to GPO and 
provides access to release notes, the reference manual, and other user 
aids. The 2004 legislative branch appropriations act directed GPO to 
provide support for LEXA, much as they have for XyWrite. GPO continues 
to work toward augmenting the support provided by the LIS Project 
Office.
    GPO maintains the software module that converts a Senate or House 
XML document to locator for printing through Microcomp. They also 
develop and maintain the stylesheet that is used on LIS (http://
www.congress.gov) and Thomas (http://thomas.loc.gov) to display the XML 
bills. GPO is also nearing completion of a new tool to create and print 
tables. The new table tool will be used by both the House and Senate, 
providing another module that is common to both applications.
    The LIS Project Office, the SLC, and the Systems Development 
Services group of the Sergeant at Arms conducted a pilot installation 
of a document management system (DMS) in the SLC. In 2006, the team had 
identified DMS software that will work with both LEXA and XyWrite 
documents. The 2007 pilot identified a few issues to be resolved, and 
the three groups continue to work together with the SLC systems 
integrator to implement the DMS in a way that will benefit the entire 
office. The DMS will provide a powerful tracking, management, and 
delivery tool for the SLC.
LISAP: 2008
    The LIS Project staff will continue to work with the House, GPO, 
and the Library of Congress on projects and issues that impact the 
legislative process and data standards for exchange. These groups are 
currently participating in two projects with GPO: one to define 
requirements for replacing the Microcomp composition software and 
another to improve the content submission and exchange processes.
    Senate, House, and GPO software developers will move together to 
upgrade their respective installations of Microsoft.Net. This upgrade 
will allow GPO to vastly improve the time it takes to compose large 
documents for printing. The printing component is common to both the 
Senate and House applications, and all groups must do the upgrade at 
the same time. This is planned for the first quarter of 2008.
    The LIS Project Office will work with the House and GPO in 2008 to 
resolve any HTML display issues so that the XML versions of Senate 
documents will be made available on LIS and Thomas. The HTML version 
produced from the XML data more closely resembles the printed document. 
This improved HTML format will eventually replace the version currently 
available on the Web.
    The Enrolling Clerk will use LEXA to produce engrossed and enrolled 
bills in XML. The LIS Project staff will continue to work with the SLC 
and the Enrolling Clerk to refine and enhance LEXA so that more and 
more of the documents produced by those offices will be done in XML. 
Once all of the documents can be produced in XML using LEXA, those 
offices will be able to stop using XyWrite. Since XyWrite is not 
compatible with other Windows software, moving away from it will allow 
the offices to use more modern technologies for all functions. Other 
Senate offices that do drafting with XyWrite may begin using LEXA, 
including the Committee on Appropriations.
    The LIS Project staff will monitor the use of the tagging 
structures created for appropriations language to determine if it 
provides enough description so that appropriations bills might be 
created as XML documents. XML tags and LEXA functions will be added as 
needed toward the appropriations bills being prepared using LEXA.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and re-verified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the journals and calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary document type definitions have been designed for these 
documents, and applications could be built to construct XML document 
components by extracting and tagging the LIS/DMS data. These 
applications would provide a faster, more consistent assembly of these 
documents and would enhance the ability to index and search their 
contents. The LIS Project staff will coordinate with the Systems 
Development Services Branch of the Office of the Sergeant at Arms to 
begin design and development of XML applications and interfaces for the 
LIS/DMS and legislative documents. As more and more legislative data 
and documents are provided in XML formats that use common elements 
across all document types, the Library of Congress will be able to 
expand the LIS Retrieval System to provide more content-specific 
searches.
                                 ______
                                 
                    Sergeant at Arms and Doorkeeper
         Prepared Statement of the Honorable Terrance W. Gainer
                              introduction
    Madam Chairman and members of the subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2009, the Sergeant at Arms respectfully requests a 
total budget of $226,359,000, an increase of $23,370,000 (or 11.5 
percent) over the fiscal year 2008 budget. This request will allow us 
to maintain the improvements and level of service we provide to the 
Senate community. It will also fund the development and maintenance of 
business and network security applications, among other support 
services. Appendix A, accompanying this testimony, elaborates on the 
specific components of our fiscal year 2009 budget request.
    In developing this budget and our operating plans, we are guided by 
three priorities: (1) ensuring the United States Senate is as secure 
and prepared for an emergency as possible; (2) providing the Senate 
outstanding service and support, including the enhanced use of 
technology; and (3) delivering exceptional customer service to the 
Senate.
    This year I am pleased to highlight some of this office's 
activities to include the furtherance of our efforts towards our United 
States Senate Sergeant at Arms Strategic Plan in which we are capturing 
performance measures that will help us assess our work. Our 
accomplishments in the areas of security and preparedness, information 
technology, and operations are also impressive. We are preparing for 
next year by planning for the major events and by ensuring that the 
Office of the Sergeant at Arms is an agile organization that can adjust 
to the unexpected.
    Specifically, planning efforts are under way for the January 
Inauguration and we are all ramping up for the opening of the Capitol 
Visitor Center (CVC) later this year. Our office has been involved with 
the CVC since its inception, and scores of hours have been spent 
preparing for the operations and security of the center. We have worked 
collaboratively on this bicameral project with representatives from 
Leadership, oversight committees and other agencies to ensure the 
design, construction and operational aspects of the facility achieve 
the desired results. Our participation and the challenges presented 
have been vast and varied, including but not limited to security, hours 
of operation, emergency preparedness, information technology, 
furnishings for the Senate side of the CVC, Senate Meeting Rooms 
design, set-up and maintenance, bus routes, Capitol tour routes, coat 
checks, official appointments, accommodating visitors to the Senate 
Gallery, broadcast media infrastructure, ATM service, telephone 
service, and other communication infrastructure.
    Assisting with these and all of the efforts of the Office of the 
Sergeant at Arms is an outstanding senior management team including 
Drew Willison who serves as my Deputy, Administrative Assistant Rick 
Edwards, Republican Liaison Mason Wiggins, General Counsel Joseph 
Haughey, Assistant Sergeant at Arms for Security and Emergency 
Preparedness Chuck Kaylor, Assistant Sergeant at Arms for Police 
Operations Bret Swanson, Acting Assistant Sergeant at Arms and Chief 
Information Officer Kimball Winn, and Assistant Sergeant at Arms for 
Operations Esther Gordon. The many accomplishments set forth in this 
testimony would not have been possible without this team's leadership 
and commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, the 
Office of the Attending Physician, and the United States Capitol Police 
(USCP). When appropriate, we coordinate our efforts with the United 
States House of Representatives and the agencies of the Executive 
Branch. I am impressed by the people with whom we work, and pleased 
with the quality of the relationships we have built together.
    During this first year serving as Sergeant at Arms, I have seen 
their great work, and I would be remiss if I did not mention how proud 
I am of all the men and women of the Sergeant at Arms team who help 
keep the Senate running. The employees of the Office of the Sergeant at 
Arms are among the most committed and creative in Government. We are 
continuously building on the success this organization has experienced 
in recent years.
    None of our efforts would be accomplished, though, without the 
guidance of this Committee and the Committee on Rules and 
Administration. Thank you for the support you consistently demonstrate 
as we work to serve the Senate.
                       security and preparedness
Protecting the Senate and Planning for the Unknown
    In our security and preparedness programs, we work collaboratively 
with organizations across Capitol Hill to secure the Senate. We also 
rely upon Senate Leadership, this Committee, and the Committee on Rules 
and Administration for guidance and support.
    While more than 6 years have passed since 9/11 and the anthrax 
attacks, and although no major attack has occurred against us at home, 
the threat of attack remains. The recent apprehension of an individual 
armed with a shotgun in the Senate park underscore our need for 
vigilance and emergency preparedness. Not all hazards are manmade, and 
our contingency plans can be implemented to respond to natural 
disasters as well. Over the past 2 years, Senate offices in Washington, 
DC, and in the States have been impacted by local disruptions and 
natural disasters. The security and emergency programs that have been 
developed over the past 7 years have enabled the Senate and our 
supporting agencies to respond appropriately in each instance, ensuring 
the safety of staff and visitors and recovering operations as rapidly 
as possible. The ongoing improvement and appropriate expansion of our 
security and emergency plans and programs will continue to be a 
priority for the Sergeant at Arms.
    On September 6, 2000, the Bipartisan Leadership for the 106th 
Congress directed the Capitol Police Board to develop and manage a 
program which would enable the Congress to fulfill its constitutional 
obligations in the event of a disaster-related incident. The Capitol 
Police Board was further directed to coordinate with Officers of the 
Senate and House to develop a comprehensive Legislative Branch 
emergency preparedness program. As a member of the Capitol Police Board 
and Chairman for 2007, the Senate Sergeant at Arms continued to build 
on the accomplishments of previous Boards.
    Our efforts to ensure that we can respond to emergencies and keep 
the Senate functioning under any circumstance have grown over the past 
years. To continue improvements in this area and better manage our 
security and preparedness programs, we have established seven strategic 
priorities to focus our efforts:
  --Emergency Notifications and Communications.--Provide effective 
        communications systems, devices, and capabilities to support 
        the Senate during any emergency.
  --Accountability.--Ensure accurate and timely accounting of Members, 
        Senate staff, and visitors during an emergency.
  --State Office Security and Preparedness.--Support Senate State 
        Offices with a full suite of security enhancements and a 
        comprehensive preparedness program.
  --Emergency Plans, Operations and Facilities.--Continue emergency 
        planning, emphasizing life-safety, continuity of operations, 
        and programs to address the needs of individuals after a 
        disaster.
  --Training and Education.--Continue a strong emergency preparedness 
        training program.
  --Exercises.--Conduct a comprehensive exercise program to validate, 
        rehearse and improve Senate readiness to act in the event of an 
        emergency.
  --Office Support.--Provide responsive security services and customer 
        support to Senate offices, committees, and support 
        organizations.
Emergency Notification and Communications
    Our emergency notification and communications initiatives ensure 
that we have effective communications systems, devices, and 
capabilities in place to support the Senate during an emergency. Last 
year we expanded the coverage of text alerts to include any PDA on any 
cellular or data service provider. This included leveraging the peer-
to-peer capabilities of BlackBerry devices using PIN messages. This 
year we are upgrading our telephonic alert system to enable the 
integration of text and telephone messaging into a single Web-based 
interface, allowing the Capitol Police to initiate voice and text 
messages to several thousand individuals in a matter of seconds.
    We have also installed a video-based alert system that will allow 
the Capitol Police to display emergency messages on the Senate cable TV 
network that will become operational this year. Over 1,300 wireless 
annunciators are in place across the Senate, and the Capitol Police 
have completed the installation of a public address system that can 
broadcast into public areas throughout the Capitol, Senate Office 
Buildings, and outdoor assembly areas. Further, if the Senate is forced 
to relocate, we have the capability to video teleconference and 
broadcast between an emergency relocation site and other Legislative 
Branch and Executive Branch sites.
    Earlier this year we began to deploy 57 Blue Emergency Phones 
throughout the Senate Office Buildings and Capitol. These phones will 
serve as a two-way communication device between the caller in distress 
and the USCP Command Center. There will be 7 phones installed in public 
eating areas and 50 phones will be installed near the emergency staging 
areas. This significantly enhances life-safety communications at our 
mobility impaired evacuation elevators and in our most trafficked 
public areas. These phones will be operational in early 2008.
    Looking forward we will continue to integrate and improve our 
telephonic and text-based notification capabilities to support offices 
and staff during emergencies. To meet Federal requirements the current 
wireless annunciator system must be narrow band compliant by October 1, 
2008. This summer we will replace all 1,300 devices throughout the 
Senate. This year our CIO organization will begin a multi-year 
telecommunications modernization project. A key component of that is an 
enhanced 9-1-1 capability that will benefit emergency responders and 
staff.
Accountability
    Accountability of Members and staff remains an area of emphasis in 
all our emergency plans and evacuation drills. One of our major 
initiatives 2 years ago was to improve procedures for offices to report 
accountability information to the Capitol Police and the Sergeant at 
Arms quickly and accurately using proximity enabled laptops and a 
BlackBerry-based application that allows Office Emergency Coordinators 
to account for staff remotely using their BlackBerry. This past year we 
have focused on office training to ensure every office has an account 
that is up to date and that staff know how to remotely check-in. The 
backbone for this capability, termed the Accountability and Emergency 
Roster System (ALERTS), allows each office to manage staff rosters as 
well as to indicate who in the office is to receive email and 
telephonic alerts from the Senate's emergency notification system. A 
total of 287 Senate staff members were trained on how to use ALERTS and 
Remote Check-in during in-office or classroom sessions. Our staff has 
also trained personnel in the Capitol Police Senate Division on the use 
of this system.
    Accountability and internal communications are stressed in the 
Emergency Action Plan template that we have developed for use by all 
Senate offices. This template, offered to all offices, encourages the 
development of internal communications procedures during emergencies 
through a phone tree or emergency contact list. Offices are encouraged 
to establish and periodically practice these internal procedures for 
accounting for staff members, post emergency. To aid in this effort, we 
conduct Emergency Action Plan training classes with a special emphasis 
on staff accountability and stress this initiative during all Office 
Emergency Coordinator training.
    Once a quarter, our office conducts a remote accountability 
exercise with Senate Office Emergency Coordinators. During our most 
recent exercise, over 198 individuals logged on in exercise to provide 
office accountability, and we worked with 20 offices on training and 
configuration issues. We have also conducted follow-up calls to offices 
that did not use our accountability system following drills or actual 
evacuations to provide assistance or training if needed.
State Office Security and Preparedness
    The Senate's State Office Preparedness Program consists of several 
elements. First is the Physical Security Enhancement Program. This 
program provides a security assessment of each State office, followed 
by physical security enhancements if the office desires to participate 
in the program. We have completed an initial physical security survey 
of all established State offices and the results of these on-site 
reviews were provided to each Member. In addition to the physical 
security enhancements, we have recently implemented a program that 
provides additional emergency preparedness and continuity of operations 
support to State offices.
    Since the program's inception in 2002, we have conducted 615 State 
office security surveys and will conduct another 150 surveys of new and 
relocating offices and those due a resurvey for the 110th Congress over 
the coming months. We have completed security enhancements in 260 State 
offices of which 73 were completed in 2007. In 2006, we finalized an 
agreement with the Federal Protective Service and General Services 
Administration to streamline installation of security enhancements for 
Senate State offices located in Federal buildings. We are currently 
working with 65 State offices in some stage of planning or approval. To 
date, members of our Office of Security and Emergency Preparedness have 
visited approximately 35 State offices where security enhancements have 
been installed or implemented. Staff from each of these offices has 
expressed gratitude for the security enhancements and the personalized 
visit. In short, this is a successful program and we will continue our 
emphasis in this area.
    Our State Office Preparedness Program combines our existing 
physical security enhancement program with additional emergency 
preparedness and continuity of operations planning (COOP) support. This 
level of support includes equipment and training that is similar to 
those programs that are currently offered to Member's Washington, DC, 
offices. We conducted a pilot project to evaluate this program in 11 
State Offices during the fall of 2007 and launched the full program in 
January 2008. This program provides a general risk assessment to each 
office, a set of basic emergency supplies, Web-based training and a 
template to build an office emergency plan. We will meet with D.C. 
office managers, and offer VTC based sessions to State Offices. Office 
response has been very encouraging and we look forward to reporting on 
this next year.
Emergency Plans, Operations, and Facilities
    Our emergency plans ensure that we attend to the safety of Senate 
Members and staff, as well as to the continuity of the Senate. It is 
the responsibility of each Member office and committee to have the 
requisite plans in place to guide their actions during any emergency 
event. Every Member office had completed and filed an emergency action 
plans with OSEP at the conclusion of the 110th Congress. New Membership 
and office moves have necessitated that many of these be redone. A 
total of 154 offices currently have completed and filed emergency 
action plans with our office of Security and Emergency Preparedness. 
Many Senate offices similarly have institutional or internal continuity 
of operations responsibilities. Every office within the SAA and 
Secretary of the Senate has COOP plan and the SAA continues to support 
offices and committees as their respective plans are developed. Our 
staff provides training guides, templates, and assistance with in-
office consulters to any office that request it. These offices that 
have updated plans are encouraged to maintain and exercise them.
    Evacuation procedures for mobility-impaired individuals continue to 
be a major effort between Emergency Preparedness and United States 
Capitol Police. Each Senate office building has a primary and secondary 
emergency evacuation elevator. Each of these elevators is designated 
with a sign indicating it is an emergency staging area. Specific 
procedures have been established for the safe and efficient evacuation 
of those who have mobility impairments. In 2007, procedures were 
revised to provide mobility impairment emergency evacuation elevator 
support to the 9th floor meeting area of the Hart Senate Office 
Building.
    To improve mobility impaired evacuation capabilities OSEP is 
working with the AOC to provide emergency power to all emergency 
evacuation elevators. When this project is complete our evacuation 
capabilities will be doubled. The United Sates Capitol Police have 
trained their officers in these procedures and practice these whenever 
we conduct exercises. Supporting impaired staff, our office of Security 
and Emergency Preparedness distributes and provides training for Victim 
Rescue Units that are designed to be used by those with mobility 
impairments in smoke-filled environment. In 2007, 49 staff members were 
trained in mobility impaired evacuation procedures.
    The Senate has an established structure to evaluate Senate 
emergency programs, plans, and requirements. Several years ago, we 
identified the need for post-event care and family assistance. Over the 
past year, we have continued to develop plans that provide critical 
services to affected families following a wide-spread event. In support 
of this, the Senate's Employee Assistance program, has conducted 
training with a core group of employees to establish peer support 
teams. That training will expand this year.
    Over the past year, Avian Flu has been a heightened planning 
activity for Government and other organizations. Last year the Sergeant 
at Arms established plans and capabilities to support continued 
operations of the Senate and our employees in a pandemic environment. 
We have conducted several informational briefings for Senate Chiefs of 
Staff in coordination with the Office of the Attending Physician (OAP). 
The OAP has information posted on their web-site and continues to 
support offices upon request. This will remain an active planning area 
in the coming year.
    This year we asked the RAND Corporation to assist in conducting 
strategic review of emergency preparedness activities provided to 
Senate offices by our Office of Security and Emergency Preparedness. 
During this review, RAND representatives interviewed Senate offices and 
staff in several focus groups and met with the many agencies we partner 
with to support the Senate. RAND also conducted an extensive review of 
Senate emergency outreach and preparedness material, to include 
planning templates, training classes, in-office briefings, brochures, 
and online content. The RAND strategic review culminated in a final 
annotated briefing in the fall of 2007. Chief among the findings of 
this report is the conclusion that OSEP's training and outreach 
programs are comprehensive and structured to adequately prepare Senate 
staff for emergency events. In its final report, RAND also highlights 
the challenges associated with serving the busy and transient Senate 
community. Resulting RAND recommendation on leveraging existing 
communication (i.e., newsletters, informational materials, in-office 
contacts), streamlining training programs, and utilizing post-incident 
materials, in-office contacts), streamlining training programs, and 
utilizing post-incident ``teaching moments'' are currently being 
incorporated into OSEP strategic plans and projects.
    Recognizing the Sergeant at Arms' responsibility to coordinate the 
actions of internal organizations, inform and support Senate offices, 
and effectively manage the resources within our purview during an 
emergency, the SAA has established a consolidated Senate Emergency 
Operations Center (EOC) capability that pulls key functional area 
representatives together into a single operational area during an 
emergency. The Sergeant at Arms and Secretary of Senate exercised this 
capability during 2007. Last year we established a Web-based EOC 
management and information tracking capability using WebEOC. This year 
we have further upgraded the capabilities of this system and continued 
regular staff training for each functional area. WebEOC is a widely 
used application throughout the Government and within the National 
Capitol Region. This allows the Senate EOC to remain in contact with 
supporting agencies and provides situation awareness during an 
emergency.
Training and Education
    In addition to assisting offices in the creation and maintenance of 
continuity and emergency plans, we provide training to Senate staff on 
emergency plans, procedures, and equipment. Our training program is a 
vital component of overall emergency preparedness at the Senate, and is 
designed to emphasize emergency procedures, equipment, and the critical 
protective actions staff members should take to protect themselves 
during an emergency event. Our formal training program is coordinated 
through the Joint Office of Education and Training, while in-office 
sessions are frequently requested and administered directly through 
OSEP.
    During the past year, we have conducted 425 separate training 
classes, reaching an audience of over 4,000 staff members. Our 
classroom training curriculum includes: escape hood and equipment, 
Senate-specific emergency procedures, emergency action planning, 
personal preparedness planning, and emergency procedures for 
individuals with mobility impairments. Additional personalized in-
office sessions on emergency action plan development, accountability, 
and remote check-in use are also offered. OSEP also sponsors several 
well-attended seminars yearly, to include ``Evacuating D.C.'' (led by 
representatives from local government transportation and emergency 
management agencies) and CPR and AED Awareness (taught by Office of 
Attending Physician personnel).
    Not everyone is able to attend training classes. To augment our 
training efforts, the SAA creates and distributes topic-specific 
brochures and guidance documents to further enhance Senate 
preparedness. These are distributed throughout the community and 
describe procedures, emergency equipment, and other useful instruction 
for emergencies. We have continued to expand computer and Web-based 
training. Last year we created a Web-based training course on mobility 
impaired evacuation procedures. We have consolidated all our Web-based 
training on our OSEP Web page. This not only includes our classes but 
also contains courses from outside speakers such as the D.C. Emergency 
Management agency who presented a seminar on D.C. shelter-in-place and 
evacuation plans. We also have training that is specifically targeted 
at State office staff on our web site and have used VTC classes to 
reach out for personal training classes. Just this past February, OSEP 
completely revised their web site to make it more useful to Senate 
staff.
    We have also leveraged special recognition activities such as 
National Preparedness Month in September, October's Fire Prevention 
Week, OSEP Open Houses, and the Senate Services Fair to provide 
additional resources and open-door services to the Senate. These also 
provide a valuable forum to inform the Senate Community of additional 
services available to them.
Exercises
    Exercises ensure the Senate's plans are practiced and validated on 
a regular basis. Our comprehensive exercise program is structured to do 
just that. Every year the Sergeant at Arms and Secretary of the Senate 
develop and publish an exercise calendar and guidance for the year that 
also includes a 6-year exercise plan to guide future test, training, 
and drill activities. This year's exercise plan provides for up to 17 
diverse events over the course of the year. It maintains and 
strengthens existing key capabilities, while developing needed and 
emerging ones. A key area of emphasis is the integration of several 
joint exercises with our congressional partners.
    This year, for the first time, we are conducting a ``no-notice'' 
exercise of our capabilities to set up selected functions at different 
locations. During fiscal year 2007, we conducted a series of five (5) 
major exercises in partnership with the U.S. Capitol Police, and other 
Legislative Branch entities to include the Office of the Attending 
Physician, Secretary of the Senate, and Architect of the Capitol, Rules 
Committee and the U.S. House of Representatives. The format for these 
exercises included functional capabilities demonstrations and tabletop 
scenarios and discussions.
    An Emergency Operation Center exercise and a Leadership 
Coordination Center exercise were conducted with the purpose of further 
developing practicing and validating operational concepts. In addition, 
a joint contingency capabilities and Chamber Protective Actions 
rounded-out the exercises that were conducted. In addition, a number of 
smaller exercises were conducted throughout the year including: monthly 
alert systems tests, an exercise of the Senate's emergency 
transportation plan, evacuation drills, tests of the Senate's mobile 
communications and broadcast capabilities, communications tests with 
the Executive Branch, and regular training of office staff related to 
developing emergency plans and procedures.
Office Support
    A hallmark of our support to the Senate community is our personal 
in-office support that serves as a microcosm of our previously 
discussed strategic priorities. Recognizing the pace and nature of 
Senate office business, we extend our whole suite of services into the 
office. This tailorable, flexible package recognizes that requirements 
for life safety and continuity planning compete for time with other 
activities. Our support activities, which include a variety of 
planning, training and equipment support, are frequently one-on-one 
interactions with Members, office Chiefs of Staff, emergency planners, 
or entire office staffs. In-office support occurs in the areas of 
accountability, developing Emergency Action Plans and Continuity of 
Operations Plans and the previously mentioned State Office Program.
    Training is a significant aspect of our office support. Our entire 
schedule of training activities may be tailored to office-specific 
requirements. Frequently, we are asked to assist offices with staff 
reviews of their emergency plans, provide updates on topics of interest 
or conduct escape hood refresher training, which may include staff 
audiences from 8 to 48. The success of our outreach efforts are evident 
in the over 300 in-office training sessions conducted during the past 
year.
    I previously noted our support to the Senate's mobility-impaired 
population, which usually averages between 25 and 35 staff. This 
individual office support is indicative of our efforts to meet Senate 
needs. This is a valuable service that often goes unnoticed by our 
general population. SAA staff provides in-office training to 
individuals with temporary or permanent disabilities and their 
designated buddies. This training includes a full review of evacuation 
procedures for those with impairments, an actual evacuation route 
rehearsal/walk-through to the different evacuation elevators in their 
building and equipment training. We issue each of our mobility impaired 
individuals a Victim Rescue Unit (smoke hood) and a wireless 
annunciator/pager and provide training on the operation of each.
    We offer each office a suite of emergency equipment and respond to 
service calls/questions on this equipment throughout the year. During 
the last year, we received over 200 requests to repair, replace, 
relocate, or add to your suite of emergency equipment. Our goal is to 
respond to these requests within 24 hours and we have a good track 
record. As referenced earlier in the document, we make annual visits 
into each office to check for completeness and functionality of this 
emergency equipment.
    To facilitate office feedback and requests for support we have 
established and published a general telephone number as well as web-
based and email feedback mechanisms. These are used by offices--we 
received over 300 calls or electronic feedback forms over the past 
year. To solicit feedback on our internal programs within the Sergeant 
at Arms we recently conducted an emergency preparedness survey of our 
entire staff. We will use this to improve our internal plans and 
training programs. We will meet with Member offices to determine if 
this would be useful to evaluate their emergency preparedness. All of 
these activities help us improve our services to better meet the 
security and emergency preparedness needs of the Senate.
Office of Police Operations and Liaison
            Security Vulnerabilities
    Efforts continue to address security vulnerabilities throughout the 
Senate complex. These vulnerabilities demand that we constantly assess 
and re-evaluate both the physical plants of the Capitol and Senate 
buildings and screening methodologies for staff and visitors. The 
mandate necessitates expert input and resources in the planning and 
procurement of emerging security technologies in areas such as: 
enhanced individual screening technologies, the podium badging system, 
proximity card readers, cameras, and various blast protection options. 
The SAA actively participates in various working groups aimed at 
studying these vulnerabilities, collating data, making recommendations 
for improvements, and implementation oversight. On March 2, 2007, the 
Board agreed to establish a Capitol Vulnerability Study Working Group 
(CVSWG) comprised of representatives from the House and Senate Sergeant 
at Arms, Architect of the Capitol and the U.S. Capitol Police to 
evaluate the U.S. Secret Service report, 2006 United States Capitol 
Vulnerability Assessment. The report contains many recommendations for 
security improvements in the Capitol and the Capitol Visitor Center. 
The CVSWG was issued instructions regarding priorities of effort, 
methods of coordination and reporting milestones. The group 
accomplished its initial task and provided to the United States Capitol 
Police Board its final report in October 2007. The Board is continuing 
to work with the group as they complete their work, which will lead to 
important security enhancements throughout the Capitol Complex.
            Foreign CODEL Support Program
    The Foreign CODEL support program continues to ensure that the 
unique needs and security requirements of Senators are met while they 
perform official travel outside the contiguous United States. Through a 
coordinated liaison effort between the SAA, USCP, and the Department of 
State, threat assessments and security reviews are conducted for 
Senators' official foreign travel. While our travel costs have been 
reduced due to most of this work being accomplished right here in 
Washington, the SAA still remains prepared to support the USCP for 
CODEL trips that require their travel.
            HSPD12/FRAC Project Participation in Executive Branch 
                    Programs
    On August 27, 2004, the President signed Homeland Security 
Presidential Directive (HSPD) 12--Policy for a Common Identification 
Standard for Federal Employees and Contractors. The directive and 
subsequent published guidance established vetting and credentialing 
standards for identification badges issued to Federal employees and 
contractors for use in accessing Federal facilities and information 
systems. While Legislative Branch employees are not bound by HSPD-12, 
Senators' personal staff and support staff occupy space in buildings 
across the country that are implementing required changes to physical 
access procedures via these cards. We continue to work with the Federal 
implementers of HSPD-12 and anticipate issuing compatible, ``Smart 
Card'' ID badges to affected Senate staff this fiscal year.
    Another smart card-based program affecting the Senate is the First 
Responder Authentication Credential (FRAC) system launched under the 
auspices of the Department of Homeland Security. FRAC cards will be 
used to verify the identification of individuals who will need to 
access a controlled area during an emergency situation. We are actively 
participating in exercises and staying abreast of the program's 
development in the National Capital Region and envision limited Senate 
staff receiving these badges during the 111th Congress.
            Technological Developments in Security
    In cooperation with our congressional partners in the USCP and 
House of Representatives, we are monitoring and implementing 
technological advances to maximize the effectiveness of current 
security tools, particularly those which operate in conjunction with 
our ID badges. For example, the Capitol Police's Podium Badging System 
(PBS) will allow officers to use facial recognition through a 
congressional ID badge's proximity card to validate the badge at all 
electronically-monitored access points on campus. This allows the 
Capitol Police to honor only those ID badges which are still active in 
the ID Management System, and helps ensure badges are not misused. To 
ensure advantages realized with the addition of the PBS are preserved, 
we will continue to monitor the transition of the proximity card 
industry from our 125 kHz frequency to contactless 13.56 MHz. The 13.56 
MHz contactless smart cards offer enhanced security through encryption 
and mutual authentication and can support multiple applications such as 
biometrics and computer log-on security. Smart cards are the future of 
access control and will be thoroughly tested with the launch of the 
HSPD-12 and FRAC initiatives.
            Mail Handling
    The anthrax and ricin attacks of past years necessitated new 
security measures and our Office responded. We have worked 
collaboratively with this Committee, the Committee on Rules and 
Administration, our science advisors, the Capitol Police, the United 
States Postal Service (USPS), the White House Office of Science and 
Technology Policy, and the Department of Homeland Security in 
developing safe and secure mail protocols.
    All mail and packages addressed to the Senate are tested and 
delivered by Senate Post Office employees whether they come through the 
U.S. Postal Service or from other delivery services. We have 
outstanding processing protocols in place here at the Senate. The 
organizations that know the most about securing mail cite the Senate 
mail facilities as among the best. We have been asked to demonstrate 
our procedures and showcase our facilities for some of our allies and 
for other Government agencies, including the Departments of Defense and 
Homeland Security. When they look for ways to improve their mail 
security, they visit our facility.
    Last year, the Senate processed, tested, and delivered over 
15,300,000 safe items to Senate offices, including over 9,700,000 
pieces of U.S. Postal Service mail; over 5,300,000 pieces of internal 
mail that were routed within the Senate or to or from other Government 
agencies; over 67,000 packages; and almost 162,000 courier items. This 
total volume of mail represented an 11 percent increase in the mail 
that we delivered compared to 2006 and was the most mail that we have 
processed and delivered since 2003.
    We have been good stewards of taxpayer dollars in the process. We 
continue to seek improvements in mail processing and have worked with 
this Committee to identify avenues to reduce our costs. During the 
spring of 2007, we moved from our leased Alexandria letter mail 
processing facility into a newly constructed facility that we worked 
with this Committee and the Architect of the Capitol to purchase. This 
new facility has enhanced our processing of Senate letters and has 
enabled us to perform the package testing that was previously being 
performed by a vendor. Bringing the processing of packages in-house has 
increased the security of the packages addressed to the Senate's 
Washington offices and is projected to save the Senate over $200,000 
annually. This state-of-the-art facility has provided a safer and more 
secure work environment for our employees and it is designed to serve 
the Senate's mail processing needs for decades.
    We also worked with this Committee and the Committee on Rules and 
Administration to build one of the best facilities within the 
Government to process time-sensitive documents that are delivered to 
the Senate. In August 2006, we opened the Courier Acceptance Site to 
ensure all same day documents are x-rayed, opened, tested, and safe for 
delivery to Senate offices. The number of time-sensitive documents 
addressed to Senate offices is significant. We processed almost 162,000 
courier items during 2007. This was the most courier items that we have 
processed during a year and represented a 19 percent increase in 
courier packages from 2006.
    Since the anthrax attacks of 2001, our Office has worked with the 
Department of Homeland Security, the U.S. Postal Service, and our 
science advisors in seeking avenues to improve the safety of the mail 
routed to Senate State offices and to Members' home addresses. USPS has 
installed detection units at mail processing plants throughout the 
United States. Virtually every letter is run through this equipment 
which is designed to detect certain contaminants, thereby providing a 
safety screen that did not exist in the past.
    Our Senate Post Office and our Office of Security and Emergency 
Preparedness worked collaboratively with our science advisors to 
develop and introduce the first device designed to provide Senate staff 
who work in State offices a level of protection when handling mail. We 
worked with eight Senate State offices to test and pilot the Postal 
Sentry Mail Processing Device and the results were favorable. We now 
offer this device to any Senate State office that would like this 
additional level of protection to process their State office mail.
                         information technology
Enhancing Service, Security, and Stewardship
    We continue to embrace and enhance the role of technology to 
improve upon physical and information security and life safety, to 
prepare for emergencies and to support the entire Senate's information 
technology needs. As in our other areas, we also emphasize 
stewardship--the careful use of all our resources, including the 
funding we are provided, our personnel and the external resources that 
we consume--in all aspects of our information technology operation.
    As we do each year, we have updated and are performing under our 2-
year Information Technology Strategic Plan. The current revision, under 
which we will be operating in fiscal year 2009, is the first to 
incorporate stewardship as a guiding principle for all of our actions. 
The five strategic information technology goals articulated in the 
current plan and their supporting objectives drive our information 
technology programmatic and budgetary decisions:
  --Secure.--A secure Senate information infrastructure.
  --Customer Service Focused.--A customer service culture top-to-
        bottom.
  --Effective.--Information technology solutions driven by business 
        requirements.
  --Accessible, Flexible, and Reliable.--Access to mission-critical 
        information anywhere, anytime, under any circumstances.
  --Modern.--A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Following our strategic goal of being customer-service focused, we 
actively engage the people for whom we work to help us determine which 
technologies to implement, which business requirements to automate, and 
which efforts to undertake. We also initiate our own projects to 
improve our ability to perform our core functions. As a result, we have 
more than 50 projects, ranging in size from a few days' work to multi-
year and multi-million-dollar efforts, underway at any given time, all 
of which support our strategic goals. Our major accomplishments during 
the past year include:
  --Allowing the Senate to comply with the online filing and reporting 
        provisions of S. 1, the Honest Government and Open Leadership 
        Act of 2007, by working closely with the Secretary of the 
        Senate's Office of Public Records to implement new systems for 
        reporting and disclosure of lobbying relationships.
  --Satisfying our customers to a greater extent as evidenced by the 
        excellent ratings we received on our fifth annual information 
        technology customer satisfaction survey.
  --Improving our ability to defend ourselves against external 
        computer-based threats by awarding a contract to monitor our 
        networks and take protective actions, while respecting the 
        privacy of individual offices' data and communications.
  --Making it easier for our customers to obtain cellular telephones 
        and BlackBerry devices by implementing an online catalog and 
        ordering system.
  --Progressing well toward the implementation of our new telephone 
        system, including the creation of a comprehensive lab and the 
        completion of the final engineering phase. Pilot testing will 
        begin this summer and full implementation will begin this 
        winter.
  --Improving the ability of Members, staff, and visitors to 
        communicate by extending our infrastructure that supports 
        cellular telephone and BlackBerry devices and wireless data 
        networks into the Capitol and the Senate expansion space in the 
        Capitol Visitor Center.
  --Providing offices with a means to retain more e-mail data online, 
        with rapid and flexible search and retrieval capabilities, 
        through deployment of a solution for e-mail archiving that 
        allows older messages to be moved out of the message data base 
        but still remain online. By leveraging lower cost storage and 
        high-performance indexing, the solution provides a cost 
        effective, long-term electronic mail storage option without a 
        negative impact on the Senate's messaging infrastructure.
  --Improving the experience of office staff as they accommodate the 
        required physical inventory of Senate assets by implementing 
        barcode scanning technologies.
  --Making it easier for office administrative personnel to manage 
        their offices by deploying additional phases of TranSAAct, the 
        web-based system for managing certain office functions. 
        TranSAAct now offers single sign-on access to 13 other 
        applications, access to electronic versions of billing 
        statements, and online means to grant floor privileges and 
        authorization to make charges at the Recording Studio.
  --Freeing our customers to choose a BlackBerry device from the 
        carrier of their choice through the implementation of a Senate 
        Messaging Alert Client that operates independently of the 
        Senate e-mail network and any particular carrier's 
        infrastructure, and provides the sender of an alert with 
        notification that it was delivered and read by each recipient.
                    enhancing service to the senate
Customer Service, Satisfaction, and Communications
    Our strategic plan stresses customer service as a top priority, and 
we actively solicit feedback from all levels and for all types of 
services. Our fifth annual CIO customer satisfaction survey showed that 
our overall customer satisfaction rating increased slightly from the 87 
percent mark of the previous year. This comprehensive online survey 
measures our customers' satisfaction with the systems, solutions, 
service and the quality of personnel in our organization. Based on the 
survey results, each year, we develop an action plan based on the 
survey results, which stresses the areas in which improvement is 
indicated. As always, we continue to emphasize strong communications 
and customer relationships, bringing new technologies into the Senate 
as quickly as possible, moving business and information online, and 
offering choices that allow offices to meet their unique business 
requirements.
    In addition to the annual CIO customer satisfaction survey, we 
solicit customer feedback for every help desk ticket opened. In several 
major contracts that affect our customers, we include strict service 
levels that are tied to the contractors' compensation--if they do well, 
they get paid more; if they do poorly, they get paid less. As an 
example of how well the service levels have been working for one 
contract, we have exceeded the service level every month in system 
installation service levels, help desk resolution times, and customer 
satisfaction under the recently recompeted IT Support Contract, which 
was developed, reviewed, and awarded with participation from our 
customers. We also communicate effectively with our customers through a 
well-developed outreach program that includes information technology 
newsletters, quarterly project status reviews, participation in 
information technology working groups, weekly technology and business 
process review meetings with customers, joint monthly project and 
policy meetings with the Committee on Rules and Administration, the 
Senate Systems Administrators Association, and the Administrative 
Managers' Steering Group.
            Keeping Senators and Staff Informed
    The Senate Information Services program continues to deliver 
premium, vital online information services to Senators and staff. These 
services range from the Senate's own near-real-time news tool, 
NewsWatch, to mission-critical external research services providing 
far-reaching current and archived news and general information, 
historical newspapers dating back as far as the 18th century, Federal 
and State statutes and case law, regulatory and judicial updates, 
congressional news and current policy issues analysis, information 
technology policy developments, and daily updated directories of 
personnel in Government, business, media, and professional 
associations. Senate users accessed more than 3.5 million real-time 
news stories and almost 2 million pages of congressional news and 
current policy analyses throughout 2007. During the same period, staff 
conducted more than 15,000 hours of legal research, viewed contact and 
biographical information for 60,000 professionals in wide-ranging 
disciplines, and reviewed newspaper content contained in almost 25,000 
images from more than 400 local daily newspapers from the United States 
and around the world.
            Robust, Reliable, and Modern Communications
    We continue to make good progress toward modernizing the Senate's 
entire telecommunications infrastructure to provide improved 
reliability and redundancy in support of daily operations and 
continuity of operations and Government, as well as to take advantage 
of technological advances to provide a more flexible and robust 
communications infrastructure. We are completing the final engineering 
and design stage of this multi-year project to modernize the systems 
that provide telephone and other telecommunication services to the 
Senate on Capitol Hill. The new system has been engineered to provide 
redundancy for increased reliability and availability resulting in a 
state-of-the-art system of converged voice, data, and video 
communications technologies built upon Internet telephony protocols, 
also referred to as IP telephony or voice over IP. The new 
telecommunications system will replace our 20-plus-year-old telephone 
technology, eliminate single failure points, provide new capability and 
value to the Senate, and benefit from the security of running behind 
our infrastructure's firewalls. Early next year we will begin launching 
the program.
    The entire Senate enjoys the benefits of a modern, robust, 
reliable, and scalable messaging infrastructure that includes built-in 
options for continuity of operations, design choices, and a platform 
for leveraging modern technologies including collaboration, mobility, 
and communications. Offices continue to take advantage of the choices 
offered as we completed six migrations of offices' electronic mail from 
one to another of the flexible design options to meet the offices' 
changing business needs. In the coming fiscal year, we will upgrade the 
messaging system to the latest software edition that will provide 
additional features and benefits for electronic mail users. We are also 
deploying Microsoft's Office Communications Server system to allow 
instant messaging and collaboration within the Senate and messaging to 
external clients without the risks associated with other instant 
messaging clients.
            Web-Based and Customer-Focused Business Applications
    This year, we completed the second phase and began the third phase 
of TranSAAct, which is our platform for moving business online. Based 
on the business requirements of offices and the Committee on Rules and 
Administration, we continue to develop TranSAAct to eliminate paper-
based manual processes and move them to the Web. Through TranSAAct, 
administrative managers and chief clerks can manage and track invoices 
for SAA services through a modern Web interface, and have single sign-
on access to 13 Web-based applications including the ALERTS emergency 
notification database, package tracking, the transit fare subsidy 
system, and the garage parking database. The latest additions to 
TranSAAct provide offices the ability to request services online and 
use electronic signatures for approvals, eliminating paper requests and 
significantly streamlining the previous manual processes for granting 
floor privileges and authorizations to request services from the 
Recording Studio. These two are the first of a host of other such 
processes to be moved online. Because it is built on an extensible 
modern database framework, TranSAAct allows indefinite expansion as new 
requirements are fulfilled. We look forward over the coming months and 
years to moving additional business process to the Web, reducing the 
time, paper and errors associated with the current manual processes.
    We also completed development on the next iteration of our highly 
successful Service Academy nominations application, which we have 
renamed the Office Application Manager. The Office Application Manager 
is designed to help offices create, manage, and respond to Web-based 
application submission for service academies, internships, and 
fellowships. Electronic submissions reduce the amount of paper used 
while streamlining the submission process for constituents and offices.
    We are continuing to work with the other major stakeholders (the 
Secretary of the Senate, the Committee on Rules and Administration, and 
the Chaplain's Office) on restructuring Webster. We are currently in 
the process of completing a more functional front page, banner, and 
look and feel for the Senate intranet site. Included in the effort is a 
new method of categorizing information on the site to improve search 
results and content layout for the site, making information easier to 
find and significantly improving the user experience.
    We have also implemented a modern content management system to 
enable Webster content providers the ability to develop and maintain 
the content of their pages more easily without the need to know web 
programming. We also made the same system, CommonSpot, available to 
offices to develop and maintain their websites.
            Showcasing and Promoting Modern Information Technology in 
                    the Senate
    This past year we continued to highlight new technologies in the 
Information Technology Demonstration Center through a series of well-
attended ``Demo Days''. After products are tested and validated in our 
technology assessment laboratory, they are then available for offices 
to try in the demo center. The Demo Days feature live demonstrations of 
new and emerging technologies. Just to name a few of the new products 
and technologies that we have recently brought to the Senate, in the 
past year we introduced Microsoft Groove 2007 for enhanced 
collaboration on documents across organizational boundaries, HP server 
integrated lights-out management board to enable remote monitoring and 
management of servers, personal videoconferencing hub for easier 
configuration of video conference calls with multiple participants, 
Microsoft's Vista operating system, and a reporting application to 
allow individual office system administrators to see quickly how they 
are doing with respect to automatically-downloaded software updates.
    Also, this past year, we hosted two more highly-successful Senate 
emerging technology conferences and exhibitions to expose Senate staff 
to new technologies and concepts. These conferences are designed around 
technology themes of immediate interest Senate-wide. The two 
conferences held this past year featured mobility and staying connected 
anytime and anywhere and ``green'' initiatives in technology, for use 
in the office and at home. Speakers included industry leaders; 
Government agencies; and Member office, Architect of the Capitol, and 
CIO staff.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, to ensure we are considering technologies 
that will directly support the Senate's mission, we continue to improve 
the capabilities in our technology assessment laboratory. Technologies 
and solutions are vetted and tested here prior to being announced for 
pilot, prototype, or mass deployment to the Senate. To ensure that 
relevant technologies and solutions are under consideration, the CIO-
sponsored technology assessment group, consisting of CIO staff and our 
customers, performs high-level requirements analysis and prioritizes 
new technologies and solutions for consideration for deployment in the 
Senate. Some of the new technologies evaluated and/or recommended for 
support through our lab testing during the current fiscal year include:
  --Server virtualization to reduce the number of physical servers we 
        require;
  --Enterprise instant messaging, a critical business communication 
        tool that provides all the customary instant messaging 
        capabilities without sacrificing enterprise class reliability 
        and security;
  --A Microsoft Vista operating system image and security configuration 
        customized for the Senate;
  --More than 30 new Hewlett-Packard, Fujitsu, and Apple portable or 
        desktop computer offerings;
  --18 new Hewlett-Packard workgroup printers;
  --12 new document imaging scanners;
  --Almost 600 Microsoft critical software security patches; and
  --12 office productivity suite applications.
    We will continue or intensify these efforts in fiscal year 2009 to 
ensure that the Senate is always well-equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
portion of Webster.
            Enhancing Security with Accessible, Flexible, and Reliable 
                    Systems
    We continue to seek ways to improve the security of our technology 
infrastructure in order to protect data, respect privacy, enable 
continuous Senate operations and support our emergency and continuity 
plans. Our efforts over the past year have enabled us to support 
alternate sites and the replication of information, as well as 
emergency and contingency communications. We are delivering increased 
support for remote access and have completed the in-building wireless 
infrastructure. A significant commitment to information technology 
security is improving our ability to protect the Senate from increasing 
external cyber threats, and the multi-year telecommunications 
modernization project is driving improvements in the reliability of our 
communications infrastructure. We also seek ways to enable individual 
offices to replicate and defend the electronic information that is the 
lifeblood of their existence. Our efforts all center on improving the 
ability of the Senate to accomplish its mission.
            Alternate Sites and Information Replication
    We are continuing the testing of our technology in scenarios in 
which our primary infrastructure and primary work locations have become 
inaccessible. This includes the simulated loss of our primary data and 
network facilities, as well as simulated loss of staff work spaces. All 
mission essential Senate enterprise information systems continue to be 
replicated at our alternate computing facility (ACF), using our 
recently upgraded optical network and storage area network technology. 
In August, the CIO conducted the third comprehensive test of the 
facility: Senate primary computing facilities (including network 
access) were completely shut down and reconstituted at the ACF. For 
most systems full capability and functionality were provided from the 
ACF for a period of 4 hours and then systems were ``failed-back'' to 
the primary computing facility on Capitol Hill. In this test we kept 
several major systems in production mode at the ACF for several days 
before returning them to the primary facility. In December, working 
with staff from the Office of the Secretary of the Senate, we conducted 
a second failover exercise involving the Senate's financial systems. On 
May 29 and 30, 2007, approximately 210 members of the CIO organization, 
including staff from all departments and vendors, participated in our 
first pandemic exercise. The exercise was a proof of concept activity, 
demonstrating the CIO's ability to support mission essential systems 
with a minimum number of on-site personnel, and the ability to support 
substantial numbers of people working from home. All three of these 
exercises were extremely successful and gave us valuable insight into 
how we would provide our support in an emergency.
    This past year our CIO organization also continued helping offices 
protect their data by enabling them to replicate data to State offices 
or the ACF through the remote data replication program. As of January 
2008, there are 54 Member offices and 21 committees taking advantage of 
this program, with 68 percent installed at the ACF and 32 percent 
installed in Members' State offices. Remote data replication provides 
the Senate an unprecedented ability to access institutional data in the 
event of an emergency. Another system that is integral to emergency 
planning, particularly in the event of a mass telecommuting scenario, 
such as a pandemic, is the Senate's video teleconferencing system. 
Through this highly-successful project we have installed more than 600 
units in offices across the Nation with usage rates in excess of 33,000 
minutes per day when the Senate is in session.
    Two--enterprise and hybrid--of the three architectural options we 
offer for electronic messaging provide complete replication of the 
office's electronic mail at the ACF. Eighty-six percent of offices are 
now taking advantage of the continuity of operations capability 
inherent in the enterprise and hybrid options. Also, the recently 
introduced e-mail archiving system provides complete replication to the 
ACF electronic mail that has been archived to ``near-line'' storage 
media for long term storage.
    Finally, we also offer offices a virtual file server system that 
allows them to store data securely on our large, centrally hosted, 
enterprise-class storage area network. The system, as designed, 
provides redundancy for disaster recovery and continuity of operations 
and minimizes the environmental and staff burden of in-office data 
storage. Offices that opt to use the system also enjoy enterprise-level 
data backup and off-site storage of backup tapes while retaining 
control of data recovery. In the event of a disaster that renders our 
primary computing facility unavailable, the data at the ACF will be 
brought online and will provide users consistent access to their data. 
The system has been available since December 2006, and 14 Member 
offices and four committees have taken advantage of this exciting 
technology.
Securing our Information Infrastructure
    As a result of information security activities we described in last 
year's testimony, we have gained a much better understanding of the 
dynamic nature of global cyber threats. This knowledge, combined with 
the flexible technologies used in our information security operations 
center, allows us to understand the overall IT operational risk present 
in the Senate environment. We have evolved from a defensive, 
reactionary posture of responding to cyber threats and attacks to an 
active detection and prevention posture. We are deploying technologies 
and processes that will detect malware and attempts at exploitation in 
real time as they are attempted and that have the ability to actively 
prevent most of these attempts, including ``zero-day'' attacks, from 
being successful, which spares Senate information technology assets 
from being affected and requiring remediation. Adjusting our controls 
in response to new threats and making security recommendations to 
offices and committees allows us to help ensure continuity of 
Government by increasing availability of the IT infrastructure, even 
under duress.
    The list of electronic threats to our information infrastructure is 
growing in number and sophistication. Over the next year, we will meet 
the challenge of managing a volatile security environment by: (1) 
optimizing our current configuration of security controls, expanding 
the role of our security operation centers; (2) optimizing our current 
configuration of security controls to enhance our incident handling 
capabilities and operational protocols; (3) improving our collaboration 
with other Federal agencies in the areas of incident response and 
situational awareness; (4) evaluating, testing, and deploying new 
security control mechanisms; and (5) enhancing communication with 
office IT staff to give them timely and usable information in order to 
improve the security posture of their own IT infrastructure.
    Similar to security in the physical world, security in the 
information technology world requires constant vigilance and the 
ability to detect and deter attacks. The threats to our information 
infrastructure are increasing in frequency and sophistication, and they 
come from spyware, adware, malware, Trojans, keyloggers, spybots, 
adbots, and trackware, all of which continuously search for 
vulnerabilities in our systems and which we see being generated from 
foreign as well as domestic sources. Countering the evolving threat 
environment means increasing our awareness of the situation, improving 
our processes, and continually researching, testing, and deploying new 
security technologies. Because we have very little advance notice of 
new types of attacks, we must and do have flexible security control 
structures and processes that we frequently revise and adjust. Our 
efforts to cultivate external relationships to improve our overall 
awareness of Internet-based threats have been effective. As the global 
threat environment has shifted, we have modified our processes and our 
technologies to improve our awareness and response to better protect 
the Senate's IT infrastructure.
    This last year, we experienced growth in providing computer 
security assistance to offices. We are increasingly called upon to help 
office system administrators properly configure desktop and server 
security controls and assist them in evaluating our weekly reports on 
anti-virus controls. Also, we implemented an outreach program (with 15 
offices completed and 6 scheduled for training) and work with system 
administrators to ensure staff is regularly informed of threats to 
Senate information and what they can do to help reduce the risk from 
such threats. As a part of the information sharing process, we annually 
produce 35-40 blog entries, articles and user notices targeted at 
administrators and the general Senate population. As the Senate 
continues to employ cutting edge technologies, our IT security group's 
activities will adjust in order to ensure optimal product performance 
and service delivery. We continue to use cutting edge technology, not 
only within our IT security services, but also in our IT security 
infrastructure. For example, we recently upgraded our anti-virus 
infrastructure to allow us greater flexibility, better utilization of 
our computing resources, and enhance our availability and disaster 
recovery capabilities. This infrastructure is very scalable, and we can 
continue to expand capabilities while conserving on costs.
    Protecting the Senate's information is one of our most important 
responsibilities. This year we have continued to make tremendous 
strides in this area with the development and operation of the Senate's 
redundant information security operations centers, one located on 
Capitol Hill and the other at the Alternate Computing Facility. The 
mission of these centers is to identify and understand threats, assess 
vulnerabilities, identify failure points and bottlenecks, determine 
potential impacts, and remedy problems before they adversely affect 
Senate operations. We augment this capability with close liaisons with 
other Federal agencies to ensure we have the most up-to-date 
information and techniques for combating cyber threats. Running within 
our information security operation centers, a state-of-the-art security 
information management system aggregates and reports on data from a 
variety of sources worldwide to help us track potential attackers 
before they can harm us. The combination of the information security 
operations centers, our defense-in-depth capability at all levels of 
our network infrastructure, and our enterprise anti-virus/anti-spyware 
programs, and centralized security update management service has proven 
highly effective.
    We must remain vigilant because the threat environment, as measured 
by detected security incidents, remains very high. For example, every 
day we detect approximately 1,121,000 potential security threats 
targeting the Senate, more than 40 percent of which are characterized 
as medium- to high-risk and our information security watchstander staff 
handles 40-50 security issues each month. Monitoring the Senate's 
information technology environment has been significantly improved over 
the past year from detecting and being able to analyze and categorize 
2.5 to 4 million ``events,'' which are items of Senate network traffic 
that have the potential to cause a security breach, in October 2007, to 
the ability to detect and analyze 7 to 9 million events currently as of 
February 2008. Moving ahead, our information security operations 
centers will be able to detect and analyze on the order of 12 to 19 
million events per day. We will then upgrade our infrastructure to be 
able to handle approximately 30 million events in a 24-hour period, 
which will help prevent our systems from being overwhelmed during a 
widespread malware outbreak or distributed denial of service attack 
directed at the Senate, and will also allow for significant future 
growth of the Senate security monitoring sensor network.
    Our anti-virus controls detected and countered nearly 1,087,000 
viral events in Senate computers during calendar year 2007. All offices 
use our managed anti-virus system and centralized software update 
servers. These systems protect over 11,500 Senate computers, and are a 
main reason why only one major viral outbreak event was handled by our 
incident handling team in 2007. Our security controls contained the 
outbreak to only 2 percent of our systems, and prevented any 
operational impact on an extended Senate session during a holiday 
period. This is quite a contrast to viral outbreaks of just a few years 
ago when several thousand machines were affected and notable 
disruptions in Senate IT operations were experienced multiple times 
throughout the year.
    Of course, we undertake all our information security monitoring 
activities in compliance with our information privacy policy. Although 
the constraints of our policy make defending against threats more 
difficult, we believe they are necessary to retain the trust of those 
whom we serve.
    Our information security watchstander, which is patterned after 
similar security operations center positions in other agencies, is an 
around-the-clock duty of our IT security staff. The position provides 
the Senate community a central point of contact when reporting and 
responding to IT security events. The watchstander also reviews and 
responds to IT security alerts, suspicious activity bulletins, and 
warnings compiled by public and private sources, and coordinates 
efforts to increase Senate-wide IT security awareness. Due to the ever-
increasing numbers and potential severity of IT security events, the 
number of IT Security staff has been increased to handle the larger 
volume and variety of events. Some examples of watchstander 
responsibilities are responding to complaints from offices of increased 
e-mail spam and phishing attempts, creating user notices in response to 
warnings on vulnerabilities, and responding to reports of suspicious 
network traffic identified by our security operations center.
    IT security is, and will continue to be, a growth area as we work 
to stay ahead of threats and put safeguards in place. We plan to 
increase both our analytical and defensive capabilities. In support of 
that, we are hiring the three new full-time employees in our IT 
Security Branch that were approved in our fiscal year 2008 
appropriation. Further security sensors and other protection 
technologies will be deployed at Senate network perimeters that will 
enhance our ability to protect the Senate from cyber threats, malware, 
and other network-borne threats from outside entity networks that 
directly connect to the Senate. Sophisticated security products and 
technologies will also be integrated into our new telecommunications 
system, thus providing a monitoring, detection and active prevention 
capability that will further protect us from current and future cyber 
threats and better satisfy the Senate's requirements for privacy of 
voice communications.
Emergency and Contingency Communications
    We provide a comprehensive array of communications systems and 
options with the objective of being able to communicate under any 
circumstance. For instance, we are currently deploying the Senate 
Message Alert Client, which eliminates our dependence on any single 
commercial carrier for emergency communications to BlackBerry devices 
and provides the flexibility of device-to-device communications. 
Through this client, staff can create inter- or intra-office emergency 
notification lists that can be used to send emergency messages directly 
to devices on the list in real time. The Senate Message Alert Client 
and the global e-mail alert system are two of the primary methods for 
the USCP and the SAA to issue mass emergency communications messages.
    This year we continued upgrading and testing our two Senate 
emergency response communications vehicles according to a monthly 
exercise plan. These assets are available for deployment with LAN, WAN, 
telephone, and satellite connectivity and provide the ability to 
relocate significant information infrastructure virtually anywhere. We 
also continue to train and expand our deployment teams, and work to 
revise and refine our operations procedures for deployment of these 
vehicles in support of the Senate.
    During the year we completed the in-building wireless 
infrastructure in the Capitol and the Capitol Visitor Center. This 
infrastructure provides coverage in areas where it was previously poor 
or non-existent and also allows Senate staff to connect back to their 
offices via wireless remote computing. The wireless infrastructure also 
supports every carrier, allowing Members to use the carrier of their 
choice with the device of their choice across the Senate campus. In the 
Capitol Visitor Center, we are providing all services within the Senate 
expansion space. At the request of the Architect of the Capitol we are 
also providing cellular and BlackBerry coverage to the core of the 
Visitor Center.
    As we demonstrated during our pandemic exercise last spring, the 
mobile and remote computing technologies we provide allow Senate staff 
to access and modify their information and communicate from virtually 
anywhere, anytime. We will continue to enhance and expand these 
capabilities in order to support a potentially dispersed workforce with 
the ability to telecommute. These capabilities are crucial to our 
ability to support the Senate in an emergency situation where the 
workforce must be dispersed and also support the Senate's ability to 
provide employees with flexible work options on a daily basis.
    We are dedicated to providing an integrated and highly-reliable 
emergency communications infrastructure through a variety of projects 
including expanding our emergency communications infrastructure, 
integrating and streamlining emergency communications capability, 
liaison with the USCP command center, developing specifications for 
outfitting emergency operations and leadership coordination centers, 
and conducting monthly comprehensive testing of emergency alert 
notification systems.
Enhancing Stewardship through Fiscal and Environmental Responsibility
    Stewardship of our resources is intertwined in everything we do, as 
well as being a driving force for some of our activities. We are always 
looking for ways to improve our processes or technologies so that we 
save time, money, electricity, paper, or other resources. Our CIO 
organization is a good steward of the fiscal resources of the Senate, 
as they are consistently and continuously improving on the services 
offered to our customers while seeking only modest increases in 
funding. Many of their initiatives save offices hundreds or thousands 
of dollars in costs that would otherwise be borne out of their official 
accounts. As most of these initiatives save money due to a reduction in 
the purchase of some commodity, they also fit in with our efforts 
toward environmental stewardship. Some examples of our efforts to 
enhance fiscal and environmental stewardship are:
  --Implementation of virtual file servers, which allow the Sergeant at 
        Arms and other offices to combine multiple file servers onto 
        fewer physical devices, reducing the need to manufacture 
        devices and therefore dispose of them, reducing power and air 
        conditioning requirements, saving funds, and enhancing our 
        ability to provide reliable and redundant services.
  --The electronic fax system saves offices hundreds of thousands of 
        pages of paper each year by allowing staff to dispose of 
        unwanted fax messages electronically before they are printed, 
        and reduces the need for fax toner cartridges, which again 
        reduces the need for manufacturing and disposal of them, and 
        saves offices tens of thousands of dollars a year on their 
        purchase.
  --Online billing through our TranSAAct system has eliminated 
        approximately 30,000 pages of printed billing statements each 
        month. As we add Verizon Wireless and other services into 
        TranSAAct we will save even more paper.
  --Scrutiny of our telecommunications bills for overcharges and 
        incorrect items has saved us more than $100,000 in the current 
        fiscal year.
    We also ensure that the devices we recommend to the Senate meet the 
applicable EnergyStar guidelines, and where feasible, the guidelines 
for the responsible manufacture of information technology equipment.
                         operations and support
Consistently Delivering Excellent Service
    The commitment to exceptional customer service is a hallmark of the 
Sergeant at Arms organization and the cornerstone of our support 
functions. The groups that make up our support team continue to provide 
exceptional customer service to the Senate community.
            Capitol Facilities
    Capitol Facilities serves the Senate community by providing a clean 
and professional work environment through its Environmental Services 
Division. The Furnishing Division provides creative framing services to 
all Senators and committees, custom cabinets and other high quality 
furniture, carpeting, and draperies.
    During the past year, Capitol Facilities has implemented a new 
quality assurance system to track and monitor the cleaning quality 
performed during the night in the Capitol and the cleaning supplies 
used. It has improved the consistency and level of cleaning by using 
technology to inspect and report on all areas cleaned in the Capitol 
while at the same time resulting in a 50 percent reduction in the time 
required for inspections allowing more time to be devoted to cleaning. 
This system has also allowed us to monitor cleaning supply levels more 
closely and reduce consumption.
    Capitol Facilities has purchased and are using new event chairs for 
special events in the Capitol resulting in improvements in appearance 
and comfort for the Senate community and visitors.
    Improvements made to our Cabinet Shop include installation of a 
``Brandt'' edgebander which applies both veneer and solid wood to the 
edges of cabinets and other furniture. Since this process was 
originally done by hand which was very labor intensive and slow, we 
have been able to reduce the amount of production time by 10 percent 
for items requiring this application. The addition of a cabinet 
designer to our staff has facilitated the CAD (Computer Aided Design) 
process and given the department better presentation drawings for the 
client to review and working drawings to build from. This designer has 
also been instrumental in the completion of the first set of complete 
drawings for the historic Webster Desk in the Senate Chamber.
    Both Leadership Offices and Senate Security are participating in 
the testing phase of an integrated work management system that features 
an on-line furniture catalog, ordering functions, and work order 
tracking capability.
            Printing Graphics and Direct Mail
    We provide photocopying, print design, and production services to 
the Senate. The Printing, Graphics, and Direct Mail (PGDM) department 
continues to provide high level service and customer support to the 
Senate community. In fiscal year 2007, we responded to an increased 
demand for color publications by using both digital color reproduction 
and traditional full-color offset printing. PGDM produced more than 19 
million full-color pages utilizing offset presses, a 61 percent 
increase over fiscal year 2006, and over 1.7 million digital color 
reproductions on our printers, a 29 percent increase over fiscal year 
2006. In fiscal year 2007 PGDM purchased a digital production press, 
which incorporates multiple print management functions in one system, 
reducing turnaround times and producing higher quality products.
    The department also processed more than 16 million black and white 
copies, a large percentage of which were sent to PGDM in digital 
format. The convenient web-based print ordering service expanded, 
increasing web-based printing request production to more than 6.6 
million documents. PGDM staff expanded the very popular CMS imaging 
service and scanned over 700,000 documents, a 61 percent increase over 
fiscal year 2006. We saved the Senate approximately $662,000, enabled 
quick turnaround times, and provided convenient customer service by 
producing over 7,446 large format charts in-house. Constituent mail saw 
first class postage increased to $0.41 per piece and PGDM saved Senate 
offices over $2.1 million in postage expenses by sorting over 11 
million pieces of mail during fiscal year 2007. We also worked with 
other Senate partners to process 55,000 flag requests.
    The Senate Support Facility has been in full operation for more 
than 2 years. A key initiative for the facility was to provide a secure 
transfer service from the United States Capitol Police Off-Site 
inspection facility to the Senate Support Facility. In fiscal year 
2007, PGDM transferred more than 100,000 items from the inspection 
facility to the Senate Support Facility, greatly reducing the number of 
trucks entering the Capitol complex.
            Parking Office
    The Parking Office is a leader in our ``Green'' initiatives. There 
are 17 flex-fuel vehicles in the Fleet, one hybrid vehicle and one 
electric car.
    The Parking Office also plays a critical role in planning and 
exercising transportation and logistics in emergency operations. The 
Parking Office has worked closely with OSEP in these endeavors and has 
produced the final draft of COOP transportation manuals.
            Photo Studio
    The Photo Studio has developed procedures to replicate the Photo 
Browser database at the Alternate Computing Facility, providing a 
secure backup and recovery plan for customer's photo images.
    Photo Studio staff also designed new web pages to provide a more 
user-friendly and informative interface for customers, and implemented 
an FTP service which allows customers to upload multiple image files at 
one time.
    The Photo Studio is currently evaluating Digital Asset Management 
(DAM) products to replace the Photo Browser image database and order 
fulfillment system. Our fiscal year 2009 budget request plans for 
upgrades to existing server hardware to ensure adequate maintenance and 
secure storage for Senators' and Committees' photo images which 
currently number more than 1.2 million. Our goal is to implement a 
fully supported DAM and ordering system that will function securely 
within the Senate environment.
            Senate Hair Care
    Senate Hair Care increased service prices in fiscal year 2007. This 
resulted in a revenue increase of $50,546 over fiscal year 2006 totals, 
approximately 12.5 percent. Customers are responding enthusiastically 
to new retail products offered in Senate Hair Care. We have responded 
to the needs of customers who travel by offering an expanded range of 
travel size retail products, to keep customers compliant with the TSA 
3-1-1 rule.
            Recording Studio
    Our Recording Studio is responsible for providing gavel to gavel 
coverage of Senate floor proceedings, broadcasting Senate committee 
hearings, and providing radio and television production studios and 
equipment for Senators' use. Last year, we televised all 1,384 hours of 
Senate Floor proceedings, 755 committee hearings, and broadcast 1,348 
radio and television productions.
            Committee Hearing Room Upgrade Project
    Demand for additional committee broadcasts has been ever 
increasing. In 2003, we began working with this Committee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate committee hearing rooms. The project includes 
digital signal processing audio systems and broadcast-quality robotic 
camera systems.
    To date, we have completed 19 hearing rooms, S-207, S-211 and have 
2 more rooms in the design phase. Room enhancements include improved 
speech intelligibility and software-based systems that we can configure 
based on individual committee needs. The system is networked; allowing 
committee staff to easily and automatically route audio from one 
hearing room to another when there are overflow crowds. Additionally, 
the system's backup will take over quickly if the primary electronics 
fail.
    As part of the upgrades included in our move to the CVC, we are 
installing technologies to enhance our ability to provide broadcast 
coverage of more hearings simultaneously without adding staff. For 
example, the Committee Hearing Room Upgrade Project will allow us to 
cover a hearing with one staff member. Before the upgrade, three staff 
members were required to adequately cover a hearing. These technology 
enhancements, coupled with the expansion of the number of control rooms 
for committee broadcasts to 12, will enable us to increase our 
simultaneous broadcast coverage of committee hearings from 5 to as many 
as 12.
            Migration to the Capitol Visitor Center
    The most significant work we anticipate for the Senate Recording 
Studio, over the next 6 months, is its move from the basement of the 
Capitol to the CVC. This move will enable the Recording Studio to 
complete its upgrade to a full High Definition Facility, and to 
implement a number of improvements that have been planned to coincide 
with the opening of the CVC. The Studio anticipates moving all aspects 
of its operation, including the engineering shops, the Senate 
Television operation, Studio production and post-production facilities, 
committee broadcast services, and all administrative and management 
offices to the CVC by September 1, 2008.
    My earlier testimony discussed the impact the CVC will have on the 
Senate Recording Studio. We have other departments that will be 
impacted by the CVC and their operations and processes will change with 
its opening.
            Senate Appointments Desks
    To improve security and the flow of people who visit the Capitol, 
the Senate Appointments Desk will add two desks in the CVC, one located 
near the main entrance and the other located outside of the Senate 
Meeting Rooms on the lower level. Approximately 80 percent of the 
people who have appointments at the Capitol will enter through the CVC, 
reducing congestion within the Capitol and minimizing processing and 
waiting time for our guests. Approximately 95,000 people who previously 
entered through the Capitol's North Door will enter through the CVC 
when it opens. We will maintain scaled versions of the Capitol and the 
Russell Building Appointments Desks for visitors with appointments with 
Leadership and for those who have appointments in both the Senate 
office buildings and the Capitol. Our Appointments Desks staff will 
expand from 6 to 10 and our projected labor efficiencies experienced in 
other departments will enable us to transfer four FTEs to the Senate 
Appointments Desk team.
            Senate Gallery Visitors
    We plan to improve the visitor experience for the estimated 200,000 
people annually who want to witness Senate proceedings from the 
Gallery. We will process these guests through the CVC, rather than the 
Capitol's North Door, improving security and thereby eliminating the 
long lines and congestion that had been commonplace throughout the 
Capitol. Our Senate Doorkeepers team will manage a staging room that 
has been designated on the main floor of the CVC near the elevators 
that will facilitate the collection of Gallery-prohibited items and the 
movement of people in a secure manner. The staging room and the 
surrounding areas offer our guests numerous creature comforts and 
educational opportunities. The staging room will be converted into a 
Senate Meeting Room when the Senate is not in session.
                               conclusion
    We take our responsibilities to the American people and to their 
elected representatives seriously. The Office of the Sergeant at Arms 
is like dozens of small businesses, each with its own primary mission, 
each with its own measures of success, and each with its own culture. 
It has a fleet of vehicles that serves Senate Leadership, delivers 
goods, and provides emergency transportation. Our Photography Studio 
records historic events, takes official Senate portraits, provides a 
whole range of photography services, and delivers thousands of pictures 
each year. The SAA's printing shop provides layout and design, graphics 
development, and production of everything from newsletters to floor 
charts. The Office of the Sergeant at Arms also operates a Page 
dormitory, a hair salon, and parking lots. It provides many other 
services to support the Senate community, including framing, flag 
packaging and mailing, and intranet services. Each of these businesses 
requires personnel with different skills and different abilities. One 
thing that they all have in common, though, is their commitment to 
making the Senate run smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and respond to any questions you 
may have.
              appendix a--fiscal year 2009 budget request
           attachment i--financial plan for fiscal year 2009

                     EXECUTIVE SUMMARY: OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2009 vs.
                                                                          Fiscal year       fiscal year 2008
                                                             Fiscal year      2009    --------------------------
                                                             2008 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries...............................................      $60,600      $69,758       $9,158          15.1
    Expenses...............................................      $78,379      $84,572       $6,193           7.9
                                                            ----------------------------------------------------
      Total, General Operations and Maintenance............     $138,979     $154,330      $15,351          11.0
                                                            ====================================================
Mandated Allowances and Allotments.........................      $55,616      $52,818      ($2,798)         -5.0
Capital Investment.........................................       $3,315      $14,515      $11,200         337.9
Nondiscretionary Items.....................................       $5,079       $4,696        ($383)         -7.5
                                                            ----------------------------------------------------
      TOTAL................................................     $202,989     $226,359      $23,370          11.5
                                                            ====================================================
Staffing...................................................          949          956            7           0.7
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2009 
budget request of $226,359,000, an increase of $23,370,000 or 11.5 
percent compared to fiscal year 2008. The salary budget request is 
$69,758,000, an increase of $9,158,000 or 15.1 percent, and the expense 
budget request is $156,601,000, an increase of $14,212,000 or 10.0 
percent. The staffing request is 956, an increase of 7 percent.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$69,758,000, an increase of $9,158,000 or 15.1 percent compared to 
fiscal year 2008. The salary budget increase is due to the addition of 
seven FTEs, a COLA, and merit funding. The additional staff will 
support increased demand for services, as well as advancing 
technologies.
    The general operations and maintenance expenses budget request for 
existing and new services is $84,572,000, an increase of $6,193,000 or 
7.9 percent compared to fiscal year 2008. Major factors contributing to 
the expense budget increase are cost escalations in the IT support 
contract, $1,661,000; a new cyber security contract, $800,000; purchase 
of furnishings and carpet, $697,000; additional maintenance costs to 
support Internet bandwidth, $600,000; and other IT support agreements, 
$442,000.
    The mandated allowances and allotments budget request is 
$52,818,000, a decrease of $2,798,000 or 5.0 percent compared to fiscal 
year 2008. This variance is primarily due to decreases in telecom 
services costs.
    The capital investment budget request is $14,515,000, an increase 
of $11,200,000 or 337.9 percent compared to fiscal year 2008. The 
fiscal year 2009 budget request includes funds for hearing room audio/
video upgrades, $5,000,000; data network engineering equipment, 
$2,300,000; network upgrade project, $1,800,000; replacement of 
printing equipment, $1,795,000; upgrade of the Storage Area Network 
(SAN), $1,520,000; and the modular furniture replacement project for 
SAA space, $1,000,000.
    The nondiscretionary items budget request is $4,696,000, a decrease 
of $383,000 or 7.5 percent compared to fiscal year 2008. The request 
funds three projects that support the Secretary of the Senate: contract 
maintenance for the Financial Management Information System, 
$3,656,000; maintenance and necessary enhancements to the Legislative 
Information System, $835,000; and maintenance and enhancements to the 
Senate Payroll System, $205,000.
      attachment ii--fiscal year 2009 budget request by department
    The following is a summary of the SAA fiscal year 2009 budget 
request on an organizational basis.

                                  FISCAL YEAR 2009 BUDGET REQUEST BY DEPARTMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2009 vs.
                                                                          Fiscal year       fiscal year 2008
                                                             Fiscal year      2009    --------------------------
                                                             2008 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $30,175      $37,621       $7,446          24.7
Operations.................................................      $40,077      $46,274       $6,197          15.5
Technology Development.....................................      $44,578      $53,399       $8,821          19.8
IT Support Services........................................      $72,557      $71,996        ($561)         -0.8
Staff Offices..............................................      $15,602      $17,069       $1,467           9.4
                                                            ----------------------------------------------------
      TOTAL................................................     $202,989     $226,359      $23,370          11.5
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2009 vs.
                                                                           Fiscal year      fiscal year 2008
                                                              Fiscal year      2009    -------------------------
                                                              2008 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................      $15,752      $18,151       $2,399         15.2
    Expenses................................................      $12,423      $12,570         $147          1.2
                                                             ---------------------------------------------------
      Total, General Operations and Maintenance.............      $28,175      $30,721       $2,546          9.0
                                                             ===================================================
Mandated Allowances and Allotments..........................       $1,800       $1,800  ...........  ...........
Capital Investment..........................................         $200       $5,100       $4,900      2,450.0
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $30,175      $37,621       $7,446         24.7
                                                             ===================================================
Staffing....................................................          286          286  ...........  ...........
----------------------------------------------------------------------------------------------------------------

    The Capitol Division consists of the Executive Office, the Office 
of Security and Emergency Preparedness, the U.S. Capitol Police 
Operations Liaison, Post Office, Recording Studio and Media Galleries.
    The general operations and maintenance salaries budget request is 
$18,151,000, an increase of $2,399,000 or 15.2 percent. The salary 
budget increase is due an expected COLA and merit increases, and other 
adjustments.
    The general operations and maintenance expenses budget request is 
$12,570,000, an increase of $147,000 or 1.2 percent.
    The mandated allowances and allotments budget request for State 
office security initiatives is $1,800,000.
    The capital investments budget request of $5,100,000 will fund 
hearing room audio and video upgrades, and two new vehicles in the Post 
Office.

                                                   OPERATIONS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2009 vs.
                                                                           Fiscal year      fiscal year 2008
                                                              Fiscal year      2009    -------------------------
                                                              2008 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................      $17,140      $19,161       $2,021         11.8
    Expenses................................................       $5,772       $6,876       $1,104         19.1
                                                             ---------------------------------------------------
      Total, General Operations and Maintenance.............      $22,912      $26,037       $3,125         13.6
                                                             ===================================================
Mandated Allowances and Allotments..........................      $16,665      $16,992         $327          2.0
Capital Investment..........................................         $500       $3,245       $2,745        549.0
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $40,077      $46,274       $6,197         15.5
                                                             ===================================================
Staffing....................................................          305          305  ...........  ...........
----------------------------------------------------------------------------------------------------------------

    The Operations Division consists of the Central Operations Group 
(Director/Management, Parking Office, Printing, Graphics and Direct 
Mail, Photo Studio, and Hair Care Services), Facilities, and the Office 
Support Services Group (Director, Customer Support, State Office 
Liaison, and Administrative Services).
    The general operations and maintenance salaries budget request is 
$19,161,000, an increase of $2,021,000 or 11.8 percent. The salary 
budget increase is due to an expected COLA and merit increases.
    The general operations and maintenance expenses budget request is 
$6,876,000, an increase of $1,104,000 or 19.1 percent. This increase is 
primarily due to additional maintenance costs, and purchases of 
furnishings and carpet for Capitol offices whose occupants relocated to 
the CVC and the election cycle.
    The mandated allowances and allotments budget request is 
$16,992,000, an increase of $327,000 or 2.0 percent. This request 
includes funds for the rent expenses of home State offices.
    The capital investment budget request is $3,245,000. This request 
includes funds for modular furniture replacement in SAA office space, 
$1,000,000; and several equipment replacement projects in Central 
Operations, including the purchase of a laser printer, $500,000; photo 
studio server upgrade and printing system, $450,000; plate maker, 
$400,000; and six copy center printers, $275,000.

                                             TECHNOLOGY DEVELOPMENT
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2009 vs.
                                                                          Fiscal year       fiscal year 2008
                                                             Fiscal year      2009    --------------------------
                                                             2008 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries...............................................      $12,060      $14,939       $2,879          23.9
    Expenses...............................................      $25,399      $27,694       $2,295           9.0
                                                            ----------------------------------------------------
      Total, General Operations and Maintenance............      $37,459      $42,633       $5,174          13.8
                                                            ====================================================
Mandated Allowances and Allotments.........................  ...........  ...........  ............  ...........
Capital Investment.........................................       $2,040       $6,070       $4,030         197.5
Nondiscretionary Items.....................................       $5,079       $4,696        ($383)         -7.5
                                                            ----------------------------------------------------
      TOTAL................................................      $44,578      $53,399       $8,821          19.8
                                                            ====================================================
Staffing...................................................          140          146            6           4.3
----------------------------------------------------------------------------------------------------------------

    The Technology Development Services includes the Technology 
Development Director, Network Engineering and Management, Enterprise IT 
Operations, Systems Development Services, Information Systems Security 
and Internet/Intranet Services.
    The general operations and maintenance salaries budget request is 
$14,939,000, an increase of $2,879,000 or 23.9 percent. The salary 
budget increase is due to the addition of six FTEs, an expected COLA 
and merit funding for fiscal year 2009. Technology Development requires 
six FTEs to provide network infrastructure support, support the growing 
demand on IT Security, and for additional enterprise database systems 
support.
    The general operations and maintenance expense budget request is 
$27,694,000, an increase of $2,295,000 or 9.0 percent. This increase is 
due to a new cyber security contract and additional maintenance costs 
to support expanded Internet bandwidth required to meet Senate business 
requirements.
    The capital investment budget request is $6,070,000, an increase of 
$4,030,000 or 197.5 percent. This request includes data network 
engineering costs, $2,300,000; data network upgrade project, 
$1,800,000; and upgrade of the Storage Area Network (SAN), $1,520,000.
    The nondiscretionary items budget request is $4,696,000, a decrease 
of $383,000 or 7.5 percent. The request consists of three projects that 
support the Secretary of the Senate: contract maintenance for the 
Financial Management Information System, maintenance and necessary 
enhancements to the Legislative Information System, and maintenance and 
enhancements to the Senate Payroll System.

                                               IT SUPPORT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2009 vs.
                                                                          Fiscal year       fiscal year 2008
                                                             Fiscal year      2009    --------------------------
                                                             2008 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries...............................................       $6,577       $7,160         $583           8.9
    Expenses...............................................      $28,254      $30,710       $2,456           8.7
                                                            ----------------------------------------------------
      Total, General Operations and Maintenance............      $34,831      $37,870       $3,039           8.7
                                                            ====================================================
Mandated Allowances and Allotments.........................      $37,151      $34,026      ($3,125)         -8.4
Capital Investment.........................................         $575         $100        ($475)        -82.6
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $72,557      $71,996        ($561)         -0.8
                                                            ====================================================
Staffing...................................................          113          113  ............  ...........
----------------------------------------------------------------------------------------------------------------

    The IT Support Services Department consists of the Director, Office 
Equipment Services, Telecom Services, and Desktop/LAN Support branches.
    The general operations and maintenance salaries budget request is 
$7,160,000, an increase of $583,000 or 8.9 percent. The salary budget 
will increase due to an expected COLA and merit funding for fiscal year 
2009.
    The general operations and maintenance expenses budget request is 
$30,710,000, an increase of $2,456,000 or 8.7 percent. This increase is 
primarily due to cost escalations in the IT Support Contract and other 
IT support agreements.
    The mandated allowances and allotments budget request is 
$34,026,000, a decrease of $3,125,000 or 8.4 percent. This budget 
supports voice and data communications for Washington, DC, and State 
offices, $13,290,000; computer equipment, $12,915,000; procurement and 
maintenance of office equipment for Washington, DC, and State offices, 
$4,559,000; maintenance and procurement of Member and Committee mail 
systems, $4,500,000; and the Appropriations Analysis and Reporting 
System, $100,000.
    The capital investment budget request is $100,000, a decrease of 
$475,000 or 82.6 percent. The current budget request includes funds to 
help manage constituent e-mail correspondence.

                                                  STAFF OFFICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2009 vs.
                                                                           Fiscal year      fiscal year 2008
                                                              Fiscal year      2009    -------------------------
                                                              2008 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................       $9,071      $10,347       $1,276         14.1
    Expenses................................................       $6,531       $6,722         $191          2.9
                                                             ---------------------------------------------------
      Total, General Operations and Maintenance.............      $15,602      $17,069       $1,467          9.4
                                                             ===================================================
Mandated Allowances and Allotments..........................  ...........  ...........  ...........  ...........
Capital Investment..........................................  ...........  ...........  ...........  ...........
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $15,602      $17,069       $1,467          9.4
                                                             ===================================================
Staffing....................................................          105          106            1          1.0
----------------------------------------------------------------------------------------------------------------

    The Staff Offices Division consists of Education and Training, 
Financial Management, Human Resources, Employee Assistance Program, 
Process Management & Innovation, and Special Projects.
    The general operations and maintenance salaries budget request is 
$10,347,000, an increase of $1,276,000 or 14.1 percent. The salary 
budget increase is due to the addition of one FTE, an expected COLA, 
and merit funding. Process Management and Innovation will add one 
Senior IT Specialist to replace on-site contract support for SAA-
developed applications and websites.
    The general operations and maintenance expenses budget request is 
$6,722,000, an increase of $191,000 or 2.9 percent. This increase is 
due to additional costs of system design and development for TranSAAct, 
software purchases and electronic subscriptions.
                                 ______
                                 
                    GOVERNMENT ACCOUNTABILITY OFFICE
Prepared Statement of Gene L. Dodaro, Acting Comptroller General of the 
                             United States
    Madam Chair and members of the subcommittee: I appreciate the 
opportunity to present GAO's budget request for fiscal year 2009. I am 
proud to say that we serve the Congress and the American people well, 
and I want to publicly acknowledge the professionalism, talents, and 
dedication of the GAO workforce in supporting the Congress and 
improving Government. We submit for your consideration a funding 
proposal that would ensure the GAO can continue to help Congress make 
informed oversight, policy, and funding decisions.
    At the outset, I want to thank the subcommittee for its support of 
GAO last year, especially in light of the overall budget pressures that 
the subcommittee faced when considering priorities. We ask for your 
continued support so that GAO can take on the issues of greatest 
interest to the Congress and address an increased demand for our 
services.\1\
---------------------------------------------------------------------------
    \1\ An overview of GAO's strategic plan for serving the Congress is 
included as appendix I.
---------------------------------------------------------------------------
    The budget authority we are requesting for fiscal year 2009--$545.5 
million--represents a prudent request of 7.5 percent to support the 
Congress as it confronts a growing array of difficult challenges. We 
will continue to reward the confidence you place in us by providing a 
strong return on this investment. In fiscal year 2007 for example, in 
addition to delivering hundreds of reports and briefings to aid 
congressional oversight and decisionmaking, our work yielded:
  --financial benefits, such as increased collection of delinquent 
        taxes and civil fines, totaling $45.9 billion--a return of $94 
        for every dollar invested in GAO;
  --over 1,300 other improvements in Government operations spanning the 
        full spectrum of national issues, ranging from helping Congress 
        create a center to better locate children after disasters to 
        strengthening computer security over sensitive Government 
        records and assets to encouraging more transparency over 
        nursing home fire safety to strengthening screening procedures 
        for VA health care practitioners; and
  --expert testimony at 276 congressional hearings to help Congress 
        address a variety of issues of broad national concern, such as 
        the conflict in Iraq and efforts to ensure drug and food 
        safety.
             demand for gao services is high and increasing
    Demand for GAO's analysis and advice remains strong across the 
Congress. During the past 3 years, GAO has received requests or 
mandated work from all of the standing committees of the House and the 
Senate and over 80 percent of their subcommittees. In fiscal year 2007, 
GAO received over 1,200 requests for studies. This is a direct result 
of the high quality of GAO's work that the Congress has come to expect 
as well as the difficult challenges facing the Congress where it 
believes having objective information and professional advice from GAO 
is instrumental.
    Not only has demand for our work continued to be strong, but it is 
also steadily increasing. The total number of requests in fiscal year 
2007 was up 14 percent from the preceding year. This trend has 
accelerated in fiscal year 2008 as requests rose 26 percent in the 
first quarter and are up 20 percent at the mid-point of this fiscal 
year from comparable periods in 2007. As a harbinger of future 
congressional demand, potential mandates for GAO work being included in 
proposed legislation as of February 2008 totaled over 600, or an 86 
percent increase from a similar period in the 109th Congress.
    The following examples illustrate this demand:
  --Over 160 new mandates for GAO reviews were imbedded in law, 
        including the Consolidated Appropriations Act of 2008, the 
        Defense Appropriations Act of 2008, and 2008 legislation 
        implementing the 9/11 Commission recommendations;
  --New recurring responsibilities were given to GAO under the Honest 
        Leadership and Open Government Act of 2007 to report annually 
        on the compliance by lobbyists of registration and reporting 
        requirements; and
  --Expanded bid protest provisions applied to GAO that (1) allow 
        Federal employees to file protests concerning competitive 
        sourcing decisions (A-76), (2) establish exclusive bid protest 
        jurisdiction at GAO over issuance of task and delivery orders 
        valued at over $10 million, and (3) provide GAO bid protest 
        jurisdiction over contracts awarded by the Transportation 
        Security Administration.
    Further evidence of GAO's help in providing important advice to the 
Congress is found in the increased numbers of GAO appearances at 
hearings on topics of national significance and keen interest (see 
table 1).
    In fiscal year 2007 GAO testified at 276 hearings, 36 more than 
fiscal year 2006. The fiscal year 2007 figure was an all-time high for 
GAO on a per capita basis and among the top requests for GAO input in 
the last 25 years. This up tempo of GAO appearances at congressional 
hearings has continued, with GAO already appearing at 140 hearings this 
fiscal year, as of April 4th.
  Table 1.--GAO's Selected Testimony Issues by Strategic Goal, Fiscal 
                               Year 2007
Goal 1: Address challenges to the well-being and financial security of 
        the American people
Federal oversight of food safety
Capacity and service gaps among homeless veterans programs
Reauthorizing the State Children's Health Insurance Program
Claims processing challenges for veterans' disability benefits
FEMA payments on hurricane-damaged properties
Nursing home oversight
Private pension fees
Small Business Administration's disaster preparedness efforts
Improved safety for coal miners
Federal actions to improve child welfare services
Oil and gas royalties
Medicare physician payments
Effects of seller-funded down payments on home loans
Status of the future air traffic control system
USPS reform efforts
Federal real property issues
Emergency management plans for schools
  
Goal 2: Respond to changing security threats and the challenges of 
        globalization
Status of benchmarks for Iraqi Government
DOD's management of systems and assets
Improving the military's supply chain
Linking defense strategy with military personnel requirements
Navy shipbuilding
Using best practices for space acquisitions
Vulnerabilities in U.S. export control systems
Combating nuclear smuggling
Securing radiological sources in foreign countries
Improving the efficiency of U.S. food aid procedures
National strategy to enforce intellectual property rights
DHS's major mission and management functions
Risk-management principles and homeland security
Secure border initiative
Bankruptcy reform and credit counseling
National strategy to improve financial literacy
VA's information security management
  
Goal 3: Help transform the Federal Government's role and how it does 
        business
Contracting and security challenges in Iraq
Federal acquisitions and contracting challenges
Acquisition challenges at DHS
Security vulnerabilities at unmonitored border locations
Incomplete reporting of improper Federal payments
Transforming DHS's financial management systems
Challenges facing the polar satellite program
Electronic voting
Balancing individual privacy with homeland security needs
Health information technology and privacy
Long-term fiscal challenges
Tax compliance
Human capital challenges facing the Federal Government
Rebuilding the gulf coast
Preparations for the 2010 Census
Fiscal stewardship challenges facing the United States
Tax abuses by Medicare Part B providers
  
    Source: GAO.
           modest increase in staffing would help meet demand
    Our FTE level in fiscal year 2008 is 3,100--the lowest level ever 
for GAO. We are proud of the results we deliver to the Congress and our 
Nation with this level, but with a slightly less than 5 percent 
increase in our FTEs to 3,251 we can better meet increased 
congressional requests for GAO assistance. While this increase would 
not bring GAO back to the 3,275 FTE level of 10 years ago, it would 
allow us to respond to the increased workload facing the Congress.
    GAO staff are stretched in striving to meet Congress's increasing 
needs. People are operating at a pace that cannot be sustained over the 
long run. I am greatly concerned that if we try to provide more 
services with the existing level of resources, the high quality of our 
work could be diminished in the future. But I will not allow this to 
occur. This is not in the Congress's nor GAO's interest.
    One consequence of our demand vs. supply situation is the growing 
list of congressional requests that we are not able to promptly staff. 
While we continue to work with congressional committees to identify 
their areas of highest priority, we remain unable to staff important 
requests. This limits our ability to provide timely advice to 
congressional committees dealing with certain issues that they have 
slated for oversight, including
  --Safety concerns such as incorporating behavior-based security 
        programs into TSA's aviation passenger screening process, 
        updating our 2006 study of FDA's post-market drug safety 
        system, and reviewing State investigations of nursing home 
        complaints.
  --Operational improvements such as the effectiveness of Border 
        Security checkpoints to identify illegal aliens, technical and 
        programmatic challenges in DOD's space radar programs, 
        oversight of federally funded highway and transit projects and 
        the impact of the 2005 Bankruptcy Abuse Prevention and Consumer 
        Protection Act.
  --Opportunities to increase revenues or stop wasteful spending 
        including reducing potential overstatements of charitable 
        deductions and curbing potential overpayments and contractor 
        abuses in food assistance programs.
                 gao's fiscal year 2009 budget request
    Our fiscal year 2009 budget request seeks to better position us to 
maintain our high level of support for the Congress and better meet 
increasing requests for help. This request would help replenish our 
staffing levels at a time when almost 20 percent of all GAO staff will 
be eligible for retirement. Accordingly, our fiscal year 2009 budget 
request seeks funds to ensure that we have the increased staff capacity 
to effectively support the Congress's agenda, cover pay and 
uncontrollable inflationary cost increases, and undertake critical 
investments, such as technology improvement.
    GAO is requesting budget authority of $545.5 million to support a 
staff level of 3,251 FTEs needed to serve the Congress. This is a 
fiscally prudent request of 7.5 percent over our fiscal year 2008 
funding level, as illustrated in table 2. Our request includes about 
$538.1 million in direct appropriations and authority to use about $7.4 
million in offsetting collections. This request also reflects a 
reduction of about $6 million in nonrecurring fiscal year 2008 costs.

                             TABLE 2.--FISCAL YEAR 2009 SUMMARY OF REQUESTED CHANGES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Percentage
                         Budget category                               FTEs           Amount          change
----------------------------------------------------------------------------------------------------------------
Fiscal year 2008 base...........................................           3,100        $507,239  ..............
Subtotal--requested changes.....................................             151          38,288             7.5
                                                                 --------------------------------
Fiscal year 2009 budget authority...............................           3,251         545,527  ..............
----------------------------------------------------------------------------------------------------------------
Source: GAO.

    Our request includes funds needed to
  --increase our staffing level by less than 5 percent to help us 
        provide more timely responses to congressional requests for 
        studies;
  --enhance employee recruitment, retention, and development programs, 
        which increase our competitiveness for a talented workforce;
  --recognize dedicated contributions of our hardworking staff through 
        awards and recognition programs;
  --address critical human capital components, such as knowledge 
        capacity building, succession planning, and staff skills and 
        competencies;
  --pursue critical structural and infrastructure maintenance and 
        improvements;
  --restore program funding levels to regain our lost purchasing power; 
        and
  --undertake critical initiatives to increase our productivity.
    Key elements of our proposed budget increase are outlined as 
follows:
Pay and inflationary cost increases
    We are requesting funds to cover anticipated pay and inflationary 
cost increases resulting primarily from annual across-the-board and 
performance-based increases and annualization of prior fiscal year 
costs. These costs also include uncontrollable, inflationary increases 
imposed by vendors as the cost of doing business.
Rebuilding capacity
    GAO generally loses about 10 percent of its workforce annually to 
retirements and attrition. This annual loss places GAO under continual 
pressure to replace staff capacity and renew institutional memory. In 
fiscal year 2007, we were able to replace only about half of our staff 
loss. In fiscal year 2008, we plan to replace only staff departures. 
Our proposed fiscal year 2009 staffing level of 3,251 FTEs would 
restore our staff capacity through a modest FTE increase, which would 
allow us to initiate congressional requests in a timelier manner and 
begin reducing the backlog of pending requests.
Critical technology and infrastructure improvements
    We are requesting funds to undertake critical investments that 
would allow us to implement technology improvements, as well as 
streamline and re-engineer work processes to enhance the productivity 
and effectiveness of our staff, make essential investments that have 
been deferred year after year but cannot continue to be delayed, and 
implement responses to changing Federal conditions.
Human capital initiatives and additional legislative authorities
    GAO is working with the appropriate authorization and oversight 
committees to make reforms that are designed to benefit our employees 
and to provide a means to continue to attract, retain, and reward a 
top-flight workforce, as well as help us improve our operations and 
increase administrative efficiencies. Among the requested provisions, 
GAO supports the adoption of a ``floor guarantee'' for future annual 
pay adjustments similar to the agreement governing 2008 payment 
adjustments reached with the GAO Employees Organization, IFPTE. The 
floor guarantee reasonably balances our commitment to performance-based 
pay with an appropriate degree of predictability and equity for all GAO 
employees.
    At the invitation of the House Federal workforce subcommittee, we 
also have engaged in fruitful discussions about a reasonable and 
practical approach should the Congress decide to include a legislative 
provision to compensate GAO employees who did not receive the full base 
pay increases of 2.6 percent in 2006 and 2.4 percent in 2007. We 
appreciate their willingness to provide us with the necessary legal 
authorities to address this issue and look forward to working together 
with you and our oversight committee to obtain necessary funding to 
cover these payments. The budget authority to cover the future impact 
of these payments is not reflected in this budget request.
     establishing and maintaining constructive union relationships
    As you know, on September 19, 2007, our Band I and Band II 
Analysts, Auditors, Specialists, and Investigators voted to be 
represented by the GAO Employees Organization, IFPTE, for the purpose 
of bargaining with GAO management on various terms and conditions of 
employment. GAO management is committed to working constructively with 
employee union representatives to forge a positive labor-management 
relationship.
    Since September, GAO management has taken a variety of steps to 
ensure it is following applicable labor relations laws and has the 
resources in place to work effectively and productively in this new 
union environment. Our efforts have involved
  --delivering specialized labor-management relations training to our 
        managers;
  --establishing a new Workforce Relations Center to provide employee 
        and labor relations advice and services;
  --hiring a Workforce Relations Center director, who also serves as 
        our chief negotiator in collective bargaining deliberations; 
        and
  --postponing work on several initiatives regarding our current 
        performance and pay programs.
    In addition, we routinely notify union representatives of meetings 
that may qualify as formal discussions, so that a representative of the 
IFPTE can attend the meeting. We also regularly provide the IFPTE with 
information about projects involving changes to terms and conditions of 
employment over which the union has the right to bargain.
    We are pleased that GAO and the IFPTE reached a prompt agreement on 
2008 pay adjustments. The agreement was overwhelmingly ratified by 
bargaining unit members on February 14, 2008, and we have applied the 
agreed-upon approach to the 2008 adjustments to all GAO staff, with the 
exception of the SES and Senior Level staff, regardless of whether they 
are represented by the union.
                     fiscal year 2007 achievements
    In fiscal year 2007, we addressed many difficult issues confronting 
the Nation, including the conflict in Iraq, domestic disaster relief 
and recovery, national security, and criteria for assessing lead in 
drinking water. For example, GAO has continued its oversight on issues 
directly related to the Iraq war and reconstruction, issuing 20 
products in fiscal year 2007 alone--including 11 testimonies to 
congressional committees. These products covered timely issues such as 
the status of Iraqi Government actions, the accountability of U.S.-
funded equipment, and various contracting and security challenges. 
GAO's work spans the security, political, economic, and reconstruction 
prongs of the U.S. national strategy in Iraq.
    Highlights of the outcomes of GAO work are outlined below. See 
appendix II for a detailed summary of GAO's annual measures and 
targets. Additional information on our performance results can be found 
in Performance and Accountability Highlights fiscal year 2007 at 
www.gao.gov.
Financial benefits
    GAO's work in fiscal year 2007 generated $45.9 billion in financial 
benefits. These financial benefits, which resulted primarily from 
actions agencies and the Congress took in response to our 
recommendations, included about $21.1 billion resulting from changes to 
laws or regulations, $16.3 billion resulting from improvements to core 
business processes, and $8.5 billion resulting from agency actions 
based on our recommendations to improve public services.

  TABLE 3.--GAO'S SELECTED MAJOR FINANCIAL BENEFITS REPORTED IN FISCAL
                                YEAR 2007
                        [In billions of dollars]
------------------------------------------------------------------------
                         Description                            Benefit
------------------------------------------------------------------------
Helped to ensure funding for U.S. Postal Service retirement-         5.4
 related health care.........................................
Improved the Internal Revenue Service's methodology for              4.2
 pursuing delinquent taxes...................................
Encouraged National Aeronautics and Space Administration             3.7
 decision to terminate the space launch initiative...........
Helped to reduce food stamp fraud and abuse..................        3.4
Recommended that the Department of Housing and Urban                 2.2
 Development track and reallocate unspent housing funds......
Helped to increase collections of civil debt.................        1.7
Recommended that the Congress reduce the Department of               1.5
 Defense (DOD) fiscal year 2007 operations and maintenance
 budget......................................................
Identified an opportunity for DOD to reallocate funds to             1.2
 cover new initiatives.......................................
------------------------------------------------------------------------
Source: GAO.

Other improvements in Government
    Many of the benefits that result from our work cannot be measured 
in dollar terms. During fiscal year 2007, we recorded a total of 1,354 
other improvements in Government resulting from GAO work. For example, 
in 646 instances Federal agencies improved services to the public, in 
634 other cases agencies improved core business processes or 
governmentwide reforms were advanced, and in 74 instances information 
we provided to the Congress resulted in statutory or regulatory 
changes. These actions spanned the full spectrum of national issues, 
from strengthened screening procedures for all VA health care 
practitioners to improved information security at the Securities and 
Exchange Commission. See table 4 for additional examples.

    ----------------------------------------------------------------

 Table 4.--GAO's Selected Other Improvements in Government Reported in 
                            Fiscal Year 2007
 . . . that helped to change laws
    Department of Homeland Security Appropriations Act of 2007, Pub. L. 
No. 109-295.
  --developing a center to locate children after disasters.
  --improving Federal Emergency Management Agency (FEMA) information on 
        the status of hurricane relief and recovery funds.
    Implementing Recommendations of the 9/11 Commission Act of 2007, 
Pub. L. No. 110-53.
  --re-examining inspection exemptions for inbound cargo.
  --re-examining inspection exemptions for domestic air cargo.
 . . . that helped enhance services to the public
  --strengthened screening procedures for all VA health care 
        practitioners.
  --tightened monitoring criteria in the Environmental Protection 
        Agency's rule on lead in drinking water.
  --encouraged reporting of nursing home fire safety deficiencies.
  --improved information security at the Securities and Exchange 
        Commission.
 . . . that helped to promote sound agency and governmentwide 
        management
  --FEMA establishes control to help limit disaster assistance payments 
        to individuals with invalid Social Security numbers.
  --NASA establishes policies for reimbursement by nonofficial 
        travelers on passenger aircraft.
  --Army requires credit card vendors to conduct credit checks before 
        issuing individually billed travel cards.

    Source: GAO.

    ----------------------------------------------------------------

High risk series
    In January 2007, we also issued our High-Risk Series: An Update, 
which identifies Federal areas and programs at risk of fraud, waste, 
abuse, and mismanagement and those in need of broad-based 
transformations. Issued to coincide with the start of each new 
Congress, our high-risk list focuses on major Government programs and 
operations that need urgent attention. Overall, this program has served 
to help resolve a range of serious weaknesses that involve substantial 
resources and provide critical services to the public. GAO added the 
2010 Census as a high-risk area in March 2008.

            TABLE 5.--GAO'S HIGH-RISK AREAS AS OF MARCH 2008
------------------------------------------------------------------------
                                                               Year
                     High-risk area                         designated
                                                             high risk
------------------------------------------------------------------------
Addressing challenges in broad-based transformations:
    Strategic Human Capital Management \1\..............            2001
    Managing Federal Real Property \1\..................            2003
    Protecting the Federal Government's Information                 1997
     Systems and the Nation's Critical Infrastructures..
    Implementing and Transforming the Department of                 2003
     Homeland Security..................................
    Establishing Appropriate and Effective Information-             2005
     Sharing Mechanisms to Improve Homeland Security....
    DOD Approach to Business Transformation \1\.........            2005
        DOD Business Systems Modernization..............            1995
        DOD Personnel Security Clearance Program........            2005
        DOD Support Infrastructure Management...........            1997
        DOD Financial Management........................            1995
        DOD Supply Chain Management.....................            1990
        DOD Weapon Systems Acquisition..................            1990
    FAA Air Traffic Control Modernization...............            1995
    Financing the Nation's Transportation System \1\....            2007
    Effective Protection of Technologies Critical to                2007
     U.S. National Security Interests \1\...............
    Transforming Federal Oversight of Food Safety \1\...            2007
    The 2010 Census (New)...............................            2008
Managing Federal contracting more effectively:
    DOD Contract Management.............................            1992
    DOE Contract Management.............................            1990
    NASA Contract Management............................            1990
    Management of Interagency Contracting...............            2005
Assessing the efficiency and effectiveness of tax law
 administration:
    Enforcement of Tax Laws \1\.........................            1990
    IRS Business Systems Modernization..................            1995
Modernizing and safeguarding insurance and benefit
 programs:
    Modernizing Federal Disability Programs \1\.........            2003
    Pension Benefit Guaranty Corporation Single-Employer            2003
     Insurance Program..................................
    Medicare Program \1\................................            1990
    Medicaid Program \1\................................            2003
National Flood Insurance Program \1\                                2006
------------------------------------------------------------------------
\1\ Legislation is likely to be necessary, as a supplement to actions by
  the executive branch, to effectively address this high-risk area.Source: GAO.

                           concluding remarks
    GAO's achievements are of great service to the Congress and 
American taxpayers. With your support, we will be able to continue to 
provide the high level of performance that has come to be expected of 
GAO.
               appendix i: gao's strategic plan framework

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     appendix ii: agencywide summary of annual measures and targets

                                AGENCYWIDE SUMMARY OF ANNUAL MEASURES AND TARGETS
----------------------------------------------------------------------------------------------------------------
                                                        2004      2005      2006      2007      2008      2009
                 Performance measure                   actual    actual    actual    actual    target    target
----------------------------------------------------------------------------------------------------------------
Results:
    Financial benefits (dollars in billions)........     $44.0     $39.6     $51.0     $45.9     $40.0     $40.0
    Nonfinancial benefits...........................     1,197     1,409     1,342     1,354     1,150     1,150
    Past recommendations implemented (in per-  cent)        83        85        82        82        80        80
    New products with recommendations (in per-              63        63        65        66        60        60
     cent)..........................................
Client:
    Testimonies.....................................       217       179       240       276       220       200
    Timeliness (in percent) \2\.....................        89        90        92        94        95        95
People:
    New hire rate (in percent)......................        98        94        94        96        95        95
    Acceptance rate (in percent)....................        72        71        70        72        72   ( \3\ )
Retention rate:
    With retirements (in percent)...................        90        90        90        90        90        90
    Without retirements (in percent)................        95        94        94        94        94        94
    Staff development (in percent)..................        70        72        76        76        76        76
    Staff utilization (in percent) \4\..............        72        75        75        73    \5\ 75        75
    Leadership (in percent).........................        79        80        79        79        80        80
    Organizational climate (in percent).............        74        76        73        74    \6\ 75        75
Internal operations:
    Help get job done...............................      4.01      4.10      4.10      4.05      4.00       4.0
    Quality of work life............................      3.96      3.98      4.00      3.98      4.00       4.0
----------------------------------------------------------------------------------------------------------------
\1\ Our fiscal year 2008 target for financial benefits differs from the target we reported for this measure in
  our fiscal year 2008 performance budget in January 2007. Specifically, we decreased our financial benefits
  target by $1.5 billon based on (1) our assessment of our past recommendations that are likely to be
  implemented by Federal agencies and the Congress in the coming fiscal year and (2) the impact that our budget
  could have on the work that leads to financial benefits.
\2\ Since fiscal year 2004 we have collected data from our client feedback survey on the quality and timeliness
  of our products, and in fiscal year 2006 we began to use the independent feedback from this survey as a basis
  for determining our timeliness.
\3\ N/A indicates that the data are not available yet or are not applicable because we did not collect the data
  during this period.
\4\ Our employee feedback survey asks staff how often the following occurred in the last 12 months (1) my job
  made good use of my skills, (2) GAO provided me with opportunities to do challenging work, and (3) in general,
  I was utilized effectively.
\5\ Our fiscal year 2008 target for staff utilization differs from the target we reported for this measure in
  our fiscal year 2008 performance budget in January 2007. We lowered the staff utilization target by 3
  percentage points because we determined that based on our past performance, the target was unrealistic, and we
  reset it at a level that is still challenging but more likely to be achieved.
\6\ Our fiscal year 2008 target for organizational climate differs from the target we reported for this measure
  in our fiscal year 2008 performance budget in January 2007. We decreased the organizational climate target by
  a percentage point because we determined that based on our past performance, the target was unrealistic, and
  we reset it at a level that is still challenging but more likely to be achieved.Source: GAO.

                                 ______
                                 
                       GOVERNMENT PRINTING OFFICE
        Prepared Statement of Robert C. Tapella, Public Printer
    Madam Chair, Senator Alexander, and members of the Subcommittee on 
Legislative Branch Appropriations: It is an honor to be here today to 
present the appropriations request of the Government Printing Office 
(GPO) for fiscal year 2009.
                      results of fiscal year 2007
    For the past 5 years we have worked to transform GPO from a 
traditional printing factory into a state-of-the-art digital business 
that is dedicated to meeting the 21st century information product needs 
of the Government and the public. The record of 2007 shows that with 
the plan we developed, and with the hard work and support of our 
talented employees, GPO was put on the path to increase access by the 
American people to digital and other information products of the 
Federal Government, and to unlock our potential for the future.
    With the print marketplace shifting from analog to digital 
technologies, GPO's customers in Congress, Federal agencies, and among 
the public require dynamic and creative solutions to meet their 
changing needs. In 2007, we achieved major milestones in customer 
service and product development for the Federal marketplace in printing 
and information management.
    We responded to the Nation's explosive demand for the new e-
passport by more than doubling previous production. We implemented a 
new, flexible program for meeting the document needs of Federal 
agencies through a well recognized national vendor. We developed an 
information rich online guide to House and Senate Members for Congress. 
We readied our new digital platform, GPO's Federal Digital System 
(FDsys), which will be a digital repository for all Federal documents, 
for its first public release in 2008.
    We have carried our innovative performance into fiscal year 2008. 
This year, for the first time in history, the President transmitted his 
Budget of the United States Government to Congress electronically. GPO 
assisted OMB by provided authentication for the Budget via digital 
signature. This authentication verifies to anyone who downloads the e-
Budget that the content is official and unaltered. GPO's authentication 
capability ushers in a new era for Federal publications, in terms both 
of digital capability as well as a capability to promote environmental 
sustainability in the Government's publishing and information 
dissemination activities.
    These innovative contributions to the Government's information 
toolkit are emblematic of today's GPO: a modern, efficient, and 
effective partner in providing a broad range of products beyond 
printing, the theme of our recently released Annual Report. They and 
other services like them are just some of the examples of how GPO will 
fulfill its mission to Keep America Informed in the digital age.
    Our original objective in transforming GPO was to ensure that it 
survives. We achieved that goal and more, and now GPO is beginning to 
thrive. In 2007 I am pleased to report that we recorded net income for 
the fourth consecutive year, including another positive adjustment to 
long-term workers' compensation liability.
    We increased overall revenues to levels that have not been 
experienced at GPO for more than a decade, principally as the result of 
e-passport work produced through our security and intelligent documents 
business unit as well as other inplant operations. Efforts to economize 
and increase efficiency also contributed measurably to our financial 
results. We are grateful to the support provided to our appropriations 
request for fiscal year 2008 by this subcommittee and its staff.
    Of the total funding increase requested by GPO for fiscal year 
2009, approximately $21.2 million, or 43 percent, is directly related 
to the establishment and operation of FDsys, which is being designed to 
ingest, organize, manage, and output authenticated, official Federal 
information content for any use or purpose. The funding package for 
FDsys that we are proposing for fiscal year 2009 includes $15.5 million 
for GPO's revolving fund to complete the initial release of FDsys and 
continue development of system enhancements; begin replacing GPO's 
aging Microcomp automated composition system with modern technology to 
be used for accepting information to FDsys; and replace GPO's dated 
Production Estimating and Planning (PEPS) system with a modern 
manufacturing workflow system, to be used to track and manage workflow 
through FDsys. It also includes $5.7 million for GPO's Salaries and 
Expenses Appropriation to digitize the legacy FDLP collection and 
acquire expanded Web harvesting services, both of which will provide 
information for ingest to FDsys. When implemented, these systems will 
be coordinated with GPO's Oracle-based financial systems, resulting in 
a seamless digital platform for the provision of GPO products and 
services for years to come.
                fiscal year 2009 appropriations request
    For fiscal year 2009, we are requesting a total of $174,354,000, to 
enable us to:
  --meet projected requirements for GPO's congressional printing and 
        binding and information dissemination operations during fiscal 
        year 2009;
  --recover the shortfall in the Congressional Printing and Binding 
        Appropriation accumulated in fiscal year 2007 and projected for 
        fiscal year 2008;
  --provide investment funds for necessary information dissemination 
        projects in the Federal Depository Library Program;
  --complete the initial release of FDsys and continue development of 
        system enhancements, and implement other improvements to GPO's 
        information technology infrastructure; and
  --perform essential maintenance and repairs to our aging buildings.
    Congressional Printing and Binding Appropriation.--This account 
covers the cost of printing and other information services supporting 
the legislative process in the House of Representatives and the Senate. 
These services include production--in both print and online formats--of 
the daily and permanent Congressional Record, bills, resolutions, and 
amendments, hearings, committee prints and documents, miscellaneous 
printing and binding including stationery and document franks, and 
related products, as authorized by the public printing provisions of 
Title 44, U.S. Code.
    We are requesting $97,928,000 for this account, representing an 
increase of $8,153,000 over the level provided for fiscal year 2008. 
The increase represents the shortfall in this appropriation accumulated 
in fiscal year 2007 and projected for fiscal year 2008, offset in part 
by reductions in various congressional printing workload categories 
that are anticipated based on historical projections for a first 
session year following a Presidential election.
    The Congressional Printing and Binding Appropriation is essentially 
an estimate of the work that Congress will require to support its 
operations in a given fiscal year. A shortfall in this appropriation 
occurs when available funding is insufficient to fully cover the costs 
of congressional work. GPO does not have the authority to refuse to 
perform work that is required by Congress in the absence of funds. 
Instead, GPO will produce the work and temporarily finance it with 
available funds in our revolving fund. GPO then seeks to have Congress 
pay back the shortfall in subsequent appropriations, in order to 
restore funds that are meant to be used for investment in new equipment 
and technology.
    During fiscal year 2008, GPO reduced key congressional rates based 
on redistributing overhead costs, which was made possible by financial 
performance in other business units. The resulting costs reduced the 
shortfall accumulated in fiscal year 2007 and projected for fiscal year 
2008 from $17.2 million to approximately $9.3 million. The remaining 
shortfall will be partially offset by anticipated reductions in a 
number of congressional workload categories, principally the U.S. Code, 
hearings, the Congressional Record, and business and committee 
calendars. The increase we are requesting represents the amount that is 
required to be restored to GPO's revolving fund.
    Under our appropriations bill language, GPO has the authority--with 
the approval of the Committees on Appropriations--to transfer forward 
the unexpended balances of prior year appropriations. We appreciate the 
support you have shown GPO this year by authorizing the transfer of 
approximately $1.1 million in prior year balances from fiscal year 2004 
and 2005 to the revolving fund. These funds could be used to offset 
part of the shortfall.

                   CONGRESSIONAL PRINTING AND BINDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2008 approved...............................            89.8
Fiscal year 2009 request................................            97.9
                                                         ---------------
      Change \1\........................................            8.1
------------------------------------------------------------------------
\1\ Change includes: Repaying the shortfall sustained in fiscal year
  2007 and projected for fiscal year 2008.

    Salaries and Expenses Appropriation of the Superintendent of 
Documents.--The largest single component of this appropriation is for 
the Federal Depository Library Program (FDLP), under which publications 
in print and electronic formats are made available to approximately 
1,250 libraries nationwide for the free use of the public. This account 
also provides for the cataloging and indexing of Government 
publications as well as the distribution of Government publications to 
international exchange libraries and other recipients as authorized by 
the documents provisions of Title 44, U.S. Code.
    We are requesting $43,426,000 for this account, representing an 
increase of $8.5 million over the current level of funding. The 
increase is required to cover mandatory pay and price level increases 
as well as overhead distribution, and to continue improving public 
access to Government information in electronic formats. Of the total 
increase, $917,000 is for mandatory pay and price level changes, and 
$1,164,000 is for the level of overhead required to be distributed to 
Salaries and Expenses programs. The balance of $6,432,000 is for 
program investments.
    As GPO continues to perform information dissemination through the 
FDLP on a predominately electronic basis, which was mandated in the 
conference report accompanying the Legislative Branch Appropriations 
Act for FY 1996, we need to invest in technology infrastructure and 
supporting systems. Our requested increase will cover projects for FDLP 
program outreach, additional data storage, modernization of item 
selection systems and other mainframe-based applications, and the 
initial costs for digitizing the FDLP legacy collection, a key 
component of GPO's strategic vision and FDsys.

                          SALARIES AND EXPENSES
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2008 approved...............................            34.9
Fiscal year 2009 requested..............................            43.4
                                                         ---------------
      Change............................................             8.5
                                                         ===============
Change includes:
    Mandatory requirements..............................             2.1
    Investment requirements.............................             6.4
------------------------------------------------------------------------

    Revolving Fund.--We are requesting $33,000,000 for this account, to 
remain available until expended, to fund essential investments in 
information technology infrastructure and systems development, and 
facilities maintenance and repairs.
    The key projects covered by this request include $10,000,000 to 
complete the development of FDsys, which is scheduled to go live later 
this year; $5,500,000 to cover the replacement of GPO's 30-year-old 
automated composition system and upgrade GPO's manufacturing workflow 
tracking system; and $17,500,000 for maintenance and repairs to GPO's 
buildings, including elevator replacement and renovation, window 
replacement, retrofitting our air handling units with more efficient 
equipment, replacing the roof membrane and insulation, and related 
projects. These facilities projects will protect our employees and 
improve the energy efficiency of GPO's buildings. At the same time, we 
are continuing to review options for the future of GPO's buildings, 
including renovation and/or construction of new facilities on GPO-owned 
property.

                             REVOLVING FUND
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2008 approved...............................  ..............
Fiscal year 2009 requested..............................            33.0
                                                         ---------------
      Change............................................            33.0
                                                         ===============
Change includes:
    Investments in information technology infrastructure            15.5
     and systems development............................
    Building maintenance and repairs....................            17.5
------------------------------------------------------------------------

    Madam Chair, Senator Alexander, and members of the subcommittee, we 
look forward to working with you, and with your support we can continue 
GPO's record of achievement. To assist you in your review of our 
request, I am including with my prepared statement several charts 
illustrating how GPO's use of technology has generated savings in 
congressional printing costs and distribution costs, how a significant 
part of our request this year is to support our FDsys project, and 
showing how the close relationship of GPO to congressional printing in 
the process of how a bill becomes a law.
                   gpo generates savings for congress
    GPO's use of electronic printing and information technologies has 
significantly reduced the cost, in real economic terms, of 
congressional publications. In fiscal year 1975, on the threshold of 
our conversion to electronic photocomposition, the appropriation for 
Congressional Printing and Binding was $74.8 million, the equivalent in 
today's dollars of $290 million. By comparison, GPO's approved funding 
for fiscal year 2008 is $89.8 million, a reduction of more than 70 
percent in real economic terms. This has resulted in taxpayer savings 
of hundreds of millions of dollars. The savings have come from 
productivity improvements and staffing reductions made possible through 
the use of modern information technology.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Productivity increases resulting from the use of electronic 
printing and information technologies have enabled GPO to make 
substantial reductions in staffing requirements while continuing to 
improve services for Congress. In the mid-1970's, GPO employment was 
approximately 8,200. Today, GPO has approximately 2,300 employees on 
board, fewer than at any time in the past century. In the past 4 years 
alone GPO's staffing has been reduced by 28 percent. Personnel 
reductions at GPO have been accomplished while modernizing and 
improving GPO services.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           gpo achieves savings in information dissemination
    GPO once distributed Government documents to Federal depository 
libraries primarily in print and related formats, including microfiche 
and CD-ROM. In fiscal year 1995, the year that GPO Access debuted, this 
activity was funded at an annual cost of $18.7 million, the equivalent 
of $25.8 million in constant 2007 dollars. For fiscal year 2009, the 
same function can be funded at $8.7 million, a reduction of 
approximately two-thirds in real economic terms. GPO used the savings 
from reduced printing distribution to fund the establishment and 
operation of GPO Access, achieving additional savings for the taxpayers 
and vastly expanding public access to Government information. This 
achievement also allowed the Salaries and Expenses Appropriation to 
remain relatively flat for more than a decade. GPO's plan to establish 
and operate a modern, state-of-the-art digital platform in FDsys will 
potentially achieve further savings and even broader public access to 
Government information.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Of the total funding increase requested by GPO for fiscal year 
2009, approximately $21.2 million, or 43 percent, is directly related 
to the establishment and operation of FDsys, which is being designed to 
accept, organize, manage, and output authenticated, official Federal 
information content for any use or purpose. The funding package for 
FDsys that we are proposing for fiscal year 2009 includes $15.5 million 
for GPO's revolving fund to complete the initial release of FDsys and 
continue development of system enhancements; begin replacing GPO's 
aging Microcomp automated composition system with a modern technology 
to be used for accepting information to FDsys; and replace GPO's dated 
Production Estimating and Planning (PEPS) system with a modern 
manufacturing workflow system, to be used to track and manage workflow 
through FDsys. It also includes $5.7 million for GPO's Salaries and 
Expenses Appropriation to digitize the legacy FDLP collection and 
acquire expanded Web harvesting services, both of which will provide 
information for ingest to Fdsys. When implemented, these systems will 
be coordinated with GPO's Oracle-based financial systems, resulting in 
a seamless digital platform for the provision of GPO products and 
services for years to come.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          OFFICE OF COMPLIANCE

      Prepared Statement of Tamara E. Chrisler, Executive Director
    Madam Chair, Ranking Member Alexander, members of the committee, I 
am pleased to appear before you as the Executive Director of the Office 
of Compliance in support of the Office's fiscal year 2009 request for 
appropriations. Joining me today is Board Member Roberta Holzwarth. 
Along with us are General Counsel Peter Ames Eveleth, Deputy Executive 
Directors Barbara Sapin and Sana Shtasel, and Director of Finance and 
Administration Beth Hughes Brown.
    The subcommittee will note that the Office of Compliance submits, 
once again, a zero-based budget to support the agency's mission of 
furthering a safe, healthy, and fair workplace on Capitol Hill. This 
year's budget request is a minimal increase over our request for 
appropriations in fiscal year 2008. In fiscal year 2009, the Office is 
requesting a total of $4,307,500 for its operations, which is only a 
4.9 percent increase over the agency's 2008 budget request. Because of 
the across-the-board recissions and other cuts made to the agency's 
2008 appropriations, this year's request contains items that had been 
requested but not funded in fiscal years 2007 and 2008. It includes 
approximately $345,000 to fully fund the authorized level of FTE 
positions and concommitant salaries; approximately $134,000 for 
mandatory cost-of-living adjustments and employee salary increases; and 
$156,000 for initiatives that were originally requested in fiscal year 
2007 or fiscal year 2008. Setting aside these repeat requests, 
mandatory COLAs, and the cost of fully funding the agency's current 
staff complement of 21, the agency's request for new discretionary 
projects (less than $300,000) is extremely minimal but necessary to 
fulfill our mission.
    In fiscal year 2009, the Office of Compliance is expanding its 
effort to communicate and collaborate with its stakeholders. During the 
past fiscal years, we have achieved much success in our safety and 
health program through increased communication with the Office of the 
Architect of the Capitol in remediating hazards in the utility tunnels. 
We are realizing success in our education and outreach program through 
our publications and much utilized web site, as well as the 
implementation of a comprehensive baseline survey that will inform the 
Office's focus, to ensure that its programs are of maximum benefit to 
employing offices and employees on Capitol Hill and in the District and 
State Offices. In fiscal year 2009, the agency hopes to launch another 
significant initiative to improve its effectiveness and productivity on 
Capitol Hill--prevention and reduction.
                           prevent and reduce
    The Office plans to establish two new ``prevent and reduce'' 
initiatives in fiscal year 2009. The first initiative is anticipated to 
reduce the number of incidents giving rise to allegations of violations 
of the Congressional Accountability Act (CAA), which will ultimately 
save taxpayer dollars. As originally discussed in our House fiscal year 
2008 appropriations hearings, similar language to the Notification and 
Federal Employee Anti-discrimination and Retaliation Act was 
contemplated and drafted for the legislative branch. Toward the same 
end of resolving complaints at the lowest possible level and reducing 
the cost to taxpayers in discrimination and retaliation claims, we 
received encouragement from a very interested stakeholder to dedicate 
one or two FTEs toward educating the employing offices of their rights 
and responsibilities. The Office is delighted to request additional 
staffing to assist the agencies in preventing violations of the CAA, 
and encouraging resolution at the lowest possible level. The agency is 
requesting FTE positions for a trainer and an ombuds person for 
conflict prevention for this purpose.
    The agency also requests an additional FTE for a Fire Safety 
Engineer to prevent serious fire hazards and to reduce the number of 
unabated fire safety citations. During fiscal year 2007, the OGC closed 
11 of 38 outstanding citations. While progress has been achieved in 
abating these hazards, several longstanding RAC 1 fire safety citations 
remain unabated. In June 2007, the AOC provided the Office of 
Compliance with a detailed plan to abate these outstanding hazards. The 
AOC also identified specific actions taken to address many additional 
fire safety deficiencies during 2005 and 2006. The Office of 
Compliance's General Counsel expressed concern that under the AOC's 
proposed abatement plans the most serious hazards involving open 
stairwells would not be fully abated for an excessive period of time--
in one facility, not until 2015, while in other instances, abatement 
dates were as yet undetermined.
    Accordingly, we suggested alternative means for accelerated 
abatement. After extensive discussions between the parties, the AOC has 
recently developed, and the OOC has approved, innovative and more 
efficient abatement plans for the Cannon, Longworth, and Russell Office 
Buildings that resolve the fire safety hazards identified in the 2000 
citations involving these three buildings. It is significant that the 
AOC's abatement plans not only abate the fire safety issues in the 
citations but do so in a manner that preserves the historic 
architectural features within those buildings. The agency is committed 
to working with the AOC and other entities to achieve an acceptable 
level of fire safety within the other legislative branch buildings, and 
this requested FTE would support and over time play a leadership role 
in the Office's ongoing fire safety abatement initiative. This employee 
would be groomed to assist and succeed an existing contract inspector--
a nationally renowned fire safety expert--to allow for continuity in 
this critical area.
    The second initiative is designed to reduce legislative branch 
agencies' reliance on the OOC's safety and health inspections, and 
instead empower them to find and remediate their own internal 
deficiencies. It would fund contracted services for the agency's Zero 
Accident Initiative, which involves working with employing offices to 
implement preventive maintenance programs, and training supervisors and 
employees to follow safe practices. The Office would work with 
employing offices to analyze accident and injury records to help create 
policies to prevent future accidents. Together, the two initiatives 
amount to about half of the newly requested discretionary funding for 
fiscal year 2009, and both initiatives are designed to save taxpayer 
dollars.
                               conclusion
    The Office welcomes fiscal year 2009 with enthusiasm for the 
initiatives we hope to implement. Preventing violations of the CAA and 
reducing the number of hazards is the agency's focus for the upcoming 
year. The Office continues to see itself as a resource on Capitol Hill. 
Our appropriations request will enable us to continue the progression 
we have been on over the past several years from a strictly regulatory 
agency, to an enabling and supportive resource for legislative branch 
agencies. We are positioned to assist our stakeholders in meeting the 
requirements of the CAA, be it for safety and health matters, or for 
making the workplace fair for all employees. Thank you for your 
support, past and future, of our mission.
    I remain available to answer any questions that you have.
                                 ______
                                 
  Prepared Statement of Roberta Holzwarth, Member, Board of Directors
    Madam Chair and members of the subcommittee, good morning. I am 
Roberta Holzwarth, and I represent the Board of Directors of the Office 
of Compliance. I am honored to be here today to join Executive Director 
Tamara Chrisler in testifying on behalf of the Office's fiscal year 
2009 budget request.
    Thanks to the assistance of this subcommittee, the Office of 
Compliance has had an extraordinary year, culminating not only in the 
recent appointment of Tamara Chrisler as our Executive Director, but 
also in our two statutory Deputy Executive Directors and a Deputy 
General Counsel. Our new Deputy Executive Directors for the Senate and 
House, respectively, are Barbara Sapin and Sana Shtasel, who joined us 
on March 4 and February 11, respectively. Let me take this opportunity 
to thank the subcommittee for the recent administrative amendments to 
the Congressional Accountability Act that permitted us to retain and 
attract this caliber talent. I also want to thank publicly both Ms. 
Chrisler and our General Counsel Peter Eveleth for their graceful 
leadership during a time of challenge and transition.
    Ms. Sapin has recently concluded her term as a member of the Merit 
Systems Protection Board, where she adjudicated appeals of personnel 
actions in personnel cases affecting the Federal workforce. In 
addition, Ms. Sapin held positions at the National Labor Relations 
Board, the Occupational Safety and Health Review Commission, and the 
U.S. Environmental Protection Agency. Ms. Shtasel served as Chief of 
Staff to former U.S. Senator Bob Packwood, among her many previous 
accomplishments. She also litigated the constitutional predicate to the 
Congressional Accountability Act (Davis v. Passman, 442 U.S. 228 
(1979)).
    We also have a new Deputy General Counsel, Susan Green, who joined 
us in late November. Ms. Green, who has more than 20 years' experience 
in occupational safety and health, labor standards, and labor-
management issues, served as Chief Labor Counsel to Senator Edward M. 
Kennedy, and thereafter advised the Secretary of Labor on equal pay, 
pension, and other labor issues.
    The collective extraordinary credentials of our new staff testify 
to the growing stature, accomplishments, and effectiveness of the 
Office of Compliance, signaling only greater things in the year to 
come.
    As a result of this subcommittee's approval of our fiscal year 2008 
request, the Office of Compliance has added 4 new full-time equivalent 
positions to its former complement of 17; resolved long-standing, 
profound health and safety violations in the U.S. Capitol Power Plant; 
achieved enormous improvements in our internal office infrastructure; 
and moved closer to adopting and submitting for congressional 
promulgation regulations with enormous benefit to veterans and 
legislative branch employees who serve in the military.
    The Office has been fulfilling a prodigious mission with minimal 
resources, and we are anxious to be able to make use of the resources 
that we have already been authorized. As Ms. Chrisler has enumerated, 
the budget proposal in front of you is the bare minimum, permitting us 
to make use of the resources that have already been authorized, 
endeavor to fulfill our statutory mandates, and continue the many 
contributions I am convinced the Office of Compliance makes daily to 
the legislative branch.
    Our mission and our vision are vast, but our budget is small. The 
requested increase is extremely modest, in an effort both to respond to 
current fiscal realities and continue our proof positive that we make 
good with very little. Although we have a far longer ``wish list,'' 
consistent with our statutory mandates, this budget will permit us only 
to complete those projects and initiatives that rise to the most 
critical level, both from a safety and health perspective and in order 
to save taxpayer dollars.
    I would like to thank you, Madam Chair, as well as the 
subcommittee, for supporting the language in the House report that 
accompanied its version of the fiscal year 2008 Legislative Branch 
Appropriations bill, that directed that the Office of Compliance be 
enabled to use internal email lists to distribute our publications. We 
anticipate this will streamline our distribution processes, as well as 
result in cost savings over time.
    On behalf of the entire Board of Directors of the Office of 
Compliance, I urge your support of the entirety of the budget request.
    Thank you for the opportunity to appear before you today. The rest 
of the Board and I wholeheartedly support this budget request and hope 
you will respond to it favorably. I am available to address any 
questions.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alexander, Senator Lamar, U.S. Senator From Tennessee:
    Prepared Statement of........................................     4
    Statement of.................................................     3
Ayers, Stephen T., Acting Architect of the Capitol, Architect of 
  the Capitol....................................................     1
    Prepared Statement of........................................     7
    Questions Submitted to.......................................    52
    Summary Statement of.........................................     6

Billington, Dr. James, Librarian of Congress, Library of Congress    25
    Prepared Statement of........................................    27
    Questions Submitted to.......................................    57

Chrisler, Tamara E., Executive Director, Office of Compliance, 
  Prepared Statement of..........................................   182

Dodaro, Gene L., Acting Comptroller General of the United States, 
  Government Accountability Office, Prepared Statement of........   162

Erickson, Nancy, Secretary of the Senate, Office of the 
  Secretary, U.S. Senate, Prepared Statement of..................    79

Gainer, Honorable Terrance W., Sergeant at Arms and Doorkeeper, 
  U.S. Senate, Prepared Statement of the.........................   140

Holzwarth, Roberta, Member, Board of Directors, Office of 
  Compliance, Prepared Statement of..............................   183

Jarmon, Gloria, Chief Administrative Officer, United States 
  Capitol Police.................................................    15
Jenkins, Jo Ann, Chief Operating Officer, Library of Congress....    25

Landrieu, Senator Mary L., U.S. Senator From Louisiana:
    Opening Statement of.........................................     1
    Questions Submitted by.......................................52, 57

Morse, Phillip D., Sr., Chief of Police, United States Capitol 
  Police.........................................................    15
    Prepared Statement of........................................    17

Nichols, Dan, Assistant Chief of Police, United States Capitol 
  Police.........................................................    15

O'Keefe, Ambassador John, Executive Director, Open World 
  Leadership Center, Library of Congress, Prepared Statement of..    31

Tapella, Robert C., Public Printer, Government Printing Office, 
  Prepared Statement of..........................................   171


                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page

A Year of AOC Accomplishments....................................    11
Additional Committee Questions...................................    52
Annual Operating Budget Request..................................     9
Architect of the Capitol:
    Fiscal Year 2009 Budget Request..............................     2
    Team.........................................................     7
Capitol Visitor Center:
    Budget Request and Project Update............................    10
    Soft Opening--Traffic Congestion.............................    41
    Temporary Certificate of Occupancy...........................    52
    Visitor Approach.............................................    41
Capital Project Budget Request...................................     9
Deferred Maintenance Backlog.....................................     6
Greening of the Capitol..........................................    40
Library Partnership Appreciation.................................     3
Library of Congress Fiscal Year 2009 Budget Request..............     3
Noncompliance Enforcement Actions................................    40
Office of Compliance (OOC):
    Alternative Plans for Priority Projects......................    44
    History......................................................    43
    Occupational Safety and Health Administration Obligations....    39
    Project Enforcement..........................................    42
Operating Budget Request.........................................     6
Project Priority Defined.........................................    41
United States Capital Police Fiscal Year 2009 Budget Request.....     2
Utility Tunnels:
    Number One Priority..........................................    39
    Rebuild......................................................    44
    Structural Problems..........................................     4

                    GOVERNMENT ACCOUNTABILITY OFFICE

Demand for GAO Services is High and Increasing...................   163
Establishing and Maintaining Constructive Union Relationships....   166
Fiscal Year 2007 Achievements....................................   166
GAO's Fiscal Year 2009 Budget Request............................   165
Modest Increase in Staffing Would Help Meet Demand...............   164

                       GOVERNMENT PRINTING OFFICE

Fiscal Year 2009 Appropriations Request..........................   172
GPO:
    Achieves Savings in Information Dissemination................   176
    Generates Savings for Congress...............................   174
Results of Fiscal Year 2007......................................   171

                          LIBRARY OF CONGRESS

Absorbing Mandated Costs.........................................    51
Additional Committee Questions...................................    52
Austerity Affects Library Mission................................    26
Books for the Blind and Physically Handicapped Digital Talking 
  Book Program...................................................    28
Content..........................................................    65
Calendar Year 2007 Highlights....................................    32
Cataloging Productivity..........................................    70
Collecting and Preserving Digital Content........................25, 63
Collections Storage..............................................    72
Congressional Research Service (CRS).............................    30
Contracts Management.............................................    61
Copyright........................................................    30
Digital:
    Content......................................................    74
    Talking Book Implementation..................................    49
Fiscal Year:
    2008.........................................................    63
    2009:
        Budget Request...........................................    37
        To Fiscal Year 2013......................................    65
Fund Level Concerns..............................................    46
Future Projects and Resource Needs...............................    31
Goals............................................................    35
Growing Collections and Storage Requirements.....................    50
Law Library......................................................    30
Library Services.................................................    29
LOC:
    Appreciation.................................................    45
    Contractor Employees.........................................    70
    New Exhibits.................................................     4
Maintenance and Staffing of Packard Campus.......................    46
Measures of Success..............................................    37
Network..........................................................    67
National Digital Information and Infrastructure Preservation 
  Program (NDIIPP)...........................................28, 62, 63
    Making the Transition to Sustainable Stewardship.............    63
New Visitors Experience..........................................    26
Open World 2008..................................................    36
Overseas Field Offices...........................................    69
Performance-based Budgeting......................................    61
Reading Rooms....................................................    71
Staffing Levels..................................................    59
Storage Capacity Rating..........................................    50
Strategic Information Reserve....................................    27
Technical Infrastructure.........................................    68
Transition to Digital Talking Books..............................    51
Fiscal Year 2009 Budget Request..................................    57

                          OFFICE OF COMPLIANCE

Prevent and Reduce...............................................   182

                      UNITED STATES CAPITOL POLICE

Accommodating CVC Visitors.......................................    48
Additional Committee Questions...................................    52
CVC Security--Transportation.....................................    47
Communication Issue..............................................    48
Employee Commitment and Homework.................................    16
Government Accountability Office Recommendations.................    16
Large Vehicle Restrictions.......................................    47
Overtime:
    Analysis Study...............................................    45
    For Capitol Police...........................................    42
    Reduction....................................................    43
Process of Change................................................    15
Recent Accomplishments...........................................    15
Subcommittee Support.............................................    15
Transportation Options...........................................    48
United States Capitol Police Overtime............................    44

                              U.S. SENATE

                        Office of the Secretary

Administrative Offices...........................................   103
Bill Clerk.......................................................    81
Capitol Visitor Center...........................................    81
Conservation and Preservation....................................   103
Continuity of Operations and Emergency Preparedness Planning.....    81
Curator..........................................................   104
Disbursing Office................................................    90
Enrolling Clerk..................................................    87
Executive Clerk..................................................    87
Human Resources..................................................   118
Implementing Mandated Systems....................................    80
Information Systems..............................................   119
Interparliamentary Services......................................   120
Joint Office of Education and Training...........................   110
Journal Clerk....................................................    88
Legislative Information System (LIS) Project.....................   138
Legislative Offices..............................................    81
Library..........................................................   121
Office of Captioning Services....................................    82
Office of Public Records.........................................   131
Office of Web Technology.........................................   135
Official Reporters of Debates....................................    88
Parliamentarian..................................................    89
Presenting the Fiscal Year 2009 Budget Request...................    79
Printing and Document Services...................................   129
Senate:
    Chief Counsel for Employment.................................   111
    Daily Digest.................................................    83
    Gift Shop....................................................   112
    Historical Office............................................   115
    Page School..................................................   128
    Security.....................................................   132
Stationery Room..................................................   133

                    Sergeant at Arms and Doorkeeper

Enhancing Service to the Senate..................................   149
Information Technology...........................................   147
Operations and Support...........................................   155
Security and Preparedness........................................   141

                                   - 

</pre></body></html>
